No. 20- _______

In the Supreme Court of the United States
__________

GLOUCESTER COUNTY SCHOOL BOARD, PETITIONER,
v.
GAVIN GRIMM
__________
On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Fourth Circuit
__________
PETITION FOR A WRIT OF CERTIORARI
__________
DAVID P. CORRIGAN
JEREMY D. CAPPS
M. SCOTT FISHER JR.
HARMAN, CLAYTOR,
CORRIGAN & WELLMAN
Post Office Box 70280
Richmond, VA 23225
(804) 747-5200

GENE C. SCHAERR
Counsel of Record
ERIK S. JAFFE
HANNAH SMITH
JOSHUA J. PRINCE
SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
gschaerr@schaerr-jaffe.com

Counsel for Petitioner

QUESTION PRESENTED
Although Title IX prohibits schools from
discriminating “on the basis of sex,” 20 U.S.C.
§1681(a), it expressly permits them to provide
separate living facilities, including restrooms, for the
different sexes. 20 U.S.C. §1686; 34 C.F.R. §106.33.
This protracted case began when Gavin Grimm, a
biological female who self-identifies as male,
challenged the local school board’s decision to require
him to use either a unisex restroom or a restroom
assigned to members of his biological sex, i.e., girls.
Four years ago, this Court granted certiorari in
this case after the Fourth Circuit deferred to an
unpublished letter from the Department of Education,
asserting that Title IX requires schools to treat
students consistent with their gender identities rather
than their biological sex. After a new Administration
withdrew that letter, the Court vacated and
remanded. The district court and the Fourth Circuit
then held that both Title IX and the Fourteenth
Amendment’s Equal Protection Clause forbid schools
from denying transgender students access to the
restrooms assigned to the opposite biological sex.
Following yet another election, the current
Administration has announced it intends to enforce
that position nationwide.
The question presented is:
Does Title IX or the Equal Protection Clause
require schools to let transgender students use multiuser restrooms designated for the opposite biological
sex, even when single-user restrooms are available for
all students regardless of gender identity?

ii
PARTIES TO THE PROCEEDING
Petitioner Gloucester County School Board was
Defendant-Appellant in the court of appeals in No. 191952.
Respondent Gavin Grimm was Plaintiff-Appellee
in the court of appeals in No. 19-1952.

iii
TABLE OF CONTENTS
QUESTION PRESENTED ........................................... i
PARTIES TO THE PROCEEDING ............................ii
TABLE OF AUTHORITIES ........................................ v
INTRODUCTION ........................................................ 1
OPINIONS BELOW .................................................... 2
JURISDICTION .......................................................... 2
STATUTORY AND CONSTITUTIONAL
PROVISIONS .............................................................. 3
STATEMENT .............................................................. 4
REASONS FOR GRANTING THE PETITION........ 14
I. The Title IX Issue Warrants Review. .................. 15
A. This Court has already recognized that the
Title IX issue warrants review. ...................... 15
B. The Fourth Circuit failed to properly apply the
plain meaning and history of Title IX and 34
C.F.R. §106.33. ................................................ 17
C. The rule adopted below affects millions of
students and thousands of schools throughout
the Nation. ...................................................... 23
II. The Equal-Protection Issue Warrants Review. .. 28
A. The Fourth Circuit’s analysis flouts this
Court’s precedents. ......................................... 28
B. The Fourth Circuit’s equal-protection ruling
has even more far-reaching consequences than
its Title IX ruling. ........................................... 34
III.This Case Remains An Excellent Vehicle. .......... 35

iv
CONCLUSION .......................................................... 37
APPENDICES
Fourth Circuit, No. 19-1952
Rehearing Denial (Sept. 22, 2020)...................... 1a
Fourth Circuit, No. 19-1952
Opinion (Aug. 26, 2020) .................................... 12a
Eastern District of Virginia, No. 4:15-cv-54
Order (Aug. 9, 2019) ........................................ 119a
Supreme Court of the United States, No. 16-273
Order (Mar. 6, 2017) ....................................... 156a
Fourth Circuit, No. 15-2056
Rehearing Denial (May 31, 2016) ................... 157a
Fourth Circuit, No. 15-2056
Opinion (April 19, 2016) .................................. 163a
Eastern District of Virginia, No. 4:15-cv-54
Memo. Opinion (Sept. 17, 2015) ...................... 227a
Table 1
Public-School Data ........................................... 262a

v
TABLE OF AUTHORITIES
Cases
Adams ex rel. Kasper v. Sch. Bd. of St. Johns County,
968 F.3d 1286 (11th Cir. 2020) ...................... passim
Beard v. Whitmore Lake Sch. Dist.,
402 F.3d 598 (6th Cir. 2005) .................................. 26
Bostock v. Clayton County,
140 S.Ct. 1731 (2020) ..................................... passim
Bowen v. Gilliard,
483 U.S. 587 (1987). ............................................... 31
Buckhannon Bd. and Care Home, Inc. v. West
Virginia Dept. of Health and Human Resources,
532 U.S. 598 (2001) ................................................ 35
City of Cleburne v. Cleburne Living Ctr.,
473 U.S. 432 (1985) .................................... 28, 30, 33
Cornfield by Lewis v. Consol. High Sch. Dist. No. 230,
991 F.2d 1316 (7th Cir. 1993) ................................ 26
Frontiero v. Richardson,
411 U.S. 677 (1973) ................................................ 29
Jackson v. Birmingham Bd. of Educ.,
544 U.S. 167 (2005) ................................................ 21
Michael M. v. Superior Ct. of Sonoma County,
450 U.S. 464(1981) ................................................. 29
Nordlinger v. Hahn,
505 U.S. 1 (1992) .................................................... 28
Parham v. Hughes,
441 U.S. 347 (1979). ............................................... 29

vi
Thomas ex rel. Thomas v. Roberts,
261 F.3d 1160 (11th Cir. 2001) .............................. 26
Thomas v. Roberts,
536 U.S. 953 (2002) ................................................ 26
Tuan Anh Nguyen v. I.N.S.,
533 U.S. 53 (2001) .................................................. 33
United States v. Virginia,
518 U.S. 515 (1996) ........................................ passim
Whitaker ex rel. Whitaker v. Kenosha Unified Sch.
Dist. No. 1 Bd. Of Educ.,
858 F.3d 1034 (7th Cir. 2017) ................................ 23
Statutes
20 U.S.C. §1681(a) ................................................... 3, 4
20 U.S.C. §1686 ................................................. passim
42 U.S.C. §1988(b) ................................................. 9, 36
42 U.S.C. §2000e-2(a) ................................................ 20
42 U.S.C. §2000e-2(e) ................................................ 21
Other Authorities
118 Cong. Rec. 5807 (1972) ......................................... 4
Am. Psychiatric Ass’n,
Diagnostic and Statistical Manual of Mental
Disorders (5th ed. 2013) ......................................... 18
Lila N. Carol et al., School Boards: Strengthening
Grass Roots Leadership (1986),
https://files.eric.ed.gov/fulltext/ED280182.pdf...... 24
Jacqueline P. Danzberger et al.,
School Boards: The Forgotten Players on the
Education Team, 69 Phi Delta Kappan 53 (1987).24

vii

Sabra L. Katz-Wise,
Gender fluidity: What it means and why support
matters, Harvard Health Blog (Dec. 3, 2020),
https://www.health.harvard.edu/blog/genderfluidity-what-it-means-and-why-support-matters2020120321544. ..................................................... 31
Deborah Land,
Local School Boards Under Review: Their Role and
Effectiveness in Relation to Students’ Academic
Achievement (2002),
https://files.eric.ed.gov/fulltext/ED462512.pdf...... 24
National Center for Transgender Equality,
Understanding Non-Binary People: How to Be
Respectful and Supportive (Oct. 5, 2018),
https://transequality.org/issues/resources/underst
anding-non-binary-people-how-to-be-respectfuland-supportive...................................................... 20
Supreme Court Rule 10(c) ......................................... 16
The White House,
Executive Order on Preventing and Combating
Discrimination on the Basis of Gender Identity or
Sexual Orientation (Jan 20, 2021),
https://www.whitehouse.gov/briefingroom/presidential-actions/2021/01/20/executiveorder-preventing-and-combating-discriminationon-basis-of-gender-identity-orsexual-orientation/ ................................................. 13
Regulations
34 C.F.R. §106.33............................................... passim

viii
Constitutional Provisions
U.S. Const. amend. XIV, §1............................... passim

INTRODUCTION
For school officials, as for parents, the question of
how best to respond to a teenager who identifies with
the opposite biological sex is often excruciatingly
difficult. On the one hand, the teenager deserves and
needs everyone’s compassion. On the other hand,
allowing the teenager to use multi-user restrooms,
locker rooms and shower facilities reserved for the
opposite sex raises what this Court has acknowledged
to be serious concerns about bodily privacy—for the
teenager and others.
Depending on their facilities and resources, some
school officials reasonably find ways to accommodate
the teenager’s desire to use facilities based on gender
identity rather than sex. Others, exercising their best
judgment as to the needs of all their students, lawfully
decide to reserve boy’s and girl’s facilities to the
respective biological sexes—often, as in this case,
providing additional options such as single-user
facilities available to all students.
Unfortunately, the Fourth Circuit—recently
joined by the incoming Administration—has
interpreted this Court’s decision in Bostock v. Clayton
County, 140 S.Ct. 1731 (2020), as imposing a one-sizefits-all solution to this vexing problem: According to
them, even schools that lack sufficient facilities or
resources to ensure the bodily privacy of all their
students are still required by Title IX and the
Fourteenth Amendment to allow biologically male
teenagers into multi-user girl’s restrooms, locker
rooms and showers, and vice versa. That means the
Board’s policy of separating existing multi-user

2
restrooms by physiological sex while also providing
single-user restrooms for all students is prohibited.
Neither Title IX nor the Equal Protection Clause
mandates such a sweeping rule, and only this Court
can reverse decisions adopting it in a growing number
of circuits, supported now by the incoming
Administration. This case also gives the Court an
ideal, timely vehicle with which to make that decision:
The Court has already granted review of the Title IX
issue in this very case before the prior Administration
reversed its predecessor’s erroneous interpretation of
that statute. Resolution of the Title IX issue—along
with the closely related Fourteenth Amendment
issue—has become even more pressing given the new
Administration’s insistence that Title IX must be
applied in a manner contrary to its express terms.
OPINIONS BELOW
This petition seeks review of the Fourth Circuit’s
recent decision in Grimm v. Gloucester County Sch.
Bd., 972 F.3d 586 (4th Cir. 2020). Pet.12a-80a. The
district court’s decision is reported at 400 F. Supp. 3d
444 (E.D. Va. 2019). Pet.119a-155a.
JURISDICTION
The Fourth Circuit denied the Board’s petition for
rehearing en banc on September 22, 2020. Pet.4a. The
Board timely filed this petition for a writ of certiorari
on February 19, 2021. See 28 U.S.C. §2101(c). This
Court has jurisdiction under 28 U.S.C. §1254(1).

3
STATUTORY AND
CONSTITUTIONAL PROVISIONS
Section 901 of Title IX of the Education
Amendments of 1972, 20 U.S.C. §1681(a), provides in
part:
No person in the United States shall, on the
basis of sex, be excluded from participation
in, be denied the benefits of, or be subjected
to discrimination under any education
program or activity receiving Federal
financial assistance[.]
Section 907 of Title IX, 20 U.S.C. §1686, provides:
Notwithstanding anything to the contrary
contained in this chapter, nothing contained
herein shall be construed to prohibit any
educational institution receiving funds
under this Act, from maintaining separate
living facilities for the different sexes.
The Department of Education’s implementing
regulation, 34 C.F.R. §106.33, provides:
A recipient may provide separate toilet,
locker room, and shower facilities on the
basis of sex, but such facilities provided for
students of one sex shall be comparable to
such facilities provided for students of the
other sex.
The Fourteenth Amendment provides in part:
§1 No State shall *** deny to any person
within its jurisdiction the equal protection of
the laws.

4
STATEMENT
Section 901 of Title IX provides that “[n]o person in
the United States shall, on the basis of sex, be
excluded from participation in, be denied the benefits
of, or be subjected to discrimination under any
education program or activity receiving Federal
financial assistance[.]” 20 U.S.C. §1681(a). But in
section 907, Congress carved a narrow exception to
that general prohibition on sex discrimination:
Covered institutions may still “maintain[] separate
living facilities for the different sexes.” Id. §1686.
Senator Birch Bayh, Title IX’s principal sponsor,
explained that this exception was necessary because
there are “instances where personal privacy must be
preserved.” 118 Cong. Rec. 5807 (1972).
1. Consistent with that observation, the
Department of Education has long interpreted “living
facilities” to include “toilet, locker room, and shower
facilities” as long as “facilities provided for students of
one sex [are] comparable to such facilities provided for
students of the other sex.” 34 C.F.R. §106.33. On its
face, this regulation recognizes the binary nature of
sex. Because sex, rather than gender identity, is the
subject of both the statute’s exemption and the
regulation implementing it, a bathroom policy that
treats biological women who self-identify as male the
same as other biological women cannot violate Title
IX. In other words, members of the same sex are
treated equally, and comparably to the treatment of
members of the opposite sex, regardless of their
gender identity.
In the equal-protection context, this Court has also
recognized that “[p]hysical differences between men

5
and women *** are enduring.” United States v.
Virginia, 518 U.S. 515, 533 (1996). Thus, while the
Equal Protection Clause forbids any “official action
that closes a door or denies opportunity to women (or
to men)” because of their sex, id. at 532, official actions
grounded in a proper understanding of the enduring
biological differences between men and women are
entirely permissible.
Accordingly, for decades schools have structured
their facilities and programs around the idea that
certain spaces would “undoubtedly” be “necessary to
afford members of each sex privacy from the other sex
in living arrangements.” Id. at 550 n.19. Such spaces
include restrooms, locker rooms and showers.
2. Respondent Gavin Grimm commenced this
action when he 1 was a high-school student at
Gloucester High School. Pet.19a. Grimm is
biologically female, meaning that he was born
anatomically and physiologically female, and his
original birth certificate listed him as a girl. Pet.19a20a. He lived as a girl until high school, and even
enrolled in high school as a girl, but asserts that “at a
very young age, [Grimm] did not feel like a girl.”
Pet.228a. In July 2014, between Grimm’s freshman
and sophomore years, Grimm changed his first name
to a boy’s name and began referring to himself with
male pronouns. Pet.31a. He also started hormone
treatment but had not undergone surgical alterations
to his female sex organs. Pet.35a, 37a.
Out of respect for Grimm’s choice of pronouns, and without
conceding any of the legal issues, this Petition will use the
masculine pronouns “he” and “him” when referring to Grimm.
1

6
In August 2014, before the start of Grimm’s
sophomore year, he and his mother met with the
guidance counselor to discuss Grimm’s situation.
Pet.121a. School officials were supportive of Grimm
and promised a welcoming environment. Pet.171a.
School records were changed to reflect Grimm’s new
name, and the guidance counselor helped Grimm email his teachers asking them to address him using
his male name and male pronouns. Pet.231a. As
Grimm admits, teachers and staff honored those
requests. Pet.209a.
At that time, neither Grimm nor school officials
thought he should start using the boys’ restrooms,
locker rooms, or shower facilities. Ibid. Instead,
Grimm and his mother suggested that he use a
separate single-user restroom in the nurse’s office
rather than the boys’ restroom, and the school agreed.
Ibid. Grimm claims he accepted this arrangement
because he was “unsure how other students would
react to [his] transition.” Ibid. But four weeks into the
school year, Grimm changed his mind and sought
permission to use the multi-user boys’ restrooms.
Pet.31a. The principal initially granted Grimm’s
request. Pet.31a-32a.
Soon after Grimm started using the boys’
restrooms, the Board began receiving objections from
parents and students concerned about the privacy
implications of allowing biological girls into boys’
restrooms, and vice versa. Pet.32a. The Board held
public meetings on the issue, and citizens on both
sides expressed their views in thoughtful and
respectful terms. Pet.32a-33a. Eventually, the Board
adopted a resolution recognizing that “some students

7
question their gender identities,” and encouraged
“such students to seek support, advice, and guidance
from parents, professionals and other trusted adults.”
Pet.231a-232a. The resolution further stated that the
Board “seeks to provide a safe learning environment
for all students and to protect the privacy of all
students.” Accordingly, the Board concluded that the
use of its multi-user boy’s and girl’s “restroom and
locker room facilities” would be “limited to the
corresponding biological genders, and students with
gender identity issues shall be provided an alternative
appropriate private facility.” Pet.232a.
Before the Board adopted this resolution, the high
school announced it was installing three single-stall
unisex restrooms throughout the building. Pet.35a.
These unisex restrooms would be open to all students
who, for whatever reason, desire greater privacy. Ibid.
These restrooms opened shortly after the Board
adopted the resolution. Pet.101a (Niemeyer, J.,
dissenting). Grimm, however, refused to use the
unisex restrooms. Pet.102a.
3. Grimm filed suit against the Board in 2015
alleging that its resolution of this difficult issue
violated Title IX and the Equal Protection Clause.
Pet.127a. On June 29, 2015, the United States filed a
“statement of interest” that also accused the Board of
violating Title IX. Pet.234a. That statement did not
cite 34 C.F.R. §106.33 or explain how the Board’s
policy could be unlawful under the regulation’s text.
Without ruling on Grimm’s equal-protection claim,
the district court dismissed Grimm’s Title IX claim. It
held that 34 C.F.R. §106.33, the regulation allowing
comparable separate restrooms and other facilities “on

8
the basis of sex,” included both gender identity and
biological sex. Pet.240a-243a. But even under this
broad reading of “sex,” according to the district court,
it would remain permissible under §106.33 to separate
restrooms by biological sex. Pet.242a. The district
court noted that §106.33 would forbid the Board’s
policy only if “sex” refers solely to distinctions based
on gender identity, and excludes those based on
biological sex. Such a reading, the court held, would
effectively nullify Title IX’s exemption. Ibid.
Grimm then appealed to the Fourth Circuit, which
reversed the district court’s dismissal. That court held
that §106.33 was “ambiguous” about “whether a
transgender individual is a male or female for the
purpose of access to sex-segregated restrooms.”
Pet.182a-183a. It then deferred to the United States’
interpretation of Title IX—promulgated in a
Department of Education policy letter—which held
that Title IX prohibits discrimination on the basis of
gender identity. Pet.183a.
Judge Niemeyer dissented from the panel decision.
He explained that “Title IX and its implementing
regulations are not ambiguous” in allowing separate
restrooms and other facilities on the basis of “sex.”
Pet.208a. Those provisions “employ[] the term ‘sex’ as
was generally understood at the time of enactment,”
as referring to “the physiological distinctions between
males and females, particularly with respect to their
reproductive functions.” Pet.219a. Judge Niemeyer
also explained that the Department of Education
letter conflated “sex” in Title IX with “gender identity”
and would produce “unworkable and illogical
result[s],” which would undermine the privacy and

9
safety concerns that motivated the allowance of sexseparated facilities in the first place. Pet.207a, 222a.
The Board moved for rehearing en banc, which the
panel denied. Pet.159a. Judge Niemeyer dissented but
declined to call for an en banc poll, stating that “the
momentous nature of the issue deserves an open road
to the Supreme Court.” Pet.161a.
Taking that invitation, the Board sought review in
this Court, which granted the Board’s petition. In its
order, the Court agreed to decide whether the thenAdministration’s interpretation of Title IX and 34
C.F.R.§106.33 should be given effect, with or without
agency deference. Before the Court could rule on the
merits of that question, however, the newly elected
Administration withdrew the Department’s guidance
letter, and the Court vacated the Fourth Circuit’s
decision. Pet.156a.
4. On remand, the Fourth Circuit dismissed the
case on Grimm’s motion, and he filed an amended
complaint in the district court and, eventually, a
second amended complaint. Pet.40a-41a. The district
court eventually granted summary judgment to
Grimm on both the Title IX and the Equal Protection
issues. It also awarded Grimm nominal damages and
attorney’s fees under 42 U.S.C. §1988. Pet.154a-155a. 2
Citing both Title IX and the Equal Protection Clause, the
district court also entered a permanent injunction that required
the Board to update Grimm’s records. Pet.154a-155a. Although
the board has complied with the injunction, it has not waived its
challenge to it. Moreover, the question presented here is
inexorably tied to the Fourth Circuit’s holding on the records
issue. See Pet.69aa (“easily” concluding that the records claim
2

10
The Fourth Circuit ultimately affirmed the district
court, agreeing that the Board’s restroom policy
violated the Equal Protection Clause and Title IX.
Purporting to follow this Court’s decision in Bostock,
the panel said it had “little difficulty holding that a
bathroom policy precluding Grimm from using the
boys restrooms discriminated against him ‘on the
basis of sex’” in violation of Title IX—not because of
his female biological sex, but because of his
transgender status. Pet.71a. To the panel, the same
logic that made it “impossible to discriminate against
a person for being *** transgender without
discriminating against that individual based on sex”
in the Title VII context applied equally in the Title IX
context. Pet.72a (quoting Bostock, 140 S.Ct. at 1741).
As the Board would later explain in seeking
rehearing, the panel missed the point. The question
was not whether the Board’s restroom policy treated
students differently on the basis of sex by requiring
biological boys to use the boys’ room and biological
girls to use the girls’ room. It unquestionably did. The
question was whether Section 907 of Title IX
nevertheless permits such sex-based distinctions. See
Petition for Rehearing at 8-10 (Sept. 9, 2020). And the
panel, despite recognizing that “creating sexseparated restrooms in and of itself” is not prohibited,
nevertheless held that the Board violated Title IX by
“rely[ing] on its own discriminatory notions of what
‘sex’ means.” Pet.76a. Thus, to the panel, the Board’s
interpretation of sex allowed the “implementing
violated the Equal Protection Clause because the restroom policy
had as well), 78a (applying the “same [Title IX] framework” to the
records claim).

11
regulation [to] override the statutory prohibition
against discrimination on the basis of sex.” Pet.76a
(emphasis in original).
The panel then relegated to a footnote its analysis
of Section 907, which it deemed “the more generic Title
IX provision allowing for sex-separated living
facilities.” Pet. 76a n.16. The panel held that this
“broad statement that sex-separated living facilities
are not unlawful” did not mean that “schools may act
in an arbitrary or discriminatory manner when
dividing students into those sex-separated facilities.”
Pet.76a n.16. And of course, the panel thought that
treating transgender boys—i.e., biological females—as
girls for purposes of the Board’s restroom policy was
arbitrary. Ibid.
The panel also affirmed the district court’s holding
that the Board’s bathroom policy violated the Equal
Protection Clause. It first held that the restroom
policy was subject to intermediate scrutiny because it
was sex-based and because transgender people
constitute a quasi-suspect class. Pet.51a. It then held
that the Board’s restroom policy failed to satisfy
intermediate scrutiny. Pet.65a-69a. Even though
Grimm was unquestionably a biological female, the
panel claimed that the “bodily privacy of cisgender
boys using the boys restrooms did not increase when
Grimm was banned from those restrooms.” Pet.66a.
And on that basis, the panel reasoned, “the Board’s
policy was not substantially related to its purported
goal.” Ibid. That ruling, of course, would apply to all
sex-separated bathroom policies and would render
Title IX’s express exception unconstitutional as well.

12
Judge Niemeyer again dissented, noting that “all
individuals possess a privacy interest when using
restrooms or other spaces in which they remove
clothes and engage in personal hygiene,” an interest
that is “heightened when persons of the opposite sex
are present.” Pet.116a (Niemeyer, J., dissenting).
Thus, “a public school may, consistent with the Equal
Protection Clause, establish one set of restrooms for
its male students and another set for its female
students.” Pet.115a. Judge Niemeyer then faulted the
majority for failing to “address why” under its theory,
“it is permissible for schools to provide separate
restrooms to their male and female students to begin
with.” Pet.117a. “Such consideration would have
demonstrated that it was not ‘bias’ for a school to have
concluded that, in assigning a student to either the
male or female restrooms, the student’s biological sex
was relevant.” Ibid.
The Board once more sought en banc review, and
once more, Judge Niemeyer concurred in the denial.
He again urged that “the more efficient course for the
School Board” would be to “file a petition for certiorari
in the Supreme Court with the hope that the Court
will again be interested in granting it” because the
“issues in this case certainly merit its doing so.”
Pet.4a-5a.
5. Since the Fourth Circuit’s decision, the new
Administration has adopted the lower court’s view of
Bostock. It has issued an executive order stating that
“laws that prohibit sex discrimination—including
Title IX of the Education Amendments of 1972 ***
along with [its] *** implementing regulations—
prohibit discrimination on the basis of gender

13
identity,” unless the laws “contain sufficient
indications to the contrary.” 3 The new Administration
has further made clear that it does not consider
Section 907’s exception for “living facilities” to be a
sufficient “indication to the contrary.” “Children,”
according to the Executive Order, “should be able to
learn without worrying about whether they will be
denied access to the restroom [or] the locker room[.]” 4
And, like the Fourth Circuit, the new Administration
purports to root its decision in the Equal Protection
Clause. 5
In short, in the months between
Circuit’s decision and this petition,
Circuit’s understanding of Title IX,
Protection Clause and Bostock has
nationwide policy of the United States. 6

the Fourth
the Fourth
the Equal
become the

The White House, Executive Order on Preventing and
Combating Discrimination on the Basis of Gender Identity or
Sexual
Orientation
(Jan
20,
2021),
https://www.whitehouse.gov/briefing-room/presidentialactions/2021/01/20/executive-order-preventing-and-combatingdiscrimination-on-basis-of-gender-identity-or-sexualorientation/.
3

4

Ibid.

5

Ibid.

The Department of Education has 100 days to decide how to
“fully implement” the policy. Ibid. At the time of this filing, the
Department has not formally determined how the policy relates
to 20 U.S.C. §1686 or 34 C.F.R. §106.33. But the Executive Order
leaves no room for doubt on the outcome.
6

14
REASONS FOR GRANTING THE PETITION
The Court should grant the petition for three
reasons. First, the Court has already recognized—in
this very case—the importance of resolving whether
Title IX and 34 C.F.R. §106.33 allow schools to
separate restrooms and other living facilities on the
basis of sex rather than gender identity. Last time
that question was before the Court, the negative
answer came from the Department of Education. This
time, it comes from both the Fourth Circuit and a new
President with a different view than his predecessor’s.
But the interpretation’s genesis does not diminish the
question’s importance to the millions of students
whose privacy rights are at risk, or to the legions of
schools deprived of the freedom to make commonsense distinctions on the basis of sex whenever doing
so would involve a transgender student. Second, the
Fourth Circuit’s Equal Protection analysis is equally
wrong and promises even more sweeping
consequences than its Title IX analysis. Third, just as
it was when this Court granted review in 2016, this
case remains an excellent vehicle for resolving the
Title IX and equal-protection issues. And, if the new
Administration seeks to participate in this case and
again claims deference for its interpretation of Title
IX, this case remains an equally good vehicle for
resolving that issue as well.

15
I. The Title IX Issue Warrants Review.
Neither Title IX nor its implementing regulations
address questions of gender distinct from “sex,” and
hence do not require schools to allow students to pick
and choose among permissibly sex-separated
restrooms, lockers, or showers based on their
individually preferred gender identities. The Fourth
Circuit’s contrary holding—like the nationwide rule
announced in the new Executive Order—is foreclosed
by the statute’s text, structure, and history, and
disserves the privacy interests of millions of students.
For these reasons, the Title IX aspect of the question
presented warrants this Court’s review.
A. This Court has already recognized that
the Title IX issue warrants review.
The clearest reason for the Court to grant review is
that it already did so in this very case. When this
Court first agreed to hear this case in 2016, the
question focused in part on the reasonableness of an
agency’s interpretation of the term “sex” in Title IX
and its implementing regulation, 34 C.F.R. §106.33,
which makes clear that schools may separate
restrooms by sex. The agency’s interpretation
provided that, “[u]nder Title IX, a [school receiving
federal funding] must generally treat transgender
students consistent with their gender identity.”
Pet.178a; see Gloucester County. Sch. Bd. v. G.G. ex
rel. Grimm, 137 S.Ct. 369 (2016) (No. 16-273)
(Gloucester I). The Board’s first petition asked
whether—with or without agency deference—the
interpretation should stand. Petition for Certiorari at
i, Gloucester I; see also Pet.39a-40a. The Court
summarily vacated the Fourth Circuit’s earlier

16
decision after the then-incoming Administration
withdrew that interpretation, leaving unresolved this
“important question of federal law that has not been,
but should be, settled by this Court.” Sup. Ct. R. 10(c).
The Fourth Circuit has since independently
reached the same conclusion as the earlier
Administration, as has the new Administration.
Pet.79a-80a. But the agency’s interpretation was as
wrong in 2016 as the Fourth Circuit’s and the new
Administration’s interpretation is now. And, perhaps
influenced by this Court’s previous grant of certiorari,
both Judge Wynn and Judge Niemeyer recognized
that the Title IX question presented here is very
important. See Pet.9a (Wynn, J., concurring in the
denial of rehearing en banc) (“[T]he question
presented by this case is no doubt one of substantial
importance.”) (emphasis added); Pet.5a (Niemeyer, J.,
concurring in the denial of rehearing en banc) (“The
issues in this case certainly merit” Supreme Court
review.).
To the millions of children and thousands of
schools who will be affected and governed by that
interpretation, moreover, the question’s importance
does not turn on who interpreted the statute in the
first instance. See Bostock, 140 S.Ct. at 1778-1779
(Alito, J., dissenting) (recognizing that this issue is a
“matter of concern to many people”). For them, the
title IX question presented demands this Court’s
review now, just as it did in 2016.

17
B. The Fourth Circuit failed to properly
apply the plain meaning and history of
Title IX and 34 C.F.R. §106.33.
The Fourth Circuit’s interpretations of Title IX and
34 C.F.R. §106.33 are also flatly wrong.
1. Nothing in Title IX’s text or structure supports
the Fourth Circuit’s holding that schools violate Title
IX when they decline to allow a transgender student
like Grimm, who is a biological female, to use the
living facilities assigned to biological males, or viceversa. To the contrary, Section 907 and 34 C.F.R.
§106.33 unambiguously allow for such treatment.
Indeed, Bostock itself makes clear that proper
statutory interpretation depends on the “ordinary
public meaning of [a statute’s] terms at the time of its
enactment.” Bostock, 140 S.Ct. at 1738 (majority
opinion); accord id. at 1827 (Kavanaugh, J.,
dissenting)
(emphasizing
the
“extraordinary
importance of hewing to the ordinary meaning of a
phrase”); id. at 1772 (Alito, J., dissenting) (italics in
original) (“[O]ur job is to ascertain and apply the
‘ordinary meaning’ of the statute.”). Grimm does not,
and could not, dispute that the plain language of
Section 907 allows for restrooms separated by
biological sex. Pet.115a (Niemeyer, J., dissenting).
That provision’s plain text expressly permits sexseparated “living facilities,” 20 U.S.C. §1686, which
longstanding regulations have sensibly interpreted to
include “toilet, locker room, and shower facilities” 34
C.F.R. §106.33.
Moreover, when Title IX was enacted, “sex” did not
mean “gender identity.” Instead, it looked to a person’s

18
biology, “particularly with respect to their
reproductive functions.” Pet.108a (Niemeyer, J.,
dissenting) (collecting dictionary definitions); accord
Adams ex rel. Kasper v. Sch. Bd. Of St. Johns County,
968 F.3d 1286, 1320 (11th Cir. 2020) (Pryor, J.,
dissenting). Then, as now, the word “sex” was
“unambiguously” a biological classification. Adams,
968 F.3d at 1320 (Pryor, J., dissenting); see also Am.
Psychiatric Ass’n, Diagnostic and Statistical Manual
of Mental Disorders 451 (5th ed. 2013) (explaining that
“sex” and “sexual” as “widely used by clinicians from
various disciplines” “refer to the biological indicators
of male and female (understood in the context of
reproductive capacity)”).
The majority opinion in Bostock recognized this
very point when it refused to adopt the position of the
plaintiff there that Title VII prohibits discrimination
on the basis of gender identity directly. See Bostock,
140 S.Ct. at 1740-1741, 1743. Instead, the Court ruled
that because, as a practical matter, one generally
cannot discriminate in employment on the basis of
transgender status without also discriminating on the
basis of biological sex—that is, judging whether the
person behaves in accordance with societal norms
governing members of that biological sex, or departs
from those norms—discrimination on the basis of
transgender status can fall within Title VII’s scope.
Bostock, 140 S.Ct. at 1740-1741.
But, of course, that opinion and reasoning
necessarily recognize that the “sex” of the transgender
person is contrary to their gender identity and that
they are being discriminated against because their
behavior does not conform to the norms applicable to

19
their sex. That is, discrimination against a
transgender man is discrimination on the basis of the
person’s sex being female, and vice versa for a
transgender woman. But that reasoning strongly
supports the legality under Section 907 of assigning
access to “living facilities” like restrooms on the basis
of biological sex rather than gender identity. That is,
even though discrimination on the basis of
transgender status can also constitute discrimination
on the basis of sex, there is no such discrimination
here based on whether behavior conforms to various
norms. Instead, under the Board’s policy, “sex”
remains binary and grounded in biology, with no
discrimination based on non-compliance with sexbased norms. In short, the Fourth Circuit’s decision
rests on a fundamental misreading of Bostock.
2. Here the Board exercised its legal right under
Section 907 to provide separate toilet facilities on the
basis of biological sex. But the Fourth Circuit held that
it had nevertheless violated the statute. To the
majority, the issue was not with sex-separated
restrooms—it admitted, as did Grimm, that Title IX
allowed those. Pet.76a. Instead, the panel held that
the school board violated Title IX because it “treated
[Grimm] worse than students with whom he was
similarly situated” by not allowing him to use the
same restroom as “other boys.” Pet.75a-76a. But this
“similarly situated” standard is absent from the text
of the statute, and begs the question in any event:
Grimm is not “similarly situated” to “other boys.”
Other boys are biologically male; Grimm is not.
Though he “no doubt identifies as male and also has
taken the first steps to transition his body, at all times
relevant to the events in this case, he remained

20
anatomically different from
(Niemeyer, J., dissenting).

males.”

Pet.116a

The Fourth Circuit’s reading collapses Title IX’s
entire framework. Whereas Congress allowed sexseparated restrooms (based on biological sex), the
Fourth Circuit now forbids them whenever there is a
transgender student involved, and possibly in other
situations as well. 7 And it does so based solely on that
student’s own self-determined gender identity, not on
the student’s objective physiology. That holding
frustrates Congress’ will as expressed through
enacted legislation.
3. To get there, the Fourth Circuit purported to
rely heavily on Bostock. Bostock, the Fourth Circuit
held, removed any question that the Board’s restroom
policy “discriminated against [Grimm] ‘on the basis of
sex.’” Pet.71a. But key differences in the statutory
texts and contexts of Title VII and Title IX make
Bostock inapposite here. Adams, 968 F.3d at 1320
(Pryor, J., dissenting). In Bostock, a transgender
employee sued her employer “under Title VII alleging
unlawful discrimination on the basis of sex” after her
employer fired her “because of [her] transgender
status.” 140 S.Ct. at 1738. Title VII makes it “unlawful
*** for an employer to *** discharge any individual ***
because of such individual’s *** sex.” 42 U.S.C.
§2000e-2(a)(1) (emphasis added). This prohibition is
7 Some students, for example, claim to have “an experience of
gender that is not simply male or female.” See National Center
for Transgender Equality, Understanding Non-Binary People:
How to Be Respectful and Supportive (Oct. 5, 2018),
https://transequality.org/issues/resources/understanding-nonbinary-people-how-to-be-respectful-and-supportive.

21
nearly categorical, particularly as the issue arose in
that case. But cf. id. §2000e-2(e) (making an exception
when sex is a bona fide occupational qualification). 8
However, in part because of the presence of Section
907, Title IX is a “vastly different statute” from Title
VII. Jackson v. Birmingham Bd. of Educ., 544 U.S.
167, 175 (2005). While it too contains a “broadly
written general prohibition on discrimination,” one of
its “specific, narrow exceptions” is directly at issue
here. Ibid. (emphasis added). Undoubtedly aware of
this, Bostock expressly and appropriately limited its
reach to the issue before it and declined to opine on
how it would apply to “other laws,” including those
“address[ing] bathrooms, locker rooms, or anything
else of the kind.” 140 S.Ct. at 1753. Thus, Bostock’s
holding that “it is impossible to discriminate against a
person for being *** transgender without
discriminating against that individual based on sex,”
id. at 1741, cannot coherently be read to disallow the
very “discrimination” expressly permitted by Section
907—sex-separated living facilities. Requiring
biological males and biological females to use facilities
that conform to their biology indeed discriminates
(permissibly) on the basis of sex. But it does not
discriminate by enforcing gendered stereotypes upon
members of either sex, as was the case in Bostock:
Under the Board’s rule, students must simply follow
their biological makeup rather than their gender
identities, and cisgender women are treated
Bostock did not consider or decide whether this exception
would prohibit an employer from precluding a biological male
identifying as female from jobs where being female is a bona fide
occupational qualification.
8

22
identically to transgender men—both according to
their sex, not their gender.
Thus, even assuming this Court would adopt
Bostock’s understanding of sex in the Title IX context,
Congress’s decision to allow for sex-separated living
facilities, as expressed in Section 907, should have
prevented the Fourth Circuit from imposing Title IX
liability on the Board here.
4. The Board’s policy, moreover, uses a
permissible sex-based classification founded on the
same biological distinctions between the male and
female sexes that justify separate restrooms in the
first place. The policy does not discriminate on the
basis of transgender status. It could only do so by
looking at both the biological sex and the gender
identity of a student and then determining whether
any incongruity exists between the two. See Pet.56a.
Instead, the sole characteristic the policy looks at is
“sex” as used in Title IX—the biological distinction
between male and female. Pet.118a (Niemeyer, J.,
dissenting). The policy does not look at gender
identity, and the plain language of Title IX and 34
C.F.R. §106.33 does not require it to do so. The policy
does make distinctions on the basis of sex by providing
separate restrooms for males and females. But this is
a permissible differentiation under both Section 907’s
“living facilities” provision and its implementing
regulation, 34 C.F.R. §106.33.
That is no doubt why Judge Niemeyer opined in
dissent that the majority’s holding imposing liability
on the Board when it acted according to the plain text
of Section 907 was “an outcome-driven enterprise
prompted by feelings of sympathy and personal views

23
of the best policy” that fell short of “simply construing
the law.” Pet.98a-99a. (Niemeyer, J., dissenting).
Whether or not that accurately describes the
majority’s motives, this Court should grant certiorari
to give Title IX an interpretation consistent with the
text of Section 907, which expressly allows schools to
“maintain[] separate living facilities” including
restrooms, “for the different sexes.” 20 U.S.C. §1686.
C. The rule adopted below affects millions of
students and thousands of schools
throughout the Nation.
A handful of lower courts interpreting Title IX
incorrectly—now joined by a presidential order—
make clear that the time for this Court to address this
issue is now. See Whitaker ex rel. Whitaker v. Kenosha
Unified Sch. Dist. No. 1 Bd. Of Educ., 858 F.3d 1034
(7th Cir. 2017); Adams ex rel. Kasper v. Sch. Bd. of St.
Johns County, 968 F.3d 1286 (11th Cir. 2020). 9
1. Most immediately, the decision below—like the
decisions of circuit courts around the country—
undermines the ability of the more than 400 school
districts in the Fourth Circuit to seek reasonable
accommodations to protect and balance the privacy
and other interests of their students, including their
transgender students, by adopting and enforcing
bathroom, locker room, and shower policies and
procedures sensitive to those varied interests and to
Collectively, these decisions govern more than 24,000 public
schools and affect the experiences of roughly 14 million public
school children. Pet. 262a-263a. And of course, when fully
implemented, the new Executive Order will govern public schools
and schoolchildren throughout the Nation.
9

24
any school’s particular situations regarding space,
student mix, and other local concerns.
Neither local school districts nor the schools they
govern should be deprived of that centuries-old ability
to choose for themselves how to address their local
concerns and needs. With their roots running back to
the Massachusetts Bay Colony in the 1700s, school
boards are a time-honored facet of American selfgovernment. 10 Although public education has evolved
dramatically since then, school boards are one of
America’s “last grassroots governing bodies that touch
us all,” and they are one of the principal ways in which
parents can shape their children’s education. 11 School
boards cannot fulfil this vital role if they are unable to
tailor their policies to the diverse needs of their
students.
Yet the decision below—like the new Executive
Order—forbids schools from making “adjustments” to
accommodate the “physiological differences between
[biological] male and female individuals” whenever a
transgender student is involved. United States v.
Virginia, 518 U.S. 515, 551 n.19 (1996). Even without
an express exemption for living facilities, this would
be a remarkable exercise of federal authority at the
See Lila N. Carol et al., School Boards: Strengthening
Grass
Roots
Leadership
14
(1986),
https://files.eric.ed.gov/fulltext/ED280182.pdf; Deborah Land,
Local School Boards Under Review: Their Role and Effectiveness
in Relation to Students’ Academic Achievement 2 (2002),
https://files.eric.ed.gov/fulltext/ED462512.pdf.
10

See Jacqueline P. Danzberger et al., School Boards: The
Forgotten Players on the Education Team, 69 Phi Delta Kappan
53, 53 (1987).
11

25
expense of local governments. That the words
Congress enacted—including the exception in Section
907—do not mandate such a result only increases the
harm. See Pet.97a (Niemeyer, J., dissenting)
(“Gloucester High School followed [Title IX and its
regulations] precisely[.]”). The Board’s decision is but
one of many ways that schools or school boards,
depending on their resources and existing facilities,
could legitimately accommodate their transgender
students while striving to be sensitive to the
legitimate privacy concerns of all their students.
Moreover, by prohibiting local school boards from
tailoring policies—especially policies affecting
students’ most personal privacy concerns—to the
diverse needs of their students, the Fourth Circuit
seriously undermined the federal system. The Fourth
Circuit’s erroneous interpretation of Title IX and its
implementing regulations has preemptively wrested
this important and complicated social debate from its
proper venue—the democratic process of local
government. In so doing, the decision below subjects
local school boards to liability for creating a restroom
policy that a plain reading of Title IX allows. And it
does so by enthroning a judicial philosophy that seems
driven, not by the statute, but by “personal views of
the best policy” that are neither universally shared
nor specifically enshrined in the law or the
Constitution. Pet.99a (Niemeyer, J., dissenting).
The Board itself was not without sympathy or
understanding for Grimm when it promulgated its
policy. Grimm’s request posed a difficult problem.
And given its limited resources and the configuration
of its existing facilities, the Board sought to show both

26
Grimm and its other students compassion by
formulating a policy that respected everyone’s needs.
Title IX allows it and other school boards to take into
account the concerns—including privacy concerns—of
all their students. This Court should grant the petition
and restore to local school boards the flexibility that
Title IX expressly provides.
2. In addition to its degradation of federalism, the
decision below—like the new Executive Order—
undermines the privacy interests of millions of
students.
As many courts have recognized, students have a
“significant privacy interest in their unclothed
bodies.” Beard v. Whitmore Lake Sch. Dist., 402 F.3d
598, 604 (6th Cir. 2005). Because students are
“extremely self-conscious about their bodies,”
Cornfield by Lewis v. Consol. High Sch. Dist. No. 230,
991 F.2d 1316, 1323 (7th Cir. 1993), that interest
protects—at a minimum—the right to “avoid the
unwanted exposure of one’s body especially one’s
‘private parts.’” Thomas ex rel. Thomas v. Roberts, 261
F.3d 1160, 1168 (11th Cir. 2001), vacated on other
grounds sub nom. Thomas v. Roberts, 536 U.S. 953
(2002). For these students, the question presented
raises a significant “question of modesty” that
provides an independent reason for granting the
petition. Bostock, 140 S.Ct. at 1779 (Alito, J.,
dissenting); see also id. (discussing additional
psychological risks to students who have previously
experienced sexual abuse).
Judge Wynn waved off such concerns with an ad
hominem attack: Concerns about privacy and related
harms, he opined, are grounded in nothing more than

27
a “harmful and false stereotype about transgender
individuals.” Pet. 92a (Wynn, J., concurring).
According to him, that stereotype says that “students
(usually male) will pretend to be transgender in order
to gain access to the bathrooms of the opposite sex—
thus jeopardizing student safety.” Ibid.
But that is not—and was not—the basis for the
Board’s policy. As Judge Niemeyer correctly
recognized, for many, there is harm simply in being in
the presence of people of the other sex in public spaces
where a person often disrobes, such as public
restrooms, showers, and locker rooms. Pet.110a-111a
(Niemeyer, J., dissenting). By exempting living
facilities from the general prohibition of sex
discrimination in Title IX, Congress acted to eliminate
that harm, as well as to protect the privacy and
modesty interests of vulnerable students.
In short, the decision below seriously undermines
the privacy interests of millions of students. Similar
decisions in the Seventh and Eleventh Circuits, and
the new Administration’s executive order, all suffer
from the same defect—thus extending this harm to
student privacy nationwide. To restore the ability of
schools to consider local circumstances and protect the
privacy interests of the nation’s students, the petition
should be granted. And this Court should clarify that
schools providing living facilities based on the
biological sexes—not the gender identities—of their
students do not violate Title IX.

28
II. The
Equal-Protection
Review.

Issue

Warrants

The Fourth Circuit also incorrectly held that the
Board’s restroom policy violated the Equal Protection
Clause of the Fourteenth Amendment. Like the Title
IX issue, the equal-protection issue is a question of
national importance that should be resolved
expeditiously.
A. The Fourth Circuit’s analysis flouts this
Court’s precedents.
The Fourth Circuit held that the Board’s restroom
policy was subject to—and failed—heightened
scrutiny under the Equal Protection Clause because
(1) it rests on sex-based classifications—which of
course would render Title IX’s carve-out for living
facilities unconstitutional—and (2) transgender
people constitute a quasi-suspect class. Pet.51a, 65a69a. Under either theory, the Fourth Circuit
misapplied this Court’s precedent.
1. The Equal Protection Clause promises the
“equal protection of the laws.” U.S. Const. Amend.
XIV, §1. And this Court has interpreted the Clause as
requiring state and local governments to treat “all
persons similarly situated” alike. City of Cleburne v.
Cleburne Living Ctr., 473 U.S. 432, 439 (1985). But it
has never interpreted the Clause to require that
differently situated individuals be treated alike. The
provision “simply keeps governmental decisionmakers
from treating differently persons who are in all
relevant respects alike.” Nordlinger v. Hahn, 505 U.S.
1, 10 (1992) (emphasis added).

29
In addressing how the Equal Protection Clause
addresses distinctions between men and women, this
Court “has long grounded its sex-discrimination
jurisprudence in reproductive biology,” not gender
identity. Adams, 968 F.3d at 1318 (Pryor, J.,
dissenting) (collecting cases). Thus, the Court has
expressly recognized the “enduring” “[p]hysical
differences between men and women” and the fact that
the “two sexes are not fungible.” United States v.
Virginia, 518 U.S. 515, 533 (1996) (emphasis added).
Indeed, because of these physical and biological
differences, “the sexes are not similarly situated in
certain circumstances.” Michael M. v. Superior Ct. of
Sonoma County, 450 U.S. 464, 469 (1981) (plurality
opinion) (emphasis added).
Further, it is precisely because “sex” is “an
immutable characteristic determined solely by the
accident of birth” that the Equal Protection Clause
forbids some—though not all—distinctions on that
basis. Frontiero v. Richardson, 411 U.S. 677, 686
(1973) (plurality opinion). Thus, a State is “not free to
make overbroad generalizations based on sex which
are entirely unrelated to any differences between men
and women or which demean the ability or social
status of the affected class.” Parham v. Hughes, 441
U.S. 347, 354 (1979). But if the physical or biological
differences between men and women are relevant to
the State’s interests, then sex is not a “proscribed
classification.” United States v. Virginia, 518 U.S. at
533.
Under this Court’s precedent, moreover, one
distinction between the sexes that the Equal
Protection Clause allows is the designation of spaces

30
“necessary to afford members of each sex privacy from
the other sex in living arrangements.” Id. at 550 n.19.
Indeed, in the same opinion in which this Court held
that the Virginia Military Institute could not reserve
its “unique educational opportunities” to men, id. at
519, it recognized that admitting women to VMI would
“undoubtedly require alterations” to ensure such
privacy, id. at 550 n.19 (emphasis added).
The differences this Court recognized in United
States v. Virginia still endure and remain present in
the person of Gavin Grimm. Though he “identifies as
male,” he was “born a biological female.” Pet.6a
(Niemeyer, J., concurring). Thus, “his circumstances
are different from the circumstances of students who
were born as biological males.” Ibid. Under this
Court’s precedents, treating differently situated
persons differently does not violate the Equal
Protection Clause. Cleburne, 473 U.S. at 439, 442.
2. The Fourth Circuit’s equal-protection analysis
ignored these principles and, in so doing, violated this
Court’s teachings about the proper methodology for
assessing sex-based classifications. It is undisputed
that the Board’s restroom policy classifies based on
sex, not gender identity. But even apart from the lack
of gender-identity discrimination, the Fourth Circuit
erroneously determined that “transgender people
constitute at least a quasi-suspect class” and applied
intermediate scrutiny based partly on that
classification. Pet.51a. This classification was wrong,
as transgender people are not a “discrete group”
characterized
by
“obvious,
immutable,
or
distinguishing characteristics.” Pet.60a. To the
contrary, “some people develop a gender identity early

31
in childhood, others may identify with one gender at
one time and then another gender later on.” 12 The very
existence of gender fluidity undermines any claim that
gender identity is sufficiently obvious, immutable, or
distinguishable to make transgender people a suspect
class. Bowen v. Gilliard, 483 U.S. 587, 602 (1987).
The decision below thus illustrates Judge Pryor’s
recent observation that an error at the classification
stage can “infect[]” the rest of a “constitutional
inquiry.” Adams, 968 F.3d at 1316 (Pryor, J.,
dissenting). The Fourth Circuit’s erroneous decision
to make transgender individuals a quasi-suspect class
led it to ask the wrong question and to shift the burden
regarding exceptions to a plainly permissible general
policy onto the school rather than onto the person
seeking the exception. As Judge Pryor observed, “the
relevant question is whether excluding students of one
sex from the bathroom of the other sex substantially
advances the schools’ privacy objectives.” Ibid.
(emphasis added). There can be no doubt that dividing
students according to biological sex does just that.
3. In fact, no one is denied the equal protection of
the laws when the government provides separate
restroom facilities on the basis of sex, as Congress
expressly allowed in Section 907. The biological
differences between the sexes allow government
officials to separate men and women in such intimate
spaces. The Board did nothing more than that.
Sabra L. Katz-Wise, Gender fluidity: What it means and
why support matters, Harvard Health Blog (Dec. 3, 2020),
https://www.health.harvard.edu/blog/gender-fluidity-what-itmeans-and-why-support-matters-2020120321544.
12

32
It follows that the Board acted consistently with
the Equal Protection Clause. In cases alleging sexbased discrimination or discrimination against any
quasi-suspect class, the government must show that a
government action “serves important governmental
objectives and that the discriminatory means
employed are substantially related to the achievement
of those objectives.” United States v. Virginia, 518 U.S.
at 524. The Board’s policy satisfies that requirement:
Its objective was “to provide a safe learning
environment for all students and to protect the privacy
of all students[.]” Pet.101a (Niemeyer, J., dissenting).
This Court has already recognized the need to “afford
members of each sex privacy from the other sex” in
intimate settings, United States v. Virginia, 518 U.S.
at 550 n.19. Public schools, then, have an important
interest in “protect[ing] bodily privacy concerns that
arise from the anatomical differences between the two
sexes.” Pet.116a (Niemeyer, J., dissenting). As Judge
Pryor explained, a bathroom policy like the Board’s
serves the important objectives of “protecting the
interests of children in [(1)] using the bathroom away
from the opposite sex and in [(2)] shielding their bodies
from exposure to the opposite sex.” Adams, 968 F.3d
at 1312 (Pryor, J., dissenting). As he concluded, “[b]y
requiring students to use the bathroom away from the
opposite sex, the policy directly protects the first
interest and eliminates one of the most likely
opportunities for a violation of the second interest. In
short, it easily satisfies intermediate scrutiny[.]” Ibid.
The Board’s policy further served this objective by
making unisex restrooms available to all its students.
4. Compounding the errors in its equal-protection
analysis, the Fourth Circuit held that the Board’s

33
bathroom policy was tainted by “‘a bare *** desire to
harm a politically unpopular group.’” Pet.50a (quoting
Cleburne, 473 U.S. at 446-447), and was “‘marked by
misconception and prejudice’ against Grimm.” Pet.70a
(quoting Tuan Anh Nguyen v. I.N.S., 533 U.S. 53, 73
(2001)).
The Fourth Circuit’s unsubstantiated attacks on
the Board’s motives are both unfair and unbecoming
of the judicial office. The Board did not arbitrarily
“discriminate” against Grimm with prejudice or a
desire to harm him. Instead, the Board, sensitive to
Grimm’s concerns, carefully weighed the choices
before it and created a reasonable plan for addressing
all of its students’ needs. Depending on their resources
and the configuration of their existing facilities, other
school boards might reasonably come out another
way—the Equal Protection Clause allows such play in
the joints. But the existence of other possible solutions
does not make the Board’s plan unconstitutional,
much less bigoted—any more than this Court’s own
recognition of the same privacy interests in United
States v. Virginia, 518 U.S. at 550 n.19, was
unconstitutional or bigoted.
In sum, because transgender individuals are
biologically and meaningfully different from cisgender
individuals who share the same gender identity, the
Equal Protection Clause does not mandate that they
be treated the same. The Fourth Circuit’s contrary
holding contravenes this Court’s settled equalprotection jurisprudence, and should be overturned.

34
B. The Fourth Circuit’s equal-protection
ruling has even more far-reaching
consequences than its Title IX ruling.
Because it threatens to strike down lawful
bathroom policies throughout the Fourth Circuit, the
Fourth Circuit’s equal-protection holding implicates
each issue listed in Section I.C. above. But, as a
constitutional ruling, it goes further still, threatening
every law that distinguishes between men and women
because of immutable, biological differences.
Indeed, without this Court’s review, and in light of
the recent Executive Order, every federal, state and
local law based on differences between the sexes—
including Title IX’s living facilities exception itself—
will be subject to (and likely fail) heightened scrutiny.
If left to stand, then, the Fourth Circuit’s decision “is
virtually certain to have far-reaching consequences”
beyond school restroom policies. Bostock v. Clayton
County, 140 S.Ct. 1731, 1778 (2020) (Alito, J.,
dissenting). As Justice Alito noted, “[o]ver 100 federal
statutes prohibit discrimination because of sex.” Ibid.
Accordingly, every law based on differences between
the sexes will be vulnerable to equal-protection
challenges brought by transgender individuals if this
Court allows the Fourth Circuit’s equal-protection
analysis to stand. Ibid.
Although the proper level of scrutiny that this
Court applies to classifications based on sex is long
settled, the proper level of scrutiny for classifications
of gender identity is not. Regardless whether courts
equate gender-identity classifications with sex-based
classifications or whether gender identity is itself a
suspect class, the lower courts desperately need this

35
Court’s guidance on how to address equal- protection
claims raised by transgender individuals. Until then,
the “entire Federal Judiciary will be mired for years in
disputes” challenging otherwise constitutional sexbased classifications in both state and federal law
when applied to transgender individuals. Bostock, 140
S.Ct. at 1783 (Alito, J., dissenting). The Court should
grant review now to clear up that persistent confusion,
and thereby avoid unnecessary civic strife in public
education and the many other public and private
programs affected by the Fourth Circuit’s analysis.
III.

This Case Remains An Excellent Vehicle.

The Title IX and equal-protection issues presented
here are issues of national importance that this Court
should quickly resolve. And this case—even with its
protracted history—remains the perfect vehicle.
First, both aspects of the question presented were
squarely pressed below, resulting in a lengthy
analysis of each issue from both the Fourth Circuit
and the district court. Moreover, the majority opinion
below prompted a detailed dissent from Judge
Niemeyer, allowing the parties’ contrasting
interpretations of Title IX and the Equal Protection
Clause to be fully elucidated and examined.
Second, this case lacks any jurisdictional or
threshold issues that would prevent the Court from
answering the question presented. Grimm’s
graduation does not impede this Court’s review: He
was awarded damages and attorney’s fees for
prevailing on the merits below. See Buckhannon Bd.
and Care Home, Inc. v. West Virginia Dept. of Health
and Human Resources, 532 U.S. 598, 608-09 (2001)

36
(“[S]o long as the plaintiff has a cause of action for
damages” beyond a “claim for equitable relief,” a case
remains live.); 42 U.S.C. §1988(b). 13
Third, the controversy between the parties is not
over what occurred—everyone agrees the Board
required Grimm to use the girl’s restroom or a private
unisex restroom—but rather whether those actions
violated either Title IX or the Equal Protection Clause.
Finally, because it was the Fourth Circuit, not the
Department of Education, that interpreted Title IX
and 34 C.F.R. §106.33 here, on this record the Court
can perform its own de novo review of the question
presented, unhindered by the Auer deference question
that was at issue when this Court first agreed to hear
the case in 2016. Of course, if the new Administration
decides to participate in this case and again claims
Auer deference for its interpretation of Title IX, the
Court can still grant the petition and add an
appropriate deference-related question for the parties
to address. 14 All concerned—including the thousands
As previously explained (supra note 2), the Board also
remains under an injunction to list Grimm’s sex as male on his
school records. Further, Grimm argued in his 2017 merits brief
that he will “remain subject to the [bathroom] policy for purposes
of any alumni activities or attendance at school events.”
Respondent’s Br. 11 n.8, Gloucester County School Bd. v. G.G.
(No. 16-273).
13

The proper scope of Auer deference was one of the questions
on which certiorari was granted, and which was briefed on the
merits, when this case was previously before the Court. See
Petition for Writ of Certiorari at i, Gloucester County School Bd.
v. G.G. (No. 16-273); Gloucester County School Bd. v. G.G., 137
S.Ct. 369 (2016). Given the short, 100-day window that the
14

37
of schools and school boards that must wrestle with
the questions presented here—will benefit from a
timely and definitive resolution of those questions.
CONCLUSION
The overriding issue in this case is whether federal
law—either Title IX or the Equal Protection Clause—
mandates only one answer to the difficult question of
how a school should respond to transgender students
seeking to be treated consistent with their gender
identities, while accommodating the compelling bodily
privacy interests of their cisgender classmates.
Because both laws permit school boards to reach
different answers to that question, the decision below
was wrong. And because this is a pressing federal
question of nationwide importance, the Court should
grant the petition and resolve the question quickly.
Only then will enforcement agencies and school
boards across the Nation know exactly how much
discretion federal law gives them in this wrenchingly
difficult area of education policy.

President has given the Department of Education to implement
the new Administration’s views concerning gender-identity
discrimination, it is highly doubtful the Department could
complete the notice-and-comment rulemaking that would be
required for it to claim Chevron deference here. But if it did so,
the Court could add a question on Chevron deference as well.

38
Respectfully submitted.
DAVID P. CORRIGAN
JEREMY D. CAPPS
M. SCOTT FISHER JR.
HARMAN, CLAYTOR, CORRIGAN
& WELLMAN
Post Office Box 70280
Richmond, VA 23225
(804) 747-5200
February 19, 2021

GENE C. SCHAERR
Counsel of Record
ERIK S. JAFFE
HANNAH SMITH
JOSHUA J. PRINCE
SCHAERR | JAFFE LLP
1717 K Street NW, Suite 900
Washington, DC 20006
(202) 787-1060
gschaerr@schaerr-jaffe.com

APPENDICES

TABLE OF CONTENTS – APPENDICES
Fourth Circuit, No. 19-1952
Rehearing Denial (Sept. 22, 2020) ...................... 1a
Fourth Circuit, No. 19-1952
Opinion (Aug. 26, 2020) ..................................... 12a
Eastern District of Virginia, No. 4:15-cv-54
Order (Aug. 9, 2019) ........................................ 119a
Supreme Court of the United States, No. 16-273
Order (Mar. 6, 2017) ........................................ 156a
Fourth Circuit, No. 15-2056
Rehearing Denial (May 31, 2016) ................... 157a
Fourth Circuit, No. 15-2056
Opinion (April 19, 2016) ................................... 163a
Eastern District of Virginia, No. 4:15-cv-54
Memo. Opinion (Sept. 17, 2015) ....................... 227a
Table 1
Public-School Data ............................................ 262a

1a
PUBLISHED
FILED: September 22, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
——————
No. 19-1952
(4:15-cv-00054-AWA-RJK)
——————
GAVIN GRIMM,
Plaintiff - Appellee,
v.
GLOUCESTER COUNTY SCHOOL BOARD,
Defendant - Appellant.
-----------------------------NAACP LEGAL DEFENSE AND EDUCATION
FUND, INC.; INTERACT: ADVOCATES FOR
INTERSEX YOUTH; FAIRFAX COUNTY SCHOOL
BOARD; ALEXANDRIA CITY SCHOOL BOARD;
ARLINGTON SCHOOL BOARD; FALLS CHURCH
CITY SCHOOL BOARD; TREVOR PROJECT;
NATIONAL PARENT TEACHER ASSOCIATION;
GLSEN; AMERICAN SCHOOL COUNSELOR
ASSOCIATION; NATIONAL ASSOCIATION OF
SCHOOL PSYCHOLOGISTS; PFLAG, INC.; TRANS
YOUTH EQUALITY FOUNDATION; GENDER
SPECTRUM; GENDER DIVERSITY; CAMPAIGN
FOR SOUTHERN EQUALITY; HE SHE ZE AND WE;
SIDE BY SIDE; GENDER BENDERS; AMERICAN

2a
ACADEMY
OF
PEDIATRICS;
AMERICAN
ACADEMY OF CHILD AND ADOLESCENT
PSYCHIATRY;
AMERICAN
ACADEMY
OF
PHYSICIAN ASSISTANTS; AMERICAN COLLEGE
OF
PHYSICIANS;
AMERICAN
MEDICAL
ASSOCIATION; AMERICAN MEDICAL STUDENTS
ASSOCIATION; AMERICAN MEDICAL WOMEN'S
ASSOCIATION;
AMERICAN
NURSES
ASSOCIATION;
AMERICAN
PSYCHIATRIC
ASSOCIATION; AMERICAN PUBLIC HEALTH
ASSOCIATION; ASSOCIATION OF MEDICAL
SCHOOL PEDIATRIC DEPARTMENT CHAIRS;
GLMA: HEALTH PROFESSIONALS ADVANCING
LGBT EQUALITY; LBGT PA CAUCUS; PEDIATRIC
ENDOCRINE
SOCIETY;
SOCIETY
FOR
ADOLESCENT
HEALTH
AND
MEDICINE;
SOCIETY FOR PHYSICIAN ASSISTANTS IN
PEDIATRICS;
WORLD
PROFESSIONAL
ASSOCIATION FOR TRANSGENDER HEALTH;
LEAH FREGULIA; ADELITA GRIJALVA; DAVID
VANNASDALL, Ed.D.; LOS ANGELES UNIFIED
SCHOOL DISTRICT; JUDY CHIASSON, Ph. D.;
MONICA GARCIA; WENDY RANCK-BUHR, Ph. D.;
SAN DIEGO UNIFIED SCHOOL DISTRICT;
ELDRIDGE GREER, Ph. D.; GREGORY R. MEECE;
FRANKLIN NEWTON, Ed.D.; DIANA K. BRUCE;
DANIEL F. GOHL; DENISE PALAZZO; JEREMY
MAJESKI; KAREN CARNEY; SARAH SHIRK; BETH
BAZER, Ed.D.; PAULA INSLEY MILLER, Ed.D.;
THOMAS WEBER; THOMAS A. ABERLI, Ed.D.;
HOWARD COLTER; MATTHEW HANEY; KEN
KUNIN; ROBERT A. MOTLEY; CATHERINE FROM;
ROGER
BOURGEOIS;
CYNDY
TAYMORE;
LIZBETH DESELM; DYLAN PAULY; DELOIS

3a
COOKE SPRYSZAK; CRAIG MCCALLA; MARY
DORAN; WASHOE COUNTY SCHOOL DISTRICT;
JAMES C. MORSE, SR., Ed.D.; THE SCHOOL
DISTRICT
OF
SOUTH
ORANGE
AND
MAPLEWOOD; THOMAS SMITH, Ed.D.; CRAIG
VAUGHN; ARTHUR DIBENEDETTO; LAS CRUCES
PUBLIC
SCHOOLS;
WENDI
MILLERTOMLINSON, M.D., Ph.D.; JOHN O'REILLY; HEIDI
CARTER; ANTHONY GATTO; ERIC DOSS; PEYTON
CHAPMAN; ZIAD W. MUNSON, Ph. D.; RACHEL
SANTA, Ed.D.; KELLIE M. HARGIS, Ed.D.;
LINDSEY POLLOCK, Ed.D.; BRIAN SCHAFFER;
THE WASHINGTON CENTRAL UNIFIED UNION
SCHOOL DISTRICT; WILL BAKER; LISA LOVE;
SHERIE HOHS; SHERRI CYRA; LAURA H. LOVE,
Ed.D.; JILL GURTNER; MONICA SCHOMMER;
BRYAN DAVIS, Ph. D.; PARU SHAH, Ph. D.; TIM
KENNEY; STATE OF NEW YORK; STATE OF
WASHINGTON; STATE OF CALIFORNIA; STATE
OF COLORADO; STATE OF CONNECTICUT;
STATE OF DELAWARE; STATE OF HAWAII;
STATE OF ILLINOIS; STATE OF MAINE; STATE
OF MARYLAND; STATE OF MASSACHUSETTS;
STATE OF MICHIGAN; STATE OF MINNESOTA;
STATE OF NEVADA; STATE OF NEW JERSEY;
STATE OF NEW MEXICO; STATE OF NORTH
CAROLINA;
STATE
OF
OREGON;
COMMONWEALTH OF PENNSYLVANIA; STATE
OF RHODE ISLAND; STATE OF VERMONT;
COMMONWEALTH OF VIRGINIA; DISTRICT OF
COLUMBIA,
Amici Supporting Appellee.

4a
——————
ORDER
——————
The petition for rehearing en banc filed by the
appellant was circulated to the full court. No judge
requested a poll under Fed. R. App. P. 35. The court
denies the petition for rehearing en banc. Judge
Niemeyer and Judge Wynn submitted statements
concurring in the denial of rehearing en banc. These
statements are attached to this order.
Entered at the direction of Judge Floyd.
For the Court
/s/ Patricia S. Connor, Clerk
NIEMEYER, Circuit Judge, concurring in the denial
of rehearing en banc:
Under every applicable criterion, this case merits
an en banc rehearing. Yet, I concur in denying the
Gloucester County School Board’s motion for such
rehearing. Earlier in these proceedings, this court
ruled against the School Board, and the Supreme
Court granted its petition for a writ of certiorari,
ultimately vacating our opinion on procedural
grounds. There is no reason to conclude that this
court, even though en banc, will change its mind—now
expressed in two opinions. It would, I believe, be the
more efficient course for the School Board again to file

5a
a petition for certiorari in the Supreme Court with the
hope that the Court will again be interested in
granting it. The issues in this case certainly merit its
doing so.
Gavin Grimm, a transgender male, commenced
this action against the School Board in 2015 while he
was a student attending Gloucester High School in
Virginia to require the school to permit him to use its
male restrooms. The High School provided male
restrooms and female restrooms and, under school
policy, “limited [those restrooms] to the corresponding
biological genders.” It also provided unisex restrooms
and made them available to everyone, with the
particular goal of accommodating transgender
students. In doing so, it recognized that all individuals
possess a privacy interest in using restrooms or other
spaces in which they remove clothes and engage in
personal hygiene and that this privacy interest is only
heightened when persons of the opposite sex are
present. The School Board’s policy was thus consistent
with the Supreme Court’s observation that the
“[p]hysical differences between men and women” are
“enduring” and render “the two sexes . . . not
fungible,” and its recognition, in ordering an all-male
college to admit females, that such a remedy “would
undoubtedly require alterations necessary to afford
members of each sex privacy from the other sex.”
United States v. Virginia, 518 U.S. 515, 533, 550 n.19
(1996) (cleaned up).
In his complaint, Grimm nonetheless contended
that the School Board’s policy discriminated against
him “based on his gender,” in violation of the Equal
Protection Clause of the Fourteenth Amendment, and

6a
“on the basis of sex,” in violation of Title IX. Grimm
has acknowledged that the School Board can,
consistent with Title IX and the Equal Protection
Clause, establish one set of restrooms for its male
students and another set for its female students. But
he sought injunctive relief requiring the High School
“to allow [him] to use the boys’ restrooms at school.”
The district court granted summary judgment to
Grimm, holding that the School Board violated
Grimm’s statutory and constitutional rights by not
allowing him to use the male restrooms, and this court
has now affirmed the district court. In doing so,
however, it failed to apply Title IX and its regulations,
as well as established principles under the Equal
Protection Clause. While Title IX prohibits
discrimination “on the basis of sex” in the provision of
educational benefits, 20 U.S.C. § 1681(a), it expressly
allows schools to provide “separate living facilities for
the different sexes,” id. § 1686, including “toilet, locker
room, and shower facilities,” 34 C.F.R. § 106.33. And
the Equal Protection Clause requires only that “all
persons similarly situated should be treated alike.”
City of Cleburne v. Cleburne Living Ctr., 473 U.S. 432,
439 (1985) (emphasis added). The Clause thus “simply
keeps governmental decisionmakers from treating
differently persons who are in all relevant respects
alike.” Nordlinger v. Hahn, 505 U.S. 1, 10 (1992)
(emphasis added). But Grimm is not similarly situated
to the students using the High School’s male
restrooms. Grimm was born a biological female and
identifies as male, and thus his circumstances are
different from the circumstances of students who were
born as biological males. Moreover, such anatomical
differences are at the root of why restrooms are

7a
generally separated on the basis of sex. There is also
no evidence in the record that Grimm was treated any
differently from any other transgender student, nor
does he make such a claim.
In stepping past these applicable legal principles,
this court’s opinion simply advances policy
preferences, which, of course, are for Congress to
define, not our court.
For the reasons given in my dissenting opinion, I
conclude that the School Board fully complied with the
requirements of Title IX and the Equal Protection
Clause in offering its students male and female
restrooms, separating them on the basis of sex, and
also providing safe and private unisex restrooms that
Grimm, along with all other students, could use.
At this point, though, the Gloucester County
School Board should again present this matter to the
Supreme Court, with the hope that the effort will
again bear fruit.
WYNN, Circuit Judge, concurring in the denial of
rehearing en banc:
I join my good colleague Judge Niemeyer in the
wise decision to concur in the denial of an en banc
rehearing.
The School Board’s petition for rehearing is
without merit. Though the question presented by this
case is no doubt one of substantial importance, the
panel opinion aligns with other circuits’ authority. See
Adams ex rel. Kasper v. Sch. Bd. of St. Johns Cnty.,
968 F.3d 1286 (11th Cir. 2020); Whitaker by Whitaker

8a
v. Kenosha Unified Sch. Dist. No. 1 Bd. of Educ., 858
F.3d 1034 (7th Cir. 2017); see also Parents for Priv. v.
Barr, 949 F.3d 1210 (9th Cir. 2020) (rejecting
cisgender students’ privacy-related challenges to
sharing bathrooms with transgender students of the
opposite sex-assigned-at-birth); Doe ex rel. Doe v.
Boyertown Area Sch. Dist., 897 F.3d 518 (3d Cir. 2018)
(same). As stated in Judge Floyd’s thorough majority
opinion, the School Board violated both Title IX and
the Equal Protection Clause by prohibiting Grimm
from using the boys’ bathrooms at school and also by
refusing to amend his school records to accurately
reflect his gender.
Thus, the district court correctly granted summary
judgment to Grimm as to his Equal Protection claim.
The Supreme Court has held that a state action
violates the Equal Protection Clause when it creates
“arbitrary or irrational” distinctions between similarly
situated classes of people out of “a bare . . . desire to
harm a politically unpopular group.” City of Cleburne
v. Cleburne Living Ctr., 473 U.S. 432, 446–47 (1985)
(alteration in original) (quoting U.S. Dep’t of Agric. v.
Moreno, 413 U.S. 528, 534 (1973)). Yet this is precisely
what the Board has done here by first creating and
then repeatedly altering the challenged bathroom
policy for the sole purpose of prohibiting one
transgender student who identified and physically
presented himself as male from affirming his gender
by using the boys’ bathroom at school. Under our
Equal Protection jurisprudence, heightened scrutiny
must be applied to Grimm’s claim. This is because the
bathroom policy, which determines which bathroom a
student must use based on the sex listed on that
student’s birth certificate, necessarily rests on sex-

9a
based classifications; and also because transgender
people meet all of the traditional indicia of
“suspectness” and thus constitute at least a quasisuspect class. See Grimm v. Gloucester Cnty. Sch. Bd.,
No. 19-1952, 2020 WL 5034430, at *14–18 (4th Cir.),
as amended (Aug. 28, 2020).
Under heightened scrutiny, the Board’s policy is
not substantially related to its important interest in
protecting students’ privacy in school bathrooms. Id.
at *18. The positive experiences shared by school
districts nationwide that have allowed transgender
students to use the bathrooms matching their gender
identities, as well as Grimm’s prior use of the boys’
bathrooms for seven weeks without incident,
demonstrate that the Board’s privacy-related concerns
are based on unfounded and irrational fears—similar
to those used to justify the racial segregation of public
bathrooms in the past. Id. at *19; id. at *30 (Wynn, J.,
concurring). If anything, the enforcement of the
Board’s bathroom policy would actually cause the very
privacy violations that it allegedly seeks to prevent: if
individuals like Grimm, who physically appears as
male in every way but his genitals, were to use the
girls’ bathrooms, female students would suffer “a
similar, if not greater, intrusion on bodily privacy than
that the Board ascribes to its male students.” Id. at
*28 (Wynn, J., concurring). Moreover, the events
leading to the adoption of the challenged policy evince
that the Board was motivated by an unlawful
transphobic motive. Id. at *20 (majority opinion). For
these reasons, the Board’s policy violated Grimm’s
Equal Protection rights. And likewise, the Board’s
refusal to update Grimm’s school records to accurately
reflect his gender is not substantially related to its

10a
important interest in maintaining accurate records,
and thus is unconstitutional. Id.
The Board’s bathroom policy and its refusal to
update Grimm’s records also violated Title IX. See id.
at *21. After the Supreme Court’s decision in Bostock
v. Clayton County, 140 S. Ct. 1731 (2020), holding that
discrimination against a transgender person is
necessarily a form of sex-based discrimination, there
is no question that the Board’s policy prohibiting
Grimm from using the boys’ bathrooms discriminated
against him on the basis of sex. Grimm, 2020 WL
5034430, at *21. In the Title IX context, unlawful
discrimination means treating an individual worse
than other similarly situated persons. Bostock, 140 S.
Ct. at 1740 (citing Burlington N. & Santa Fe Ry. Co.
v. White, 548 U.S. 53, 59 (2006)). “Grimm was treated
worse than students with whom he was similarly
situated because he alone could not use the restroom
corresponding with his gender. Unlike the other boys,
he had to use either the girls restroom or a single-stall
option. In that sense, he was treated worse than
similarly situated students.” Grimm, 2020 WL
5034430, at *23. This discrimination caused
significant physical, mental, emotional, and social
harm to Grimm, who developed painful urinary tract
infections as a result of bathroom avoidance and also
suffered from suicidal thoughts. Id. at *22. Therefore,
the Board’s bathroom policy clearly violated Title IX,
as did its refusal to update Grimm’s school records. Id.
at *24.
Notably, Grimm’s Title IX claim did not challenge
the Board’s maintenance of separate bathrooms for
boys and girls. Instead, the unlawful discrimination at

11a
issue here is the “separation of transgender students
from their cisgender counterparts through a policy
that ensures that transgender students may use
neither male nor female bathrooms due to the
incongruence between their gender identity and their
sex-assigned-at-birth.” Id. at *29 (Wynn, J.,
concurring) (emphasis in original). This type of
segregation creates harmful stigma, just as the racial
segregation of restrooms and schools imposed a badge
of inferiority on Black children. Id.; see also Brown v.
Bd. of Educ. of Topeka, 347 U.S. 483, 494 (1954).
The rights guaranteed by our Constitution
enshrine this country’s most fundamental values and
inviolable principles designed to protect individuals
and minorities against majoritarian politics. This is
especially true of the Fourteenth Amendment’s
promise of equal protection of the laws, which was
adopted with the specific purpose of protecting
minorities from majoritarian discrimination. The
district court below delivered on this promise by
holding that under our laws, the Board unlawfully
discriminated against Grimm. That decision was
correct, as this Court has held. Therefore, I join my
colleagues Judge Niemeyer and Judge Floyd in
denying rehearing en banc.

12a
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
——————
No. 19-1952
——————
GAVIN GRIMM,
Plaintiff – Appellee,
v.
GLOUCESTER COUNTY SCHOOL BOARD,
Defendant – Appellant.
----------------------------NAACP LEGAL DEFENSE AND EDUCATION
FUND, INC.; INTERACT: ADVOCATES FOR
INTERSEX YOUTH; FAIRFAX COUNTY SCHOOL
BOARD; ALEXANDRIA CITY SCHOOL BOARD;
ARLINGTON SCHOOL BOARD; FALLS CHURCH
CITY SCHOOL BOARD; TREVOR PROJECT;
NATIONAL PARENT TEACHER ASSOCIATION;
GLSEN; AMERICAN SCHOOL COUNSELOR
ASSOCIATION; NATIONAL ASSOCIATION OF
SCHOOL PSYCHOLOGISTS; PFLAG, INC.; TRANS
YOUTH EQUALITY FOUNDATION; GENDER
SPECTRUM; GENDER DIVERSITY; CAMPAIGN
FOR SOUTHERN EQUALITY; HE SHE ZE AND WE;
SIDE BY SIDE; GENDER BENDERS; AMERICAN
ACADEMY
OF
PEDIATRICS;
AMERICAN
ACADEMY OF CHILD AND ADOLESCENT
PSYCHIATRY;
AMERICAN
ACADEMY
OF

13a
PHYSICIAN ASSISTANTS; AMERICAN COLLEGE
OF
PHYSICIANS;
AMERICAN
MEDICAL
ASSOCIATION; AMERICAN MEDICAL STUDENTS
ASSOCIATION; AMERICAN MEDICAL WOMEN'S
ASSOCIATION;
AMERICAN
NURSES
ASSOCIATION;
AMERICAN
PSYCHIATRIC
ASSOCIATION; AMERICAN PUBLIC HEALTH
ASSOCIATION; ASSOCIATION OF MEDICAL
SCHOOL PEDIATRIC DEPARTMENT CHAIRS;
GLMA: HEALTH PROFESSIONALS ADVANCING
LGBT EQUALITY; LBGT PA CAUCUS; PEDIATRIC
ENDOCRINE
SOCIETY;
SOCIETY
FOR
ADOLESCENT
HEALTH
AND
MEDICINE;
SOCIETY FOR PHYSICIAN ASSISTANTS IN
PEDIATRICS;
WORLD
PROFESSIONAL
ASSOCIATION FOR TRANSGENDER HEALTH;
LEAH FREGULIA; ADELITA GRIJALVA; DAVID
VANNASDALL, Ed.D.; LOS ANGELES UNIFIED
SCHOOL DISTRICT; JUDY CHIASSON, Ph. D.;
MONICA GARCIA; WENDY RANCK-BUHR, Ph. D.;
SAN DIEGO UNIFIED SCHOOL DISTRICT;
ELDRIDGE GREER, Ph. D.; GREGORY R. MEECE;
FRANKLIN NEWTON, Ed.D.; DIANA K. BRUCE;
DANIEL F. GOHL; DENISE PALAZZO; JEREMY
MAJESKI; KAREN CARNEY; SARAH SHIRK; BETH
BAZER, Ed.D.; PAULA INSLEY MILLER, Ed.D.;
THOMAS WEBER; THOMAS A. ABERLI, Ed.D.;
HOWARD COLTER; MATTHEW HANEY; KEN
KUNIN; ROBERT A. MOTLEY; CATHERINE FROM;
ROGER
BOURGEOIS;
CYNDY
TAYMORE;
LIZBETH DESELM; DYLAN PAULY; DELOIS
COOKE SPRYSZAK; CRAIG MCCALLA; MARY
DORAN; WASHOE COUNTY SCHOOL DISTRICT;
JAMES C. MORSE, SR., Ed.D.; THE SCHOOL

14a
DISTRICT
OF
SOUTH
ORANGE
AND
MAPLEWOOD; THOMAS SMITH, Ed.D.; CRAIG
VAUGHN; ARTHUR DIBENEDETTO; LAS CRUCES
PUBLIC
SCHOOLS;
WENDI
MILLERTOMLINSON, M.D., Ph.D.; JOHN O'REILLY; HEIDI
CARTER; ANTHONY GATTO; ERIC DOSS; PEYTON
CHAPMAN; ZIAD W. MUNSON, Ph. D.; RACHEL
SANTA, Ed.D.; KELLIE M. HARGIS, Ed.D.;
LINDSEY POLLOCK, Ed.D.; BRIAN SCHAFFER;
THE WASHINGTON CENTRAL UNIFIED UNION
SCHOOL DISTRICT; WILL BAKER; LISA LOVE;
SHERIE HOHS; SHERRI CYRA; LAURA H. LOVE,
Ed.D.; JILL GURTNER; MONICA SCHOMMER;
BRYAN DAVIS, Ph. D.; PARU SHAH, Ph. D.; TIM
KENNEY; STATE OF NEW YORK; STATE OF
WASHINGTON; STATE OF CALIFORNIA; STATE
OF COLORADO; STATE OF CONNECTICUT;
STATE OF DELAWARE; STATE OF HAWAII;
STATE OF ILLINOIS; STATE OF MAINE; STATE
OF MARYLAND; STATE OF MASSACHUSETTS;
STATE OF MICHIGAN; STATE OF MINNESOTA;
STATE OF NEVADA; STATE OF NEW JERSEY;
STATE OF NEW MEXICO; STATE OF NORTH
CAROLINA;
STATE
OF
OREGON;
COMMONWEALTH OF PENNSYLVANIA; STATE
OF RHODE ISLAND; STATE OF VERMONT;
COMMONWEALTH OF VIRGINIA; DISTRICT OF
COLUMBIA,
Amici Supporting Appellee.
——————
Appeal from the United States District Court for the
Eastern District of Virginia, at Newport News. Arenda

15a
L. Wright Allen, District Judge. (4:15-cv-00054-AWARJK)
——————
Argued: May 26, 2020

Decided: August 26, 2020

——————
Before NIEMEYER, WYNN, and FLOYD, Circuit
Judges.
——————
Affirmed by published opinion. Judge Floyd wrote the
majority opinion, in which Judge Wynn joined. Judge
Wynn wrote a concurring opinion. Judge Niemeyer
wrote a dissenting opinion.
——————
ARGUED: David Patrick Corrigan, HARMAN
CLAYTON CORRIGAN & WELLMAN, Richmond,
Virginia, for Appellant. Joshua A. Block, AMERICAN
CIVIL LIBERTIES UNION FOUNDATION, New
York, New York, for Appellee. ON BRIEF: Jeremy D.
Capps, M. Scott Fisher, Jr., George A. Somerville,
HARMAN CLAYTOR CORRIGAN & WELLMAN,
Richmond, Virginia, for Appellant. Eden B. Heilman,
Jennifer Safstrom, Nicole Tortoriello, AMERICAN
CIVIL
LIBERTIES
UNION
OF
VIRGINIA
FOUNDATION, INC., Richmond, Virginia; Leslie
Cooper, AMERICAN CIVIL LIBERTIES UNION
FOUNDATION, New York, New York, for Appellee.
Sherrilyn A. Ifill, President and Director- Counsel,
Janai S. Nelson, Samual Spital, Jin Hee Lee, Kevin E.
Jason, New York, New York, Christopher Kemmitt,
NAACP LEGAL DEFENSE & EDUCATIONAL
FUND, INC., Washington, D.C.; Suzanne B. Goldberg,

16a
COLUMBIA LAW SCHOOL SEXUALITY AND
GENDER LAW CLINIC, New York, New York, for
Amicus NAACP Legal Defense & Educational Fund,
Inc. Aron Fischer, Jonah M. Knobler, PATTERSON
BELKNAP WEBB & TYLER LLP, New York, New
York, for Amicus interACT: Advocates for Intersex
Youth. Stuart A. Raphael, Sona Rewari, Washington,
D.C., Trevor S. Cox, HUNTON ANDREWS KURTH
LLP, Richmond, Virginia, for Amici Fairfax County
School Board and Other Virginia School Boards.
Howard S. Hogan, Washington, D.C., Abbey Hudson,
Corey G. Singer, Keshia Afia Bonner, GIBSON,
DUNN & CRUTCHER LLP, Los Angeles, California,
for Amicus The Trevor Project. Wesley R. Powell,
Mary Eaton, WILLKIE FARR & GALLAGHER LLP,
New York, New York, for Amici The National PTA,
GLSEN, American School Counselor Association, and
National Association of School Psychologists. Asaf
Orr, Shannon Minter, NATIONAL CENTER FOR
LESBIAN RIGHTS, San Francisco, California; Lynly
Egyes, TRANSGENDER LAW CENTER, Oakland,
California; Maureen P. Alger, John C. Dwyer, Palo
Alto, California, Kyle Wong, Audrey J. Mott-Smith,
COOLEY LLP, San Francisco, California, for Amici
PFLAG, Inc, Trans Youth Equality Foundation,
Gender Spectrum, Gender Diversity, Campaign for
Southern Equality, He She Ze and We, Side by Side,
and Gender Benders. Aaron M. Panner, KELLOGG,
HANSEN, TODD, FIGEL & FREDERICK, PLLC,
Washington, D.C.; Devi M. Rao, Washington, D.C.,
Ethan C. Wong, JENNIFER & BLOCK LLP, New
York, New York, for Amici Medical, Public Health, and
Mental Health Organizations. Richard M. Segal, San
Diego, California, Cynthia Cook Robertson, Robert

17a
C.K. Boyd, William C. Miller, PILLSBURY
WINTHROP SHAW PITTMAN LLP, Washington,
D.C.; Tara L. Borelli, LAMBDA LEGAL DEFENSE
AND EDUCATION FUND, INC., Atlanta, Georgia,
for Amici School Administrators from Twenty-Nine
States and the District of Columbia. Robert W.
Ferguson, Attorney General, Noah G. Purcell,
Solicitor General, Alan D. Copsey, Deputy Solicitor
General, OFFICE OF THE ATTORNEY GENERAL
OF WASHINGTON, Olympia, Washington, for
Amicus State of Washington. Letitia James, Attorney
General, Barbara D. Underwood, Solicitor General,
Anisha S. Dasgupta, Deputy Solicitor General, Linda
Fang, Assistant Solicitor General, OFFICE OF THE
ATTORNEY GENERAL OF NEW YORK, New York,
New York, for Amicus State of New York. Xavier
Becerra, Attorney General, OFFICE OF THE
ATTORNEY GENERAL, Sacramento, California, for
Amicus State of California. Phil Weiser, Attorney
General, OFFICE OF THE ATTORNEY GENERAL
OF COLORADO, Denver, Colorado, for Amicus State
of California. William Tong, Attorney General,
OFFICE OF THE ATTORNEY GENERAL OF
CONNECTICUT, Hartford, Connecticut, for Amicus
State of Connecticut. Kathy Jennings, Attorney
General, DELAWARE DEPARTMENT OF JUSTICE,
Wilmington, Delaware, for Amicus State of Delaware.
Clare E. Connors, Attorney General, OFFICE OF THE
ATTORNEY GENERAL OF HAWAII, Honolulu,
Hawaii, for Amicus State of Hawaii. Kwame Raoul,
Attorney General, OFFICE OF THE ATTORNEY
GENERAL OF ILLINOIS, Chicago, Illinois, for
Amicus State of Illinois. Aaron M. Frey, Attorney
General, OFFICE OF THE ATTORNEY GENERAL

18a
OF MAINE, Augusta, Maine, for Amicus State of
Maine. Brian E. Frosh, Attorney General, OFFICE OF
THE ATTORNEY GENERAL OF MARYLAND,
Baltimore, Maryland, for Amicus State of Maryland.
Maura Healey, Attorney General, OFFICE OF THE
ATTORNEY GENERAL OF MASSACHUSETTS,
Boston, Massachusetts, for Amicus Commonwealth of
Massachusetts. Dana Nessel, Attorney General,
OFFICE OF THE ATTORNEY GENERAL, Lansing,
Michigan, for Amicus State of Michigan. Keith Ellison,
Attorney General, OFFICE OF THE ATTORNEY
GENERAL OF MINNESOTA, St. Paul, Minnesota, for
Amicus State of Minnesota. Aaron D. Ford, Attorney
General, OFFICE OF THE ATTORNEY GENERAL
OF NEVADA, Carson City, Nevada, for Amicus State
of Nevada. Gubrir S. Grewal, Attorney General,
OFFICE OF THE ATTORNEY GENERAL OF NEW
JERSEY, Trenton, New Jersey, for Amicus State of
New Jersey. Hector H. Balderas, Attorney General,
OFFICE OF THE ATTORNEY GENERAL OF NEW
MEXICO, Santa Fe, New Mexico, for Amicus State of
New Mexico. Joshua H. Stein, Attorney General,
OFFICE OF THE ATTORNEY GENERAL OF
NORTH CAROLINA, Raleigh, North Carolina, for
Amicus State of North Carolina. Ellen F. Rosenblum,
Attorney General, OFFICE OF THE ATTORNEY
GENERAL OF OREGON, Salem, Oregon, for Amicus
State of Oregon. Josh Shapiro, Attorney General,
OFFICE OF THE ATTORNEY GENERAL OF
PENNSYLVANIA, Harrisburg, Pennsylvania, for
Amicus Commonwealth of Pennsylvania. Peter F.
Neronha, Attorney General, OFFICE OF THE
ATTORNEY GENERAL OF RHODE ISLAND,
Providence, Rhode Island, for Amicus State of Rhode

19a
Island. Thomas J. Donovan, Jr., Attorney General,
OFFICE OF THE ATTORNEY GENERAL OF
VERMONT, Montpelier, Vermont, for Amicus State of
Vermont. Mark R. Herring, Attorney General,
OFFICE OF THE ATTORNEY GENERAL OF
VIRGINIA, Richmond, Virginia, for Amicus
Commonwealth of Virginia. Karl A. Racine, Attorney
General, OFFICE OF THE ATTORNEY GENERAL
FOR THE DISTRICT OF COLUMBIA, Washington,
D.C., for Amicus District of Columbia.
——————
FLOYD, Circuit Judge:
At the heart of this appeal is whether equal
protection and Title IX can protect transgender
students from school bathroom policies that prohibit
them from affirming their gender. We join a growing
consensus of courts in holding that the answer is
resoundingly yes.
Now a twenty-year-old college student, PlaintiffAppellee Gavin Grimm has spent the past five years
litigating against the Gloucester County School
Board’s refusal to allow him as a transgender male to
use the boys restrooms at Gloucester County High
School. Grimm’s birth-assigned sex, or so-called
“biological sex,” is female, but his gender identity is
male. Beginning at the end of his freshman year,
Grimm changed his first name to Gavin and expressed
his male identity in all aspects of his life. After
conversations with a school counselor and the high
school principal, Gavin entered his sophomore year
living fully as a boy. At first, the school allowed him to
use the boys bathrooms. But once word got out, the

20a
Gloucester County School Board (the “Board”) faced
intense backlash from parents, and ultimately
adopted a policy under which students could only use
restrooms matching their “biological gender.”
The Board built single-stall restrooms as an
“alternative” for students with “gender identity
issues.” Grimm suffered from stigma, from urinary
tract infections from bathroom avoidance, and from
suicidal thoughts that led to hospitalization.
Nevertheless, he persevered in his transition; he
underwent chest reconstruction surgery, received a
state-court order stating that he is male, and amended
his birth certificate to accurately reflect his gender.
But when he provided the school with his new
documentation, the Board refused to amend his school
records.
Grimm first sued in 2015, alleging that, as applied
to exclude him from the boys bathrooms, the Board’s
policy violated the Equal Protection Clause of the
Fourteenth
Amendment
and
constituted
discrimination on the basis of sex, in violation of Title
IX of the Education Amendments of 1972, 20 U.S.C.
§ 1681(a). Since then, Grimm amended his complaint
to add that the Board’s refusal to amend his school
records similarly violates both equal protection and
Title IX. In 2019, after five winding years of litigation,
the district court finally granted Grimm summary
judgment on both claims. It awarded Grimm nominal
damages, declaratory relief, attorney’s fees, and
injunctive relief from the Board’s refusal to correct his
school records. The Board timely appealed. Agreeing
with the district court’s considered opinion, we affirm.

21a
I. Background
A.
To be sure, many of us carry heavy baggage into
any discussion of gender and sex. With the help of our
amici and Grimm’s expert, we start by unloading that
baggage and developing a fact-based understanding of
what it means to be transgender, along with the
implications of gendered-bathroom usage for
transgender students.
Given a binary option between “Women” and
“Men,” most people do not have to think twice about
which bathroom to use. That is because most people
are cisgender, meaning that their gender identity—or
their “deeply felt, inherent sense” of their gender—
aligns with their sex-assigned-at-birth. See Br. of
Amici Curiae Med., Pub. Health, & Mental Health
Orgs. in Supp. of Pl.-Appellee 4–5 (hereinafter “Br. of
Medical Amici”) (primarily relying on Am. Psychol.
Ass’n, Guidelines for Psychological Practice with
Transgender and Gender Nonconforming People, 70
Am. Psychologist 832 (2015)).1 But there have always
1 Amici curiae party to this brief include the following
seventeen leading medical, public health, and mental health
organizations: American Academy of Pediatrics, American
Academy of Child and Adolescent Psychiatry, American Academy
of PAs, American College of Physicians, American Medical
Association, American Medical Students Association, American
Medical Women’s Association, American Nurses Association,
American Psychiatric Association, American Public Health
Association, Association of Medical School Pediatric Department
Chairs, GLMA: Health Professionals Advancing LGBTQ
Equality, LBGT PA Caucus, Pediatric Endocrine Society, Society
for Adolescent Health and Medicine, Society for Physician
Continued …

22a
been people who “consistently, persistently, and
insistently” express a gender that, on a binary, we
would think of as opposite to their assigned sex. See
id. at 8; see also J.A. 174–75 (Dr. Penn Expert Report
& Decl. at 3–4).
Such people are transgender, and they represent
approximately 0.6% of the United States adult
population, or 1.4 million adults. See Br. of Medical
Amici 5. Just like being cisgender, being transgender
is natural and is not a choice. See id. at 7.
Being transgender is also not a psychiatric
condition, and “implies no impairment in judgment,
stability, reliability, or general social or vocational
capabilities.” See id. at 6 (quoting Am. Psychiatric
Ass’n, Position Statement on Discrimination Against
Transgender and Gender Variant Individuals (2012));
see also Br. of Amicus Curiae the Trevor Project in
Supp. of Pl.-Appellee 4 (hereinafter “Br. of Trevor
Project”) (explaining that the World Health
Organization also declassified being transgender as a
mental illness). However, transgender people face
major mental health disparities: they are up to three
times more likely to report or be diagnosed with a
mental health disorder as the general population, Am.
Med. Ass’n & GLMA: Health Professionals Advancing
LGBTQ
Equality,
Issue
Brief:
Transgender
Individuals’ Access to Public Facilities 2 (2018), and
nearly nine times more likely to attempt suicide than
the general population, see Sandy E. James et al.,
Nat’l Ctr. for Transgender Equal., The Report of the
Assistants in Pediatrics, and World Professional Association for
Transgender Health.

23a
2015 U.S. Transgender Survey 114 (Dec. 2016)
(hereinafter “USTS Report”).
Moreover, many transgender people are clinically
diagnosed with gender dysphoria, “a condition that is
characterized by debilitating distress and anxiety
resulting from the incongruence between an
individual’s gender identity and birth-assigned sex.”
Br. of Medical Amici 9; see also Edmo v. Corizon, Inc.,
935 F.3d 757, 768–69 (9th Cir. 2019). Gender
dysphoria is defined in the American Psychiatric
Association’s Diagnostic & Statistical Manual of
Mental Disorders. “[T]o be diagnosed with gender
dysphoria, the incongruence [between gender identity
and assigned sex] must have persisted for at least six
months and be accompanied by clinically significant
distress or impairment in social, occupational, or other
important areas of functioning.” See J.A. 175
(Dr. Penn Expert Report & Decl. at 4); see also Br. of
Medical Amici 9 (citing Am. Psychiatric Ass’n,
Diagnostic and Statistical Manual of Mental
Disorders 451–53 (5th ed. 2013) (hereinafter “DSM5”)). Incongruence between gender identity and
assigned sex must be manifested by at least two of the
following markers:
(1) “[a] marked incongruence between one’s
experienced/expressed gender and primary
and/or secondary sex characteristics”;
(2) “[a] strong desire to be rid of one’s primary
and/or secondary sex characteristics because
of a marked incongruence with one’s
experienced/expressed gender”;

24a
(3) “[a] strong desire for the primary and/or
secondary sex characteristics of the other
gender”;
(4) “[a] strong desire to be of the other gender”;
(5) “[a] strong desire to be treated as the other
gender”; or
(6) “[a] strong conviction that one has the
typical feelings and reactions of the other
gender.”
See DSM-5 at 452 (J.A. 1117).
Puberty is a particularly difficult time for
transgender children, who “often experience
intensified gender dysphoria and worsening mental
health” as their bodies diverge further from their
gender identity. Br. of Medical Amici 10. Left
untreated, gender dysphoria can cause, among other
things, depression, substance use, self-mutilation,
other self-harm, and suicide. Id. at 11. Being subjected
to prejudice and discrimination exacerbates these
negative health outcomes. Id. at 11.
For many years, mental health practitioners
attempted to convert transgender people’s gender
identity to conform with their sex assigned at birth,
which did not alleviate dysphoria, but rather caused
shame and psychological pain. Id. at 11–12.
Fortunately, we now have modern accepted treatment
protocols for gender dysphoria. Developed by the
World Professional Association for Transgender
Health (WPATH), the Standards of Care for the
Health of Transsexual, Transgender, and Gender
Nonconforming People (7th Version 2012) (hereinafter

25a
“WPATH Standards of Care”) represent the consensus
approach of the medical and mental health
community, Br. of Medical Amici 13, and have been
recognized by various courts, including this one, as the
authoritative standards of care, see De’lonta v.
Johnson, 708 F.3d 520, 522–23 (4th Cir. 2013); see also
Edmo, 935 F.3d at 769; Keohane v. Jones, 328
F. Supp. 3d 1288, 1294 (N.D. Fla. 2018), vacated sub
nom. Keohane v. Fla. Dep’t of Corr. Sec’y, 952 F.3d
1257 (11th Cir. 2020).2 “There are no other competing,
evidence-based standards that are accepted by any
nationally or internationally recognized medical
professional groups.” Edmo, 935 F.3d at 769 (quoting
Edmo v. Idaho Dep’t of Corr., 358 F. Supp. 3d 1103,
1125 (D. Idaho 2018)).3
To be sure, some courts have held in the Eighth Amendment
deliberate-indifference context that there remains medical
disagreement as to the necessity of sex reassignment surgery
(SRS), which the WPATH Standards of Care include as a
treatment necessary for some patients. See Gibson v. Collier, 920
F.3d 212, 219–20 (5th Cir. 2019); Kosilek v. Spencer, 774 F.3d 63,
90 (1st Cir. 2014) (discussing one expert’s dismissal of the
WPATH Standards of Care as they pertain to SRS, and later
holding that prison officials were not deliberately indifferent
when presented with “two alternative treatment plans” by
“competent professionals”). But see Flack v. Wis. Dep’t of Health
Servs., 395 F. Supp. 3d 1001, 1017 (W.D. Wis. 2019) (explaining
that the record in Kosilek was developed in 2006, “at which time
medical experts disagreed” as to the necessity of SRS for Kosilek,
and that the Fifth Circuit in Gibson was not presented with new
record evidence, but rather relied on the same 2006 evidentiary
record in Kosilek). We need not offer an opinion one way or the
other.
2

3 That did not prevent the Board from finding an expert,
Dr. Quentin Van Meter, who disagrees with the WPATH
Continued …

26a
The WPATH Standards of Care outline
appropriate treatments for persons with gender
dysphoria, including “[c]hanges in gender expression
and role (which may involve living part time or full
time in another gender role, consistent with one’s
gender identity),” hormone treatment therapy, sex
reassignment surgery, “[s]urgery to change primary
and/or
secondary
sex
characteristics,”
and
psychotherapy “for purposes such as exploring gender
identity, role, and expression; addressing the negative
impact of gender dysphoria and stigma on mental
health;
alleviating
internalized
transphobia;
enhancing social and peer support; improving body
image; or promoting resilience.” See J.A. 200–01
(WPATH Standards of Care 9–10). “The number and
type of interventions applied and the order in which
these take place may differ from person to person,”
J.A. 200 (WPATH Standards of Care 9), and special
considerations are taken before adolescents are
provided with physical transition treatments such as
Standards of Care, and who treats transgender youth by
encouraging them to live in accordance with their sex assigned at
birth. It goes without saying that one can always find a doctor
who disagrees with mainstream medical professional
organizations on a particular issue. Aspects of Dr. Van Meter’s
report blatantly contradict the views of Grimm’s expert, as well
as the American Academy of Pediatrics and our other medical
amici. On appeal, however, the Board relies on Dr. Van Meter’s
testimony only for its assertion that Grimm remained biologically
female. See Opening Br. 12, 27, 46. The Board does not assert
that Dr. Van Meter’s report creates any genuine factual
questions that would impact our legal analysis below. Therefore,
we need not consider the remainder of his assertions, and may
rely on the overwhelming evidence regarding the accepted
standards of care.

27a
hormone therapy, J.A. 209–212 (WPATH Standards of
Care 18–21).
There is no question that there are students in our
K-12 schools who are transgender. For many of us,
gender identity is established between the ages of
three and four years old. Br. of Medical Amici 7. Thus,
some transgender students enter the K-12 school
system as their gender; others, like Grimm, begin to
live their gender when they are older. By the time
youth are teenagers, approximately 0.7% identify as
transgender. That means that there are about 150,000
transgender teens in the United States. That is not to
suggest that people are either cisgender or
transgender, and that everyone identifies as a binary
gender of male or female. Of course, there are other
gender-expansive youth who may identify as
nonbinary, youth born intersex who do or do not
identify with their sex-assigned-at-birth, and others
whose identities belie gender norms. See generally
PFLAG, PFLAG National Glossary of Terms (July
2019), http://pflag.org/glossary (explaining that
“transgender” is “also used as an umbrella term to
describe groups of people who transcend conventional
expectations of gender identity or expression”). But
today’s question is limited to how school bathroom
policies implicate the rights of transgender students
who “consistently, persistently, and insistently”
express a binary gender.
Transgender students face unique challenges in
the school setting. In the largest nationwide study of
transgender
discrimination,
the
2015
U.S.
Transgender Survey (USTS), 77% of respondents who
were known or perceived as transgender in their K-12

28a
schools reported harassment by students, teachers, or
staff. Br. of Amici Curiae Sch. Adm’rs from TwentyNine States & D.C. in Supp. of Pl.-Appellee 6
(hereinafter “Br. of School Administrator Amici”)
(citing USTS Report at 132–35). For such students
who were known or perceived to be transgender:
-

54% reported verbal harassment;

-

52% reported that they were not allowed to
dress in a way expressing their gender;

-

24% reported being physically attacked
because people thought they were
transgender;

-

20% believed they were disciplined more
harshly because teachers or staff thought
they were transgender;

-

13% reported being sexually assaulted
because people thought they were
transgender; and

-

17% reported having left a school due to
severe mistreatment.

USTS Report at 11. Unsurprisingly, then, harassment
of transgender students is also correlated with
academic success: students who experienced greater
harassment had significantly lower grade point
averages. Br. of School Administrator Amici 11. And
harassment at school is similarly correlated with
mental health outcomes for transgender students. The
opposite is also true, though: transgender students
have better mental health outcomes when their
gender identity is affirmed. See Br. of Trevor Project
8.

29a
Using the school restrooms matching their gender
identity is one way that transgender students can
affirm their gender and socially transition, but
restroom policies vary. In one survey, 58% of
transgender youth reported being discouraged from
using the bathroom that corresponds with their
gender. See id. When being forced to use a special
restroom or one that does not align with their gender,
more than 40% of transgender students fast,
dehydrate, or find ways not to use the restroom. Br. of
Amici Curiae the Nat’l PTA, GLSEN, Am. Sch.
Counselor Ass’n, and Nat’l Assoc. of Sch. Psychologists
in Support of Pl.-Appellee 5 (hereinafter “Br. of
Education Association Amici”) (citing Joseph Kosciw
et al., GLSEN, The 2017 National School Climate
Survey: The Experiences of Lesbian, Gay, Bisexual,
Transgender, and Queer Youth in Our Nation’s
Schools 14 (2018)). Such restroom avoidance
frequently leads to medical problems. See id. at 16
(citing Jody L. Herman, Gendered Restrooms and
Minority Stress: The Public Regulation of Gender and
its Impact on Transgender People’s Lives, 19 J. Pub.
Mgmt. & Soc. Pol’y 65, 74–75 (2013)). To respond to
the needs of transgender students, school districts
across the country have implemented policies that
allow transgender students to use the restroom
matching their gender identity, and they have done so
without incident. See generally Br. of School
Administrator Amici; Br. of Education Association
Amici; Br. of Fairfax Cty. Sch. Bd. & Other Va. Sch.
Bds. as Amici Curiae in Support of Appellee and in
Favor of Affirmance (hereinafter “Br. of Virginia
School Board Amici”).

30a
B.
With that essential grounding, we turn to the facts
of this case. In so doing, we recount the district court’s
factual findings, adding only undisputed facts from
the record when helpful to our analysis.
When Gavin Grimm was born, he was identified as
female, and his sex so indicated on his birth certificate.
But Grimm always knew that he was a boy. For
example, when given the choice, he would opt to wear
boys’ clothing. He recounts how uncomfortable he was
when made to wear a dress to a sibling’s wedding.
Grimm also related to male characters, and he felt joy
whenever he was “mis”-identified as a male—whether
by an adult lining children up in “boy-girl” fashion, or
by a good friend who recognized that Grimm was male.
At the time, though, Grimm did not have the language
to describe himself as transgender.
In September 2013, Grimm began attending
Gloucester High School, a public high school in
Gloucester County, Virginia. He was enrolled as a
female.
In April 2014, during Grimm’s freshman year, he
disclosed to his mother that he was transgender. At
Grimm’s request, he began therapy the following
month with Dr. Lisa Griffin, Ph.D., a psychologist
with experience counseling transgender youth.
Dr. Griffin diagnosed Grimm with gender dysphoria.
Dr. Griffin then prepared a treatment documentation
letter stating that Grimm had gender dysphoria, that
he should present as a male in his daily life, that he
should be considered and treated as a male, and that
he should be allowed to use restrooms consistent with

31a
that identity. Dr. Griffin also referred Grimm to an
endocrinologist for hormone treatment.
By the end of his freshman year, Grimm was out to
his whole family, had changed his first name to Gavin,
and was expressing his male identity in all aspects of
his life. He used male pronouns to describe himself. He
even used men’s restrooms when in public, with no
incidents or questions asked.
In August 2014, before the beginning of Grimm’s
sophomore year, Grimm and his mother met with a
school guidance counselor, Tiffany Durr, to discuss his
transition. They gave Durr a copy of Dr. Griffin’s
treatment documentation letter and requested that
Grimm be treated as a boy at school. At the time, the
student bathrooms were all multi-stalled and singlesex—i.e., boys and girls bathrooms. Those bathrooms
were located throughout the school. The only other
options were apparently a restroom located in the
nurse’s office, and the faculty restrooms. Grimm
agreed to use the restroom in the nurse’s office. But
once school started, he “soon found it stigmatizing to
use a separate restroom” and “began to feel anxiety
and shame surrounding [his] travel to the nurse’s
office.” J.A. 113 (Gavin Grimm Decl. at ¶ 29). He also
realized that using the restroom in the nurse’s office
caused him to be late to class because of its location in
the school.
After a few weeks of using the nurse’s office,
Grimm met with Durr again and asked for permission
to use the boys restrooms. Durr asked the high school
principal, Principal Collins, who spoke with the
Superintendent, Dr. Clemons. The Superintendent
deferred to Principal Collins’s judgment, and Principal

32a
Collins allowed Grimm to use the male restrooms. At
that time, the Board was not yet involved. Grimm was
given permission to complete his physical education
courses online and never needed to use the locker
rooms at school.
For seven weeks, Grimm used the boys restrooms
at Gloucester County High School without incident.
Despite that smooth transition, adults in the
community caught wind of the arrangement and
began to complain. Superintendent Clemons,
Principal Collins, and Board members began receiving
numerous complaints via email and phone not only
from adults within that school district but also from
adults in neighboring communities and even other
states. Only one student personally complained to
Principal Collins, and that student did so before the
restroom privacy improvements discussed below.
Following these complaints, Board member Carla
Hook, who had expressed her opposition to having a
transgender male in the boys bathrooms, proposed the
following policy at the Board’s public meeting on
November 11, 2014:
Whereas the [Gloucester County Public Schools
(GCPS)] recognizes that some students
question their gender identities, and
Whereas the GCPS encourages such students to
seek support, advice, and guidance from
parents, professionals and other trusted adults,
and
Whereas the GCPS seeks to provide a safe
learning environment for all students and to
protect the privacy of all students, therefore

33a
It shall be the practice of the GCPS to provide
male and female restroom and locker room
facilities in its schools, and the use of said
facilities shall be limited to the corresponding
biological genders, and students with gender
identity issues shall be provided an alternative
appropriate private facility.
J.A. 775. Neither the Board nor the school informed
either Grimm or his family that Grimm’s bathroom
usage would be up for debate at that Board meeting.
Rather, news of the topic for the meeting spread on
Facebook, and Grimm’s mother found out from a
friend the day before. Grimm and his parents attended
the meeting, at which twenty-four other community
members spoke.
Although some community members supported
creating a separate restroom for Grimm, by and large,
they vehemently opposed allowing Grimm to use the
boys restrooms. Two common themes arose: (1) that
the “majority” must be protected from such minority
intrusion, see, e.g., School Board Meeting, Gloucester
County School Board (Nov. 11, 2014), at 14:48–15:20
(hereinafter,
“November
Meeting”),
http://gloucester.granicus.com/player/clip/1065?view_
id=10 (“It is a disruption. . . . [W]e have more to
consider than just the rights of one student. . . . what
about the rights of other students, the majority of the
students at Gloucester High School.”), cited by
Opening Br. 11 n.2; id. at 18:57–19:06 (“While we have
an obligation to provide minority rights, we still are a
majority rule country . . . .”), and (2) that allowing
transgender students to use the bathroom matching
their gender identity would open the door to predatory

34a
behavior, particularly by male students pretending to
be transgender in order to use the girls bathroom, see,
e.g., id. at 14:27–14:39 (“When we have a situation
with a young man that says they want to identify
themselves as a young lady and they go in . . . the
ladies’ room with ill intent, where does it end?”); id. at
20:57–21:02 (“A young man can come up and say, ‘I’m
a girl, I need to use the ladies’ rooms now.’ And they’d
be lying through their teeth.”).
The Board was set to vote on the proposed policy at
that very meeting but voted 4-3 to delay the vote.
Come the next meeting, held on December 9, 2014, the
comment period was even uglier. One person called
Grimm a “freak” and likened him to a dog, asking:
“must we use tax dollars to install fire hydrants where
you can publicly relieve yourselves?” School Board
Meeting, Gloucester County School Board (Dec. 9,
2014),
at
1:22:54–1:23:34,
http://gloucester.granicus.com/player/clip/1090?view_
id=10, cited by Opening Br. 11 n.3. Another likened
Grimm to a “European” asking for a “bidet.” Id. at
1:40:45–1:40:48. More than one person talked about
Grimm’s gender identity as a choice. See id. at
1:13:58–1:14:09 (“Is it morally right for us to kneel or
bow to the very few who demand that they receive a
special identification to meet needs of their own
perceived body functions?”); id. at 1:18:48–1:19:49
(woman discussing her “former” lesbianism as an
“addiction” from which “Jesus Christ set [her] free”).
And more than one citizen stated that they would vote
out the Board members if they allowed Grimm to use
the boys restroom. See id. at 42:21–42:32, 50:53–50:56,
1:18:00–1:18:05.

35a
At both meetings, Grimm and his parents spoke
out against the proposed policy. Grimm explained in
part how “alienating” and “humiliating” it had been to
use the nurse’s office, and that it “took a lot of time
away from [his] education.” November Meeting at
24:36–24:58. He also explained that he was currently
using the men’s public restrooms in Gloucester County
without “any sort of confrontation of any kind.” Id. at
25:05–25:26.
The Board passed the proposed policy on December
9, 2014 by a 6-1 vote. The following day, Principal
Collins sent a letter to Grimm explaining that he was
no longer allowed to use the boys bathrooms, effective
immediately, and that his further use of those
bathrooms would result in disciplinary consequences.
As a corollary to the policy, the Board approved a
series of updates to the school’s restrooms to improve
general privacy for all students. The updates included
the addition or expansion of partitions between
urinals in male restrooms, the addition of privacy
strips to the doors of stalls in all restrooms, and the
construction of three single-stall unisex restrooms
available to all students.
At the same time that the bathroom policy was
going into place in December 2014, Grimm began
hormone therapy. Hormone therapy “deepened [his]
voice, increased [his] growth of facial hair, and [gave
him] a more masculine appearance.” J.A. 120 (Gavin
Grimm Decl. ¶ 60). But until the single-stall
bathrooms were completed, Grimm’s only option was
to use the girls bathrooms or the restroom in the
nurse’s office. Grimm recalls an incident when he
stayed after school for an event, realized the nurse’s

36a
office was locked, and broke down in tears because
there was no restroom he could use comfortably. A
librarian witnessed this and drove him home. In a
similar vein, and even after the single-user restrooms
had been built, Grimm could not use those restrooms
when at football games. He recounts a friend having
to drive him to a hardware store to use the restroom;
on another occasion, his mother had to come pick him
up early.
The single-stall restrooms were completed on
December 16, 2014, one week after the Board enacted
the policy. Once completed, however, they were
located far from classes that Grimm attended. A map
of the school confirms that no single-user restrooms
were located in Hall D, where Grimm attended most
classes.
Moreover, the single-stall restrooms made Grimm
feel “stigmatized and isolated.” J.A. 117 (Gavin
Grimm Decl. ¶ 47). He never saw any other student
use these restrooms. J.A. 117 (Gavin Grimm Decl.
¶ 48). Principal Collins testified at his deposition that
he never saw a student use the single-user restrooms,
but that he assumed that they were used because they
were cleaned daily.
As commonly occurs for transgender students
prohibited from using the restroom matching their
gender identity, see supra Part I.A, Grimm practiced
restroom avoidance. This caused Grimm to suffer from
recurring urinary tract infections, for which his
mother kept medication “always stocked at home.”
J.A. 133 (Deirdre Grimm Decl. ¶ 26).

37a
During his junior year, Grimm was hospitalized for
suicidal ideation resulting from being in an
environment where he felt “unsafe, anxious, and
disrespected.” J.A. 119 (Gavin Grimm Decl. ¶ 54). In a
moment of affirmation, the hospital admitted him to
the boys ward. The situation at Gloucester County
High School had proved untenable for him, and he
sought other schooling options. Grimm spent his
junior year in a Gloucester County High School
program in a separate building. But that program was
cancelled, and he had to return to the same restroom
situation for his senior year. Having collected credits
in the prior program, he spent as little time at the high
school as possible during his senior year.
At the same time, Grimm’s gender transition
progressed. In June 2015, before his junior year, the
Virginia Department of Motor Vehicles issued Grimm
state identification reflecting that he was male. In
June 2016, Grimm underwent chest reconstruction
surgery (a double mastectomy).4 The Gloucester
County Circuit Court found this to be a type of “gender
reassignment surgery,” and on September 9, 2016, it
issued an order declaring that Grimm is “now
functioning fully as a male” and directing the Virginia
Department of Health to issue him a birth certificate
accordingly. Grimm’s new birth certificate was issued
on October 27, 2016.
Shortly thereafter, Grimm and his mother
provided Gloucester County High School with his new
The parties agree that Grimm could not have undergone
gender confirmation surgery of the genitalia until he was at least
eighteen years old.
4

38a
birth certificate and asked that his school records be
updated to reflect his gender as male. The decision of
whether to amend Grimm’s records accordingly,
though, lay with the Board. In January 2017, through
legal counsel, the Board informed Grimm in a letter
that it declined to update his records. The Board did
not provide a reason, but did inform Grimm of his
right to a hearing, which Grimm did not request.
As part of this litigation, the Board’s 30(b)(6)
witness, Troy Andersen, testified that the Board
refused to update Grimm’s records because, in its
view, Grimm’s amended birth certificate was not
issued in accordance with Virginia law and because it
was marked “void.” Grimm submitted a declaration
from State Registrar and Director of the Division of
Vital Records Janet Rainey, who administers
Virginia’s vital records. Rainey affirmed the validity of
Grimm’s birth certificate, stating: “On October 27,
2016, I issued a birth certificate to Gavin Elliot
Grimm. The birth certificate states his sex as male.”
J.A. 982 (Decl. of Janet M. Rainey).
Grimm graduated high school on June 10, 2017. He
now attends community college in California and
intends to transfer to a four-year university. To do so,
he will need to provide his high school transcript,
which still identifies him as female.
II. Procedural History
The procedural history of this case is winding and
has outlasted Grimm’s high school career, shaping
both the claims and relief sought. Grimm first sued
the Board on June 11, 2015, at the end of his
sophomore year. Grimm alleged that the Board’s

39a
restroom policy impermissibly discriminated against
him in violation of both Title IX of the Education
Amendments of 1972, 20 U.S.C. § 1681(a), and the
Equal Protection Clause of the Fourteenth
Amendment of the United States Constitution. As
relief, he sought compensatory damages and an
injunction allowing him to use the boys restrooms.
Although the Board’s policy similarly applies to locker
room facilities, Grimm did not need to use the locker
rooms and never challenged that aspect of the policy.
Because he only challenges his exclusion from the boys
restrooms, we refer to the policy as the “bathroom” or
“restroom” policy throughout.
The Board filed a motion to dismiss Grimm’s
claims. In the first ruling in Grimm’s case, the district
court denied Grimm’s motion for a preliminary
injunction and dismissed his Title IX claim, holding
that it would not defer to a Guidance Document issued
by the Department of Education’s Office for Civil
Rights (OCR), which, at that time, directed in part
that “[u]nder Title IX, a recipient must generally treat
transgender students consistent with their gender
identity . . . .” See G.G. ex rel. Grimm v. Gloucester Cty.
Sch. Bd., 132 F. Supp. 3d 736, 746 (E.D. Va. 2015).
The district court held that an implementing
regulation of Title IX, 34 C.F.R. § 106.33, “clearly
allows the School Board to limit bathroom access ‘on
the basis of sex,’ including birth of biological sex.” Id.
Grimm filed an interlocutory appeal, and this
Court reversed, holding that the Guidance Document
was entitled to deference. See G.G. ex rel. Grimm v.
Gloucester Cty. Sch. Bd., 822 F.3d 709, 715 (4th Cir.
2016). However, after that decision, the Department

40a
of Education and Department of Justice withdrew its
prior Guidance Document, issuing a new one.
Accordingly, the Supreme Court, which had granted
the Board’s petition for writ of certiorari and had
scheduled oral arguments, summarily vacated this
Court’s decision and remanded for reconsideration in
light of the shift in agency perspective. See Gloucester
Cty. Sch. Bd. v. G.G. ex rel. Grimm, 137 S. Ct. 1239
(2017).
Having graduated from high school, Grimm then
filed an amended complaint, which was assigned to a
different district court judge. The amended complaint
did not seek compensatory damages—only nominal
damages and declaratory relief.5 It also adjusted
Grimm’s Title IX claim in time to extend throughout
his time at Gloucester County High School. Finally, it
incorporated more recent factual developments,
including that Grimm underwent chest reconstruction
surgery, had his sex legally changed under Virginia
law by the Gloucester County Circuit Court, and
received a new birth certificate from the Department
of Health, listing his sex as male. The Board once
again filed a motion to dismiss for failure to state a
claim. In an opinion that would build the basis for
summary judgment, the district court denied the
Board’s motion to dismiss. As to Grimm’s Title IX
claim, the district court held that “claims of
discrimination on the basis of transgender status are
per se actionable under a gender stereotyping theory,”
and that Grimm had sufficiently pleaded sex
Initially, the amended complaint retained Grimm’s request
for a permanent injunction, but Grimm voluntarily dismissed
that request.
5

41a
discrimination that harmed him. See Grimm v.
Gloucester Cty. Sch. Bd., 302 F. Supp. 3d 730, 746–47
(E.D. Va. 2018) (quoting M.A.B. v. Bd. of Educ. of
Talbot Cty., 286 F. Supp. 3d 704, 715 (D. Md. 2018)).
As to his equal protection claim, the district court held
that heightened scrutiny applied both because
“transgender individuals constitute at least a quasisuspect class,” and because Grimm pleaded a sexstereotyping claim. Id. at 749–50. And the policy could
not withstand heightened scrutiny, the district court
reasoned, because it was not substantially related to
the government’s interest in protecting the privacy of
other students. See id. at 751 (explaining that Grimm
used the boys bathroom without incident until adults
complained, that transgender students are not more
likely than others to peep, and that pre-pubescent and
post-pubescent children share bathrooms without
issue). Students enjoyed the added privacy of
partitions installed in the boys bathroom, and if any
students felt that the partitions were insufficient, they
could use the single-stalled bathrooms. See id. But to
tell Grimm alone that he could not use the multistalled boys bathrooms “singled out and stigmatized”
him. Id.
After this win, Grimm filed a second amended
complaint, adding a claim that the Board’s refusal to
update his gender on his school transcripts violates
Title IX and equal protection. Grimm and the School
Board then filed cross-motions for summary
judgment. Again, the district court ruled in Grimm’s
favor, granting him summary judgment on both his
Title IX and equal protection claims.

42a
Grimm filed various exhibits in support of his
motion, including medical treatment records and
letters documenting his treatment. The district court
rejected the Board’s Motion to Strike these exhibits,
holding that the authoring doctors were not being
treated as expert witnesses, and that they were
business records falling within a hearsay exception.
The district court did grant the Board’s Motion to
Strike as to one piece of evidence, however. In
February 2019, the Board had considered a new policy
“that would allow transgender students to use
restrooms consistent with their gender identity if
certain criteria were met.” Grimm v. Gloucester Cty.
Sch. Bd., 400 F. Supp. 3d 444, 455–56 (E.D. Va. 2019).
The district court found that this policy was
inadmissible because it was considered as a part of
settlement negotiations. Id.
On the merits, and applying its prior Title IX
holding as further supported by additional
intervening caselaw, the district court granted
Grimm’s Motion for Summary Judgment on the Title
IX claim. In doing so, it rejected the Board’s contention
that Grimm failed to prove harm, see infra Section V,
because Grimm’s declaration under oath explained
that going to the bathroom was like a “walk of shame,”
and because he suffered urinary tract infections from
trying to avoid the bathroom and was even
hospitalized for suicidal thoughts. See id. at 458. This
was enough to prove that he was harmed; he did not
need expert testimony. See id.
The district court also granted Grimm’s Motion for
Summary Judgment on his equal protection claim,
again finding more intervening support for its prior

43a
holding. The Board had presented a witness by
deposition, Troy Andersen, who testified that using
the toilet or urinal implicates students’ privacy
concerns. However, “[w]hen asked why the expanded
stalls and urinal dividers could not fully address those
situations, Mr. Andersen responded that he ‘was sure’
the policy also protected privacy interests in other
ways, but that he “[couldn’t] think of any other off the
top of [his] head.’” See id. at 461 (alterations in
original). Therefore, the district court found that the
Board’s privacy argument was “based upon sheer
conjecture and abstraction.’” See id. (quoting Whitaker
ex rel. Whitaker v. Kenosha Unified Sch. Dist. No. 1
Bd. of Educ., 858 F.3d 1034, 1052 (7th Cir. 2017)).
Regarding Grimm’s school records, the Board had
argued that Grimm’s amended birth certificate did not
comply with Virginia law. But according to the district
court, any question of compliance was “dispelled by
the Declaration of Janet M. Rainey,” the State
Registrar and Director of the Division of Vital Records,
who issued Grimm’s amended birth certificate. See id.
at 458. The court went on to declare that the Board’s
“continued recalcitrance” to fix his school records
violated both Title IX and equal protection, and it
issued a permanent injunction ordering the Board to
correct Grimm’s school records. Id.
In addition to declaratory relief, the district court
awarded nominal damages to Grimm in the amount of
one dollar for the Board’s Title IX and equal protection
violations, as well as attorney’s fees. The Board timely
appealed.

44a
III. The Board’s Threshold Challenges to
Grimm’s Claims
At the outset, we reject the Board’s two threshold
challenges to Grimm’s claims on appeal: (1) that his
claims pertaining to the restroom policy are moot, and
(2) that his claims pertaining to his school records
must be administratively exhausted.
A. Mootness of Challenge to Restroom Policy
First, the Board contends that we lack jurisdiction
over Grimm’s challenges to the restroom policy
because those claims are mooted by his own
amendments to the complaint, which removed his
request for injunctive relief and compensatory
damages. As characterized by the Board, by only
seeking nominal damages and declaratory relief as to
the restroom policy, “Grimm seeks nothing more than
a judicial stamp of approval, which is not a proper
remedy.” Reply Br. 1. Finding a live controversy, we
reject this argument.
Our jurisdiction is restricted by Article III of the
Constitution to “Cases” and “Controversies.” See
Chafin v. Chafin, 568 U.S. 165, 171 (2013). A case
becomes moot and jurisdiction is lost if, at any time
during federal judicial proceedings, “the issues
presented are no longer ‘live’ or the parties lack a
legally cognizable interest in the outcome.’” See id. at
172 (quoting Already, LLC v. Nike, Inc., 568 U.S. 85,
91 (2013)). But the bar for maintaining a legally
cognizable claim is not high: “As long as the parties
have a concrete interest, however small, in the
outcome of the litigation, the case is not moot.” See id.
(quoting Knox v. Serv. Emps. Int’l Union, Local 1000,

45a
567 U.S. 298, 307 (2012)). Naturally, then, plausible
claims for damages defeat mootness challenges. See
Mission Prod. Holdings, Inc. v. Tempnology, LLC, 139
S. Ct. 1652 (2019) (“If there is any chance of money
changing hands, [the] suit remains live.”); see also 13C
Charles Alan Wright et al., Federal Practice and
Procedure § 3533.3 (3d ed. April 2020 Update)
(hereinafter “Wright & Miller”).
That is true even when the claim is for nominal
damages. See Wright & Miller § 3533.3, n.47
(collecting cases); see also N.Y. State Rifle & Pistol
Ass’n, Inc. v. City of New York, 140 S. Ct. 1525, 1536
(2020) (Alito, J., dissenting) (same). Under this
Circuit’s precedent, “even if a plaintiff’s injunctive
relief claim has been mooted, the action is not moot if
the plaintiff may be ‘entitled to at least nominal
damages.’” Rendelman v. Rouse, 569 F.3d 182, 187
(4th Cir. 2009) (quoting Covenant Media of S.C., LLC
v. City of N. Charleston, 493 F.3d 421, 429 n.4 (4th Cir.
2007)). And the implications are particularly
important in the civil rights context, because such
rights are often vindicated through nominal damages.
See N.Y. State Rifle & Pistol Ass’n, Inc., 140 S. Ct. at
1535 (Alito, J., dissenting) (citing Riverside v. Rivera,
477 U.S. 561, 574 (1986) (plurality opinion)); see also
Riverside, 477 U.S. at 574 (plurality opinion)
(“Regardless of the form of relief he actually obtains, a
successful civil rights plaintiff often secures important
social benefits that are not reflected in nominal or
relatively small damages awards.”).6
6 Additionally, winning nominal damages under 42 U.S.C.
§ 1983 allows for a recovery of attorney’s fees under 42 U.S.C.
Continued …

46a
Nevertheless, the Board analogizes to an Eleventh
Circuit en banc decision, Flanigan’s Enterprises, Inc.
of Georgia v. City of Sandy Springs, 868 F.3d 1248,
1263 (11th Cir. 2017). But Flanigan’s Enterprises is
unpersuasive because it is not on point.
In Flanigan’s Enterprises, the Eleventh Circuit
held that the plaintiff-appellants’ request for
declaratory and injunctive relief from a city ordinance
became moot when the City repealed that ordinance
“unambiguously and unanimously, in open session,”
with “persuasive reasons for doing so.” 868 F.3d at
1263. The City had “expressly, repeatedly, and
publicly disavowed any intent to reenact [the
challenged] provision,” which it had “never enforced in
the first place.” Id. (emphasis added). The Eleventh
Circuit then turned to the appellants’ “lone”
remaining request, nominal damages. It explained
that, in some situations, nominal damages have a
“practical effect” or are the “appropriate remedy”; in
others, nominal damages “would serve no purpose
other than to affix a judicial seal of approval to an
outcome that has already been realized.” Id. at 1264.
Flanigan’s Enterprises was “squarely of that last
variety,” the court said, because the appellants had
“already won.” Id.
§ 1988, thereby allowing plaintiffs with insufficient funds to hire
an attorney at market rate, and with little prospect of a great
recovery, to be matched with a civil rights attorney. See generally
Riverside, 477 U.S. at 576–80 (plurality opinion) (discussing the
importance of the § 1988 framework for vindicating civil rights).
Holding that claims for nominal damages are moot would
undermine this framework by discouraging attorneys from
taking cases such as Grimm’s.

47a
Flanigan’s Enterprises is distinct at every turn.
Whereas the ordinance at issue in that case had never
been enforced, and had been publicly retracted, here
the Board unquestionably applied its policy against
Grimm. To this day, the Board and Grimm “vigorously
contest” the legality of the bathroom policy as applied
to Grimm. See Chafin, 133 S. Ct. at 1024 (holding that
a case was not moot when the parties continued to
“vigorously contest the question of where their
daughter w[ould] be raised”). Unlike the Eleventh
Circuit in Flanigan’s Enterprise, we are presented
with a “live controversy,” Hall v. Beals, 396 U.S. 45,
48 (1969), that is “likely to be redressed by a favorable
judicial decision,” Lewis v. Cont’l Bank Corp., 494 U.S.
472, 477 (1990). As seen by this drawn-out litigation,
it will only be redressed by a favorable judicial
decision.
B. Administrative Exhaustion of School Records
Decision
Second, the Board asserts that Grimm was
required to exhaust his administrative remedies by
requesting a hearing after he learned of the Board’s
final decision. “Where relief is available from an
administrative agency, the plaintiff is ordinarily
required to pursue that avenue of redress before
proceeding to the courts; and until that recourse is
exhausted, suit is premature and must be dismissed.”
Reiter v. Cooper, 507 U.S. 258, 269 (1993). The Board
is correct that the Family Educational Rights and
Privacy Act of 1974 (FERPA), 20 U.S.C. § 1232g,
under which Grimm requested that his records be
amended, provides for a hearing. See 34 C.F.R.
§ 99.20(c) (“If the educational agency or institution

48a
decides not to amend the record as requested, it shall
inform the parent or eligible student of its decision and
of his or her right to a hearing under § 99.21.”). When
read together with broader agency principles, the
Board believes that FERPA’s regulatory hearing
provision demands exhaustion.
In sharp contrast to a statute like the Prison
Litigation Reform Act of 1995 (PLRA), which demands
“proper exhaustion,” see Woodford v. Ngo, 548 U.S. 81,
93 (2006), the FERPA says nothing about exhausting
administrative remedies. Cf. PLRA, 42 U.S.C.
§ 1997e(a) (“No action shall be brought . . . until such
administrative remedies as are available are
exhausted.”). Facing Congressional silence, rather
than an express exhaustion provision, “sound judicial
discretion governs.” McCarthy v. Madigan, 503 U.S.
140, 144 (1992), superseded on other grounds by
statute, 42 U.S.C. § 1997e(a).
Even when considering a different education
statute with an explicit exhaustion requirement, the
Individuals with Disabilities Education Act (IDEA),
20 U.S.C. § 1415(l), the Supreme Court held that its
exhaustion requirement is not implicated when the
gravamen of the suit is disability discrimination in
violation of other federal laws, rather than a more
direct violation of the IDEA itself. See Fry v. Napoleon
Cmty. Schs., 137 S. Ct. 743, 755 (2017). And here, the
“gravamen” of Grimm’s suit is discrimination, rather
than technical violations of the FERPA. See Fry, 137
S. Ct. at 755.7 Grimm is not complaining that the
7 The Board cites one case that, in its view, suggests that
FERPA has an exhaustion requirement. But that case holds only
Continued …

49a
Board failed to follow the FERPA, but rather that it
acted in a discriminatory manner when it refused to
amend his records.
We may ask ourselves what benefit a hearing could
have provided Grimm, when the Board continues to
deny his request in the face of both a court order
stating that his sex is male and a declaration from the
State Registrar affirming the validity of his new birth
certificate. If the FERPA ever implicitly demands such
complete exhaustion, it does not do so in a
discrimination case such as this one.
IV. Grimm’s Equal Protection Claim
Holding that Grimm’s challenges to the bathroom
policy are not moot, and that he need not have strictly
exhausted his administrative remedies as to his school
records, we turn to the merits of his claims, beginning
with his constitutional claim that both the restroom
policy and the failure to amend his school records
violated equal protection, as applied to him.
We address the Board’s two challenged actions in
turn. In doing so, we review the district court’s grant
of summary judgment to Grimm de novo. See Bostic v.
Schaefer, 760 F.3d 352, 370 (4th Cir. 2014). Summary
judgment is only appropriate when there is “no
genuine dispute as to any material fact” and “the
that the student must at least provide the school with
documentation of a gender change before suing. See Johnston v.
Univ. of Pittsburgh of Com. Sys. of Higher Educ., 97 F. Supp. 3d
657, 663 (W.D. Pa. 2015) (rejecting transgender student’s claims
arising out of the school’s failure to amend his records because
the student had not presented a court order or birth certificate,
and never followed through).

50a
movant is entitled to judgment as a matter of law.”
Ret. Comm. of DAK Ams. LLC v. Brewer, 867 F.3d 471,
479 (4th Cir. 2017) (quoting Fed. R. Civ. P. 56(a)).
A. The Board’s Restroom Policy
To analyze Grimm’s as-applied constitutional
challenge to the Board’s restroom policy, we must
begin with the equal protection framework. The Equal
Protection Clause of the Fourteenth Amendment
provides that “[n]o State shall . . . deny to any person
within its jurisdiction the equal protection of the
laws.” U.S. Const. amend. XIV, § 1. It is “essentially a
direction that all persons similarly situated should be
treated alike.” City of Cleburne v. Cleburne Living
Ctr., 473 U.S. 432, 439 (1985). The Equal Protection
Clause protects us not just from state-imposed
classifications, but also from “intentional and
arbitrary discrimination.” See Vill. of Willowbrook v.
Olech, 528 U.S. 562, 564 (2000) (per curiam) (quoting
Sioux City Bridge Co. v. Dakota Cty., 260 U.S. 441, 445
(1923)); see also Jack M. Balkin & Reva B. Siegel, The
American Civil Rights Tradition: Anticlassification or
Antisubordination?, 58 U. Miami L. Rev. 9 (2003)
(explaining that the Equal Protection Clause contains
both
anticlassification
and
antisubordination
principles). Put another way, state action is
unconstitutional when it creates “arbitrary or
irrational” distinctions between classes of people out
of “a bare . . . desire to harm a politically unpopular
group.” Cleburne, 473 U.S. at 446–47 (quoting U.S.
Dep’t of Agric. v. Moreno, 413 U.S. 528, 534 (1973)); see
also United States v. Virginia, 518 U.S. 515, 534
(1996) (sex-based classifications “may not be used, as
they once were, to create or perpetuate the legal,

51a
social, and economic inferiority of women” (citation
omitted)).
When considering an equal protection claim, we
first determine what level of scrutiny applies; then, we
ask whether the law or policy at issue survives such
scrutiny. For the reasons that follow, we conclude that
heightened scrutiny applies to Grimm’s claim because
the bathroom policy rests on sex-based classifications
and because transgender people constitute at least a
quasi-suspect class. Therefore, to withstand judicial
scrutiny, the Board’s bathroom policy must be
“substantially related to a sufficiently important
governmental interest.” See Cleburne, 473 U.S. at 441.
Because we hold that the Board’s policy as applied to
Grimm is not substantially related to the important
objective of protecting student privacy, we affirm
summary judgment to Grimm.
1.
In determining what level of scrutiny applies to a
plaintiff’s equal protection claim, we look to the basis
of the distinction between the classes of persons. See
generally United States v. Carolene Products Co., 304
U.S. 144, 152 n.4 (1938). Representing two ends of the
scrutiny spectrum, most classifications are generally
benign and are upheld so long as they are “rationally
related to a legitimate state interest,” Cleburne, 473
U.S. at 440, whereas race-based classifications are
“inherently suspect” and must be “strictly
scrutinized,” Adarand Constructors, Inc. v. Pena, 515
U.S. 200, 223–24 (1995) (internal quotation mark
omitted).

52a
Sex is somewhere in the middle, constituting a
quasi-suspect class. Sex8 is only quasi-suspect
because, although it “frequently bears no relation to
the ability to perform or contribute to society,’”
Cleburne, 473 U.S. at 440–41 (quoting Frontiero v.
Richardson, 411 U.S. 677, 686 (1973) (plurality
opinion)), the Supreme Court has recognized “inherent
differences” between the biological sexes that might
provide appropriate justification for distinctions, see
Virginia, 518 U.S. at 534 (citing, as examples of
appropriate sex-based distinctions, “compensat[ing]
women for particular economic disabilities” and
“promot[ing] equal employment opportunity” (internal
quotation marks omitted)); see also Tuan Anh Nguyen
v. I.N.S., 533 U.S. 53, 73 (2001) (holding that less
burdensome citizenship application requirements for
the child of a citizen mother than that of a citizen
father withstands intermediate scrutiny, in part
because “[t]o fail to acknowledge even our most basic
biological differences—such as the fact that a mother
must be present at birth but the father need not be—
risks making the guarantee of equal protection
superficial, and so disserving it”).

We acknowledge that the Supreme Court has, in certain
equal protection cases, used both the terms “gender” and “sex”
interchangeably. See, e.g., Miss. Univ. for Women v. Hogan, 458
U.S. 718 (1982); Virginia, 518 U.S. at 515. Therefore, Grimm has
preserved an argument that transgender individuals necessarily
fall under this line of cases based on gender discrimination.
Because we need not reach this question in order to resolve
Grimm’s appeal, we treat this line of cases on perhaps its
narrower terms—that is, as referring to classifications based on
biological sex.
8

53a
Because sex-based classifications are quasisuspect, they are subject to a form of heightened
scrutiny. Cleburne, 473 U.S. at 440–41. Specifically,
they are subject to intermediate scrutiny, meaning
that they “fail[] unless [they are] substantially related
to a sufficiently important governmental interest.” See
id. at 441. To survive intermediate scrutiny, the state
must provide an “exceedingly persuasive justification”
for its classification. See Virginia, 518 U.S. at 534.
a.
On its face, the Board’s policy creates sex-based
classifications for restrooms. It states that the school
district will “provide male and female restroom and
locker room facilities in its schools, and the use of said
facilities shall be limited to the corresponding
biological genders.” J.A. 775. The only logical reading
is that “corresponding biological genders” refers back
to “male and female.” And, although the Board did not
define “biological gender,” it has defended its policy by
taking the position that it will rely on the sex marker
on the student’s birth certificate. We agree with the
Seventh and now Eleventh Circuits that when a
“School District decides which bathroom a student
may use based upon the sex listed on the student’s
birth certificate,” the policy necessarily rests on a sex
classification. See Whitaker, 858 F.3d at 1051
(applying heightened scrutiny to a transgender
student’s equal protection claim regarding a bathroom
policy); see also Adams ex. rel. Kasper v. Sch. Bd. of St.
Johns Cty., No. 18-13592, 2020 WL 4561817, at *5
(11th Cir. Aug. 7, 2020) (same). As in Whitaker, such
a policy “cannot be stated without referencing sex.”

54a
See id.; accord M.A.B., 286 F. Supp. 3d at 719. On that
ground alone, heightened scrutiny should apply.
Moreover, and as the district court held, “Grimm
was subjected to sex discrimination because he was
viewed as failing to conform to the sex stereotype
propagated by the Policy.” Grimm, 302 F. Supp. 3d at
750. Many courts, including the Seventh and Eleventh
Circuits, have held that various forms of
discrimination against transgender people constitute
sex-based discrimination for purposes of the Equal
Protection Clause because such policies punish
transgender persons for gender non-conformity,
thereby relying on sex stereotypes. See, e.g., Whitaker,
858 F.3d at 1051 (holding that the School District’s
bathroom
policy
“treat[ed]
transgender
students . . . who fail to conform to the sex-based
stereotypes associated with their assigned sex at
birth, differently”); Glenn v. Brumby, 663 F.3d 1312,
1319 (11th Cir. 2011) (“Ever since the Supreme Court
began to apply heightened scrutiny to sex-based
classifications, its consistent purpose has been to
eliminate discrimination on the basis of gender
stereotypes.”); Smith v. City of Salem, 378 F.3d 566,
573–75; 578 (6th Cir. 2004) (applying a sexstereotyping theory, albeit without mentioning a level
of scrutiny, and holding that the transgender plaintiff
stated a sex discrimination claim in violation of equal
protection); M.A.B., 286 F. Supp. 3d at 719 (holding
that a school locker room policy was subject to
heightened scrutiny because it “classifie[d] [the
plaintiff] differently on the basis of his transgender
status, and, as a result, subject[ed] him to sex
stereotyping”); see also Doe 1 v. Trump, 275
F. Supp. 3d 167, 210 (D.D.C. 2017) (military bans on

55a
transgender persons subject to heightened scrutiny
because they “punish individuals for failing to adhere
to gender stereotypes”), vacated sub nom. Doe 2 v.
Shanahan, 755 F. App’x 19 (D.C. Cir. 2019); Stone v.
Trump, 280 F. Supp. 3d 747, 768 (D. Md. 2017)
(adopting Doe 1 rationale); Norsworthy v. Beard, 87
F. Supp. 3d 1104, 1119 (N.D. Cal. 2015) (holding that
discrimination on the basis of transgender status is
subject to intermediate scrutiny in part under sexstereotyping theory).9 In so holding, these courts have
recognized a central tenet of equal protection in sex
discrimination cases: that states “must not rely on
overbroad generalizations” regarding the sexes. See
Virginia, 518 U.S. at 533; see also Miss. Univ. for
Women, 458 U.S. at 724–25 (“Although the test for
determining the validity of a gender-based
classification is straightforward, it must be applied
free of fixed notions concerning the roles and abilities
of males and females.”).
For each of these independent reasons, we hold
that the Board’s policy constitutes sex-based
discrimination as to Grimm and is subject to
intermediate scrutiny. And although the Board raises

As relied on by the Board, one 2015 district court case goes
the other way, Johnston, 97 F. Supp. 3d at 671, but the same
district court later chose not to follow that decision, see Evancho
v. Pine–Richland Sch. Dist., 237 F. Supp. 3d 267, 287 (W.D. Pa.
2017) (“Johnston also acutely recognized that cases involving
transgender status implicate a fast-changing and rapidlyevolving set of issues that must be considered in their own factual
contexts. To be sure, Johnston’s prognostication of that reality
was profoundly accurate.” (citation omitted)).
9

56a
two related counterarguments in an effort to convince
us otherwise, we reject them both.
First, the Board contends that all students are
treated the same, regardless of sex, because the policy
applies to everyone equally. See Reply Br. 16 (noting
that any student may use a “private, single-stall
restroom,” and “[n]o student is permitted to use the
restroom of the opposite sex”). But that is like saying
that racially segregated bathrooms treated everyone
equally, because everyone was prohibited from using
the bathroom of a different race. No one would suppose
that also providing a “race neutral” bathroom option
would have solved the deeply stigmatizing and
discriminatory nature of racial segregation; so too
here. Rather, the Board said what it meant: “students
with gender identity issues shall be provided an
alternative appropriate private facility.” J.A. 775. The
single-stall restrooms were created for “students with
gender identity issues.” And by “students,” the Board
apparently meant Grimm, as, per its own deposition
witness, it “only ha[d] a sample size of one.” J.A. 458.
The Board suggests that this purpose insulates its
policy from intermediate scrutiny, because it shows
that the policy “relies solely on transgender status.”
See Opening Br. 46. But again, how does the Board
determine transgender status, if not by looking to
what it calls “biological gender”?
Second, the Board contends that even if the policy
necessarily involves sex-based discrimination, it
cannot violate equal protection because Grimm is not
similarly situated to cisgender boys. Instead, it asks
us to compare Grimm’s treatment under the policy to
the treatment of students it would consider to be

57a
“biological” girls, because Grimm’s “choice of gender
identity did not cause biological changes in his body,
and Grimm remain[ed] biologically female.” Opening
Br. 46. But embedded in the Board’s framing is its own
bias: it believes that Grimm’s gender identity is a
choice, and it privileges sex-assigned-at-birth over
Grimm’s medically confirmed, persistent and
consistent gender identity. The policy itself
“recognizes that some students question their gender
identities,” and states that such students have “gender
identity issues.” J.A. 775. Grimm, however, did not
question his gender identity at all; he knew he was a
boy. See Adams ex rel. Kasper v. Sch. Bd. of St. Johns
Cty., 318 F. Supp. 3d 1293, 1317 (M.D. Fla. 2018)
(“There is no evidence to suggest that [the transgender
plaintiff’s] identity as a boy is any less consistent,
persistent and insistent than any other boy.”). The
overwhelming thrust of everything in the record—
from Grimm’s declaration, to his treatment letter, to
the amicus briefs—is that Grimm was similarly
situated to other boys, but was excluded from using
the boys restroom facilities based on his sex-assignedat-birth. Adopting the Board’s framing of Grimm’s
equal protection claim here would only vindicate the
Board’s own misconceptions, which themselves reflect
“stereotypic notions.” See Miss. Univ. for Women, 458
U.S. at 725 (“Care must be taken in ascertaining
whether the [state’s] objective itself reflects archaic
and stereotypic notions.”).10

10 Our dissenting colleague’s opinion reveals why this is so.
To avoid a conclusion that Grimm was similarly situated to other
boys, the dissent fails to “meaningfully reckon with what it
Continued …

58a
b.
Alternatively, and as held by the district court in
this case, we conclude that heightened scrutiny
applies because transgender people constitute at least
a quasi-suspect class.
Although the Seventh Circuit declined to reach the
question of whether heightened scrutiny applies to
transgender persons in Whitaker, many district
courts, including the district court here, have analyzed
the relevant factors for determining suspect class
status and held that transgender people are at least a
quasi-suspect class. See Evancho v. Pine–Richland
Sch. Dist., 237 F. Supp. 3d 267, 288 (W.D. Pa. 2017)
(holding that transgender people constitute a quasisuspect class); Adkins v. City of New York, 143
F. Supp. 3d 134, 139 (S.D.N.Y. 2015) (same); Bd. of
Educ. of the Highland Local Sch. Dist. v. U.S. Dep’t of
Educ., 208 F. Supp. 3d 850, 873 (S.D. Ohio 2016)
(same); M.A.B., 286 F. Supp. 3d at 718–19 (same);
Norsworthy, 87 F. Supp. 3d at 1119 (same); F.V. v.
Barron, 286 F. Supp. 3d 1131, 1145 (D. Idaho 2018)
(same); Flack v. Wis. Dep’t of Health Servs., 328
F. Supp. 3d 931, 951–53 (W.D. Wis. 2018) (explaining
in a ruling on a preliminary injunction why
heightened scrutiny would likely apply to transgender

means for [Grimm] to be a transgender boy.” See Adams, 2020
WL 4561817, at *2 n.2; see also Dissenting Op. at 93–94. We have
been presented with a strong record documenting the modern
medical understanding of what it means to be transgender, and
considering that evidence is definitively the role of this Court.

59a
persons).11 As articulated by one district court, “one
would be hard-pressed to identify a class of people
more discriminated against historically or otherwise
more deserving of the application of heightened
scrutiny when singled out for adverse treatment, than
transgender people.” Flack, 328 F. Supp. 3d at 953.
Moreover, the Ninth Circuit recently joined the many
district courts in holding that transgender people
constitute a quasi-suspect class. See Karnoski v.
Trump, 926 F.3d 1180, 1200 (9th Cir. 2019) (affirming
the district court’s reasoning as to why transgender
people are a quasi-suspect class). Only one court of
appeals decision holding otherwise remains good law,
but it reluctantly followed a since-overruled Ninth
Circuit opinion. See Brown v. Zavaras, 63 F.3d 967,
971 (10th Cir. 1995) (noting that “[r]ecent research
concluding that sexual identity may be biological
suggests reevaluation of [Holloway v. Arthur Andersen
& Co. 566 F.2d 659 (9th Cir. 1977),]” but following it
regardless because the plaintiff’s allegations were “too
conclusory to allow proper analysis”).
Engaging with the suspect class test, it is apparent
that transgender persons constitute a quasi-suspect
class. We consider four factors to determine whether a
group of people constitutes a suspect or quasi-suspect
class. First, we consider whether the class has
historically been subject to discrimination. Bowen v.
Gilliard, 483 U.S. 587, 602 (1987). Second, we
determine if the class has a defining characteristic
The Eleventh Circuit was not presented with this question
in Adams because the parties agreed that heightened scrutiny
applied to the plaintiff’s claim based on that Circuit’s precedent
in Glenn, 663 F.3d at 1319. See Adams, 2020 WL 4561817, at *4.
11

60a
that bears a relation to its ability to perform or
contribute to society. Cleburne, 473 U.S. at 440–41.
Third, we look to whether the class may be defined as
a discrete group by obvious, immutable, or
distinguishing characteristics. Bowen, 483 U.S. at
602. And fourth, we consider whether the class is a
minority lacking political power. Id. Each factor is
readily satisfied here.
First,
take
historical
discrimination.
Discrimination against transgender people takes
many forms. Like the district court, we provide but a
few examples to illustrate the broader picture. See
Grimm, 302 F. Supp. 3d at 749 (“[T]here is no doubt
that transgender individuals historically have been
subjected to discrimination on the basis of their
gender identity, including high rates of violence and
discrimination in education, employment, housing,
and healthcare access.” (collecting cases)). As
explained in the Brief of the Medical Amici, being
transgender was pathologized for many years. As
recently as the DSM-3 and DSM-4, one could receive a
diagnosis of “transsexualism” or “gender identity
disorder,” “indicat[ing] that the clinical problem was
the discordant gender identity.” See John W. Barnhill,
Introduction, in DSM-5 Clinical Cases 237–38 (John
W. Barnhill ed., 2014). Whereas “homosexuality” was
removed from the DSM in 1973, “gender identity
disorder” was not removed until the DSM-5 was
published in 2013. See Kevin M. Barry et al., A Bare
Desire to Harm: Transgender People and the Equal
Protection Clause, 57 B.C. L. Rev. 507, 509–10, 517
(2016). What is more, even though being transgender
was marked as a mental illness, coverage for
transgender persons was excluded from the

61a
Americans with Disabilities Act of 1990 (ADA) after a
floor debate in which two senators referred to these
diagnoses as “sexual behavior disorders.” See Barry et
al., supra, at 510; see also 42 U.S.C. § 12211(b)(1). The
following year, Congress added an identical exclusion
to the Rehabilitation Act of 1973, “stripping
transgender people of civil rights protections they had
enjoyed for nearly twenty years.” Barry et al., supra,
at 556; see also H.R. Rep. No. 102-973, at 158 (1992).
The transgender community also suffers from high
rates of employment discrimination, economic
instability, and homelessness. According to the
National
Transgender
Discrimination
Survey
12
(NTDS), people who are transgender are twice as
likely as the general population to have experienced
unemployment. When employed, 97% of NTDS
respondents reported experiencing some form of
mistreatment at work, or “hiding their gender
transition to avoid such treatment.” Barry et al.,
supra, at 552. NTDS respondents were “four times
more likely than the general population to have a
household income of less than $10,000 per year,” and
two and a half times more likely to have experienced
homelessness. Id.
That is not all. Transgender people frequently
experience harassment in places such as schools
(78%), medical settings (28%), and retail stores (37%),
The NTDS is a major national survey on transgender
discrimination. Along with its successor, the USTS, the NTDS
has been relied upon by many amici to this case, as well as other
courts. See, e.g., Whitaker, 858 F.3d at 1051 (citing to the NTDS);
M.A.B., 286 F. Supp. 3d at 720 (citing to both the NTDS and the
USTS); Adkins, 143 F. Supp. 3d at 139 (relying on the NTDS).
12

62a
and they also experience physical assault in places
such as schools (35%) and places of public
accommodation (8%). See id. at 553. Indeed,
transgender people are more likely to be the victim of
violent crimes. Id. So, in 2009, Congress expanded
federal protections against hate crimes to include
crimes based on gender identity. Id. at 555. In so
doing, the House Judiciary Committee recognized the
“extreme bias against gender nonconformity” and the
“particularly violent” crimes perpetrated against
transgender persons. See id.
Of course, current measures and policies continue
to target transgender persons for differential
treatment. Without opining on the legality of such
measures, we note that policies precluding
transgender persons from military service, even after
the repeal of “Don’t Ask, Don’t Tell,” see Gary J. Gates
& Jody L. Herman, Transgender Military Service in
the United States 1 (2014), have recently been reimplemented as to most transgender service members.
And this year, the Governor of Idaho signed into law a
bill that would ban transgender individuals from
changing the gender marker on their birth certificates,
as Virginia law allowed Grimm to do. Further still, the
Department of Health and Human Services recently
issued a final rule redefining “sex discrimination” for
purposes of Section 1557 of the Affordable Care Act to
encompass only biological sex, and not gender
identity. The list surely goes on.
Next, we turn to the second factor—whether the
class has a defining characteristic that “bears [a]
relation to ability to perform or contribute to society.’”
Cleburne, 473 U.S. at 440–41 (quoting Frontiero, 441

63a
U.S. at 677). Being transgender bears no such
relation. Seventeen of our foremost medical, mental
health, and public health organizations agree that
being transgender “implies no impairment in
judgment, stability, reliability, or general social or
vocational capabilities.” See Br. of Medical Amici 6
(quoting Am. Psychiatric Ass’n, Position Statement on
Discrimination Against Transgender and Gender
Variant Individuals 1 (2012)). Although some
transgender individuals experience gender dysphoria,
and that could cause some level of impairment, not all
transgender persons have gender dysphoria, and
gender dysphoria is treatable. See id. “Importantly,
‘transgender’ and ‘impairment’ are not synonymous.”
Barry et al., supra, at 558.
That leaves the third and fourth factors. As to the
third factor, transgender people constitute a discrete
group with immutable characteristics: Recall that
gender identity is formulated for most people at a very
early age, and, as our medical amici explain, being
transgender is not a choice. Rather, it is as natural
and immutable as being cisgender. Br. of Medical
Amici 7. But unlike being cisgender, being
transgender marks the group for different treatment.
Fourth and finally, transgender people constitute a
minority lacking political power. Comprising
approximately 0.6% of the adult population in the
United States, transgender individuals are certainly a
minority. Even considering the low percentage of the
population that is transgender, transgender persons
are underrepresented in every branch of government.
It was not until 2010 that the first openly transgender
judges took their place on their states’ benches, see

64a
First Two Openly Transgender Judges in the U.S.
Appointed Last Month, Women’s Law Project (Dec. 7,
2010), https://www.womenslawproject.org/2010/12/07/
first-two-openly-transgender-judges-in-the-u-sappointed-last-month/, and we know of no openly
transgender federal judges. There is a similar dearth
of openly transgender persons serving in the executive
and legislative branches. In 2017, nine openly
transgender individuals were elected to office—more
than doubling the total number of transgender
individuals in any elected office across the country.
See Brooke Sopelsa, Meet 2017’s Newly Elected
Transgender Officials, NBC News (Dec. 28, 2017, 9:06
AM EST), https://www.nbcnews.com/feature/nbcout/meet-2017-s-newly-elected-transgender-officialsn832826; see also Logan S. Casey, Transgender
Candidates,
https://www.loganscasey.com/transcandidates-project.
And
the
examples
of
discrimination cited under the first factor affirm what
we intuitively know: Transgender people constitute a
minority that has not yet been able to meaningfully
vindicate their rights through the political process.
The Board does not, and truly cannot, contend that
transgender people do not constitute a quasi-suspect
class under these four factors. Instead, it counsels
judicial modesty, suggesting that we are admonished
not to name new suspect classes. See Cleburne, 473
U.S. at 441–42 (“[W]here individuals in the group
affected by a law have distinguishing characteristics
relevant to interests the State has the authority to
implement, the courts have been very reluctant, as
they should be in our federal system and with our
respect for the separation of powers, to closely
scrutinize legislative choices as to whether, how, and

65a
to what extent those interests should be pursued.”);
see also Johnston, 97 F. Supp. 3d at 668–69. But no
hard-and-fast rule prevents this Court from
concluding that a quasi-suspect class exits, nor have
Cleburne’s dicta prevented many other courts from so
concluding.
For the foregoing reasons, we hold that the Board’s
restroom policy constitutes sex-based discrimination
and, independently, that transgender persons
constitute a quasi-suspect class.
2.
Whether because the policy constitutes sex-based
discrimination or because transgender persons are a
quasi-suspect class, we apply heightened scrutiny to
hold that the Board’s policy is not substantially
related to its important interest in protecting
students’ privacy.13
No one questions that students have a privacy
interest in their body when they go to the bathroom.
But the Board ignores the reality of how a transgender
child uses the bathroom: “by entering a stall and
closing the door.” Whitaker, 858 F.3d at 1052; see also
Adams, 318 F. Supp. 3d at 1296, 1314 (“When he goes
into a restroom, [the transgender student] enters a
stall, closes the door, relieves himself, comes out of the
stall, washes his hands, and leaves.”). Grimm used the
boys restrooms for seven weeks without incident.
When the community became aware that he was doing
Grimm argues on appeal that he wins even under rational
basis review. In light of our holding above, we need not analyze
his claim under that level of review.
13

66a
so, privacy in the boys restrooms actually increased,
because the Board installed privacy strips and screens
between the urinals. Given these additional
precautions, the Board’s Rule 30(b)(6) deposition
witness could not identify any other privacy concern.
The Board does not present any evidence that a
transgender student, let alone Grimm, is likely to be a
peeping tom, rather than minding their own business
like any other student. Put another way, the record
demonstrates that bodily privacy of cisgender boys
using the boys restrooms did not increase when
Grimm was banned from those restrooms. Therefore,
the Board’s policy was not substantially related to its
purported goal.
The insubstantiality of the Board’s fears has been
borne out in school districts across the country,
including other school districts in Virginia. Nearly
half of Virginia’s public-school students attend schools
prohibiting discrimination or harassment based on
gender identity. See Br. of Virginia School Board
Amici 4. Although community members espoused
similar fears at school board meetings before the antidiscrimination measures, none of those fears have
materialized. Id. at 17–19. Those Virginia school
boards have had no difficulty implementing transinclusive bathroom policies and explain that they
“have seen none of the negative consequences
predicted by opponents of such policies.” Id. at 5.
The same can be said across the country. See Br. of
School Administrator Amici 18–24 (explaining that in
amici’s states, the concerns raised by the Board have
not materialized). One school administrator in
Kentucky, who was previously against allowing

67a
transgender students to use the bathroom
corresponding to their gender, explained that his
experience with shifting the policy demonstrated that
all the concerns were “philosophical.” Id. at 17. In
these administrators’ experiences, “showing respect
for each student’s gender identity supports the dignity
and worth of all students by affording them equal
opportunities to participate and learn.” Id. at 32. And
the National PTA, GLSEN, American School
Counselor Association, and National Association of
School Psychologists similarly assure us that the
experiences of schools and school districts across the
country “put the lie to supposed legitimate
justifications for restroom discrimination: preventing
students who pretend to be transgender from
obtaining access to opposite-gender restrooms and
protecting privacy.” Br. of Education Association
Amici 6.
We thus agree with the district court’s apt
conclusion that “the Board’s privacy argument ‘is
based upon sheer conjecture and abstraction.’”
Grimm, 400 F. Supp. 3d at 461 (quoting Whitaker, 858
F.3d at 1052). The Board cites to no incident, either in
Gloucester County or elsewhere. It ignores the
growing number of school districts across the country
who are successfully allowing transgender students
such as Grimm to use the bathroom matching their
gender identity, without incident. And it ignores its
own seven-week experience with doing the same in
Gloucester County High School. Notably, both the
Third and Ninth Circuits have now rejected privacyrelated challenges brought by cisgender students to
the shared use of restrooms with transgender students
of the opposite biological sex. See Parents for Privacy

68a
v. Barr, 949 F.3d 1210 (9th Cir. 2020); Doe ex rel. Doe
v. Boyertown Area Sch. Dist., 897 F.3d 518 (3rd Cir.
2018). And before this opinion was filed, the Eleventh
Circuit, applying heightened scrutiny to a transgender
student’s equal protection challenge to his high
school’s bathroom policy, similarly held that
application of the policy did not withstand such
scrutiny due, in part, to the hypothetical nature of the
asserted privacy concerns. See Adams, 2020 WL
4561817, at *4–5, 7.
Moreover, we conclude that the Board’s policy is
“marked by misconception and prejudice” against
Grimm. See Tuan Anh Nguyen, 533 U.S. at 73. The
Board’s proposed policy was concocted amidst a flurry
of emails from apparently concerned community
members and adopted in the context of two heated
Board meetings filled with vitriolic, off-the-cuff
comments, such as referring to Grimm as a “freak.”
Parents threatened to vote out the Board members if
they allowed Grimm to continue to use the boys
restrooms. One would be hard-pressed to look at the
record and think that the Board sought to understand
Grimm’s transgender status or his medical need to
socially transition, as identified by his treating
physician. Rather, in a moment when he was finally
able to affirm his gender, the Board treated Grimm as
“questioning” his identity and lumped his in with what
it considered to be “gender identity issues.”
By relying on so-called “biological gender,” the
Board successfully excluded Grimm from the boys
restrooms. But it did not create a policy that it could
apply to other students, such as students who had
fully transitioned but had not yet changed their sex on

69a
their birth certificate. As demonstrated by the record
and amici such as interACT, the Board’s policy is not
readily applicable to other students who, for whatever
reason, do not have genitalia that match the binary
sex listed on their birth certificate—let alone that
matches their gender identity. See Br. for Amicus
Curiae interACT: Advocates for Intersex Youth in
Supp. of Pl.-Appellee 20–23. Instead, the Board
reacted to what it considered a problem, Grimm’s
presence, by isolating him from his peers.
B. The Board’s Failure to Amend Grimm’s School
Records
Having held that the Board’s bathroom policy
violated Grimm’s equal protection rights, we easily
conclude that the Board’s continued refusal to update
his school records similarly violates those rights.14
Unlike students whose gender matches their sexassigned-at-birth, Grimm is unable to obtain a
transcript indicating that he is male. The Board’s
decision is not substantially related to its important
interest in maintaining accurate records because
Grimm’s legal gender in the state of Virginia is male,
not female.
The Board’s only rebuttal is that Grimm did not
provide a lawfully obtained amended birth certificate.
The dissent does not address Grimm’s school records,
presumably because it would hold that Grimm is not similarly
situated to other boys—full stop. Yet Virginia recognized Grimm
as male and amended his birth certificate. Although preserving
sex-assigned-at-birth separated restrooms may rouse more
sentiment, the less-contentious school records issue sheds light
on why application of such a restroom policy to transgender
students is problematic.
14

70a
Recall that Grimm received a state-court order
changing his gender to “male,” and he then presented
the school with his amended birth certificate. The
Board complains that the copy said “VOID,” that it did
not say the word “amended,” and that the Gloucester
County Circuit Court granted Grimm’s motion to
change his sex to male based on chest reconstruction
surgery. As found by the district court, however: “It is
obvious from the face of the amended birth certificate
that the photocopy presented to the Board was marked
‘void’ because it was a copy of a document printed on
security paper, not because it was fabricated.” Grimm,
400 F. Supp. 3d at 458 n.6. Moreover, while the Board
may disagree with the Gloucester County Circuit
Court’s order granting Grimm’s motion to change his
sex to male because it believes that chest
reconstruction does not classify as gender
reassignment surgery under Virginia law, we must
give full faith and credit to that state court’s order,
which cannot be collaterally attacked in this appeal.
See 28 U.S.C. § 1738. And in the face of the declaration
of State Registrar and Director of the Division of Vital
Records assuring that she issued Grimm a valid
amended birth certificate, we grow weary of the
Board’s repeated arguments that it received anything
less than an official document.
*

*

*

For the foregoing reasons, we affirm the district
court’s grant of summary judgment to Grimm on his
equal protection claim.

71a
V. Grimm’s Title IX Claim
We next address Grimm’s claim that the Board’s
restroom policy and refusal to amend his school
records also violated Title IX. Title IX provides that
“[n]o person . . . shall, on the basis of sex, be excluded
from participation in, be denied the benefits of, or be
subjected to discrimination under any education
program or activity receiving Federal financial
assistance.” 20 U.S.C. § 1681(a). To grant summary
judgment to Grimm on his Title IX claim, we must find
(1) that he was excluded from participation in an
education program “on the basis of sex”; (2) that the
educational institution was receiving federal financial
assistance at the time; and (3) that improper
discrimination caused him harm. See Preston v. Va. ex
rel. New River Cmty. Coll., 31 F.3d 203, 206 (4th Cir.
1994). There is no question that the Board received
federal funding or that restrooms are part of the
education program. At issue in this case is whether the
Board acted “on the basis of sex,” and if so, whether
that was unlawful discrimination that harmed
Grimm.
A. The Board’s Restroom Policy
We first address the restroom policy. After the
Supreme Court’s recent decision in Bostock v. Clayton
County, 140 S. Ct. 1731 (2020), we have little difficulty
holding that a bathroom policy precluding Grimm
from using the boys restrooms discriminated against
him “on the basis of sex.” Although Bostock interprets
Title VII of the Civil Rights Act of 1964, 42 U.S.C.
§ 2000e–2(a)(1), it guides our evaluation of claims
under Title IX. See Jennings v. Univ. of N.C., 482 F.3d
686, 695 (4th Cir. 2007); cf. Fitzgerald v. Barnstable

72a
Sch. Comm., 555 U.S. 246, 258 (2009) (“Congress
modeled Title IX after Title VI . . . and passed Title IX
with the explicit understanding that it would be
interpreted as Title VI was.” (citation omitted)). In
Bostock, the Supreme Court held that discrimination
against a person for being transgender is
discrimination “on the basis of sex.” As the Supreme
Court noted, “it is impossible to discriminate against
a person for being homosexual or transgender without
discriminating against that individual based on sex.”
Bostock, 140 S. Ct. at 1741. That is because the
discriminator is necessarily referring to the
individual’s sex to determine incongruence between
sex and gender, making sex a but-for cause for the
discriminator’s actions. See id. at 1741–42. As
explained above in the equal protection discussion, the
Board could not exclude Grimm from the boys
bathrooms without referencing his “biological gender”
under the policy, which it has defined as the sex
marker on his birth certificate. Even if the Board’s
primary motivation in implementing or applying the
policy was to exclude Grimm because he is
transgender, his sex remains a but-for cause for the
Board’s actions. Therefore, the Board’s policy excluded
Grimm from the boys restrooms “on the basis of sex.”15
15 We pause to note another theory under which Grimm may
have been discriminated “on the basis of sex.” In Price
Waterhouse v. Hopkins, the Supreme Court held that sex
stereotyping constitutes discrimination on the basis of gender for
purposes of Title VII. See 490 U.S. 228, 250 (1989) (“In the
specific context of sex stereotyping, an employer who acts on the
basis of a belief that a woman cannot be aggressive, or that she
must not be, has acted on the basis of gender.”). Various circuits
Continued …

73a
We similarly have no difficulty holding that Grimm
was harmed. As the district court found:
In his Declaration, Mr. Grimm described under
oath feeling stigmatized and isolated by having
to use separate restroom facilities. His walk to
the restroom felt like a “walk of shame.” He
avoided using the restroom as much as possible
and developed painful urinary tract infections
that distracted him from his class work. This
stress “was unbearable” and the resulting
suicidal thoughts he suffered led to his
hospitalization at Virginia Commonwealth
University Medical Center Critical Care
Hospital.
Grimm, 400 F. Supp. 3d at 458 (citations omitted).
Grimm also “broke down sobbing” when a restroom
was unavailable after school, and he could not attend
football games without worrying about where he
would use the restroom. See id. at 459.

have applied Price Waterhouse to Title VII gender stereotyping
claims in the LGBTQ+ context, although we have not. Most
notably, in Hively v. Ivy Tech Community College, the Seventh
Circuit applied the logic of Price Waterhouse and held in an en
banc opinion that a lesbian woman who was fired could state a
Title VII gender-stereotyping claim. See 853 F.3d 339, 351–52
(7th Cir. 2017) (en banc). The district court similarly relied on
Price Waterhouse below. Grimm, 302 F. Supp. at 750. For the
reasons discussed above in the equal protection section of our
opinion, we agree that the policy punished Grimm for not
conforming to his sex-assigned-at-birth. But having had the
benefit of Bostock’s guidance, we need not address whether
Grimm’s treatment was also “on the basis of sex” for purposes of
Title IX under a Price Waterhouse sex-stereotyping theory.

74a
The Board does not provide evidence contradicting
Grimm’s or his mother’s declarations. Rather, it has
quibbled with the amount of harm Grimm felt,
asserting below, for example, that he needed a medical
expert to prove urinary tract infections. But in a
nominal damages case, Grimm’s harm need not be
precisely calculated. For summary judgment
purposes, it matters only that there is no genuine
issue of material fact as to whether the bathroom
policy harmed Grimm. There is no question that
Grimm suffered legally cognizable harm for at least
two reasons.
First, on a practical level, the physical locations of
the alternative restrooms were inconvenient and
caused Grimm harm. The nurse’s room was far from
his classes, as were the three single-user restrooms.
The distance caused him to be late for class or away
from class for longer than students and teachers
perceived as normal. And when he attended afterschool events, he had to be driven away just to use the
restroom.
Second, in a country with a history of racial
segregation, we know that “[s]egregation not only
makes for physical inconveniences, but it does
something spiritually to an individual.” Martin Luther
King, Jr., “Some Things We Must Do,” Address
Delivered at the Second Annual Institute on
Nonviolence and Social Change at Holt Street Baptist
Church (Dec. 5, 1957); see also Br. of Amicus Curiae
NAACP Legal Def. & Educ. Fund, Inc. in Supp. of Pl.Appellee 7 (outlining the harms and erroneous
rationales of racial segregation). The stigma of being
forced to use a separate restroom is likewise sufficient

75a
to constitute harm under Title IX, as it “invite[s] more
scrutiny and attention” from other students, “very
publicly brand[ing] all transgender students with a
scarlet ‘T’.” Boyertown, 897 F.3d at 530 (quoting
Whitaker, 858 F.3d at 1045); see also id. (rejecting the
suggestion that transgender students be offered
single-stall restrooms, rather than be allowed to use
the regular restrooms matching their gender identity).
Even Grimm’s high school principal “understood
[Grimm’s] perception” that the policy sent the
following message: Gavin was not welcome. J.A. 405–
06. Although the principal assumed some students
may have used that restroom, Grimm never saw
anyone else use the restrooms created for students
with “gender identity issues.” The resulting emotional
and dignitary harm to Grimm is legally cognizable
under Title IX. See Adams, 2020 WL 4561817, at *13,
16
(holding
that
a
transgender
student’s
“psychological and dignitary harm” caused by a school
bathroom policy was legally cognizable under Title
IX).
Having determined that Grimm was harmed, we
finally turn to the heart of the Title IX question in this
case: whether the policy unlawfully discriminated
against Grimm. Bostock expressly does not answer
this “sex-separated restroom” question. 140 S. Ct. at
1753. In the Title IX context, discrimination “mean[s]
treating that individual worse than others who are
similarly situated.” Id. at 1740 (citing Burlington N. &
Santa Fe Ry. v. White, 548 U.S. 53, 59 (2006)). In light
of our equal protection discussion above, this should
sound familiar: Grimm was treated worse than
students with whom he was similarly situated because
he alone could not use the restroom corresponding

76a
with his gender. Unlike the other boys, he had to use
either the girls restroom or a single-stall option. In
that sense, he was treated worse than similarly
situated students.
Nevertheless, the Board emphasizes a Department
of Education implementing regulation, 34 C.F.R.
§ 106.33, which interprets Title IX to allow for
“separate toilet, locker room, and shower facilities on
the basis of sex,” so long as they are “comparable” to
each other. But Grimm does not challenge sexseparated restrooms; he challenges the Board’s
discriminatory exclusion of himself from the sexseparated restroom matching his gender identity. See
also Adams, 2020 WL 4561817, at *14 (holding that
§ 106.33 did not preclude a transgender student’s Title
IX claim, because he was not challenging sexseparated restrooms, but “simply seeking access to the
boys’ restroom as a transgender boy.”). And the
implementing regulation cannot override the
statutory prohibition against discrimination on the
basis of sex. All it suggests is that the act of creating
sex-separated restrooms in and of itself is not
discriminatory—not that, in applying bathroom
policies to students like Grimm, the Board may rely on
its own discriminatory notions of what “sex” means.16
16 So too for the more generic Title IX provision allowing for
sex-separated living facilities. See 20 U.S.C. § 1686 (Title IX shall
not “be construed to prohibit any educational institution” to
which it applies “from maintaining separate living facilities for
the different sexes.”). Again, this is a broad statement that sexseparated living facilities are not unlawful—not that schools may
act in an arbitrary or discriminatory manner when dividing
students into those sex-separated facilities. In any event, because
Continued …

77a
See Adams, 2020 WL 4561817, at *15 (holding that
“nothing in Bostock or the language of § 106.33
justifie[d] the School Board’s discrimination” against
a male transgender student seeking access to the boys
restrooms).17
As explained above, Grimm consistently and
persistently identified as male. He had been clinically
diagnosed with gender dysphoria, and his treatment
provider identified using the boys restrooms as part of
the appropriate treatment. Rather than contend with
Grimm’s serious medical need, the Board relied on its
own invented classification, “biological gender,” for
which it turned to the sex on his birth certificate. And
even when Grimm provided the school with his

34 C.F.R. § 106.33 is more specific to bathrooms, it is where the
parties have focused their attention.
The dissent suggests that Grimm should have challenged
Title IX as unconstitutional, because Grimm’s use of the boys
restrooms would somehow upend sex-separated restrooms in
schools. See Dissenting Op. at 90. But Grimm does not think that
sex-separated restrooms are unconstitutional, and neither do we.
The dissent’s feared loss of sex-separated restrooms has not been
borne out in any of the many school districts that allow
transgender students to use the sex-separated restroom
matching their gender identity. So it cannot be the physical loss
of sex-separated restrooms that the dissent laments, but some
emotional, intangible loss wrought by the mere presence of
transgender persons. This type of argument calls to mind recent
arguments against gay marriage, to the effect that allowing gay
people to marry would “harm marriage as an institution.” See
Obergefell v. Hodges, 135 S. Ct. 2584, 2606 (2015). With no
“foundation for the conclusion” that such “harmful outcomes”
would occur, see id., we similarly reject this institutional-harm
type argument.
17

78a
amended birth certificate, the Board still denied him
access to the boys restrooms.
For these reasons, we hold that the Board’s
application of its restroom policy against Grimm
violated Title IX.18
B. The Board’s Failure to Amend Grimm’s School
Records
Applying the same framework to the Board’s
refusal to update Grimm’s school records, we hold that
it too violated Title IX. Again, the Board based its
decision not to update Grimm’s school records on his
sex—specifically, his sex as listed on his original birth
certificate, and as it presupposed him to be. This
decision harmed Grimm because when he applies to
four-year universities, he will be asked for a transcript
with a sex marker that is incorrect and does not match
his other documentation. And this discrimination is
18 Noting that Title IX was passed under the Spending
Clause, the Board also asserts that, if ambiguous, we must
construe Title IX to allow application of its bathroom policy to
Grimm in order to give the Board fair notice. See generally
Pennhurst State Sch. & Hosp. v. Halderman, 451 U.S. 1, 17
(1981). But Bostock forecloses that “on the basis of sex” is
ambiguous as to discrimination against transgender persons, and
notes that Title VII “has repeatedly produced unexpected
applications, at least in the view of those on the receiving end of
them.” See Bostock, 140 S. Ct. at 1753 (“Congress’s key drafting
choices—to focus on discrimination against individuals and not
merely between groups and to hold employers liable whenever
sex is a but-for cause of the plaintiff’s injuries—virtually
guaranteed that unexpected applications would emerge over
time.”). So too Title IX. And the Board knew or should have
known that the separate facilities regulation did not override the
broader statutory protection against discrimination. We reject
the Board’s Pennhurst argument.

79a
unlawful because it treats him worse than other
similarly situated students, whose records reflect
their correct sex.
Accordingly, we affirm the district court’s grant of
summary judgment on Grimm’s Title IX claim, and
the relief granted, in full.
VI. Conclusion
Grimm’s four years of high school were shaped by
his fight to use the restroom that matched his
consistent and persistent gender identity. In the face
of adults who misgendered him and called him names,
he spoke with conviction at two Board meetings. The
solution was apparent: allow Grimm to use the boys
restrooms, as he had been doing without incident. But
instead, the Board implemented a policy that treated
Grimm as “questioning” his identity and having
“issues,” and it sent him to special bathrooms that
might as well have said “Gavin” on the sign. It did so
while increasing privacy in the boys bathrooms, after
which its own deposition witness could not cite a
remaining privacy concern. We are left without doubt
that the Board acted to protect cisgender boys from
Gavin’s mere presence—a special kind of
discrimination against a child that he will no doubt
carry with him for life.
The Board did so despite advances in the medical
community’s understanding of the nature of being
transgender and the importance of gender
affirmation. It did so after a major nationwide survey,
the NTDS, put stark numbers to the harmful
discrimination faced by transgender people in many
aspects of their lives, including in school.

80a
It also did so while schools across Virginia and
across the country were successfully implementing
trans-inclusive bathroom policies, again, without
incident. Those schools’ experiences, as outlined in
three amicus briefs, demonstrate that hypothetical
fears such as the “predator myth” were merely that—
hypothetical. Perhaps unsurprisingly, those schools
also discovered that their biggest opponents were not
students, but adults. See Br. of School Administrator
Amici 10–11. One administrator noted:
As to the students, I am most impressed. They are
very understanding and accepting of their
classmates. It feels like the adult community is
struggling with it more.
Id. at 10. As another explained, “Young people are
pretty savvy and comfortable, and can understand and
empathize with someone who just wants to use the
bathroom.” Id.
The proudest moments of the federal judiciary
have been when we affirm the burgeoning values of
our bright youth, rather than preserve the prejudices
of the past. Compare Dred Scott v. Sandford, 60 U.S.
(19 How.) 393 (1857), and Bowers v. Hardwick, 478
U.S. 186 (1986), with Brown v. Bd. of Educ. of Topeka,
349 U.S. 294 (1955), and Obergefell v. Hodges, 135 S.
Ct. 2584 (2015). How shallow a promise of equal
protection that would not protect Grimm from the
fantastical fears and unfounded prejudices of his adult
community.
It is time to move forward. The district court’s
judgment is
AFFIRMED.

81a
WYNN, Circuit Judge, concurring:
I fully concur in Judge Floyd’s opinion and write
separately to emphasize several particularly
troublesome aspects of the Board’s policy. In
particular, the Board’s classification on the basis of
“biological gender”—defined in this appeal as the sex
marker on a student’s birth certificate—is arbitrary
and provides no consistent reason to assign
transgender students to bathrooms on a binary
male/female basis. Rather, the Board’s use of
“biological gender” to classify students has the effect
of shunting individuals like Grimm—who may not use
the boys’ bathrooms because of their “biological
gender,” and who cannot use the girls’ bathrooms
because of their gender identity—to a third category
of bathroom altogether: the “alternative appropriate
private facilit[ies]” established in the policy for
“students with gender identity issues.”
That is indistinguishable from the sort of separatebut-equal treatment that is anathema under our
jurisprudence. No less than the recent historical
practice of segregating Black and white restrooms,
schools, and other public accommodations, the
unequal treatment enabled by the Board’s policy
produces a vicious and ineradicable stigma. The result
is to deeply and indelibly scar the most vulnerable
among us—children who simply wish to be treated as
equals at one of the most fraught developmental
moments in their lives—by labeling them as unfit for
equal participation in our society. And for what gain?
The Board has persisted in offering hypothetical and
pretextual concerns that have failed to manifest,
either in this case or in myriad others like it across our

82a
nation. I am left to conclude that the policy instead
discriminates against transgender students out of a
bare dislike or fear of those “others” who are all too
often marginalized in our society for the mere fact that
they are different. As such, the policy grossly offends
the Constitution’s basic guarantee of equal protection
under the law.
I.
A.
First, the Board’s policy provides no consistent
basis for assigning transgender students—who often
possess a mix of male and female physical
characteristics—to a particular bathroom. The policy,
which was drafted by a Board member without
consulting medical professionals, purports to classify
students based on their “biological gender.” J.A. 775.
As the district court noted, this term has no standard
meaning (to say nothing of widespread acceptance) in
the medical field. See Grimm v. Gloucester Cnty. Sch.
Bd., 400 F. Supp. 3d 444, 457 (E.D. Va. 2019) (citing
Wylie C. Hembree et al., Endocrine Treatment of
Gender-dysphoric/Gender-Incongruent Persons: An
Endocrine Society Clinical Practice Guideline,
102(11), J. CLIN. ENDOCRINOLOGY & METABOLISM
3869, 3875 (2017)). Rather, “biological gender,” on its
face, conflates two medical concepts: a person’s
biological sex (a set of physical traits) and gender (a
deeply held sense of self). Id.
Given that the Board seemingly created the
concept of “biological gender” sua sponte, it comes as
no surprise that it has struggled to define the term in
a way that provides any consistent reason to assign a

83a
given transgender student to a male or female
restroom. Broadly, the Board claims that “biological
gender” is defined solely in terms of physiological
characteristics.1
That suggests that the Board can identify some set
of physical characteristics that fully identify someone
as “male” or “female”—and thus neatly partition
transgender students into those two categories. Yet
the Board has offered no set of physical characteristics
determinative of its “biological gender” classification
in the five-year pendency of this case.
Nor could it, given that transgender individuals
often defy binary categorization on the basis of
physical characteristics alone. For instance, although
Grimm was born physically female and had female
genitals during his time at Gloucester High, he also
had physical features commonly associated with the
male sex: he lacked breasts (due to his chest
reconstruction surgery); had facial hair, a deepened
voice, and a more masculine appearance (due to
hormone therapy); and presented as male through his
haircut. The Board conveniently ignores all these
facts, other than to claim that Grimm’s chest
reconstruction surgery “did not create any biological
changes in Grimm, but instead, only a physical
change.” Opening Br. at 46.
Rather than address this reality, the Board has
instead narrowed its definition of “biological gender”
1 I note that the Board’s use of the term “gender” in “biological
gender,” along with the policy’s reference to students with
“gender identity issues,” suggests that Grimm’s gender identity
played a part in the Board’s bathroom designation, despite the
Board’s protestations to the contrary. J.A. 775.

84a
to refer to the sex marker on a student’s birth
certificate—which, unless updated during a
transgender individual’s transition, merely tells the
Board what physical sex characteristics a person was
born with. But, as this case shows, a person’s birth sex
is not dispositive of their actual physiology.
Moreover, by focusing on an individual’s birth
certificate, the Board ensures the policy lacks a basic
consistency: it fails to treat even transgender students
alike. Specifically, the policy targets transgender
students whose birth certificates do not match their
outward physical characteristics while ignoring those
transgender students whose birth certificates are
consistent with their outward physiology.
Consider a student physically identical to Grimm
in every respect—that is, a student who appeared
outwardly male, but who had female genitals. If,
unlike Grimm, this hypothetical student had obtained
a birth certificate identifying him as male prior to
enrolling at Gloucester High, then that student would
have been able to use the boys’ restrooms under the
Board’s current interpretation of its own policy. It is
arbitrary that this hypothetical transgender student
would not be subject to the policy, whereas Grimm
would. See Adams By & Through Kasper v. Sch. Bd. of
St. Johns Cnty., No. 18-13592, 2020 WL 4561817, at
*5 (11th Cir. Aug. 7, 2020) (“To pass muster under the
Fourteenth Amendment, a governmental gender
classification must ‘be reasonable, not arbitrary.’”
(quoting Reed v. Reed, 404 U.S. 71, 76 (1971)
(quotation marks omitted)).
Such a student would, of course, have female
genitals. But genital characteristics are immaterial if,

85a
as the Board claims, it is solely concerned with the sex
marker on a student’s birth certificate. However, the
record shows that the Board was not only concerned
with birth certificates below.
Apparently taking issue with the fact that Grimm’s
genitals did not match his birth certificate, the Board
attempted to extend its sex-assigned-at-birth
definition of “biological gender” in its summary
judgment briefing at the district court. The Board
claimed that if a student were using the restroom
associated with the sex listed on their birth certificate,
but the school learned that the student had some asyet-unspecified set of anatomical characteristics of the
opposite sex, it would require the student to switch
bathrooms on the basis of those physiological
differences.
The Board wisely abandoned that argument on
appeal, given its inability to specify what set of
physiological characteristics suffices to push an
individual across its imagined line of demarcation
between male and female classifications. But its
shifting definitions of “biological gender” suggest that
the policy is ends-driven and motivated more by
discomfort with the presence of someone who
appeared as a boy (but nonetheless had female
genitals) using the boys’ bathroom than concerns for a
person’s designation at birth.
B.
That suggestion is bolstered by another disturbing
inconsistency in the policy: it produces the very
privacy harms it purportedly seeks to avoid. Despite
appearing wholly male except for his genitals, Grimm

86a
could have used the girls’ restroom under the policy.
Female students would thus have found themselves in
a private situation in front of someone with the
physiology of the opposite biological sex—the exact
harm to male students posited by the Board and my
dissenting colleague, Judge Niemeyer. See Niemeyer
Dis. Op. at 88-89, 93.
Specifically, the Board claims the policy protects
the privacy interests of students who do not wish to be
exposed to, or in a state of undress in front of, those
with physical characteristics of the opposite sex. That
is undoubtedly a long-recognized and important
government interest, as Judge Niemeyer points out.
Niemeyer Dis. Op. at 88-89. But, as Judge Floyd notes,
the Board can identify no instance of such harms to
the privacy interests of its students—a result
consistent with the experiences of numerous school
boards nationwide. Maj. Op. at 46-48.
That is unsurprising because, as a matter of
common sense, any individual’s appropriate use of a
public bathroom does not involve exposure to nudity—
an observation that is particularly true given the
privacy enhancements installed in the bathrooms at
Gloucester High. See Whitaker By Whitaker v.
Kenosha Unified Sch. Dist. No. 1 Bd. of Educ., 858
F.3d 1034, 1052 (7th Cir. 2017) (“Common sense tells
us that the communal restroom is a place where
individuals act in a discreet manner to protect their
privacy and those who have true privacy concerns are
able to utilize a stall.”).
Judge Niemeyer in dissent suggests that the “mere
presence” of someone with female genitals in a male
bathroom would create an untenable intrusion on

87a
male privacy interests. Niemeyer Dis. Op. at 89. That
assertion is debatable at the least, in the context of
both male and female bathrooms. And it echoes the
sort of discomfort historically used to justify exclusion
of Black, gay, and lesbian individuals from equal
participation in our society, as discussed infra. But it
is ultimately beside the point, because the Board
identified only three scenarios of concern in which
boys would have felt unduly exposed to Grimm: when
they used the stalls, when they used the urinals, and
when they opened their pants to tuck in their shirts.
The Board has identified no instances where such
exposure occurred.
Crucially, even if were we to accept the Board’s
contention that the alleged infringements on student
bodily privacy were in fact present, then the policy
would, on balance, harm student privacy interests
more than it helped them. Unlike his clothed genitals,
Grimm’s male characteristics—no breasts, masculine
features and voice timbre, facial hair, and a male
haircut—would have been readily apparent to any
person using the girls’ restroom. Put simply, Grimm’s
entire outward physical appearance was male. As
such, there can be no dispute that had he used the
girls’ restroom, female students would have suffered a
similar, if not greater, intrusion on bodily privacy than
that the Board ascribes to its male students. The
Board’s stated privacy interests thus cannot be said to
be an “exceedingly persuasive” justification of the
policy. United States v. Virginia, 518 U.S. 515, 532
(1996).
Further, if the Board’s concern were truly that
individuals might be exposed to those with differing

88a
physiology, it would presumably have policies in place
to address differences between pre-pubescent and
post-pubescent students, as well as intersex
individuals who possess some mix of male and female
physical sex characteristics and who comprise a
greater fraction of the population than transgender
individuals. See Whitaker, 858 F.3d at 1052-53; Br. for
Amicus Curiae interACT: Advocates for Intersex
Youth in Supp. of Pl.-Appellee 5 (noting that 2% of all
children born worldwide have variations in sex
organs, chromosomes, and hormones that do not fit
within binary anatomical gender classifications); Maj.
Op. at 7 (noting that .6% of the United States adult
population is transgender). That the Board’s policy
does not address those circumstances further suggests
that its privacy justification is a post-hoc
rationalization based on mere hypotheticals. Virginia,
518 U.S. at 533.
C.
One final note. Under the Board’s policy, Grimm
should have been able to use the boys’ restroom if he
had provided an updated birth certificate listing him
as male. Of course, he did just that. But the Board
baldly refused to apply its own policy, instead
assembling a variety of post-hoc administrative
justifications for its noncompliance—justifications
that were ultimately meritless. See Maj. Op. at 30-31.
II.
The above problems notwithstanding, the Board
audaciously invites us to ignore the policy’s poorly
formulated, arbitrary character, claiming that “[e]very
student can use a restroom associated with their

89a
physiology, whether they are boys or girls. If students
choose not to use the restroom associated with their
physiology, they can use a private, single-stall
restroom.” Opening Br. at 44. But that choice is no
choice at all because, its above-described physiological
misunderstandings and omissions aside, the Board
completely misses the reality of what it means to be a
transgender boy.
As Judge Floyd thoroughly notes, historical
experience and decades of scientific inquiry have
established that transgender individuals have an
innate conception of themselves as belonging to one
gender. Maj. Op. at 7-14. A transgender person’s
awareness of themselves as male or female is no less
foundational to their essential personhood and sense
of self than it is for those born with female genitals to
identify as female, or for those born with male genitals
to identify as male. History demonstrates that this
self-conception is unshakeable indeed. Transgender
individuals have persisted despite the significant
harms that arose from living in societies that did not
recognize them: cultural marginalization and
disregard at best, and horrific oppression and lethal
violence at worst.
So, despite the Board’s contention that there is no
problem because Grimm could have used the girls’
bathrooms or the single-stall bathrooms, we must take
a careful and practical look at the options he
realistically faced. Grimm was of course barred from
the boys’ restrooms because of his Board-defined
“biological gender.” And despite the Board’s
assurances, he effectively could not use the girls’
restrooms. His gender identity has always been male.

90a
He could no more easily use the girls’ restrooms than a
cisgender boy.2 The Board pointedly ignores this basic
fact.
So, Grimm was effectively left with one option: the
single-stall restrooms. But he did not use those
restrooms at all because doing so “made [him] feel
even more stigmatized and isolated than using the
nurse’s office” to which he had been previously
relegated. Gavin Grimm Decl. ¶ 47. Specifically,
“everyone knew that they were installed for [him] in
particular, so that other boys would not have to share
the same restroom as [him].” Id. Indeed, the Board
does not controvert Grimm’s assertion that no other
students used the single-stall restrooms.
This problem is all too familiar. Forced segregation
of restrooms and schools along racial lines—a blight
on this country’s history—occurred well within living
memory. See Br. of Amicus Curiae NAACP Legal Def.
& Educ. Fund, Inc. in Supp. of Pl.-Appellee 7-8
(hereinafter “Br. of NAACP”) (describing various laws
passed to segregate restroom facilities and schools on
the basis of race). Such segregation was infamously
justified on the ground that no harm could inhere if
separate but equal facilities were provided to African
American schoolchildren. We now know that to be
untrue: it is axiomatic that discriminating against
students on the basis of race “generates a feeling of
inferiority as to their status in the community that
2 Grimm had, of course, used girls’ restrooms before his
transition. But that fact says nothing about the harm he suffered
from doing so. Grimm suffered from gender dysphoria as a result
of living as a girl (including use of girls’ bathrooms) despite
identifying as a boy.

91a
may affect their hearts and minds in a way unlikely
ever to be undone.” Brown v. Bd. of Ed. of Topeka, 347
U.S. 483, 494 (1954).
I see little distinction between the message sent to
Black children denied equal treatment in education
under the doctrine of “separate but equal” and
transgender children relegated to the “alternative
appropriate private facilit[ies]” provided for by the
Board’s policy. The import is the same: “the
affirmation that the very being of a people is inferior.”
Martin Luther King, Jr., “The Other America,”
Remarks Given at Stanford University (Apr. 14, 1967)
(transcript
available
at
https://www.rev.com/blog/transcripts/the-otheramerica-speech-transcript-martin-luther-king-jr); see
also Doe by & through Doe v. Boyertown Area Sch.
Dist., 897 F.3d 518, 530 (3rd Cir. 2018), cert. denied,
139 S. Ct. 2636 (2019) (holding that a policy forcing
transgender students to use separate single-user
facilities “would very publicly brand all transgender
students with a scarlet ‘T,’ and they should not have
to endure that as the price of attending their public
school”).
Judge Niemeyer in dissent notes that Title IX and
equal protection permit separate but equal
accommodations in schools on a male/female basis.
Niemeyer Dis. Op. at 93-94. But that observation says
nothing about what happened in this case: separation
of transgender students from their cisgender
counterparts through a policy that ensures that
transgender students may use neither male nor female
bathrooms due to the incongruence between their
gender identity and their sex-assigned-at-birth. That

92a
segregation generates harmful stigma, which was
exacerbated in this case by the fact that the facilities
were separate, but not even equal—there were no
single-stall restrooms at football games, and the
single-stall restrooms in the school building were
located much farther from Grimm’s classes than the
boys’ and girls’ restrooms.
Moreover, it is important to note that the harm
arising from the policy’s message—that transgender
students like Grimm should exist only at the margins
of society, even when it comes to basic necessities like
bathrooms—although foreign to the experiences of
many, is not hypothetical. Nor does the policy merely
engender
discomfort
or
embarrassment
for
transgender students. Instead, the pain is
overwhelming, unceasing, and existential. In an
experience all too common for transgender individuals
(particularly children), early in his junior year at
Gloucester High, Grimm was hospitalized for suicidal
thoughts resulting from being in an environment of
“unbearable” stress where “every single day, five days
a week” he felt “unsafe, anxious, and disrespected.”
Gavin Grimm Decl. ¶ 54.
Furthermore, putting aside the specific harm to
Grimm, the Board’s policy perpetuates a harmful and
false stereotype about transgender individuals;
namely, the “transgender predator” myth, which
claims that students (usually male) will pretend to be
transgender in order to gain access to the bathrooms
of the opposite sex—thus jeopardizing student safety.
Indeed, the policy expresses concern that the presence
of transgender students in school bathrooms
endangers students. Although not relied upon by the

93a
Board on appeal, one of the policy’s stated purposes is
to “provide a safe learning environment for all
students.” J.A. 775.
The “transgender predator” myth echoes similar
arguments used to justify segregation along racial
lines. In the 1950s, segregationists spread false
rumors that Black women would spread venereal
diseases to toilet seats, and that Black men would
sexually prey upon white women if public swimming
pools were integrated. See Br. of NAACP 13-14, 16-17.
Although history eventually proved the lie of such
claims, the injustice was severe.
Even more recently, privacy concerns similar to
those championed by the Board were invoked by
opponents of gay and lesbian equality. These
opponents argued that such individuals, especially
gay men, must not be allowed to come into contact
with young children or adolescents. They justified
such claims by pointing either to a supposed
uncontrollable, predatory sexual attraction among gay
men toward children, or to an insidious desire to
convert young people to an immoral (which is to say,
non-heterosexual) lifestyle. See id. at 21-22 (citing
Lawrence v. Texas, 539 U.S. 558, 602 (2003) (Scalia, J.,
dissenting) (“Many Americans do not want persons
who openly engage in homosexual conduct as . . .
scoutmasters for their children [or] as teachers in
their children’s schools[.]”)).
The “transgender predator” myth—although often
couched in the language of ensuring student privacy
and safety—is no less odious, no less unfounded, and
no less harmful than these race-based or sexualorientation-based scare tactics. As one of our sister

94a
Circuits noted during the era of racial segregation:
“[t]he law can never afford to bend in this direction
again. The Constitution of the United States
recognizes that every individual . . . is considered
equal before the law. As long as this principle is viable,
full equality of educational opportunity must prevail
over theoretical sociological and genetical arguments
which attempt to persuade to the contrary.” Haney v.
Cnty. Bd. of Educ. of Sevier Cnty., 410 F.2d 920, 926
(8th Cir. 1969).
III.
In sum, the picture that emerges from this case is
damning.
The Board drafted a policy so arbitrary that it
cannot provide consistent treatment among the very
individuals it discriminates against. In so doing, the
Board pursued shifting and ends-driven definitions of
“biological gender” that guaranteed a particular
outcome: that one student would be unable to use the
boys’ restroom. The policy bears an eerie similarity to
stigmatic discrimination in the separate-but-equal
context—which produces deeply corrosive, irreversible
harm across a human life. Against that injury to
Grimm, the Board offers a set of purported privacy
injuries that have not occurred, while ignoring
concomitant greater harms that would have resulted
were Grimm to have followed the policy and used
female school restrooms. And most tellingly, when
Grimm attempted to comply with the policy by
submitting an updated birth certificate, the Board
resorted to procedural roadblocks.

95a
In light of this history, I have little difficulty
concluding that the Board’s policy is orthogonal to its
stated justifications. Far from ensuring student
privacy, it has been applied to marginalize and
demean Grimm for the mere fact that he, like other
transgender individuals, is different from most. Even
worse, it did so to a child at school.
Common experience teaches that high school is a
challenging environment, in which every child
perceives significant pressure to belong within their
peer group while also defining their own personal
identity and sense of self. Even the most trivial
differences from others may take on outsized
significance to an adolescent. How harrowing it must
be for transgender individuals like Grimm to navigate
that fraught setting while facing an unceasing daily
reminder that they are not wanted, and that
circumstances for which they are blameless render
them members of a second class.
Of course, deriding those who are different—
whether due to discomfort or dislike—is not new. But
the Constitution’s guarantee of equal protection
prohibits the law from countenancing such
discrimination. “The Constitution cannot control such
[private] prejudices but neither can it tolerate them.
Private biases may be outside the reach of the law, but
the law cannot, directly or indirectly, give them effect.”
Palmore v. Sidoti, 466 U.S. 429, 433 (1984); see also
City of Cleburne v. Cleburne Living Ctr., 473 U.S. 432,
447 (1985) (holding that policies enacted with “a
bare . . . desire to harm a politically unpopular group”
cannot be upheld under equal protection (quoting U.S.
Dep’t of Agric. v. Moreno, 413 U.S. 528, 534 (1973))).

96a
For that reason, I disagree with Judge Niemeyer’s
assertion that the panel majority attempts to “effect
policy rather than simply apply law.” Niemeyer Dis.
Op. at 95. That argument is meritless because “[t]he
Nation’s courts are open to injured individuals who
come to them to vindicate their own direct, personal
stake in our basic charter. An individual can invoke a
right to constitutional protection when he or she is
harmed, even if the broader public disagrees and even
if the legislature refuses to act.” Obergefell v. Hodges,
135 S. Ct. 2584, 2605 (2015). Ensuring the
Constitution’s mandate of equal protection is satisfied
for marginalized and minority groups, separate from
the “vicissitudes of political controversy,” is one of our
most vital and solemn duties. Id. at 2606 (quoting W.
Va. Bd. of Ed. v. Barnette, 319 U.S. 624, 638 (1943)).
Discrimination like that faced by Grimm has
reared its ugly head throughout American history.
Yet, for most Americans, time has rendered it an
embarrassment to the legacies of the individuals
inflicting it. With that observation, I join in the
thorough and well-reasoned opinion of my colleague,
Judge Floyd.

97a
NIEMEYER, Circuit Judge, dissenting:
Gavin Grimm, a transgender male, commenced
this action in 2015 while a student attending
Gloucester High School in Gloucester, Virginia, to
require the school to permit him to use the male
restrooms. The High School provided male restrooms
and female restrooms and, under school policy,
“limited [those restrooms] to the corresponding
biological genders.” It also provided unisex restrooms
and made them available to everyone, with the
particular goal of accommodating transgender
students. In his complaint, Grimm contended that the
High School’s policy discriminated against him “based
on his gender,” in violation of the Equal Protection
Clause of the Fourteenth Amendment, and “on the
basis of sex,” in violation of Title IX. He sought among
other things injunctive relief requiring the High
School “to allow [him] to use the boys’ restrooms at
school.” After graduating from the High School,
Grimm filed a second amended complaint, seeking
only declaratory relief and nominal damages.
Contrary to Grimm’s claim, Title IX and its
regulations explicitly authorize the policy followed by
the High School. While the law prohibits
discrimination on the basis of sex in the provision of
educational benefits, it allows schools to provide
“separate living facilities for the different sexes,” 20
U.S.C. § 1686, including “toilet, locker room, and
shower facilities,” 34 C.F.R. § 106.33. Gloucester High
School followed these provisions precisely, going yet
further by providing unisex restrooms for those not
wishing to use the restrooms designated on the basis
of sex. Moreover, in complying with Title IX, which

98a
Grimm has not challenged as unconstitutional, the
High School did not deliberately discriminate against
him in violation of the Equal Protection Clause of the
Fourteenth Amendment. To the contrary, the High
School’s classifications for restroom usage — which
accord with longstanding and widespread practice —
were appropriately justified by the needs of individual
privacy, as has been recognized by law. At bottom,
Gloucester High School reasonably provided separate
restrooms for its male and female students and
accommodated transgender students by also providing
unisex restrooms that any student could use. The law
requires no more of it.
The majority opinion, pursuing the public policy
that it deems best, rules that separating restrooms on
the basis of biological sex is discriminatory. In doing
so, it overlooks altogether and therefore does not
address the reasons for such separation. Rather, it
blithely orders that the High School allow both
transgender males and biological males to use the
same restrooms, thus abolishing any separation of
restrooms on the basis of biological sex. Indeed, its
ruling that male includes transgender males and
likewise that female includes transgender females
renders on a larger scale any separation on the basis
of sex nonsensical. In effect, the majority opinion does
no more than express disagreement with Title IX and
its underlying policies, which is not, of course, the role
of courts tasked with deciding cases and controversies.
I cast no doubt on the genuineness of Gavin
Grimm’s circumstances, and I empathize with his
adverse experiences. But judicial reasoning must not
become an outcome-driven enterprise prompted by

99a
feelings of sympathy and personal views of the best
policy. The judiciary’s role is simply to construe the
law. And the law, both statutory and constitutional,
prohibits discrimination only with respect to those
who are similarly situated. Here, Grimm was born a
biological female and identifies as a male, and
therefore his circumstances are different from the
circumstances of students who were born as biological
males. For purposes of restroom usage, he was not
similarly situated to students who were born as
biological males.
Accordingly, I would conclude that Grimm’s
complaint failed to state a claim on which relief can be
granted.
I
At birth, Grimm was identified as female, and
there was concededly no ambiguity about his sex.
Thus, when it came time to enroll him in the
Gloucester County School System, Grimm’s parents
indicated that he was female.
Beginning at an early age, however, Grimm “saw
[himself] as a boy” and “did not want to be perceived
as feminine in any way.” At around the age of 12, he
started presenting himself as a boy. He got a
traditional male haircut, wore clothing exclusively
from the boys’ section of stores, and eventually began
using a compression garment to flatten his developing
breasts. Around the time of his 15th birthday, in the
spring of 2014, Grimm came out to his parents as a
transgender boy and, at his request, began therapy
with a psychologist. His psychologist diagnosed him
with “gender dysphoria,” a condition of clinically

100a
significant distress experienced by some transgender
people resulting from the incongruence between the
gender with which they identify and their sex as
identified at birth. Soon thereafter, Grimm obtained a
court order legally changing his name from the female
name he was given at birth to Gavin Elliot Grimm.
In advance of his 10th grade year, Grimm and his
mother met with a guidance counselor at the High
School to explain that Grimm was transgender and
intended, as part of his treatment for gender
dysphoria, to socially transition at school. Both Grimm
and his mother found the school counselor to be
supportive. The High School changed its records to
reflect Grimm’s new name, and Grimm and the school
counselor agreed that Grimm would send an email to
his teachers explaining that he was to be addressed by
his new male name and referred to by male pronouns.
Grimm chose to continue completing his physical
education classes through an online program so he did
not need to use the school’s locker rooms. And with
respect to restrooms, he and the school counselor
agreed that he could use a private restroom in the
nurse’s office.
As the school year began, however, Grimm found
that using the separate restroom was stigmatizing as
well as inconvenient, causing him at times to be late
for classes. After a few weeks, he expressed his
concerns to the Principal and asked for permission to
use the male restrooms instead. The Principal gave
Grimm permission to do so. But within a few days,
school officials began receiving complaints from
parents, and a student met with the Principal to
express his concerns. These members of the school

101a
community felt strongly that allowing a student with
female anatomical features to use the male restrooms
would infringe on the privacy interests of the male
students.
In response to this input from the community, the
Gloucester County School Board conducted public
meetings, after which it adopted the following policy:
Whereas the [Gloucester County Public Schools
(“GCPS”)] recognizes that some students
question their gender identities, and
Whereas the GCPS encourages such students to
seek support, advice, and guidance from
parents, professionals and other trusted adults,
and
Whereas the GCPS seeks to provide a safe
learning environment for all students and to
protect the privacy of all students, therefore
It shall be the practice of the GCPS to provide
male and female restroom and locker room
facilities in its schools, and the use of said
facilities shall be limited to the corresponding
biological genders, and students with gender
identity issues shall be provided an alternative
appropriate private facility.
Following adoption of the policy, the Principal
advised Grimm that he was no longer permitted to use
the High School’s male restrooms. And about a week
later, the school completed construction of three
single-stall, unisex restrooms that were made
available to all students.

102a
Grimm felt stigmatized by the new policy and
chose not to use the new unisex restrooms. He also felt
uncomfortable using the female restrooms. As a
result, he tried to avoid the use of restrooms at school,
and when he could not avoid doing so, he used the
restroom in the nurse’s office. Nonetheless, he felt that
by doing so, he called attention to his transgender
status, making him uncomfortable.
At the end of Grimm’s 11th grade year, when he
was 17 years old, Grimm underwent a chest
reconstruction surgery as part of his treatment for
gender dysphoria. He also continued hormone
therapy, which he had begun more than a year earlier
and which deepened his voice, caused him to grow
facial hair, and gave him a more masculine
appearance overall.
Near the start of his 12th grade year in 2016, the
Gloucester County Circuit Court granted Grimm’s
petition for an order directing the State Registrar to
amend his birth certificate. Pursuant to that order, the
Registrar issued a birth certificate to Grimm that
listed his sex as male. Thereafter, Grimm requested
that the High School change the gender listed on his
school records to conform to his new birth certificate.
Pursuant to the advice of counsel, the School Board
advised Grimm that it had decided not to change the
official school records. Grimm graduated from the
High School in June 2017.
*

*

*

In June 2015, at the end of his 10th grade year,
Grimm commenced this action against the Gloucester
County School Board, alleging that the School Board’s

103a
policy of assigning students to male and female
restrooms based on their biological sex rather than
their gender identity violated his rights under the
Equal Protection Clause of the Fourteenth
Amendment and Title IX of the Education
Amendments of 1972, 20 U.S.C. § 1681 et seq. Among
other things, he sought a preliminary and permanent
injunction requiring the School Board to allow him to
use the male restrooms at the school.
The district court granted the School Board’s
motion to dismiss Grimm’s Title IX claim for failure to
state a claim, relying primarily on a regulation
implementing the statute that expressly permits
schools to provide “separate toilet, locker room, and
shower facilities on the basis of sex.” 34 C.F.R.
§ 106.33. The court also denied Grimm’s motion for a
preliminary injunction.
On appeal from the denial of the injunction, we
reversed the district court’s order and remanded the
case. See G.G. ex rel. Grimm v. Gloucester Cty. Sch.
Bd., 822 F.3d 709 (4th Cir. 2016). We reasoned that
the Title IX regulation permitting schools to provide
separate restrooms and other similar facilities for
male and female students was ambiguous with respect
to “how a school should determine whether a
transgender individual is a male or female for the
purpose of access to [these] sex-segregated” facilities.
Id. at 720. We then relied on a guidance document
issued by the U.S. Department of Education stating
that schools were generally required to “treat
transgender students consistent with their gender
identity,” id. at 718, and concluded that the
interpretation was “entitled to Auer deference and . . .

104a
controlling weight,” id. at 723. In addition, we vacated
the district court’s order denying a preliminary
injunction, concluding that the court had used the
wrong evidentiary standard in evaluating Grimm’s
motion. Id. at 724–26.
The School Board filed a petition for a writ of
certiorari in the Supreme Court, as well as a motion
for a stay of our judgment. During the same period,
the district court, based on our analysis, granted
Grimm’s motion for a preliminary injunction. The
Supreme Court, however, stayed the district court’s
preliminary injunction, see 136 S. Ct. 2442 (Aug. 3,
2016), and it subsequently granted the School Board’s
certiorari petition, see 137 S. Ct. 369 (Oct. 28, 2016).
While the case was pending before the Supreme
Court, a new Administration rescinded the previously
issued guidance document regarding transgender
students, which prompted the Supreme Court to
vacate our April 2016 decision and to remand the case
to us for further consideration. See 137 S. Ct. 1239
(Mar. 6, 2017). We, in turn, granted an unopposed
motion to vacate the district court’s preliminary
injunction. See 853 F.3d 729 (4th Cir. 2017).
After Grimm graduated from high school, he
withdrew his request for a preliminary injunction and
filed an amended complaint that continued to
challenge the legality of the School Board’s restroom
policy as applied to transgender students, seeking a
permanent injunction, declaratory relief, and nominal
damages. But after the district court requested
supplemental briefing regarding mootness in light of
Grimm’s graduation, Grimm agreed to dismiss his
requests for prospective relief. He argued, however,

105a
that his graduation did not moot his challenge to the
legality of the School Board’s restroom policy because
he was seeking only a retrospective remedy in the
form of nominal damages and declaratory relief. The
district court agreed.
Thereafter, in a memorandum opinion and order
dated May 22, 2018, the district court denied the
School Board’s motion to dismiss Grimm’s amended
complaint for failure to state a claim, concluding that
Grimm had plausibly alleged that, by excluding him
from the set of restrooms that corresponded to his
gender identity, the School Board had subjected him
to discrimination on the basis of sex, in violation of
Title IX, and had also discriminated against him in
violation of the Equal Protection Clause. Grimm v.
Gloucester Cty. Sch. Bd., 302 F. Supp. 3d 730 (E.D. Va.
2018).
Roughly nine months later, the district court
granted Grimm’s motion to file a second amended
complaint, which, for the first time, alleged that the
School Board’s decision not to change the gender listed
on Grimm’s school records from female to male also
constituted a violation of Title IX and the Equal
Protection Clause.
After completing discovery, the parties filed crossmotions for summary judgment. By order dated
August 9, 2019, the district court granted Grimm’s
motion and denied the School Board’s motion. See
Grimm v. Gloucester Cty. Sch. Bd., 400 F. Supp. 3d
444 (E.D. Va. 2019). For relief, the court (1) entered a
declaratory judgment “that the Board’s policy violated
Mr. Grimm’s
rights
under
the
Fourteenth
Amendment . . . and Title IX . . . on the day the policy

106a
was first issued and throughout the remainder of his
time as a student at Gloucester High School;”
(2) entered a declaratory judgment “that the Board’s
refusal to update Mr. Grimm’s official school
transcript to conform to the ‘male’ designation on his
birth certificate violated and continues to violate his
rights under the Fourteenth Amendment . . . and Title
IX”; (3) awarded Grimm nominal damages “in the
amount of one dollar”; (4) entered a permanent
injunction “requiring the Board to update
Mr. Grimm’s official school records to conform to the
male designation on his updated birth certificate”; and
(5) awarded Grimm “reasonable costs and attorneys’
fees pursuant to 42 U.S.C. § 1988.”
From the district court’s order, the School Board
filed this appeal.
II
At the heart of his claim, Grimm contends that in
denying him, as a transgender male, permission to use
the male restrooms because those restrooms were
designated for biologically male students, Gloucester
High School discriminated against him “on the basis
of sex,” in violation of Title IX and the Equal
Protection Clause. This claim does not challenge the
High School’s provision of separate restrooms but
rather asserts that treating transgender males
differently than biological males in permitting access
to those restrooms constitutes illegal discrimination.
This argument thus rests on the proposition that
transgender males and biological males are similarly
situated with respect to using male restrooms.

107a
The School Board, however, determined that the
physical differences between transgender males and
biological males were material with respect to the use
of restrooms and locker rooms, and accordingly it
provided unisex restrooms in addition to its male and
female restrooms to accommodate transgender
persons such as Grimm. In having done so, the School
Board maintains that it complied fully with Title IX
and its implementing regulations, which, while
prohibiting discrimination on the basis of sex in any
education program or activity, nonetheless expressly
allow educational institutions receiving federal
assistance to provide separate restrooms for the
different sexes.
I agree with the School Board’s position. Any
requirement that schools treat male, female, and
transgender students differently from the way the
High School treated them would be a matter for
Congress to address. But, until then, the High School
comported with what both Title IX and the Equal
Protection Clause require. I begin with Title IX.
III
Title IX provides that “[n]o person in the United
States shall, on the basis of sex, be excluded from
participation in, be denied the benefits of, or be
subjected to discrimination under any education
program or activity receiving Federal financial
assistance.” 20 U.S.C. § 1681(a). But the statute
contains several exceptions to its nondiscrimination
provision,
one
of
which
specifies
that
“[n]otwithstanding anything to the contrary contained
in this chapter, nothing contained herein shall be
construed to prohibit any educational institution

108a
receiving funds under this Act, from maintaining
separate living facilities for the different sexes.” Id.
§ 1686 (emphasis added). And the applicable
regulations give further detail, permitting schools to
provide “separate housing on the basis of sex,” as long
as the housing is “[p]roportionate” and “[c]omparable,”
34 C.F.R. § 106.32(b), and “separate toilet, locker
room, and shower facilities on the basis of sex,” so long
as the facilities “provided for students of one sex shall
be comparable to such facilities provided for students
of the other sex,” id. § 106.33. We must therefore
determine what it means to provide separate toilet,
locker room, and shower facilities on the basis of sex in
a situation where a student’s gender identity diverges
from the sex manifested by the student’s biological
characteristics.
As several sources make clear, the term “sex” in
this context must be understood as referring to the
traditional biological indicators that distinguish a
male from a female, not the person’s internal sense of
being male or female, or their outward presentation of
that internally felt sense.
Title IX was enacted in 1972, and its implementing
regulations were promulgated shortly thereafter. And
during that period of time, virtually every dictionary
definition of “sex” referred to the physiological
distinctions between males and females —particularly
with respect to their reproductive functions. See, e.g.,
The Random House College Dictionary 1206 (rev. ed.
1980) (“either the male or female division of a species,
esp. as differentiated with reference to the
reproductive functions”); Webster’s New Collegiate
Dictionary 1054 (1979) (“the sum of the structural,

109a
functional, and behavioral characteristics of living
beings that subserve reproduction by two interacting
parents and that distinguish males and females”);
American Heritage Dictionary 1187 (1976) (“The
property or quality by which organisms are classified
according to their reproductive functions”); Webster’s
Third New International Dictionary 2081 (1971) (“the
sum of the morphological, physiological, and
behavioral peculiarities of living beings that subserves
biparental reproduction with its concomitant genetic
segregation and recombination which underlie most
evolutionary change . . .”); The American College
Dictionary 1109 (1970) (“the sum of the anatomical
and physiological differences with reference to which
the male and the female are distinguished . . .”).
Indeed, even today, the word “sex” continues to be
defined based on the physiological distinctions
between males and females. See, e.g., Webster’s New
World College Dictionary 1331 (5th ed. 2014) (“either
of the two divisions, male or female, into which
persons, animals, or plants are divided, with reference
to their reproductive functions”); The American
Heritage Dictionary 1605 (5th ed. 2011) (“Either of the
two divisions, designated female and male, by which
most organisms are classified on the basis of their
reproductive organs and functions”); MerriamWebster’s Collegiate Dictionary 1140 (11th ed. 2011)
(“either of the two major forms of individuals that
occur in many species and that are distinguished
respectively as female or male esp. on the basis of their
reproductive organs and structures”).
Given this uniformity in dictionary definitions, it is
no surprise that, in the context of interpreting Title
VII’s nondiscrimination provision enacted in 1964, the

110a
Supreme Court’s recent decision in Bostock v. Clayton
County relied on this same understanding of the word
“sex.” To be sure, the Bostock Court determined that
its resolution of the parties’ dispute did not require it
to determine definitely the meaning of the term. See
Bostock, 140 S. Ct. 1731, 1739 (2020). But its analysis
proceeded on the assumption that, in 1964, the term
sex “referr[ed] only to biological distinctions between
male and female” and did not include “norms
concerning gender identity.” Id.
Moreover, that the word “sex” in Title IX refers to
biological characteristics, not gender identity,
becomes all the more plain when one considers the
privacy concerns that explain why, in the first place,
Title IX and its regulations allow schools to provide
separate living facilities, restrooms, locker rooms, and
shower facilities “on the basis of sex.” See 20 U.S.C.
§ 1686; 34 C.F.R. §§ 106.32(b), 106.33. To state the
obvious, what bathroom, locker room, shower, and
living facilities all have in common is that they are
places where people are, at some point, in a state of
partial or complete undress to engage in matters of
highly personal hygiene. An individual has a
legitimate and important interest in bodily privacy
that is implicated when his or her nude or partially
nude body is exposed to others. And this privacy
interest is significantly heightened when persons of
the opposite biological sex are present, as courts have
long recognized. See, e.g., Doe v. Luzerne Cty., 660 F.3d
169, 176–77 (3d Cir. 2011) (recognizing that an
individual has “a constitutionally protected privacy
interest in his or her partially clothed body” and that
this “reasonable expectation of privacy” exists
“particularly while in the presence of members of the

111a
opposite sex”); Brannum v. Overton Cty. Sch. Bd., 516
F.3d 489, 494 (6th Cir. 2008) (explaining that “the
constitutional right to privacy . . . includes the right to
shield one’s body from exposure to viewing by the
opposite sex”); Sepulveda v. Ramirez, 967 F.2d 1413,
1416 (9th Cir. 1992) (explaining that “[t]he right to
bodily privacy is fundamental” and that “common
sense, decency, and [state] regulations” require
recognizing it in a parolee’s right not to be observed by
an officer of the opposite sex while producing a urine
sample); Lee v. Downs, 641 F.2d 1117, 1119 (4th Cir.
1981) (recognizing that, even though inmates in prison
“surrender many rights of privacy,” their “special
sense of privacy in their genitals” should not be
violated through exposure unless “reasonably
necessary” and explaining that the “involuntary
exposure of [genitals] in the presence of people of the
other sex may be especially demeaning and
humiliating”). Moreover, these privacy interests are
broader than the risks of actual bodily exposure. They
include the intrusion created by mere presence. In
short, we want to be alone—to have our privacy—
when we “shit, shower, shave, shampoo, and shine.”
In light of the privacy interests that arise from the
physical differences between the sexes, it has been
commonplace and universally accepted—across
societies and throughout history—to separate on the
basis of sex those public restrooms, locker rooms, and
shower facilities that are designed to be used by
multiple people at a time. Indeed, both the Supreme
Court and our court have previously indicated that it
is this type of physiological privacy concern that has
led to the establishment of such sex-separated
facilities. See United States v. Virginia, 518 U.S. 515,

112a
533, 550 n.19 (1996) (recognizing that “[p]hysical
differences between men and women” are “enduring”
and render “the two sexes . . . not fungible” and
acknowledging, when ordering an all-male Virginia
college to admit female students, that such a remedy
“would undoubtedly require alterations necessary to
afford members of each sex privacy from the other sex”
(cleaned up)); Faulkner v. Jones, 10 F.3d 226, 232 (4th
Cir. 1993) (noting “society’s undisputed approval of
separate public rest rooms for men and women based
on privacy concerns”).
In short, the physical differences between males
and females and the resulting need for privacy is what
the exceptions in Title IX are all about.
The issue in this case arises from the fact that
Grimm is a transgender male who was born a
biological female. Thus, we must determine in this
context what it means to provide him separate toilet,
locker room, and shower facilities on the basis of sex.
Grimm does not challenge the constitutionality of
Title IX or the legitimacy of its regulations, nor does
he challenge the statute’s underlying policy interests.
He argues simply that because he identifies as male,
he must be allowed to use the male restrooms and that
denying him that permission discriminates against
him on the basis of his sex.
Grimm’s argument, however, is facially untenable.
While he accepts the fact that Title IX authorizes the
separation of restrooms—indeed, he seeks to use the
male restrooms so separated from female restrooms—
the implementation of his position would allow him to
use restrooms contrary to the basis for separation.
Gloucester High School maintains male restrooms,

113a
female restrooms, unisex restrooms, and under its
policy, Grimm would be entitled to use either the
female or the unisex restrooms. But requiring the
school to allow him, a biological female who identifies
as male, to use the male restroom compromises the
separation as explicitly authorized by Title IX.
Seeking to overcome this logical barrier, the
majority maintains that the School Board applied “its
own discriminatory notions of what ‘sex’ means.” Ante
at 56. But the School Board did no such thing. In
implementing its policy, it relied on the commonly
accepted definition of the word “sex” as referring to the
anatomical and physiological differences between
males and females and concluded that, for purposes of
access to its sex-separated facilities, Grimm’s sex
remained female during the time he was a student at
Gloucester High School.
Not to be persuaded, the majority further states
that the regulation permitting schools to provide
separate toilets on the basis of sex “cannot override the
statutory prohibition against discrimination on the
basis of sex.” Ante at 56. But strikingly, this overlooks
the fact that Congress expressly provided in the
statute that nothing in its prohibition against
discrimination “shall be construed to prohibit” schools
“from maintaining separate living facilities for the
different sexes.” 20 U.S.C. § 1686. The majority’s
oversight can only be taken as a way to reach
conclusions on how schools should treat transgender
students, rather than a determination of what the
statute requires of them.
In short, Gloucester High School did not deny
Grimm suitable restrooms. It created three new

114a
unisex restrooms that allowed him, as well as the
other students, the privacy protected by separating
bathrooms on the basis of sex.
IV
Grimm also contends that, even if the School Board
did not discriminate against him on the basis of sex in
violation of Title IX, it discriminated against him in
violation of the Equal Protection Clause of the
Fourteenth Amendment. He does so without arguing
that Title IX violates the Equal Protection Clause in
allowing educational institutions to separate
restrooms on the basis of sex.
The Equal Protection Clause provides that no
State shall “deny to any person within its jurisdiction
the equal protection of the laws.” U.S. Const. amend.
XIV, § 1. As long recognized by the Supreme Court, the
Clause is “essentially a direction that all persons
similarly situated should be treated alike.” City of
Cleburne v. Cleburne Living Ctr., 473 U.S. 432, 439
(1985) (emphasis added). In this manner, the
provision “simply keeps governmental decisionmakers
from treating differently persons who are in all
relevant respects alike.” Nordlinger v. Hahn, 505 U.S.
1, 10 (1992) (emphasis added). As such, a plaintiff
asserting a violation of the Equal Protection Clause
must “demonstrate that he has been treated
differently from others with whom he is similarly
situated and that the unequal treatment was the
result of intentional or purposeful discrimination.”
Morrison v. Garraghty, 239 F.3d 648, 654 (4th Cir.
2001); see also Vill. of Willowbrook v. Olech, 528 U.S.
562, 564 (2000) (per curiam) (noting that the Equal
Protection Clause “secure[s] every person within the

115a
State’s jurisdiction against intentional and arbitrary
discrimination” (cleaned up)).
In general, a state-created classification will be
“presumed to be valid and will be sustained if [it] is
rationally related to a legitimate state interest.” City
of Cleburne, 473 U.S. at 440. The Supreme Court has
recognized, however, that legislative classifications
based on sex “call for a heightened standard of
review.” Id. Thus, when state actors treat people
differently on the basis of sex, they must show “that
the challenged classification serves important
governmental objectives and that the discriminatory
means employed are substantially related to the
achievement of those objectives.” Virginia, 518 U.S. at
533 (cleaned up). “The justification must be genuine,”
and it may not “rely on overbroad generalizations
about the different talents, capacities, or preferences
of males and females.” Id. Nonetheless, “[t]o fail to
acknowledge even our most basic biological
differences . . . risks making the guarantee of equal
protection superficial, and so disserving it.” Tuan Anh
Nguyen v. INS, 533 U.S. 53, 73 (2001).
Here, Grimm appears to acknowledge that a public
school may, consistent with the Equal Protection
Clause, establish one set of restrooms for its male
students and another set for its female students, as
long as the two sets of facilities are comparable—a
“separate but equal” arrangement that would
obviously be unconstitutional if the factor used to
assign students to restrooms was instead race. And
the reason it is constitutional for a school to provide
separate restrooms for its male and female students—
but not, for example, to its Black and White

116a
students—is because there are biological differences
between the two sexes that are relevant with respect
to restroom use in a way that a person’s skin color is
demonstrably not. As noted above, all individuals
possess a privacy interest when using restrooms or
other spaces in which they remove clothes and engage
in personal hygiene, and this privacy interest is
heightened when persons of the opposite sex are
present. Indeed, this privacy interest is heightened yet
further when children use communal restrooms and
similar spaces, because children, as the School Board
notes, “are still developing, both emotionally and
physically.”
It is thus plain that a public school may lawfully
establish, consistent with the Constitution, separate
restrooms for its male and female students in order to
protect bodily privacy concerns that arise from the
anatomical differences between the two sexes. In light
of this rationale, Grimm cannot claim that he was
discriminated against when he was denied access to
the male restrooms because he was not, in fact,
similarly situated to the biologically male students
who used those restrooms. While he no doubt
identifies as male and also has taken the first steps to
transition his body, at all times relevant to the events
in this case, he remained anatomically different from
males. Because such anatomical differences are at the
root of why communal restrooms are generally
separated on the basis of sex, I conclude that by
adopting a policy pursuant to which Grimm was not
permitted to use male student restrooms, the School
Board did not “treat[] differently persons who are in
all relevant respects alike,” Nordlinger, 505 U.S. at 10
(emphasis added), and therefore did not violate the

117a
Equal Protection Clause. And there is no claim or
evidence in the record that Grimm was treated
differently from any other transgender student.
In reaching the opposite conclusion, the majority
imputes to the School Board an illegal bias based
solely on the decision it made to separate restrooms. It
reasons that “[t]he overwhelming thrust of everything
in the record . . . is that Grimm was similarly situated
to other boys” with respect to the use of restroom
facilities, and it further asserts that, by “privileg[ing]
sex-assigned-at-birth
over
Grimm’s
medically
confirmed, persistent and consistent gender identify,”
the School Board revealed “its own bias.” Ante at 38–
39. But in employing such an analysis, the majority
fails to address why it is permissible for schools to
provide separate restrooms to their male and female
students to begin with. Such consideration would have
demonstrated that it was not “bias” for a school to
have concluded that, in assigning a student to either
the male or female restrooms, the student’s biological
sex was relevant.
At bottom, I conclude that the School Board, in
denying Grimm the use of male restrooms, did not
violate the Equal Protection Clause.
*

*

*

The majority opinion devotes over 20 pages to its
discussion of Grimm’s transgender status, both at a
physical and psychological level. Yet, the mere fact
that it felt necessary to do so reveals its effort to effect
policy rather than simply apply law.
I readily accept the facts of Grimm’s sex status and
gender identity and his felt need to be treated with

118a
dignity. Affording all persons the respect owed to them
by virtue of their humanity is a core value underlying
our civil society. At the same time, our role as a court
is limited. We are commissioned to apply the law and
must leave it to Congress to determine policy. In this
instance, the School Board offered its students male
and female restrooms, legitimately separating them
on the basis of sex. It also provided safe and private
unisex restrooms that Grimm, along with all other
students, could use. These offerings fully complied
with both Title IX and the Equal Protection Clause.
Accordingly, I would reverse and remand with
instructions to dismiss Grimm’s complaint.

119a
UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
Newport News Division
GAVIN GRIMM,
Plaintiff,
v.

Civil No. 4:15cv54

GLOUCESTER COUNTY SCHOOL BOARD,
Defendant.
ORDER
Pending before the Court are a Motion to Strike
Exhibits (ECF No. 213) and Cross-Motions for
Summary Judgment filed by Plaintiff Gavin Grimm
(ECF No. 184) and Defendant Gloucester County
School Board (“the Board”) (ECF No 191). For the
following reasons, the Board’s Motion to Strike is
GRANTED IN PART and DENIED IN PART,
Mr. Grimm’s Motion for Summary Judgment is
GRANTED, and the Board’s Motion for Summary
Judgment is DENIED.
I.

FACTUAL BACKGROUND

Gavin Grimm is a twenty-year-old man who
attended Gloucester High School, a public high school
in Gloucester County, Virginia, from September 2013
until his graduation in June 2017. See Gavin Grimm
Decl. ¶¶ 3, 5, ECF No. 186. When Mr. Grimm was
born, hospital staff identified him as female. Id. ¶ 7.
Despite this designation, Mr. Grimm has always

120a
“related to male characters” and “ha[s] always known
that [he is] a boy.” Id. ¶ 6.
When Mr. Grimm enrolled in the Gloucester
County School System, he was listed as a girl. He
began his freshman year in 2013 at Gloucester High
School with a female birth certificate. Andersen Decl.,
ECF No. 196-6.
In April 2014, Mr. Grimm disclosed to his parents
that he was transgender. Gavin Grimm Decl. ¶ 20;
Deirdre Grimm Decl. ¶ 7, ECF No. 187. According to
Dr. Melinda Penn, M.D.,1 “gender identity” refers to “a
person’s innate sense of belonging to a particular
gender.” Penn Expert Rep. and Decl. ¶ 17, ECF No.
192-3. She opines that people’s gender identity usually
matches the sex consistent with their external
genitalia possessed at birth, but that transgender
individuals have a gender identity different from the
one assigned to them at birth. Id. ¶¶ 18–19.
At Mr. Grimm’s request, he began therapy in May
2014 with Dr. Lisa Griffin, Ph.D., a psychologist with
experience counseling transgender youth. Gavin
Grimm Decl. ¶ 24. Dr. Griffin diagnosed Mr. Grimm
with gender dysphoria. Id. Dr. Griffin prepared a
treatment documentation letter stating that
Mr. Grimm retained Dr. Penn to “provide expert testimony
on the applicable standards of care and treatment guidelines for
transgender youth.” ECF No. 214-2 at 1. Dr. Penn is a pediatric
endocrinologist with the Children’s Hospital of the King’s
Daughters in Norfolk, Virginia, holds a medical degree from
Eastern Virginia Medical School, and is board certified in
pediatric endocrinology by the American Board of Pediatrics.
ECF No. 192-3 ¶¶ 3-4. One of her specialties is transgender
health. Id.
1

121a
Mr. Grimm has gender dysphoria, that he should
present as a male in his daily life, that he should be
considered and treated as a male, and that he should
be allowed to use restrooms consistent with that
identity. ECF No. 186-1 at 1.
The American Psychiatric Association’s Diagnostic
& Statistical Manual of Mental Disorders (“DSM V”)
defines “gender dysphoria” as a condition experienced
by some transgender people that inflicts clinically
significant stress because their gender identity differs
from the sex assigned to them at birth. Penn Expert
Rep. and Decl. ¶ 21. Dr. Penn’s report explains that
“to be diagnosed with gender dysphoria, the
incongruence [between gender identity and assigned
sex] must have persisted for at least six months and
be accompanied by clinically significant distress or
impairment in social, occupational, or other important
areas of functioning.” Id.
During the course of his treatment for gender
dysphoria, Mr. Grimm changed his first name legally
to Gavin and began using male pronouns to describe
himself. Gavin Grimm Decl. ¶¶ 23, 25. He also began
using men’s restrooms in public venues. Id. ¶¶ 37, 38.
Dr. Griffin referred Mr. Grimm to an endocrinologist
for hormone treatment around this time. Id. ¶ 24.
In August 2014, before the beginning of
Mr. Grimm’s sophomore year, Mr. Grimm and his
mother met with Ms. Tiffany Durr, a school guidance
counselor. Id. ¶¶ 26–27. They gave Ms. Durr a copy of
Dr. Griffin’s treatment documentation letter and
requested that Mr. Grimm be treated as a boy at
school. Id. Mr. Grimm and Ms. Durr agreed that

122a
Mr. Grimm would use the restroom in the nurse’s
office. Id. ¶ 29.
Mr. Grimm “soon found it stigmatizing to use a
separate restroom,” however, and “began to feel
anxiety and shame surrounding [his] travel to the
nurse’s office.” Id. He also found that the distance to
this bathroom caused him to be late to class. Id.
After a few weeks of using the restroom in the
nurse’s office, Mr. Grimm met with Ms. Durr and
sought permission to use the school’s male restrooms.
Id. ¶ 33; Durr Dep. 23:6–17, ECF No. 192-11.
Ms. Durr relayed Mr. Grimm’s request to Principal
Nate Collins. Durr Dep. 24:1–17. Principal Collins
spoke with Superintendent Walter Clemons, who
offered to support Principal Collins’ ultimate decision.
Collins Dep. 49:7–50:1, ECF No. 192-9; Clemons Dep.
24:4–20, ECF No. 192-10. Principal Collins allowed
Mr. Grimm to use the male restrooms. Collins Dep.
50:22–51:13.
Mr. Grimm used the male restrooms at Gloucester
High School for seven weeks. Gavin Grimm Decl. ¶ 36.
During this time, there were no incidents in the
restrooms involving Mr. Grimm and other students.
Id. Mr. Grimm was given permission to complete his
physical education courses online and never needed to
use the locker rooms at school. Gavin Grimm Dep.
96:14–97:9.
Subsequently, however, Dr. Clemons, Principal
Collins, and Board members began receiving
complaints from adult members of the community who
had learned that a transgender boy was using male
restrooms at the high school. See Collins Dep. 66:1–22;

123a
Clemons Dep. 32:16–33:6; Def.’s Response to First Set
of Interrogatories ¶ 1, ECF No. 192-1. Some members
of the community demanded that the transgender
student be barred from the male restrooms. Id. One
student personally complained to Principal Collins.
ECF No. 192-1 ¶ 1.
Following these complaints, Board member Carla
Hook proposed the following policy at the Board’s
public meeting on November 11, 2014:
Whereas the GCPS recognizes that some students
question their gender identities, and
Whereas the GCPS encourages such students to
seek support, advice, and guidance from parents,
professionals and other trusted adults, and
Whereas the GCPS seeks to provide a safe learning
environment for all students and to protect the
privacy of all students, therefore
It shall be the practice of the GCPS to provide male
and female restroom and locker room facilities in
its schools, and the use of said facilities shall be
limited to the corresponding biological genders,
and students with gender identity issues shall be
provided an alternative appropriate private
facility.
Hook Nov. 9, 2014 Email, ECF No. 192-21.
Mr. Grimm and his parents spoke against the
proposed policy at the November 11, 2014 meeting.
Gavin Grimm Decl. ¶ 40. The Board voted 4-3 to defer
a decision regarding the policy until the next Board
meeting on December 9, 2014. Recorded Minutes of
the Board, Nov. 11, 2014 at 4, ECF No. 192-37.

124a
The Board passed the proposed policy on
December 9, 2014 by a 6-1 vote. Recorded Minutes of
the Board, Dec. 9, 2014, at 3, ECF No. 192-23. The
Board also announced that it would construct singlestall, unisex restrooms for all students to use. Id. The
following day, Principal Collins told Mr. Grimm that
his further use of the male restrooms at Gloucester
High
School
would
result
in
disciplinary
consequences. Collins Dec. 10, 2014 Memo to Deirdre
and David Grimm, ECF No. 192-24; Gavin Grimm
Decl. ¶ 44.
In December 2014, Mr. Grimm began hormone
therapy. This “deepened [his] voice, increased [his]
growth of facial hair, and [gave him] a more masculine
appearance.” Gavin Grimm Decl. ¶ 60.
Single-user restrooms had not yet been constructed
when the Board enacted the policy. Gavin Grimm
Decl. ¶ 46. Mr. Grimm has recounted an incident
when he stayed after school for an event, realized the
nurse’s office was locked, and broke down in tears
because there was no restroom he could use
comfortably. Id. A librarian witnessed this and drove
him home. Id.
Mr. Grimm also declared that when the single-user
restrooms were built, they were located far from
classes that he attended. Id. ¶ 49. A map of the school
confirms that no single-user restrooms were located in
Hall D, where Mr. Grimm attended most classes. ECF
Nos. 192-28, 192-29. There was also no single-user
restroom at the school’s stadium, limiting
Mr. Grimm’s ability to attend events there. Gavin
Grimm Decl. ¶ 52.

125a
The single-stall restrooms made Mr. Grimm feel
“stigmatized and isolated.” Id. ¶ 47. He never saw any
other student use these restrooms. Id. ¶ 48. Principal
Collins testified at his deposition that he never saw a
student use the single-user restrooms, but that he
assumed that they were used because they were
cleaned daily. Collins Dep. 132:7–20.
Mr. Grimm avoided using restrooms at school and
later developed urinary tract infections. Gavin Grimm
Decl. ¶¶ 51–52. This caused him to become distracted
and uncomfortable in class. Id. Mr. Grimm’s mother
kept medication for urinary tract infections “always
stocked at home.” Deirdre Grimm Decl. ¶ 26.
In June 2015, the Virginia Department of Motor
Vehicles issued Mr. Grimm a state identification card
identifying him as male. Gavin Grimm Decl. ¶ 61;
ECF No. 41-2.
During his junior year of high school, Mr. Grimm
was admitted to the boys’ ward at the hospital at
Virginia Commonwealth University “because he was
having thoughts of suicide.” Deirdre Grimm Decl.
¶ 24.
In June 2016, Mr. Grimm underwent chestreconstruction surgery. Grimm Decl. ¶ 62.
On September 9, 2016, the Gloucester County
Circuit Court issued an order declaring Mr. Grimm’s
sex to be male and directing the Virginia Department
of Health to issue him a birth certificate listing his sex
as male. Id. ¶ 63; ECF No. 41-3. The order referred to
Mr. Grimm’s chest reconstruction surgery as “gender
reassignment surgery” and concluded that Mr. Grimm
is “now functioning fully as a male.” ECF No. 41-3.

126a
On October 27, 2016, the Virginia Department of
Health issued a birth certificate listing Mr. Grimm’s
sex as male. Gavin Grimm Decl. ¶ 64; ECF No. 41-4.
After receiving an updated birth certificate,
Mr. Grimm and his mother provided Gloucester High
School with a photocopy of it and asked that his school
records be updated. Gavin Grimm Decl. ¶ 66. The
school has declined to correct Mr. Grimm’s transcript,
which still reflects his sex as female. ECF No. 41-5.
Troy Andersen, the Board’s 30(b)(6) witness,2
testified that the Board has declined to update
Mr. Grimm’s transcripts because it believes that the
amended birth certificate does not accord with
Virginia law and because the photocopy presented was
marked “void.” Andersen Dep. 65:8–66:1, ECF No.
192-13.
On January 18, 2017, the Board informed
Mr. Grimm that he had a right to a hearing related to
the Board’s decision not to amend his official
transcript and educational records. ECF No. 171-1.
Mr. Grimm did not request a hearing.
Mr. Grimm graduated high school on June 10,
2017. Gavin Grimm Decl. ¶ 57. He is now attending
Berkeley City College in California and intends to
transfer to a four-year college. Id. ¶ 69.

Under Federal Rule of Civil Procedure 30(b)(6), if an
organization is named as a deponent in a civil matter, the
organization must designate one or more persons who consent to
testify on its behalf. The Board designated Troy Andersen, a
Board member, to testify on its behalf.
2

127a
II.

PROCEDURAL BACKGROUND

Mr. Grimm commenced this action against the
Board on June 11, 2015, at the end of his sophomore
school year, alleging that the Board’s policy of
assigning students to restrooms based on their
biological sex violated Title IX of the Education
Amendments of 1972, 20 U.S.C. § 1681(a), and
violated the Equal Protection Clause of the
Fourteenth Amendment to the United States
Constitution. ECF No. 1. This Court considered the
Board’s motion to dismiss Mr. Grimm’s Amended
Complaint. On May 22, 2018, this Court denied the
motion to dismiss. ECF No. 148.
In doing so, this Court held that a plaintiff’s claim
of discrimination on the basis of transgender status
constitutes a viable claim of sex discrimination under
Title IX. Id. at 13–21. Specifically, this Court relied on
Price Waterhouse v. Hopkins, 490 U.S. 228 (1989),
which held that Title VII of the Civil Rights Act of
1964 bars discrimination not only based on a person’s
gender, but also based on whether the person
conforms to stereotypes associated with the person’s
gender.3 This Court joined the District of Maryland in
concluding that under Title IX “discrimination on the
basis of transgender status constitutes gender
stereotyping because “by definition, transgender
persons do not conform to gender stereotypes.’” M.A.B.
Courts may, and frequently do, look to case law interpreting
Title VII for guidance in evaluating a claim brought under Title
IX. See, e.g., G.G. ex rel. Grimm v. Gloucester Cty. Sch. Bd.
(“Grimm I”), 822 F.3d 709, 718 (4th Cir. 2016), vacated and
remanded, 853 F.3d 729 (Apr. 17, 2017) (citing Jennings v. Univ.
of N.C., 482 F.3d 686, 695 (4th Cir. 2007)).
3

128a
v. Bd. of Educ. of Talbot Cty., 286 F. Supp. 3d 704, 714
(D. Md. 2018) (quoting Finkle v. Howard Cty., 12
F. Supp. 3d 780, 787–88 (D. Md. 2014)).4
This Court also held that state action that
discriminates against transgender individuals is
subject to intermediate scrutiny under the
Constitution’s Equal Protection Clause for two
reasons. ECF No. 148 at 25–28. First, transgender
individuals constitute at least a quasi-suspect class.
See M.A.B., 286 F. Supp. 3d at 718–20. Second,
discrimination based on sex stereotypes constitutes a
sex-based classification of a type subject to
intermediate scrutiny. Id. at 718–19.
On February 15, 2019, this Court permitted
Mr. Grimm to file a Second Amended Complaint. This
filing added a claim that the Board continues to
discriminate against Mr. Grimm in violation of Title
IX and the Equal Protection Clause by refusing to
update his official school transcripts to reflect his sex
as male. ECF No. 177.

The First, Sixth, Ninth, and Eleventh Circuits have all
relied on Price Waterhouse in holding that claims of
discrimination based on transgender status constitute per se sex
discrimination under Title VII or other civil rights laws. See
EEOC v. R.G. & G.R. Harris Funeral Homes, Inc., 884 F.3d 560,
574-75 (6th Cir. 2018) cert. granted 139 S. Ct. 1599 (2019) (Title
VII); Glenn v. Brumby, 663 F.3d 1312, 1316–19 (11th Cir. 2011)
(Title VII and Equal Protection Clause); Smith v. City of Salem,
378 F.3d 566, 573–75 (6th Cir. 2004) (Title VII and Equal
Protection Clause); Rosa v. Park W. Bank & Trust Co., 214 F.3d
213, 215–16 (1st Cir. 2000) (Equal Credit Opportunity Act);
Schwenk v. Hartford, 204 F.3d 1187, 1201-03 (9th Cir. 2000)
(Gender Motivated Violence Act).
4

129a
The parties filed motions for summary judgment.
ECF Nos. 184, 191. The Board has also moved to strike
certain exhibits relied upon by Mr. Grimm. ECF No.
213. On July 23, 2019, this Court heard argument on
these pending motions. ECF No. 228. The motions are
now ripe for consideration.
II.

LEGAL STANDARDS

Rule 56 of the Federal Rules of Civil Procedure
permits a party to move for summary judgment and
directs a court to grant such motion “if the movant
shows that there is no genuine dispute as to any
material fact and the movant is entitled to judgment
as a matter of law.” Fed. R. Civ. P. 56(a). The party
“seeking summary judgment always bears the initial
responsibility of informing the [court] of the basis for
its motion, and identifying those portions of the
pleadings, depositions, answers to interrogatories,
and admissions on file, together with the affidavits, if
any, which it believes demonstrate the absence of a
genuine issue of material fact.” Celotex Corp. v.
Catrett, 477 U.S. 317, 323 (1986) (quotations omitted).
Subsequently, the burden shifts to the non-moving
party to present specific facts demonstrating that a
genuine dispute of material fact exists for trial. See
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586 (1986) (“When the moving party has
carried its burden under Rule 56(c), its opponent must
do more than simply show that there is some
metaphysical doubt as to the material facts.”). For the
evidence to present a “genuine” dispute of material
fact, it must be “such that a reasonable jury could
return a verdict for the nonmoving party.” Anderson v.
Liberty Lobby, Inc., 477 U.S. 242, 248 (1986). When

130a
deciding a motion for summary judgment, courts must
view the facts, and inferences to be drawn from the
facts, in the light most favorable to the non-moving
party. Id. at 255.
[A] party asserting that a fact cannot be or is
genuinely disputed must support the assertion by:
(A) citing to particular parts of materials in the
record,
including
depositions,
documents,
electronically stored information, affidavits or
declarations, stipulations (including those made
for purposes of the motion only), admissions,
interrogatory answers, or other materials; or
(B) showing that the materials cited do not
establish the absence or presence of a genuine
dispute, or that an adverse party cannot produce
admissible evidence to support the fact.
Fed. R. Civ. P. 56(c).
When ruling on a summary judgment motion, “a
court may also give credence to other facts supporting
the movant, regardless of their source, if such facts are
not challenged by the non-moving party because a
failure to challenge proffered facts may render such
facts ‘admitted.’” XVP Sports, LLC v. Bangs, No.
2:11cv379, 2012 WL 4329258, at *4 (E.D. Va. Sept. 17,
2012).
As specified in Local Civil Rule 56(B), “the Court
may assume that facts identified by the moving party
in its listing of [undisputed] material facts are
admitted, unless such a fact is controverted in the
statement of genuine issues filed in opposition to the
motion.” E.D. Va. Loc. Civ. R. 56(B).

131a
The applicable standards for resolving the
challenges raised by the Board’s Motion to Strike are
addressed where needed below.
IV.

ANALYSIS

A.

Motion to Strike Exhibits

In his Reply in support of his Motion for Summary
Judgment, Mr. Grimm submitted the following
records: (1) a treatment documentation letter written
by Dr. Griffin on May 26, 2014; (2) a hormone
documentation letter written by Dr. Griffin on May
26, 2014; (3) a “To Whom It May Concern” letter
written by Dr. Griffin on July 1, 2014; (4) a “To Whom
It May Concern” letter written by Dr. Eva Abel,
Psy.D.; (5) treatment records prepared by Dr. Hope
Sherie, M.D. FACS; (6) a “To Whom It May Concern”
letter written by Dr. Sherie on June 21, 2016; and
(7) treatment records from VCU Medical Center.
The Board has filed a Motion to Strike Exhibits
submitted by Mr. Grimm in support of his Motion for
Summary Judgment. ECF No. 213. The Board seeks
to strike four categories of exhibits: (1) the medical
records kept by Dr. Penn, Dr. Griffin, and Dr. Sherie
that are referred to above; (2) the “To Whom It May
Concern” letters; (3) policy statements and amicus
briefs relied upon by Mr. Grimm; and (4) references to
a public hearing that was held in February 2019.
These challenges are addressed in turn.
1.

Medical Business Records

The Board argues that Mr. Grimm’s submission of
medical records from Dr. Penn, Dr. Griffin, and
Dr. Sherie constitute expert testimony and that these

132a
records must be stricken because Mr. Grimm did not
disclose these experts under Federal Rule of Civil
Procedure 26. Federal Rule of Civil Procedure 26
provides that a party must disclose, without awaiting
a discovery request, any witness it may use to present
evidence under Federal Rule of Evidence 702, 703, or
705 governing expert testimony. Fed. R. Civ. P.
26(a)(2)(A). When a party does not comply with Rule
26(a), “the party is not allowed to use that information
or witness to supply evidence on a motion, at a
hearing, or at a trial, unless the failure was
substantially justified or is harmless.” Fed. R. Civ. P.
37.
Mr. Grimm is not presenting these exhibits as
expert opinion testimony and they are not governed by
Rules 702, 703, or 705. Mr. Grimm has established
that he is using these records only to demonstrate the
fact that Mr. Grimm was diagnosed with gender
dysphoria and received treatment pursuant to that
diagnosis. ECF No. 216 at 1–6. The Court is not asked
to determine whether that diagnosis was medically
sound. Nor is the Court asked to determine whether it
was medically necessary for Mr. Grimm to use the
restrooms consistent with his gender identity.
Mr. Grimm does not seek such a ruling and reiterated
this at oral argument. Draft Tr. at 11–12.
To support its request to strike, the Board cited
cases that excluded documents that differ from the
evidence submitted in this case. See ECF No. 214 at
6–7. In these decisions, the courts excluded expert
reports that were not timely disclosed. See, e.g., United
States ex rel. Lutz, et al. v. Berkeley Heartlab, Inc., et
al., No. 9:11-CV-1593-RMG, 2017 WL 5957738, at *1

133a
(D.S.C. Dec. 1, 2017) (excluding expert reports opining
that certain laboratory tests were medically
necessary).
By contrast, Mr. Grimm has submitted documents
prepared contemporaneously to his treatment that
detail the factual background attendant to his
diagnosis and treatment. These documents are
permissible. Morris v. Bland, 666 F. App’x 233, 239
(4th Cir. 2016) (holding that physicians testifying as
fact witnesses may “discuss their examination of [a
patient] and their diagnoses or findings,” but may not
offer expert opinions as to proximate cause).
These records also qualify as hearsay exceptions as
defined in Federal Rule of Evidence 803(6). Under
Federal Rule of Evidence 803(6), records of an act,
event, condition, opinion, or diagnosis are excluded
from the bar against hearsay if:
(A) the record was made at or near the time by—or
from information transmitted by—someone with
knowledge;
(B) the record was kept in the course of a regularly
conducted activity of a business, organization,
occupation, or calling, whether or not for profit;
(C) making the record was a regular practice of
that activity;
(D) all these conditions are shown by the testimony
of the custodian or another qualified witness, or by
a certification that complies with [certain rules or
statutes];
and

134a
(E) the opponent does not show that the source of
information or the method or circumstances of
preparation indicate a lack of trustworthiness.
Fed. R. Evid. 803(6).
Medical records are quintessentially business
records, and Mr. Grimm has identified adequate
custodians for each record presented. For these
reasons, the Court denies the Board’s Motion to Strike
Mr. Grimm’s medical documentation.
2.

“To Whom It May Concern” Letters

The Board also seeks to strike the “To Whom It
May Concern” letters on the basis of hearsay. The
Board asserts that such letters “are not the type of
records regularly kept in the course of a medical
practice . . . .” ECF No. 214 at 7–8. The Board also
argues that the letters are untrustworthy because
they are addressed to unknown recipients. Id. at 8.
The Board offers no support for its assertion that
these letters are not the type of records kept regularly
in the course of the medical practice. The fact that
three different doctors prepared these types of letters
contemporaneously
with
their
treatment
of
Mr. Grimm suggests otherwise.5
Regarding trustworthiness, Rule 803(6) makes
clear that the burden of showing untrustworthiness
The Court also notes that the World Professional
Association for Transgender Health acknowledges that the role
of a health professional working with transgender youth
encompasses providing referral letters for hormone therapy and
includes advocacy on behalf of their patients at school. WPATH
Standards of Care at 13, 31–32, ECF No. 192-5.
5

135a
falls on the opponent of the records. The Board cites
Garrett v. City of Tupelo, No. 1:16-cv-197, 2018 WL
2994808 (N.D. Miss. June 14, 2018) to assert that
letters addressed to unknown recipients are
untrustworthy. However, Garrett did not turn on the
identity of the recipient of information, but instead
turned on the identity of the source of such
information. Id. at *4 (recognizing that documents
may be untrustworthy when information comes from
the patient, not the doctor, or when the “source of the
information is unknown”) (emphasis added). The
Board has not met its burden of showing that these
documents are untrustworthy. Accordingly, the Court
declines to strike the “To Whom It May Concern”
letters provided by Dr. Griffin, Dr. Abel, and
Dr. Sherie.
3.

Policy Statements and Amicus Briefs

The Board seeks to strike evidence submitted by
Mr. Grimm that include: (1) the World Professional
Association for Transgender Health Standards of
Care, (2) amicus briefs from a variety of organizations,
including the American Academy of Pediatrics, the
National Parent Teacher Association, and school
administrators from thirty-three states and the
District of Columbia; and (3) other documents
reflecting the views of the American Psychological
Association and National Association of School
Psychologists, Gender Spectrum, and the National
Association of Secondary School Principals. See ECF
No. 214 at 9–13.
The Board does not dispute that the statements
presented in these documents reflect the views of
these organizations. Instead, the Board argues that

136a
Mr. Grimm cannot use these documents to prove the
truth of the matters asserted. Mr. Grimm responds
that he is using these documents only as evidence of
these organizations’ views. Given that there is no
dispute regarding the propriety of the intended use of
these documents, the Court need not strike them. The
Court has considered these documents as evidence of
the views of the organizations that prepared them,
and not as substantive evidence of the accuracy of such
views.
4.

Public Hearing References

On February 19, 2019, the Board announced that
it was considering a new policy that would allow
transgender students to use restrooms consistent with
their gender identity if certain criteria were met. Feb.
3, 2019 Press Release, ECF No. 192-35. The proposed
policy arose out of settlement negotiations between
the parties. Shayna Medley-Warsoff Decl. ¶ 53, ECF
No. 192. The policy was ultimately rejected.
The Board argues that the Court should strike any
evidence related to the February 2019 hearing under
Federal Rule of Evidence 408, which prohibits the use
of evidence related to compromise negotiations. At the
summary judgment hearing, counsel for Mr. Grimm
stated that the Court need not consider the statements
made at the February 2019 hearing. Draft Tr. at 11.
Accordingly, the Court has not considered evidence
related to that hearing and GRANTS the Board’s
Motion to Strike any evidence related to it.

137a
B.

Gavin Grimm’s
Judgment

1.

Title IX

Motion

for

Summary

Title IX provides that no person “shall, on the basis
of sex, be excluded from participation in, be denied the
benefits of, or be subjected to discrimination under
any educational program or activity receiving Federal
financial assistance.” 20 U.S.C. § 1681(a); see also 34
C.F.R. § 106.31. To obtain relief for claims alleging a
violation of Title IX, a plaintiff must demonstrate that
(1) he or she was excluded from participation in an
education program because of his or her sex; (2) the
educational institution was receiving federal financial
assistance at the time of his or her exclusion; and
(3) the improper discrimination caused the plaintiff
harm. Grimm I, 822 F.3d at 718 (citing Preston v.
Virginia ex rel. New River Cmty. Coll., 31 F.3d 203,
206 (4th Cir. 1994)). The Board does not dispute that
it receives federal financial assistance. ECF No. 154
¶ 91. Accordingly, only the first and third elements are
disputed.
(a) Gavin Grimm was excluded from
participation in an education program on the
basis of sex.
In its May 22, 2018 Order, this Court concluded
that claims of discrimination on the basis of
transgender status are per se actionable under a
gender stereotyping theory. ECF No. 148 at 20. The
Board argues that this decision was made in error and
that “the plain language of Title IX and its
implementing regulation, 34 C.F.R. § 106.33,” define
sex as a binary term encompassing the physiological

138a
distinctions between men and women. ECF No. 200 at
27–28.
The Board presents no intervening case law that
compels reconsideration of this decision. To the
contrary, every court to consider the issue since May
22, 2018 has agreed with the analysis relied upon by
this Court. See Doe by & through Doe v. Boyertown
Area Sch. Dist., 897 F.3d 518, 530 (3d Cir. 2018)
(stating that a policy forcing transgender students to
use separate facilities “would very publicly brand all
transgender students with a scarlet ‘T,’ and they
should not have to endure that as the price of
attending their public school”); Adams by & through
Kasper v. Sch. Bd. of St. Johns Cty., 318 F. Supp. 3d
1293, 1325 (M.D. Fla. 2018) (holding that “the
meaning of ‘sex’ in Title IX includes ‘gender identity’
for purposes of its application to transgender
students” and that the transgender student proved a
Title IX violation where a school board denied him
from using male restrooms, causing him harm) appeal
docketed, No. 18-13592 (11th Cir. Aug. 24, 2018);
Parents for Privacy v. Dallas Sch. Dist. No. 2, 326
F. Supp. 3d 1075, 1106 (D. Or. 2018) (“Forcing
transgender students to use facilities inconsistent
with their gender identity would undoubtedly harm
those students and prevent them from equally
accessing educational opportunities and resources.
Such a . . . District policy would punish transgender
students for their gender noncomformity and
constitute a form of sex-stereotyping.”) appeal
docketed, 18-35708 (9th Cir. Aug. 23, 2018). This
Court believes that this reasoning is sound and correct
and declines to revisit its prior holding.

139a
In sum, there is no question that the Board’s policy
discriminates against transgender students on the
basis of their gender noncomformity. Under the policy,
all students except for transgender students may use
restrooms corresponding with their gender identity.
Transgender students are singled out, subjected to
discriminatory treatment, and excluded from spaces
where similarly situated students are permitted to go.
The Board responds that its policy treats all
students equally on the basis of physiological or
anatomical
characteristics,
and
that
these
characteristics should not be considered sex
stereotypes under Price Waterhouse. This argument is
unpersuasive.
The Board’s policy relies on the term “biological
gender.” See ECF No. 192-21. As this Court recognized
previously, biological gender is not a medically
accepted term. See ECF No. 148 at 14–15 (explaining
that “sex” refers to biological attributes such as genes,
chromosomes,
genitalia,
and
secondary
sex
characteristics, and “gender” refers to the “‘internal,
deeply held sense’ of being a man or woman’”) (citing
Wylie C. Hembree et al., Endocrine Treatment of
Gender-dysphoric/Gender-Incongruent Persons: An
Endocrine Society Clinical Practice Guideline,
102(11), J. CLIN. ENDOCRINOLOGY & METABOLISM
3869, 3875 (2017)). The policy’s use of an ambiguous
term obscures the basis for excluding transgender
students from restrooms that they believe are
appropriate and safe for them.
Moreover, the Board has inadequately explained
the physiological and anatomical characteristics it
relies upon to enforce its policy. For example,

140a
Mr. Grimm has had chest reconstruction surgery. The
Gloucester County Circuit Court referred to
Mr. Grimm’s chest reconstruction surgery as “gender
reassignment surgery,” relying on that surgery in part
in determining that Mr. Grimm is a male. However,
this surgery is insufficient under the Board’s policy. At
the summary judgment hearing, counsel for the Board
argued that an individual must have “the primary
genitals and sex characteristic of a particular gender.”
Draft Tr. at 26. “Primary genitals” may be sufficiently
clear, but “sex characteristic” is troublingly
ambiguous. Many aspects of biology determine a
person’s sex, including genitalia, and also including
hormones, genes, chromosomes, and other factors that
comprise a person’s biological makeup. The policy at
issue uses some of these factors to define sex and
ignores others. In determining the physical
characteristics that define male and female and the
characteristics that are disregarded, the Board has
crafted a policy that is based on stereotypes about
gender. See Brumby, 663 F.3d at 1316 (“A person is
defined as transgender precisely because of the
perception that his or her behavior transgresses
gender stereotypes. . . . There is thus a congruence
between discriminating against transgender and
transsexual individuals and discrimination on the
basis of gender-based behavioral norms.”); City of L.A.,
Dep’t of Water & Power v. Manhart, 435 U.S. 702, 707
(1978)
(stating
that
protections
from
sex
discrimination are not limited to discrimination based
on “myths and purely habitual assumptions,” but also
extend to discrimination based on generalizations that
are “unquestionably true”).

141a
Additionally, Mr. Grimm has both a valid court
order and a state-issued birth certificate identifying
him as male. All other students with male birth
certificates at Gloucester High School are permitted to
use male restrooms. Mr. Grimm was the only student
with a male birth certificate excluded from the male
restrooms. This constitutes discriminatory treatment
by the Board.
Furthermore, the Board has refused to update
Mr. Grimm’s transcripts and education documents,
despite his amended birth certificate. The Board
argues that his amended birth certificate does not
comply with Virginia law and questions its
authenticity. Such questions have been dispelled by
the Declaration of Janet M. Rainey. ECF No. 195.
Ms. Rainey is the State Registrar and Director of the
Division of Vital Records and administers Virginia’s
system of vital records in accordance with Virginia
law. She issued Gavin Grimm an amended birth
certificate on October 27, 2016 that identifies him as
male. Id. Regardless of prior concerns about the
amended birth certificate’s authenticity,6 the Board’s
continued recalcitrance in the face of Ms. Rainey’s
Declaration and the court order from the Gloucester
County Circuit Court is egregious. It is also
It is obvious from the face of the amended birth certificate
that the photocopy presented to the Board was marked “void”
because it was a copy of a document printed on security paper,
not because it was fabricated. See ECF No. 184-6 (a copy of
Mr. Grimm’s birth certificate, stating that it the original is
printed on security paper and is void without a watermark). In
any event, given Ms. Rainey’s Declaration, the Board rationalizes
its continuing denial of Mr. Grimm’s amended birth certificate on
specious grounds: that a photocopy was marked void.
6

142a
discriminatory. Other students in the Gloucester
County School system with male birth certificates also
have male transcripts. Undeniably, the Board
discriminates against Mr. Grimm in violation of Title
IX in refusing to afford him the same dignity.
The Board also argues that Mr. Grimm has not
proven that his use of male restrooms was medically
necessary. However, the questions presented in this
case do not require a finding that Mr. Grimm’s use of
a male restroom was medically necessary. The Board
treated Mr. Grimm differently than other students on
the basis of sex and, as established below, he suffered
some measure of harm from that treatment. The
existence of other methods of social transition for
transgender individuals is, for the purposes of
resolving the questions presented, irrelevant.
The Court concludes that the Board has
discriminated against Gavin Grimm on the basis of his
transgender status in violation of Title IX. The Court
must next determine whether the improper
discrimination caused Mr. Grimm harm.
(b) The Board’s policy harmed Gavin Grimm.
In his Declaration, Mr. Grimm described under
oath feeling stigmatized and isolated by having to use
separate restroom facilities. Gavin Grimm Decl. ¶ 47.
His walk to the restroom felt like a “walk of shame.”
Id. ¶ 50. He avoided using the restroom as much as
possible and developed painful urinary tract infections
that distracted him from his class work. Id. ¶ 51. This
stress “was unbearable” and the resulting suicidal
thoughts he suffered led to his hospitalization at

143a
Virginia Commonwealth University Medical Center
Critical Care Hospital. Id. ¶ 54.
Despite this evidence, the Board contends that
Mr. Grimm has suffered no harm. ECF No. 200 at 29–
30. The Board has discounted Mr. Grimm’s testimony
that separate restroom facilities caused him mental
distress because he has not identified an expert to
testify that he suffered such distress.7 Id. Similarly,
the Board argues that Mr. Grimm cannot prove that
he suffered from painful urinary tract infections
because he presented no supporting medical evidence.
Id.
The Board’s argument that Mr. Grimm’s testimony
regarding his harm is inadequate because it is not
bolstered by expert testimony is untenable.8 The
Board’s argument has no basis in law. See Adams, 318
F. Supp. 3d at 1316 (relying on a transgender
student’s own testimony to conclude that the student
suffered harm in the form of stigma and humiliation).

7 The Board “disputes” Mr. Grimm’s statements regarding
his harm suffered because the Board labels his Declaration as
“self-serving.” Dismissing a party’s testimony as self-serving
while failing to present contradicting evidence is plainly
insufficient to establish a genuine dispute of material fact.

At the hearing, the Court read portions of Mr. Grimm’s
declaration into the record regarding the humiliation and stigma
he suffered as a result of the Board’s policy. The Court asked
defense counsel whether that testimony could support a finding
of harm, warranting at least an award of nominal damages.
Counsel responded that “I think the answer is yes. . . . I don’t
think we can say there [are] no nominal damages here.” Draft Tr.
at 26.
8

144a
The Board’s assertion that Mr. Grimm has suffered
no harm as a result of its policy is strikingly
unconvincing. Mr. Grimm broke down sobbing at
school because there was no restroom he could access
comfortably. After one breakdown, Mr. Grimm was
hospitalized with suicidal thoughts. He avoided afterschool activities such as football games. He
experienced pain and discomfort as a result of
avoiding restrooms while at school.9 Further expert
testimony is unnecessary to conclude that the Board’s
policy harmed Mr. Grimm during his high school
years.
There is also sufficient evidence to conclude that
the Board continues to harm Mr. Grimm by refusing
to update his school records to reflect his male
identity. Whenever Mr. Grimm has to provide a copy
of his transcript to another entity, such as a new
school or employer, he must “show them a document
that negates [his] male identity and marks him
different from other boys.” Gavin Grimm Decl. ¶ 69.
The Board continues to harm Mr. Grimm every time
he is asked to furnish his records. This harm compels
at least an award of injunctive relief and nominal
damages.
Mr. Grimm has established (1) that he was
excluded from the restrooms at Gloucester High
School on the basis of gender stereotypes; (2) the
educational institution received federal financial
Medical documentation confirming that his discomfort was
caused by urinary tract infections is irrelevant for the purposes
presented here. There is sufficient evidence that Mr. Grimm
suffered pain of some measure, for which he requests only
injunctive relief and nominal damages.
9

145a
assistance at the time of his exclusion; and
(3) improper discrimination caused him harm. For
these reasons, summary judgment is GRANTED in
favor of Mr. Grimm regarding his claim asserting a
violation of Title IX (Count Two).
2.

Equal Protection Clause

Mr. Grimm also alleges that the Board’s actions
violated the Equal Protection Clause of the
Fourteenth Amendment to the United States
Constitution, which provides that “[n]o State shall . . .
deny to any person within its jurisdiction the equal
protection of the laws.” U.S. Const, amend. XIV § 1.
The Equal Protection Clause “is essentially a directive
that all persons similarly situated should be treated
alike.” Whitaker by Whitaker v. Kenosha Unified Sch.
Dist. No. 1 Bd. of Educ., 858 F.3d 1034, 1050 (7th Cir.
2017) (quoting City of Cleburne v. Cleburne Living
Ctr., 473 U.S. 432,439(1985)).
In its May 22, 2018 ruling, this Court held that
intermediate scrutiny must be applied in analyzing
claims of discrimination against transgender
individuals. ECF No. 148 at 24. Although the Board
seeks reconsideration of this holding, it presents no
authorities that compel a different result.10 Other
courts that have considered this issue since May 2018
have agreed that heightened scrutiny applies. See,
e.g., Karnoski v. Trump, 926 F.3d 1180, 1200–02 (9th
Instead, the Board’s citations include out-of-circuit cases
from the 1980s and 1990s, cases that interpret Title VII instead
of the Equal Protection Clause, and cases that pertain to sexual
orientation, not gender identity. The Board’s citations are
unpersuasive.
10

146a
Cir. 2019) (holding that intermediate scrutiny applies
to alleged discrimination against transgender
individuals in the military); Adams by & through
Kasper, 318 F. Supp. 3d at 1296, 1312–13 (applying
intermediate scrutiny and noting that “federal courts
around the country have recognized the right of
transgender students to use the bathroom matching
their gender identity”). In light of these rulings, this
Court rejects defense counsel’s argument that it is
“step[ping] out on its own.” See ECF No. 200 at 32.
When applying intermediate scrutiny to a sexbased classification, the Board bears the burden of
demonstrating that its proffered justification for its
use of the classification is “exceedingly persuasive.”
United States v. Virginia, 518 U.S. 515, 533 (1996).
The Board is required to demonstrate that the
classification “serves important governmental
objectives and that the discriminatory means
employed are substantially related to the achievement
of those objectives.” Id. at 524.
In response, the Board asserts an interest in
protecting the privacy rights of students, specifically
privacy interests that students have in protecting
their unclothed bodies.11 ECF No. 200 at 33. There is
little doubt that students have a privacy right in
avoiding exposure of their unclothed bodies.
Defendant makes no showing, however, that the
challenged policy is “substantially related” to
The Board cites a case involving strip searches of students.
See ECF No. 200 at 33 (citing Doe v. Renfrew, 631 F.2d 91, 92–93
(7th Cir. 1980)). Those situations are starkly distinct from
transgender students seeking to use a restroom.
11

147a
protecting student privacy. First, it is undisputed that
the Board received no complaints regarding any
encounter with Mr. Grimm in a restroom. Andersen
Dep. 13:20–14:5. The fact that Mr. Grimm used male
restrooms for seven weeks without incident is
evidence suggesting that the Board’s privacy concerns
are unwarranted. Cf. Whitaker, 858 F.3d at 1052
(noting that the school district’s privacy argument was
undermined by the fact that a transgender boy used
male restrooms for six months without incident).
The Board’s privacy argument also ignores the
practical realities of how transgender individuals use
a restroom. See Grimm I, 822 F.3d at 723 n. 10
(expressing doubt that “G.G.’s use . . . or for that
matter any individual’s appropriate use of a restroom”
would involve the types of intrusions present in other
cases where privacy abuses were found); Whitaker,
858 F.3d at 1052 (holding that a similar policy “ignores
the practical reality of how [the plaintiff], as a
transgender boy, uses the bathroom: by entering a
stall and closing the door”); Adams, 318 F. Supp. 3d at
1296, 1314 (“When he goes into a restroom, [the
transgender student] enters a stall, closes the door,
relieves himself, comes out of the stall, washes his
hands, and leaves.”).
At the summary judgment hearing, defense
counsel conceded that there is no privacy concern for
other students when a transgender student walks into
a stall and shuts the door. Draft Tr. at 38. However,
the Board’s 30(b)(6) witness, Troy Andersen, testified
that privacy concerns are implicated when students
use the urinal, use the toilet, or open their pants to
tuck in their shirts. Andersen Dep. 30:10–20. When

148a
asked why the expanded stalls and urinal dividers
could not fully address those situations, Mr. Andersen
responded that he “was sure” the policy also protected
privacy interests in other ways, but that he “[couldn’t]
think of any other off the top of [his] head.” Id. This
Court is compelled to conclude that the Board’s
privacy argument “is based upon sheer conjecture and
abstraction.” See Whitaker, 858 F.3d at 1052.
Even if there were a plausible risk of exposure to
nudity, transgender individuals often undergo a
variety of procedures and treatments that result in
anatomical and physiological changes, such as
puberty blockers and hormone therapy. Such
treatments can result in transgender girls developing
breasts or transgender boys developing facial hair. If
exposure to nudity were a real concern, forcing such a
transgender girl to use the male restrooms could likely
expose boys to viewing physical characteristics of the
opposite sex. From this perspective, the Board’s
privacy concerns fail to support the policy it
implemented.
When asked why transgender students present a
greater risk of invasion of privacy to students than the
risk from someone of the same physiological sex,
Mr. Andersen answered “I would say that it just goes
back to [bathroom] use relying on the social norms of
binary sexes.” Andersen Dep. 31:4–10. However,
“mere negative attitudes, or fear, unsubstantiated by
factors which are properly cognizable . . . are not
permissible bases” for discrimination. Cleburne Living
Ctr., 473 U.S. at 448. The Board has failed to meet its
burden to provide an “exceedingly persuasive
justification” for its policy. Accordingly, its policy must

149a
be found unconstitutional under the Equal Protection
Clause.
Moreover, the Board’s continued refusal to update
Mr. Grimm’s school records implicates no privacy
concerns. The Board has put forward no justification
for refusing to correct these records other than alleged
concerns about his amended birth certificate’s
compliance with law and authenticity. These
unsubstantiated doubts are easily dispelled by Janet
Rainey’s Declaration.
For these reasons, summary judgment must be
GRANTED in favor of Gavin Grimm on his claim for
a violation of the Equal Protection Clause (Count
One).
3.

Mr. Grimm’s request for a permanent
injunction

Mr. Grimm seeks an injunction requiring the
Board to update his school records to reflect his male
identity. To obtain a permanent injunction, a plaintiff
must show: “(1) irreparable injury, (2) remedies at law
are inadequate to compensate for that injury, (3) the
balance of hardships between the plaintiff and
defendant warrants a remedy, and (4) an injunction
would not disserve the public interest.” Raub v.
Campbell, 785 F.3d 876, 885 (4th Cir. 2015) (internal
quotations
omitted).
“[T]he
deprivation
of
constitutional rights unquestionably constitutes
irreparable injury.” Melendres v. Arpaio, 695 F.3d 990,
1002 (9th Cir. 2012) (internal quotations omitted).
The Court has already determined that Mr. Grimm
has suffered injury that is ongoing and thus cannot be
compensated by mere monetary damages. The balance

150a
of hardships also weighs in Mr. Grimm’s favor. The
Board has not identified any difficulty in altering
Mr. Grimm’s records. Nor has it identified any other
governmental interest in refusing to update
Mr. Grimm’s records other than those already
addressed in this Order. By contrast, Mr. Grimm
suffers great hardship when he presents school
records that negate his male identity. Finally, an
injunction would serve the public’s interest in
upholding constitutional rights. See Centro Tepeyac v.
Montgomery Cty., 722 F.3d 184, 191 (4th Cir. 2013) (en
banc) (internal quotations omitted). For these reasons,
a permanent injunction requiring the Board to update
Mr. Grimm’s school records is warranted.
C.

Gloucester County School Board’s Motion
for Summary Judgment

The Board also moves for summary judgment. ECF
No. 195. The Board first argues that Title DCs
prohibition of discrimination “on the basis of sex” does
not encompass the Board’s policy and that the
definition of sex in the statute and its implementing
regulation do not account for gender identity. ECF No.
196 at 10–30. The Court rejected this argument on
May 22, 2018 and it reaffirms that holding today.12

Much of the Board’s Summary Judgment Motion is an
attempt to relitigate this Court’s prior holdings. For example, the
Board argues that if “sex” were equated with “gender identity,”
Title IX and its regulations would be invalid for lack of clear
notice. ECF No. 196 at 29–30 (citing Pennhurst State Sch. &
Hosp. v. Halderman, 451 U.S. 1, 17 (1981)). This Court found this
exact argument “unavailing.” ECF No. 148 at 20 n. 11.
12

151a
Regarding the Equal Protection Clause, the Board
argues that its policy should not be subjected to
heightened scrutiny but should be subjected to a lower
level of scrutiny: rational basis review.13 Id. at 32–37.
The Board argues that its policy survives such review.
Id. The Court again rejects this argument. The Board
also reasserts that its policy survives intermediate
scrutiny for the same reasons advanced in opposition
to Mr. Grimm’s Motion for Summary Judgment, as
addressed
above.
Those
arguments
remain
unavailing. Accordingly, the Gloucester County School
Board’s Motion for Summary Judgment, ECF No. 195,
is DENIED.
V.

CONCLUSION

Parents, teachers and administrators share “a
solemn obligation to guard the well-being of the
children in their charge.” Adams, 318 F. Supp. 3d at
1296.
As recent events from around the country have
tragically demonstrated, this is a very
challenging job. Recognizing the difficulty of
this task and that local school boards,
answerable to the citizens of their community,
are best situated to set school policy, federal
courts are reluctant to interfere. Nevertheless,
the federal court also has a solemn obligation:
to uphold the Constitution and laws of the
United States. That is why federal courts
around the country have recognized the right of
Under rational basis review, a court analyzes whether a
law is “rationally related to a legitimate governmental interest.”
U.S. Dep’t. of Agric. v. Moreno, 413 U.S. 528, 533 (1973).
13

152a
transgender students to use the bathroom
matching their gender identity.
Id.
Nelson Mandela said that “[h]istory will judge us
by the difference we make in the everyday lives of
children.” One need only trace the arduous journey
that this litigation has followed since its inception over
four years ago to understand that passion and
conviction have infused the arguments and appeals
along the way.14 The Board undertook the unenviable
14 A cursory collection of salient events docketed in this
matter include the following: the initial Complaint, June 11,
2015; a Motion to Dismiss Complaint argued, July 27, 2015, and
partially granted; Order denying Plaintiffs Motion for
Preliminary Injunction, September 4, 2015; Order denying an
injunction appealed to the United States Court of Appeals for the
Fourth Circuit, September 8,2015; the Memorandum Opinion
granting dismissal and denying motion for injunction, September
17, 2015; the Fourth Circuit’s partial reversal of dismissal Order,
April 19, 2016; the Order permitting Plaintiffs use of male
restrooms at Gloucester County High School, June 23, 2016;
Defendant’s appeal of the June 23, 2016 Order, June 27, 2016;
the Order denying a stay pending appeal, July 6, 2016; the
United States Supreme Court’s stay of the injunction pending
resolution of an anticipated petition for writ of certiorari, August
3, 2016; the Fourth Circuit vacating the preliminary injunction,
April 7, 2017; reassignment of the case to the undersigned, June
6, 2017; an Amended Complaint, August 22, 2017; a Motion to
Dismiss Amended Complaint, September 22, 2017; supplemental
briefing ordered, October 26, 2017; an Amended Motion to
Dismiss, January 5, 2018; an Order denying the Amended Motion
to Dismiss, May 22, 2018; Order granting a Motion for Leave to
take Interlocutory Appeal, June 5, 2018; a Second Amended
Complaint, February 15, 2019; cross-motions for summary
judgment, March 26,2019; Defendant’s Motion to Exclude and
Strike Exhibits, April 30,2019; and oral argument on crossContinued …

153a
responsibility of trying to honor expressions of concern
advanced by its constituency as it navigated the
challenges presented by issues that barely could have
been imagined or anticipated a generation ago. This
Court acknowledges the many expressions of concern
arising from genuine love for our children and the
fierce instinct to protect and raise our children safely
in a society that is growing ever more complex. There
can be no doubt that all involved in this case have the
best interests of the students at heart.15
At the same time, the Court acknowledges that for
seven weeks, the student body at Gloucester High
School accommodated Mr. Grimm without incident as
he—assisted by compassionate school and medical
representatives—took new paths in his everyday life.
This Court is compelled to acknowledge too that some
of the external challenges seeking to reroute these
new paths inflicted grief, pain, and suicidal thoughts
on a child.
However
well-intentioned
some
external
challenges may have been and however sincere
worries were about possible unknown consequences
arising from a new school restroom protocol, the
motions for summary judgment and on the Motion to Strike, July
23, 2019.
“When confronted with something affecting our children
that is new, outside of our experience, and contrary to gender
norms we thought we understood, it is natural that parents want
to protect their children. But the evidence is that [the plaintiff]
poses no threat to the privacy or safety of any of his fellow
students. Rather, [the plaintiff] is just like every other
student . . . , a teenager coming of age in a complicated, uncertain
and changing world.” Adams, 318 F. Supp. 3d at 1297.
15

154a
perpetuation of harm to a child stemming from
unconstitutional conduct cannot be allowed to stand.
These acknowledgements are made in the hopes of
making a positive difference to Mr. Grimm and to the
everyday lives of our children who rely upon us to
protect them compassionately and in ways that more
perfectly respect the dignity of every person.
Therefore, the Board’s Motion to Strike, ECF No.
213, is GRANTED IN PART and DENIED IN
PART. Gavin Grimm’s Motion for Summary
Judgment, ECF No. 184, is GRANTED. The Board’s
Motion for Summary Judgment, ECF No. 191, is
DENIED.
The Court ORDERS the following relief:
• The Court DECLARES that the Board’s policy
violated Mr. Grimm’s rights under the
Fourteenth Amendment to the United States
Constitution and Title IX of the Education
Amendments of 1972, on the day the policy was
first issued and throughout the remainder of his
time as a student at Gloucester High School;
• The Court DECLARES that the Board’s
refusal to update Mr. Grimm’s official school
transcript to conform to the “male” designation
on his birth certificate violated and continues to
violate his rights under the Fourteenth
Amendment to the United States Constitution
and Title IX of the Education Amendments of
1972;
• Nominal damages are awarded to Mr. Grimm
in the amount of one dollar;
• The Court issues a permanent injunction
requiring the Board to update Mr. Grimm’s

155a
official school records to conform to the male
designation on his updated birth certificate and
to provide legitimate copies of such records to
Mr. Grimm within ten days of the date of this
Order;
• The Board shall pay Mr. Grimm’s reasonable
costs and attorneys’ fees pursuant to 42 U.S.C.
§ 1988.
The Clerk is REQUESTED to forward a copy of
this Order to all parties and counsel of record.
IT IS SO ORDERED.
/s/
Arenda L. Wright Allen
United States District Judge
August 9th, 2019
Norfolk, Virginia

156a
SUPREME COURT OF THE UNITED STATES
GLOUCESTER COUNTY SCHOOL BOARD,
Petitioner,
v.
G.G., By His Next Friend and Mother, Deirdre
GRIMM.
No. 16-273.
March 6, 2017.
Case below, 822 F.3d 709.
Judgment vacated, and case remanded to the
United States Court of Appeals for the Fourth Circuit
for further consideration in light of the guidance
document issued by the Department of Education and
Department of Justice on February 22, 2017.

157a
PUBLISHED
FILED: May 31, 2016
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
——————
No. 15-2056
(4:15-cv-0054-RGD-DEM)
——————
G. G., by his next friend and mother, Deirdre Grimm,
Plaintiff - Appellant,
v.
GLOUCESTER COUNTY SCHOOL BOARD,
Defendant - Appellee.
----------------------------------JUDY CHIASSON, Ph.D., School Administrator
California;
DAVID
VANNASDALL,
School
Administrator California; DIANA K. BRUCE, School
Administrator District of Columbia; DENISE
PALAZZO, School Administrator Florida; JEREMY
MAJESKI, School Administrator Illinois; THOMAS A
ABERLI, School Administrator Kentucky; ROBERT
BOURGEOIS, School Administrator Massachusetts;
MARY DORAN, School Administrator Minnesota;
VALERIA SILVA, School Administrator Minnesota;
RUDY RUDOLPH, School Administrator Oregon;
JOHN O’REILLY, School Administrator New York;
LISA LOVE, School Administrator Washington;
DYLAN PAULY, School Administrator Wisconsin;

158a
SHERIE HOHS, School Administrator Wisconsin;
THE NATIONAL WOMEN’S LAW CENTER; LEGAL
MOMENTUM; THE ASSOCIATION OF TITLE IV
ADMINISTRATORS;
EQUAL
RIGHTS
ADVOCATES; GENDER JUSTICE; THE WOMEN’S
LAW PROJECT; LEGAL VOICE; LEGAL AID
SOCIETY - EMPLOYMENT LAW CENTER;
SOUTHWEST
WOMEN’S
LAW
CENTER;
CALIFORNIA WOMEN’S LAW CENTER; THE
WORLD PROFESSIONAL ASSOCIATION FOR
TRANSGENDER
HEALTH;
PEDIATRIC
ENDOCRINE
SOCIETY;
CHILD
AND
ADOLESCENT GENDER CENTER CLINIC AT
UCSF
BENIOFF
CHILDREN’S
HOSPITAL;
CENTER FOR TRANSYOUTH HEALTH AND
DEVELOPMENT AT CHILDREN’S HOSPITAL LOS
ANGELES; GENDER & SEX DEVELOPMENT
PROGRAM AT ANN & ROBERT H. LURIE
CHILDREN’S HOSPITAL OF CHICAGO; FAN FREE
CLINIC; WHITMAN-WALKER CLINIC, INC., d/b/a
Whitman-Walker
Health;
GLMA:
HEALTH
PROFESSIONALS ADVANCING LGBT EQUALITY;
TRANSGENDER LAW & POLICY INSTITUTE;
GENDER BENDERS; GAY, LESBIAN & STRAIGHT
EDUCATION
NETWORK;
GAY-STRAIGHT
ALLIANCE
NETWORK;
INSIDEOUT;
EVIE
PRIESTMAN; ROSMY; TIME OUT YOUTH; WE ARE
FAMILY; UNITED STATES OF AMERICA;
MICHELLE FORCIER, M.D.; NORMAN SPACK,
M.D.,
Amici Supporting Appellant,
STATE OF SOUTH CAROLINA; PAUL R. LEPAGE,
In his official capacity as Governor State of Maine;

159a
STATE OF ARIZONA; THE FAMILY FOUNDATION
OF VIRGINIA; STATE OF MISSISSIPPI; JOHN
WALSH; STATE OF WEST VIRGINIA; LORRAINE
WALSH; PATRICK L. MCCRORY, In his official
capacity as Governor State of North Carolina; MARK
FRECHETTE; JUDITH REISMAN, Ph.D.; JON
LYNSKY; LIBERTY CENTER FOR CHILD
PROTECTION; BRADLY FRIEDLIN; LISA TERRY;
LEE TERRY; DONALD CAULDER; WENDY
CAULDER; KIM WARD; ALICE MAY; JIM RUTAN;
ISSAC RUTAN; DORETHA GUJU; DOCTOR
RODNEY AUTRY; PASTOR JAMES LARSEN;
DAVID
THORNTON;
KATHY
THORNTON;
JOSHUA CUBA; CLAUDIA CLIFTON; ILONA
GAMBILL;
TIM
BYRD;
EAGLE
FORUM
EDUCATION AND LEGAL DEFENSE FUND,
Amici Supporting Appellee.
——————
ORDER
——————
Appellee’s petition for rehearing en banc and
filings relating to the petition were circulated to the
full court.
No judge having requested a poll under Fed. R.
App. P. 35 on the petition for rehearing en banc, the
petition is denied.
Judge Niemeyer wrote an opinion dissenting from
the denial of the petition for rehearing.
Entered at the direction of Judge Floyd.

160a
For the Court
/s/ Patricia S. Connor, Clerk
NIEMEYER, Circuit Judge, dissenting from the
denial of the petition for rehearing:
Bodily privacy is historically one of the most basic
elements of human dignity and individual freedom.
And forcing a person of one biological sex to be exposed
to persons of the opposite biological sex profoundly
offends this dignity and freedom. Have we not
universally condemned as inhumane such forced
exposure throughout history as it occurred in various
contexts, such as in prisons? And do parents not
universally find it offensive to think of having their
children’s bodies exposed to persons of the opposite
biological sex?
Somehow, all of this is lost in the current
Administration’s service of the politically correct
acceptance of gender identification as the meaning of
“sex”—indeed, even when the statutory text of Title IX
provides no basis for the position. The Department of
Education and the Justice Department, in a circular
maneuver, now rely on the majority’s opinion to
mandate application of their position across the
country, while the majority’s opinion had relied solely
on the Department of Education’s earlier
unprecedented position. The majority and the
Administration—novelly and without congressional
authorization—conclude that despite Congress’s
unambiguous authorization in Title IX to provide for
the separation of restrooms, showers, locker rooms,
and dorms on the basis of sex, see 20 U.S.C. § 1686; 34

161a
C.F.R. §§ 106.32, 106.33, they can override these
provisions by redefining sex to mean how any given
person identifies himself or herself at any given time,
thereby, of necessity, denying all affected persons the
dignity and freedom of bodily privacy. Virtually every
civilization’s norms on this issue stand in protest.
These longstanding norms are not a protest
against persons who identify with a gender different
from their biological sex. To the contrary, schools and
the courts must, with care, seek to understand their
condition and address it in permissible ways that are
as helpful as possible in the circumstances. But that is
not to say that, to do so, we must bring down all
protections of bodily privacy that are inherent in
individual human dignity and freedom. Nor must we
reject separation-of-powers principles designed to
safeguard Congress’s policymaking role and the
States’ traditional powers.
While I could call for a poll of the court in an effort
to require counsel to reargue their positions before an
en banc court, the momentous nature of the issue
deserves an open road to the Supreme Court to seek
the Court’s controlling construction of Title IX for
national application. And the facts of this case, in
particular, are especially “clean,” such as to enable the
Court to address the issue without the distraction of
subservient issues. For this reason only and not
because the issue is not sufficiently weighty for our en
banc court, I am not requesting a poll on the petition
for rehearing en banc. I do, however, vote to grant
panel rehearing, which I recognize can only be
symbolic in view of the majority’s approach, which
deferred to the Administration’s novel position with a

162a
questionable application of Auer v. Robbins, 519 U.S.
452 (1997). Time is of the essence, and I can only urge
the parties to seek Supreme Court review.

163a
PUBLISHED
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT
——————
No. 15-2056
——————
G. G., by his next friend and mother, Deirdre Grimm,
Plaintiff - Appellant,
v.
GLOUCESTER COUNTY SCHOOL BOARD,
Defendant - Appellee.
----------------------------------JUDY CHIASSON, Ph.D., School Administrator
California;
DAVID
VANNASDALL,
School
Administrator California; DIANA K. BRUCE, School
Administrator District of Columbia; DENISE
PALAZZO, School Administrator Florida; JEREMY
MAJESKI, School Administrator Illinois; THOMAS A
ABERLI, School Administrator Kentucky; ROBERT
BOURGEOIS, School Administrator Massachusetts;
MARY DORAN, School Administrator Minnesota;
VALERIA SILVA, School Administrator Minnesota;
RUDY RUDOLPH, School Administrator Oregon;
JOHN O’REILLY, School Administrator New York;
LISA LOVE, School Administrator Washington;
DYLAN PAULY, School Administrator Wisconsin;
SHERIE HOHS, School Administrator Wisconsin;
THE NATIONAL WOMEN’S LAW CENTER; LEGAL
MOMENTUM; THE ASSOCIATION OF TITLE IV

164a
ADMINISTRATORS;
EQUAL
RIGHTS
ADVOCATES; GENDER JUSTICE; THE WOMEN’S
LAW PROJECT; LEGAL VOICE; LEGAL AID
SOCIETY - EMPLOYMENT LAW CENTER;
SOUTHWEST
WOMEN’S
LAW
CENTER;
CALIFORNIA WOMEN’S LAW CENTER; THE
WORLD PROFESSIONAL ASSOCIATION FOR
TRANSGENDER
HEALTH;
PEDIATRIC
ENDOCRINE
SOCIETY;
CHILD
AND
ADOLESCENT GENDER CENTER CLINIC AT
UCSF
BENIOFF
CHILDREN’S
HOSPITAL;
CENTER FOR TRANSYOUTH HEALTH AND
DEVELOPMENT AT CHILDREN’S HOSPITAL LOS
ANGELES; GENDER & SEX DEVELOPMENT
PROGRAM AT ANN & ROBERT H. LURIE
CHILDREN’S HOSPITAL OF CHICAGO; FAN FREE
CLINIC; WHITMAN-WALKER CLINIC, INC., d/b/a
Whitman-Walker
Health;
GLMA:
HEALTH
PROFESSIONALS ADVANCING LGBT EQUALITY;
TRANSGENDER LAW & POLICY INSTITUTE;
GENDER BENDERS; GAY, LESBIAN & STRAIGHT
EDUCATION
NETWORK;
GAY-STRAIGHT
ALLIANCE
NETWORK;
INSIDEOUT;
EVIE
PRIESTMAN; ROSMY; TIME OUT YOUTH; WE ARE
FAMILY; UNITED STATES OF AMERICA;
MICHELLE FORCIER, M.D.; NORMAN SPACK,
M.D.,
Amici Supporting Appellant,
STATE OF SOUTH CAROLINA; PAUL R. LEPAGE,
In his official capacity as Governor State of Maine;
STATE OF ARIZONA; THE FAMILY FOUNDATION
OF VIRGINIA; STATE OF MISSISSIPPI; JOHN
WALSH; STATE OF WEST VIRGINIA; LORRAINE

165a
WALSH; PATRICK L. MCCRORY, In his official
capacity as Governor State of North Carolina; MARK
FRECHETTE; JUDITH REISMAN, Ph.D.; JON
LYNSKY; LIBERTY CENTER FOR CHILD
PROTECTION; BRADLY FRIEDLIN; LISA TERRY;
LEE TERRY; DONALD CAULDER; WENDY
CAULDER; KIM WARD; ALICE MAY; JIM RUTAN;
ISSAC RUTAN; DORETHA GUJU; DOCTOR
RODNEY AUTRY; PASTOR JAMES LARSEN;
DAVID
THORNTON;
KATHY
THORNTON;
JOSHUA CUBA; CLAUDIA CLIFTON; ILONA
GAMBILL;
TIM
BYRD;
EAGLE
FORUM
EDUCATION AND LEGAL DEFENSE FUND,
Amici Supporting Appellee.
——————
Appeal from the United States District Court for the
Eastern District of Virginia, at Newport News. Robert
G. Doumar, Senior District Judge. (4:15-cv-00054RGD-DEM)
——————
Argued: January 27, 2016

Decided: April 19, 2016

——————
Before NIEMEYER and FLOYD, Circuit Judges, and
DAVIS, Senior Circuit Judge.
——————
Reversed in part, vacated in part, and remanded by
published opinion. Judge Floyd wrote the opinion, in
which Senior Judge Davis joined. Senior Judge Davis
wrote a separate concurring opinion. Judge Niemeyer

166a
wrote a separate opinion concurring in part and
dissenting in part.
——————
ARGUED: Joshua A. Block, AMERICAN CIVIL
LIBERTIES UNION FOUNDATION, New York, New
York, for Appellant. David Patrick Corrigan,
HARMAN, CLAYTOR, CORRIGAN & WELLMAN,
Richmond, Virginia, for Appellee. ON BRIEF:
Rebecca K. Glenberg, Gail Deady, AMERICAN CIVIL
LIBERTIES UNION OF VIRGINIA FOUNDATION,
INC., Richmond, Virginia; Leslie Cooper, AMERICAN
CIVIL LIBERTIES UNION FOUNDATION, New
York, New York, for Appellant. Jeremy D. Capps, M.
Scott Fisher, Jr., HARMAN, CLAYTOR, CORRIGAN
& WELLMAN, Richmond, Virginia, for Appellee.
Cynthia Cook Robertson, Washington, D.C., Narumi
Ito, Amy L. Pierce, Los Angeles, California, Alexander
P. Hardiman, Shawn P. Thomas, New York, New
York, Richard M. Segal, Nathaniel R. Smith,
PILLSBURY WINTHROP SHAW PITTMAN LLP,
San Diego, California; Tara L. Borelli, Atlanta,
Georgia, Kyle A. Palazzolo, LAMBDA LEGAL
DEFENSE AND EDUCATION FUND, INC., Chicago,
Illinois; Alison Pennington, TRANSGENDER LAW
CENTER, Oakland, California, for Amici School
Administrators Judy Chiasson, David Vannasdall,
Diana K. Bruce, Denise Palazzo, Jeremy Majeski,
Thomas A. Aberli, Robert Bourgeois, Mary Doran,
Valeria Silva, Rudy Rudolph, John O’Reilly, Lisa
Love, Dylan Pauly, and Sherie Hohs. Suzanne B.
Goldberg, Sexuality and Gender Law Clinic,
COLUMBIA LAW SCHOOL, New York, New York;
Erin E. Buzuvis, WESTERN NEW ENGLAND

167a
UNIVERSITY SCHOOL OF LAW, Springfield,
Massachusetts, for Amici The National Women’s Law
Center, Legal Momentum, The Association of Title IX
Administrators, Equal Rights Advocates, Gender
Justice, The Women’s Law Project, Legal Voice, Legal
Aid Society-Employment Law Center, Southwest
Women’s Law Center, and California Women’s Law
Center.
Jennifer
Levi,
GAY
&
LESBIAN
ADVOCATES
&
DEFENDERS,
Boston,
Massachusetts; Thomas M. Hefferon, Washington,
D.C., Mary K. Dulka, New York, New York, Christine
Dieter, Jaime A. Santos, GOODWIN PROCTER LLP,
Boston, Massachusetts; Shannon Minter, Asaf Orr,
NATIONAL CENTER FOR LESBIAN RIGHTS, San
Francisco, California, for Amici The World
Professional Association for Transgender Health,
Pediatric Endocrine Society, Child and Adolescent
Gender Center Clinic at UCSF Benioff Children’s
Hospital, Center for Transyouth Health and
Development at Children’s Hospital Los Angeles,
Gender & Sex Development Program at Ann & Robert
H. Lurie Children’s Hospital of Chicago, Fan Free
Clinic, Whitman-Walker Clinic, Inc., GLMA: Health
Professionals
Advancing
LGBT
Equality,
Transgender Law & Policy Institute, Michelle Forcier,
M.D. and Norman Spack, M.D. David Dinielli, Rick
Mula, SOUTHERN POVERTY LAW CENTER,
Montgomery, Alabama, for Amici Gender Benders,
Gay, Lesbian & Straight Education Network, GayStraight Alliance Network, iNSIDEoUT, Evie
Priestman, ROSMY, Time Out Youth, and We Are
Family. James Cole, Jr., General Counsel, Francisco
Lopez, Vanessa Santos, Michelle Tucker, Attorneys,
Office of the General Counsel, UNITED STATES

168a
DEPARTMENT OF EDUCATION, Washington, D.C.;
Gregory B. Friel, Deputy Assistant Attorney General,
Diana K. Flynn, Sharon M. McGowan, Christine A.
Monta, Attorneys, Civil Rights Division, Appellate
Section, UNITED STATES DEPARTMENT OF
JUSTICE, Washington, D.C., for Amicus United
States of America. Alan Wilson, Attorney General,
Robert D. Cook, Solicitor General, James Emory
Smith, Jr., Deputy Solicitor General, OFFICE OF
THE
ATTORNEY
GENERAL
OF
SOUTH
CAROLINA, Columbia, South Carolina, for Amicus
State of South Carolina; Mark Brnovich, Attorney
General, OFFICE OF THE ATTORNEY GENERAL
OF ARIZONA, Phoenix, Arizona, for Amicus State of
Arizona; Jim Hood, Attorney General, OFFICE OF
THE ATTORNEY GENERAL OF MISSISSIPPI,
Jackson, Mississippi, for Amicus State of Mississippi;
Patrick Morrisey, Attorney General, OFFICE OF THE
ATTORNEY GENERAL OF WEST VIRGINIA,
Charleston, West Virginia, for Amicus State of West
Virginia; Amicus Paul R. LePage, Governor, State of
Maine, Augusta, Maine; Robert C. Stephens, Jr.,
Jonathan R. Harris, COUNSEL FOR THE
GOVERNOR OF NORTH CAROLINA, Raleigh, North
Carolina, for Amicus Patrick L. Mccrory, Governor of
North Carolina. Mary E. McAlister, Lynchburg,
Virginia, Mathew D. Staver, Anita L. Staver, Horatio
G. Mihet, LIBERTY COUNSEL, Orlando, Florida, for
Amici Liberty Center for Child Protection and Judith
Reisman, PhD. Jeremy D. Tedesco, Scottsdale,
Arizona, Jordan Lorence, Washington, D.C., David A.
Cortman, J. Matthew Sharp, Rory T. Gray,
ALLIANCE
DEFENDING
FREEDOM,
Lawrenceville, Georgia, for Amici The Family

169a
Foundation of Virginia, John Walsh, Lorraine Walsh,
Mark Frechette, Jon Lynsky, Bradly Friedlin, Lisa
Terry, Lee Terry, Donald Caulder, Wendy Caulder,
Kim Ward, Alice May, Jim Rutan, Issac Rutan,
Doretha Guju, Rodney Autry, James Larsen, David
Thornton, Kathy Thornton, Joshua Cuba, Claudia
Clifton, Ilona Gambill, and Tim Byrd. Lawrence J.
Joseph, Washington, D.C., for Amicus Eagle Forum
Education and Legal Defense Fund.
——————
FLOYD, Circuit Judge:
G.G., a transgender boy, seeks to use the boys’
restrooms at his high school. After G.G. began to use
the boys’ restrooms with the approval of the school
administration, the local school board passed a policy
banning G.G. from the boys’ restroom. G.G. alleges
that the school board impermissibly discriminated
against him in violation of Title IX and the Equal
Protection Clause of the Constitution. The district
court dismissed G.G.’s Title IX claim and denied his
request for a preliminary injunction. This appeal
followed. Because we conclude the district court did
not accord appropriate deference to the relevant
Department of Education regulations, we reverse its
dismissal of G.G.’s Title IX claim. Because we conclude
that the district court used the wrong evidentiary
standard in assessing G.G.’s motion for a preliminary
injunction, we vacate its denial and remand for
consideration under the correct standard. We
therefore reverse in part, vacate in part, and remand
the case for further proceedings consistent with this
opinion.

170a
I.
At the heart of this appeal is whether Title IX
requires schools to provide transgender students
access to restrooms congruent with their gender
identity. Title IX provides: “[n]o person . . . shall, on
the basis of sex, be excluded from participation in, be
denied the benefits of, or be subjected to
discrimination under any education program or
activity receiving Federal financial assistance.” 20
U.S.C. § 1681(a). The Department of Education’s (the
Department) regulations implementing Title IX
permit the provision of “separate toilet, locker room,
and shower facilities on the basis of sex, but such
facilities provided for students of one sex shall be
comparable to such facilities for students of the other
sex.” 34 C.F.R. § 106.33. In an opinion letter dated
January 7, 2015, the Department’s Office for Civil
Rights (OCR) interpreted how this regulation should
apply to transgender individuals: “When a school
elects to separate or treat students differently on the
basis of sex . . . a school generally must treat
transgender students consistent with their gender
identity.” J.A. 55. Because this case comes to us after
dismissal pursuant to Federal Rule of Civil Procedure
12(b)(6), the facts below are generally as stated in
G.G.’s complaint.
A.
G.G. is a transgender boy now in his junior year at
Gloucester High School. G.G.’s birth-assigned sex, or
so-called “biological sex,” is female, but G.G.’s gender
identity is male. G.G. has been diagnosed with gender
dysphoria, a medical condition characterized by
clinically significant distress caused by an

171a
incongruence between a person’s gender identity and
the person’s birth-assigned sex. Since the end of his
freshman year, G.G. has undergone hormone therapy
and has legally changed his name to G., a traditionally
male name. G.G. lives all aspects of his life as a boy.
G.G. has not, however, had sex reassignment surgery.1
Before beginning his sophomore year, G.G. and his
mother told school officials that G.G. was a
transgender boy. The officials were supportive and
took steps to ensure that he would be treated as a boy
by teachers and staff. Later, at G.G.’s request, school
officials allowed G.G. to use the boys’ restroom.2 G.G.
used this restroom without incident for about seven
weeks. G.G.’s use of the boys’ restroom, however,
excited the interest of others in the community, some
of whom contacted the Gloucester County School
Board (the Board) seeking to bar G.G. from continuing
to use the boys’ restroom.
Board Member Carla B. Hook (Hook) added an
item to the agenda for the November 11, 2014 board
meeting titled “Discussion of Use of Restrooms/Locker
Room Facilities.” J.A. 15. Hook proposed the following
1 The World Professional Association for Transgender Health
(WPATH) has established Standards of Care for individuals with
gender dysphoria. J.A. 37. These Standards of Care are accepted
as authoritative by organizations such as the American Medical
Association and the American Psychological Association. Id. The
WPATH Standards of Care do not permit sex reassignment
surgery for persons who are under the legal age of majority. J.A.
38.

G.G. does not participate in the school’s physical education
programs. He does not seek here, and never has sought, use of
the boys’ locker room. Only restroom use is at issue in this case.
2

172a
resolution (hereinafter the “transgender restroom
policy” or “the policy”):
Whereas the GCPS [i.e., Gloucester County
Public Schools] recognizes that some students
question their gender identities, and
Whereas the GCPS encourages such students to
seek support, advice, and guidance from
parents, professionals and other trusted adults,
and
Whereas the GCPS seeks to provide a safe
learning environment for all students and to
protect the privacy of all students, therefore
It shall be the practice of the GCPS to provide
male and female restroom and locker room
facilities in its schools, and the use of said
facilities shall be limited to the corresponding
biological genders, and students with gender
identity issues shall be provided an alternative
appropriate private facility.
J.A. 15–16; 58.
At the November 11, 2014 meeting twenty-seven
people spoke during the Citizens’ Comment Period, a
majority of whom supported Hook’s proposed
resolution. Many of the speakers displayed hostility to
G.G., including by referring pointedly to him as a
“young lady.” J.A. 16. Others claimed that permitting
G.G. to use the boys’ restroom would violate the
privacy of other students and would lead to sexual
assault in restrooms. One commenter suggested that
if the proposed policy were not adopted, nontransgender boys would come to school wearing

173a
dresses in order to gain access to the girls’ restrooms.
G.G. and his parents spoke against the proposed
policy. Ultimately, the Board postponed a vote on the
policy until its next meeting on December 9, 2014.
At the December 9 meeting, approximately thirtyseven people spoke during the Citizens’ Comment
Period. Again, most of those who spoke were in favor
of the proposed resolution. Some speakers threatened
to vote the Board members out of office if the Board
members voted against the proposed policy. Speakers
again referred to G.G. as a “girl” or “young lady.” J.A.
18. One speaker called G.G. a “freak” and compared
him to a person who thinks he is a “dog” and wants to
urinate on fire hydrants. Id. Following this second
comment period, the Board voted 6-1 to adopt the
proposed policy, thereby barring G.G. from using the
boys’ restroom at school.
G.G. alleges that he cannot use the girls’ restroom
because women and girls in those facilities “react[]
negatively because they perceive[] G.G. to be a boy.”
Id. Further, using the girls’ restroom would “cause
severe psychological distress” to G.G. and would be
incompatible with his treatment for gender dysphoria.
J.A. 19. As a corollary to the policy, the Board
announced a series of updates to the school’s
restrooms to improve general privacy for all students,
including adding or expanding partitions between
urinals in male restrooms, adding privacy strips to the
doors of stalls in all restrooms, and constructing
single-stall unisex restrooms available to all students.
G.G. alleges that he cannot use these new unisex
restrooms because they “make him feel even more
stigmatized . . . . Being required to use the separate

174a
restrooms sets him apart from his peers, and serves as
a daily reminder that the school views him as
‘different.’” Id. G.G. further alleges that, because of
this stigma and exclusion, his social transition is
undermined and he experiences “severe and persistent
emotional and social harms.” Id. G.G. avoids using the
restroom while at school and has, as a result of this
avoidance, developed multiple urinary tract
infections.
B.
G.G. sued the Board on June 11, 2015. G.G. seeks
an injunction allowing him to use the boys’ restroom
and brings underlying claims that the Board
impermissibly discriminated against him in violation
of Title IX of the Education Amendments Act of 1972
and the Equal Protection Clause of the Constitution.
On July 27, 2015, the district court held a hearing on
G.G.’s motion for a preliminary injunction and on the
Board’s motion to dismiss G.G.’s lawsuit. At the
hearing, the district court orally dismissed G.G.’s Title
IX claim and denied his request for a preliminary
injunction, but withheld ruling on the motion to
dismiss G.G.’s equal protection claim. The district
court followed its ruling from the bench with a written
order dated September 4, 2015 denying the injunction
and a second written order dated September 17, 2015
dismissing G.G.’s Title IX claim and expanding on its
rationale for denying the injunction.
In its September 17, 2015 order, the district court
reasoned that Title IX prohibits discrimination on the
basis of sex and not on the basis of other concepts such
as gender, gender identity, or sexual orientation. The
district court observed that the regulations

175a
implementing Title IX specifically allow schools to
provide separate restrooms on the basis of sex. The
district court concluded that G.G.’s sex was female and
that requiring him to use the female restroom
facilities did not impermissibly discriminate against
him on the basis of sex in violation of Title IX. With
respect to G.G.’s request for an injunction, the district
court found that G.G. had not made the required
showing that the balance of equities was in his favor.
The district court found that requiring G.G. to use the
unisex restrooms during the pendency of this lawsuit
was not unduly burdensome and would result in less
hardship than requiring other students made
uncomfortable by G.G.’s presence in the boys’ restroom
to themselves use the unisex restrooms.
This appeal followed. G.G. asks us to reverse the
district court’s dismissal of his Title IX claim, grant
the injunction he seeks, and, because of comments
made by the district judge during the motion hearing,
to assign the case to a different district judge on
remand. The Board, on the other hand, asks us to
affirm the district court’s rulings and also asks us to
dismiss G.G.’s equal protection claim—on which the
district court has yet to rule—as without merit. The
United States, as it did below, has filed an amicus
brief supporting G.G.’s Title IX claim in order to
defend the government’s interpretation of Title IX as
requiring schools to provide transgender students
access to restrooms congruent with their gender
identity.

176a
II.
We turn first to the district court’s dismissal of
G.G.’s Title IX claim.3 We review de novo the district
court’s grant of a motion to dismiss. Cruz v. Maypa,
773 F.3d 138, 143 (4th Cir. 2014). “To survive a motion
to dismiss, a complaint must contain sufficient factual
matter, accepted as true, to state a claim to relief that
is plausible on its face.” Ashcroft v. Iqbal, 556 U.S. 662,
678 (2009) (citations and quotations omitted).
As noted earlier, Title IX provides: “[n]o person . . .
shall, on the basis of sex, be excluded from
participation in, be denied the benefits of, or be
subjected to discrimination under any education
program or activity receiving Federal financial
assistance.” 20 U.S.C. § 1681(a). To allege a violation
of Title IX, G.G. must allege (1) that he was excluded
from participation in an education program because of
his sex; (2) that the educational institution was
receiving federal financial assistance at the time of his
exclusion; and (3) that the improper discrimination
caused G.G. harm.4 See Preston v. Virginia ex rel. New

We decline the Board’s invitation to preemptively dismiss
G.G.’s equal protection claim before it has been fully considered
by the district court. “[W]e are a court of review, not of first view.”
Decker v. Nw. Envtl. Def. Ctr., 133 S. Ct. 1326, 1335 (2013)
(citation and quotation marks omitted). We will not proceed to
the merits of G.G.’s equal protection claim on appeal without the
benefit of the district court’s prior consideration.
3

4 The Board suggests that a restroom may not be educational
in nature and thus is not an educational program covered by Title
IX. Appellee’s Br. 35 (quoting Johnston v. Univ. of Pittsburgh, 97
F. Supp. 3d 657, 682 (W.D. Pa. 2015)). The Department’s
Continued …

177a
River Cmty. Coll., 31 F.3d 203, 206 (4th Cir. 1994)
(citing Cannon v. Univ. of Chi., 441 U.S. 677, 680
(1979)). We look to case law interpreting Title VII of
the Civil Rights Act of 1964 for guidance in evaluating
a claim brought under Title IX. Jennings v. Univ. of
N.C., 482 F.3d 686, 695 (4th Cir. 2007).
Not all distinctions on the basis of sex are
impermissible under Title IX. For example, Title IX
permits the provision of separate living facilities on
the basis of sex: “nothing contained [in Title IX] shall
be construed to prohibit any educational institution
regulation pertaining to “Education programs or activities”
provides:
Except as provided in this subpart, in providing any
aid, benefit, or service to a student, a recipient shall not,
on the basis of sex:
(1) Treat one person differently from another in
determining whether such person satisfies any
requirement or condition for the provision of such aid,
benefit, or service;
(2) Provide different aid, benefits, or services or
provide aid, benefits, or services in a different manner;
(3) Deny any person any such aid, benefit, or service;
...
(7) Otherwise limit any person in the enjoyment of
any right, privilege, advantage, or opportunity.
34 C.F.R. § 106.31(b). We have little difficulty concluding
that access to a restroom at a school, under this regulation, can
be considered either an “aid, benefit, or service” or a “right,
privilege, advantage, or opportunity,” which, when offered by a
recipient institution, falls within the meaning of “educational
program” as used in Title IX and defined by the Department’s
implementing regulations.

178a
receiving funds under this Act, from maintaining
separate living facilities for the different sexes.” 20
U.S.C. § 1686. The Department’s regulations
implementing Title IX permit the provision of
“separate toilet, locker room, and shower facilities on
the basis of sex, but such facilities provided for
students of one sex shall be comparable to such
facilities provided for students of the other sex.” 34
C.F.R. § 106.33. The Department recently delineated
how this regulation should be applied to transgender
individuals. In an opinion letter dated January 7,
2015, the Department’s Office for Civil Rights (OCR)
wrote: “When a school elects to separate or treat
students differently on the basis of sex . . . a school
generally must treat transgender students consistent
with their gender identity.”5 J.A. 55.

The opinion letter cites to OCR’s December 2014 “Questions
and Answers on Title IX and Single-Sex Elementary and
Secondary Classes and Extracurricular Activities.” This
document, denoted a “significant guidance document” per Office
of Management and Budget regulations, states: “All students,
including transgender students and students who do not conform
to sex stereotypes, are protected from sex-based discrimination
under Title IX. Under Title IX, a recipient generally must treat
transgender students consistent with their gender identity in all
aspects of the planning, implementation, enrollment, operation,
and evaluation of single-sex classes.” Office of Civil Rights, Dept.
of Educ., Questions and Answers on Title IX and Single-Sex
Elementary and Secondary Classes and Extracurricular
Activities
25
(2014)
available
at
http://www2.ed.gov/about/offices/list/ocr/docs/faqs-title-ix-singlesex-201412.pdf.
5

The dissent suggests that we ignore the part of OCR’s opinion
letter in which the agency “also encourages schools to offer the
Continued …

179a
A.
G.G., and the United States as amicus curiae, ask
us to give the Department’s interpretation of its own
regulation controlling weight pursuant to Auer v.
Robbins, 519 U.S. 452 (1997). Auer requires that an
agency’s interpretation of its own ambiguous
regulation be given controlling weight unless the
interpretation is plainly erroneous or inconsistent
with the regulation or statute. Id. at 461. Agency
interpretations need not be well-settled or longstanding to be entitled to deference. They must,
however, “reflect the agency’s fair and considered
judgment on the matter in question.” Id. at 462. An
interpretation may not be the result of the agency’s
fair and considered judgment, and will not be accorded
Auer deference, when the interpretation conflicts with
a prior interpretation, when it appears that the
interpretation is no more than a convenient litigating
position, or when the interpretation is a post hoc
rationalization. Christopher v. Smithkline Beecham
Corp., 132 S. Ct. 2156, 2166 (2012) (citations omitted).
The district court declined to afford deference to
the Department’s interpretation of 34 C.F.R. § 106.33.
The district court found the regulation to be
unambiguous because “[i]t clearly allows the School
use of gender-neutral, individual-user facilities to any student
who does not want to use shared sex-segregated facilities,” as the
Board did here. Post at 66. However, because G.G. does want to
use shared sex-segregated facilities, the agency’s suggestion
regarding students who do not want to use such shared sexsegregated facilities is immaterial to the resolution of G.G.’s
claim. Nothing in today’s opinion restricts any school’s ability to
provide individual-user facilities.

180a
Board to limit bathroom access ‘on the basis of sex,’
including birth or biological sex.” G.G. v. Gloucester
Cty. Sch. Bd., No. 4:15cv54, 2015 WL 5560190, at *8
(E.D. Va. Sept. 17, 2015). The district court also found,
alternatively, that the interpretation advanced by the
Department was clearly erroneous and inconsistent
with the regulation. The district court reasoned that,
because “on the basis of sex” means, at most, on the
basis of sex and gender together, it cannot mean on
the basis of gender alone. Id.
The United States contends that the regulation
clarifies statutory ambiguity by making clear that
schools may provide separate restrooms for boys and
girls “without running afoul of Title IX.” Br. for the
United States as Amicus Curiae 24–25 (hereinafter
“U.S. Br.”). However, the Department also considers
§ 106.33 itself to be ambiguous as to transgender
students because “the regulation is silent on what the
phrases ‘students of one sex’ and ‘students of the other
sex’ mean in the context of transgender students.” Id.
at 25. The United States contends that the
interpretation contained in OCR’s January 7, 2015
letter resolves the ambiguity in § 106.33 as that
regulation applies to transgender individuals.
B.
We will not accord an agency’s interpretation of an
unambiguous regulation Auer deference. Thus, our
analysis begins with a determination of whether 34
C.F.R. § 106.33 contains an ambiguity. Section 106.33
permits schools to provide “separate toilet, locker
room, and shower facilities on the basis of sex, but
such facilities provided for students of one sex shall be

181a
comparable to such facilities provided for students of
the other sex.” 34 C.F.R. § 106.33.
“[D]etermining whether a regulation or statute is
ambiguous presents a legal question, which we
determine de novo.” Humanoids Grp. v. Rogan, 375
F.3d 301, 306 (4th Cir. 2004). We determine ambiguity
by analyzing the language under the three-part
framework set forth in Robinson v. Shell Oil Co., 519
U.S. 337 (1997). The plainness or ambiguity of
language is determined by reference to (1) the
language itself, (2) the specific context in which that
language is used, and (3) the broader context of the
statute or regulation as a whole. Id. at 341.
First, we have little difficulty concluding that the
language itself—“of one sex” and “of the other sex”—
refers to male and female students. Second, in the
specific context of § 106.33, the plain meaning of the
regulatory language is best stated by the United
States: “the mere act of providing separate restroom
facilities for males and females does not violate Title
IX . . . .” U.S. Br. 22 n.8. Third, the language “of one
sex” and “of the other sex” appears repeatedly in the
broader context of 34 C.F.R. § 106 Subpart D, titled
“Discrimination on the Basis of Sex in Education
Programs or Activities Prohibited.”6 This repeated
6 For example, § 106.32(b)(2) provides that “[h]ousing
provided . . . to students of one sex, when compared to that
provided to students of the other sex, shall be as a whole:
proportionate in quantity . . . and [c]omparable in quality and
cost to the student”; § 106.37(a)(3) provides that an institution
generally cannot “[a]pply any rule . . . concerning eligibility [for
financial assistance] which treats persons of one sex differently
from persons of the other sex with regard to marital or parental
Continued …

182a
formulation indicates two sexes (“one sex” and “the
other sex”), and the only reasonable reading of the
language used throughout the relevant regulatory
section is that it references male and female. Read
plainly then, § 106.33 permits schools to provide
separate toilet, locker room, and shower facilities for
its male and female students. By implication, the
regulation also permits schools to exclude males from
the female facilities and vice-versa.
Our inquiry is not ended, however, by this
straightforward conclusion. Although the regulation
may refer unambiguously to males and females, it is
silent as to how a school should determine whether a
transgender individual is a male or female for the
purpose of access to sex-segregated restrooms. We
conclude that the regulation is susceptible to more
than one plausible reading because it permits both the
Board’s
reading—determining
maleness
or
femaleness with reference exclusively to genitalia—
and the Department’s interpretation—determining
maleness or femaleness with reference to gender
identity. Cf. Dickenson-Russell Coal Co. v. Sec’y of
Labor, 747 F.3d 251, 258 (4th Cir. 2014) (refusing to
afford Auer deference where the language of the
regulation at issue was “not susceptible to more than
one plausible reading” (citation and quotation marks
omitted)). It is not clear to us how the regulation would
apply in a number of situations—even under the
status”; and § 106.41(b) provides that “where [an institution]
operates or sponsors a team in a particular sport for members of
one sex but operates or sponsors no such team for members of the
other sex . . . members of the excluded sex must be allowed to tryout for the team offered . . . .”

183a
Board’s own “biological gender” formulation. For
example, which restroom would a transgender
individual who had undergone sex-reassignment
surgery use? What about an intersex individual? What
about an individual born with X-X-Y sex
chromosomes? What about an individual who lost
external genitalia in an accident? The Department’s
interpretation resolves ambiguity by providing that in
the case of a transgender individual using a sexsegregated facility, the individual’s sex as male or
female is to be generally determined by reference to
the student’s gender identity.
C.
Because we conclude that the regulation is
ambiguous as applied to transgender individuals, the
Department’s interpretation is entitled to Auer
deference unless the Board demonstrates that the
interpretation is plainly erroneous or inconsistent
with the regulation or statute. Auer, 519 U.S. at 461.
“Our review of the agency’s interpretation in this
context is therefore highly deferential.” DickensonRussell Coal, 747 F.3d at 257 (citation and quotation
marks omitted). “It is well established that an
agency’s interpretation need not be the only possible
reading of a regulation—or even the best one—to
prevail.” Decker v. Nw. Envtl. Def. Ctr., 133 S. Ct.
1326, 1337 (2013). An agency’s view need only be
reasonable to warrant deference. Pauley v.
BethEnergy Mines, Inc., 501 U.S. 680, 702 (1991) (“[I]t
is axiomatic that the [agency’s] interpretation need
not be the best or most natural one by grammatical or
other standards. Rather, the [agency’s] view need be
only reasonable to warrant deference.”).

184a
Title IX regulations were promulgated by the
Department of Health, Education, and Welfare in
1975 and were adopted unchanged by the Department
in 1980. 45 Fed. Reg. 30802, 30955 (May 9, 1980). Two
dictionaries from the drafting era inform our analysis
of how the term “sex” was understood at that time. The
first defines “sex” as “the character of being either
male or female” or “the sum of those anatomical and
physiological differences with reference to which the
male and female are distinguished . . . .” American
College Dictionary 1109 (1970). The second defines
“sex” as:
the sum of the morphological, physiological, and
behavioral peculiarities of living beings that
subserves biparental reproduction with its
concomitant
genetic
segregation
and
recombination
which
underlie
most
evolutionary change, that in its typical
dichotomous occurrence is usu[ally] genetically
controlled and associated with special sex
chromosomes, and that is typically manifested
as maleness and femaleness . . . .
Webster’s Third New International Dictionary 2081
(1971).
Although these definitions suggest that the word
“sex” was understood at the time the regulation was
adopted to connote male and female and that
maleness and femaleness were determined primarily
by reference to the factors the district court termed
“biological sex,” namely reproductive organs, the
definitions also suggest that a hard-and-fast binary
division on the basis of reproductive organs—although
useful in most cases—was not universally

185a
descriptive.7 The dictionaries, therefore, used
qualifiers such as reference to the “sum of” various
factors, “typical dichotomous occurrence,” and
“typically manifested as maleness and femaleness.”
Section 106.33 assumes a student population
composed of individuals of what has traditionally been
understood as the usual “dichotomous occurrence” of
male and female where the various indicators of sex
all point in the same direction. It sheds little light on
how exactly to determine the “character of being either
male or female” where those indicators diverge. We
conclude that the Department’s interpretation of how
§ 106.33 and its underlying assumptions should apply
to transgender individuals is not plainly erroneous or
inconsistent with the text of the regulation. The
regulation is silent as to which restroom transgender
individuals are to use when a school elects to provide
sex-segregated restrooms, and the Department’s
interpretation, although perhaps not the intuitive one,
is permitted by the varying physical, psychological,
and social aspects—or, in the words of an older
dictionary, “the morphological, physiological, and
behavioral peculiarities”—included in the term “sex.”

Modern definitions of “sex” also implicitly recognize the
limitations of a nonmalleable, binary conception of sex. For
example, Black’s Law Dictionary defines “sex” as “[t]he sum of
the peculiarities of structure and function that distinguish a male
from a female organism; gender.” Black’s Law Dictionary 1583
(10th ed. 2014). The American Heritage Dictionary includes in
the definition of “sex” “[o]ne’s identity as either female or male.”
American Heritage Dictionary 1605 (5th ed. 2011).
7

186a
D.
Finally, we consider whether the Department’s
interpretation of § 106.33 is the result of the agency’s
fair and considered judgment. Even a valid
interpretation will not be accorded Auer deference
where it conflicts with a prior interpretation, where it
appears that the interpretation is no more than a
convenient litigating position, or where the
interpretation is a post hoc rationalization.
Christopher, 132 S. Ct. at 2166 (citations omitted).
Although the Department’s interpretation is novel
because there was no interpretation as to how § 106.33
applied to transgender individuals before January
2015, “novelty alone is no reason to refuse deference”
and does not render the current interpretation
inconsistent with prior agency practice. See Talk Am.,
Inc. v. Mich. Bell Tel. Co., 131 S. Ct. 2254, 2263 (2011).
As the United States explains, the issue in this case
“did not arise until recently,” see id., because schools
have only recently begun citing § 106.33 as
justification for enacting new policies restricting
transgender students’ access to restroom facilities.
The Department contends that “[i]t is to those
‘newfound’
policies
that
[the
Department’s]
interpretation of the regulation responds.” U.S. Br. 29.
We see no reason to doubt this explanation. See Talk
Am., Inc., 131 S. Ct. at 2264.
Nor is the interpretation merely a convenient
litigating position. The Department has consistently
enforced this position since 2014. See J.A. 55 n.5 & n.6
(providing examples of OCR enforcement actions to
secure transgender students access to restrooms
congruent with their gender identities). Finally, this

187a
interpretation cannot properly be considered a post
hoc rationalization because it is in line with the
existing guidances and regulations of a number of
federal agencies—all of which provide that
transgender individuals should be permitted access to
the restroom that corresponds with their gender
identities.8 U.S. Br. 17 n.5 & n.6 (citing publications
by
the
Occupational
Safety
and
Health
Administration, the Equal Employment Opportunity
Commission, the Department of Housing and Urban
Development, and the Office of Personnel
Management). None of the Christopher grounds for
withholding Auer deference are present in this case.
E.
We conclude that the Department’s interpretation
of its own regulation, § 106.33, as it relates to
restroom access by transgender individuals, is entitled
to Auer deference and is to be accorded controlling

We disagree with the dissent’s suggestion that the result we
reach today renders the enforcement of separate restroom
facilities impossible because it “would require schools to assume
gender identity based on appearances, social expectations, or
explicit declarations of identity.” Post at 65. Accepting the
Board’s position would equally require the school to assume
“biological sex” based on “appearances, social expectations, or
explicit declarations of [biological sex].” Certainly, no one is
suggesting mandatory verification of the “correct” genitalia
before admittance to a restroom. The Department’s vision of sexsegregated restrooms which takes account of gender identity
presents no greater “impossibility of enforcement” problem than
does the Board’s “biological gender” vision of sex-segregated
restrooms.
8

188a
weight in this case.9 We reverse the district court’s
contrary conclusion and its resultant dismissal of
G.G.’s Title IX claim.
F.
In many respects, we are in agreement with the
dissent. We agree that “sex” should be construed
uniformly throughout Title IX and its implementing
regulations. We agree that it has indeed been
commonplace and widely accepted to separate public
restrooms, locker rooms, and shower facilities on the
basis of sex. We agree that “an individual has a
legitimate and important interest in bodily privacy
such that his or her nude or partially nude body,
genitalia, and other private parts” are not
involuntarily exposed.10 Post at 56. It is not apparent
The Board urges us to reach a contrary conclusion regarding
the validity of the Department’s interpretation, citing Johnston
v. Univ. of Pittsburgh of Com. Sys. of Higher Educ., 97 F. Supp.
657 (W.D. Pa. 2015). Although we recognize that the Johnston
court confronted a case similar in most material facts to the one
before us, that court did not consider the Department’s
interpretation of § 106.33. Because the Johnston court did not
grapple with the questions of administrative law implicated here,
we find the Title IX analysis in Johnston to be unpersuasive.
9

10 We doubt that G.G.’s use of the communal restroom of his
choice threatens the type of constitutional abuses present in the
cases cited by the dissent. For example, G.G.’s use—or for that
matter any individual’s appropriate use—of a restroom will not
involve the type of intrusion present in Brannum v. Overton Cty.
Sch. Bd., 516 F.3d 489, 494 (6th Cir. 2008) (involving the
videotaping of students dressing and undressing in school locker
rooms), Beard v. Whitmore Lake Sch. Dist., 402 F.3d 598, 604 (6th
Cir. 2005) (involving the indiscriminate strip searching of twenty
male and five female students), or Supelveda v. Ramirez, 967
Continued …

189a
to us, however, that the truth of these propositions
undermines the conclusion we reach regarding the
level of deference due to the Department’s
interpretation of its own regulations.
The Supreme Court commands the use of
particular analytical frameworks when courts review
the actions of the executive agencies. G.G. claims that
he is entitled to use the boys’ restroom pursuant to the
Department’s interpretation of its regulations
implementing Title IX. We have carefully followed the
Supreme Court’s guidance in Chevron, Auer, and
Christopher and have determined that the
interpretation contained in the OCR letter is to be
accorded controlling weight. In a case such as this,
where there is no constitutional challenge to the
regulation or agency interpretation, the weighing of
privacy interests or safety concerns11— fundamentally
F.2d 1413, 1416 (9th Cir. 1992) (involving a male parole officer
forcibly entering a bathroom stall with a female parolee to
supervise the provision of a urine sample).
11 The dissent accepts the Board’s invocation of amorphous
safety concerns as a reason for refusing deference to the
Department’s interpretation. We note that the record is devoid of
any evidence tending to show that G.G.’s use of the boys’ restroom
creates a safety issue. We also note that the Board has been,
perhaps deliberately, vague as to the nature of the safety
concerns it has—whether it fears that it cannot ensure G.G.’s
safety while in the restroom or whether it fears G.G. himself is a
threat to the safety of others in the restroom. We are unconvinced
of the existence of danger caused by “sexual responses prompted
by students’ exposure to the private body parts of students of the
other biological sex.” Post at 58. The same safety concern would
seem to require segregated restrooms for gay boys and girls who
would, under the dissent’s formulation, present a safety risk
Continued …

190a
questions of policy—is a task committed to the agency,
not to the courts.
The Supreme Court’s admonition in Chevron
points to the balance courts must strike:
Judges are not experts in the field, and are not
part of either political branch of the
Government. Courts must, in some cases,
reconcile competing political interests, but not
on the basis of the judges’ personal policy
preferences. In contrast, an agency to which
Congress
has
delegated
policy-making
responsibilities may, within the limits of that
delegation, properly rely upon the incumbent
administration’s views of wise policy to inform
its judgments. While agencies are not directly
accountable to the people, the Chief Executive
is, and it is entirely appropriate for this political
branch of the Government to make such policy
choices—resolving the competing interests
which Congress itself either inadvertently did
not resolve, or intentionally left to be resolved
by the agency charged with the administration
of the statute in light of everyday realities.
Chevron, U.S.A., Inc. v. Nat. Res. Def. Council, Inc.,
467 U.S. 837, 865–66 (1984). Not only may a
subsequent administration choose to implement a
different policy, but Congress may also, of course,
revise Title IX explicitly to prohibit or authorize the
course charted here by the Department regarding the
because of the “sexual responses prompted” by their exposure to
the private body parts of other students of the same sex in sexsegregated restrooms.

191a
use of restrooms by transgender students. To the
extent the dissent critiques the result we reach today
on policy grounds, we reply that, our Auer analysis
complete, we leave policy formulation to the political
branches.
III.
G.G. also asks us to reverse the district court’s
denial of the preliminary injunction he sought which
would have allowed him to use the boys’ restroom
during the pendency of this lawsuit. “To win such a
preliminary injunction, Plaintiffs must demonstrate
that (1) they are likely to succeed on the merits;
(2) they will likely suffer irreparable harm absent an
injunction; (3) the balance of hardships weighs in their
favor; and (4) the injunction is in the public interest.”
League of Women Voters of N.C. v. North Carolina, 769
F.3d 224, 236 (4th Cir. 2014) (citation omitted). We
review a district court’s denial of a preliminary
injunction for abuse of discretion. Id. at 235. “A district
court has abused its discretion if its decision is guided
by erroneous legal principles or rests upon a clearly
erroneous factual finding.” Morris v. Wachovia Sec.,
Inc., 448 F.3d 268, 277 (4th Cir. 2006) (citation and
quotations omitted). “We do not ask whether we would
have come to the same conclusion as the district court
if we were examining the matter de novo.” Id. (citation
omitted). Instead, “we reverse for abuse of discretion
if we form a definite and firm conviction that the court
below committed a clear error of judgment in the
conclusion it reached upon a weighing of the relevant
factors.” Id. (citations and quotations omitted).
The district court analyzed G.G.’s request only
with reference to the third factor—the balance of

192a
hardships—and found that the balance of hardships
did not weigh in G.G.’s favor. G.G. submitted two
declarations in support of his complaint, one from G.G.
himself and one from a medical expert, Dr. Randi
Ettner, to explain what harms G.G. will suffer as a
result of his exclusion from the boys’ restroom. The
district court refused to consider this evidence because
it was “replete with inadmissible evidence including
thoughts of others, hearsay, and suppositions.” G.G.,
2015 WL 5560190, at *11.
The district court misstated the evidentiary
standard governing preliminary injunction hearings.
The district court stated: “The complaint is no longer
the deciding factor, admissible evidence is the
deciding factor. Evidence therefore must conform to
the rules of evidence.” Id. at *9. Preliminary
injunctions, however, are governed by less strict rules
of evidence:
The purpose of a preliminary injunction is
merely to preserve the relative positions of the
parties until a trial on the merits can be held.
Given this limited purpose, and given the haste
that is often necessary if those positions are to
be preserved, a preliminary injunction is
customarily granted on the basis of procedures
that are less formal and evidence that is less
complete than in a trial on the merits.
Univ. of Tex. v. Camenisch, 451 U.S. 390, 395 (1981);
see also Elrod v. Burns, 427 U.S. 347, 350 n.1 (1976)
(taking as true the “well-pleaded allegations of
respondents’ complaint and uncontroverted affidavits
filed in support of the motion for a preliminary
injunction”); compare Fed. R. Civ. P. 56 (requiring

193a
affidavits supporting summary judgment to be “made
on personal knowledge, [and to] set out facts that
would be admissible in evidence), with Fed R. Civ. P.
65 (providing no such requirement in the preliminary
injunction context). Thus, although admissible
evidence may be more persuasive than inadmissible
evidence in the preliminary injunction context, it was
error for the district court to summarily reject G.G.’s
proffered evidence because it may have been
inadmissible at a subsequent trial.
Additionally, the district court completely excluded
some of G.G.’s proffered evidence on hearsay grounds.
The seven of our sister circuits to have considered the
admissibility of hearsay in preliminary injunction
proceedings have decided that the nature of evidence
as hearsay goes to “weight, not preclusion” and have
permitted district courts to “rely on hearsay evidence
for the limited purpose of determining whether to
award a preliminary injunction.” Mullins v. City of
New York, 626 F.3d 47, 52 (2d Cir. 2010); see also Kos
Pharm., Inc. v. Andrx Corp., 369 F.3d 700, 718 (3d Cir.
2004); Ty, Inc. v. GMA Accessories, Inc., 132 F.3d 1167,
1171 (7th Cir. 1997); Levi Strauss & Co. v. Sunrise
Int’l Trading, Inc., 51 F.3d 982, 985 (11th Cir. 1995)
(“At the preliminary injunction stage, a district court
may rely on affidavits and hearsay materials which
would not be admissible evidence for a permanent
injunction, if the evidence is appropriate given the
character and objectives of the injunctive proceeding.”
(citation and internal quotations omitted)); Sierra
Club, Lone Star Chapter v. FDIC, 992 F.2d 545, 551
(5th Cir. 1993) (“[A]t the preliminary injunction stage,
the procedures in the district court are less formal,
and the district court may rely on otherwise

194a
inadmissible evidence, including hearsay evidence.”);
Asseo v. Pan Am. Grain Co., Inc., 805 F.2d 23, 26 (1st
Cir. 1986); Flynt Distrib. Co., Inc. v. Harvey, 734 F.2d
1389, 1394 (9th Cir. 1984). We see no reason for a
different rule to govern in this Circuit. Because
preliminary injunction proceedings are informal ones
designed to prevent irreparable harm before a later
trial governed by the full rigor of usual evidentiary
standards, district courts may look to, and indeed in
appropriate circumstances rely on, hearsay or other
inadmissible evidence when deciding whether a
preliminary injunction is warranted.
Because the district court evaluated G.G.’s
proffered evidence against a stricter evidentiary
standard than is warranted by the nature and purpose
of preliminary injunction proceedings to prevent
irreparable harm before a full trial on the merits, the
district court was “guided by erroneous legal
principles.” We therefore conclude that the district
court abused its discretion when it denied G.G.’s
request for a preliminary injunction without
considering G.G.’s proffered evidence. We vacate the
district court’s denial of G.G.’s motion for a
preliminary injunction and remand the case to the
district court for consideration of G.G.’s evidence in
light of the evidentiary standards set forth herein.
IV.
Finally, G.G. requests that we reassign this case to
a different district judge on remand. G.G. does not
explicitly claim that the district judge is biased.
Absent such a claim, reassignment is only appropriate
in “unusual circumstances where both for the judge’s
sake and the appearance of justice an assignment to a

195a
different judge is salutary and in the public interest,
especially as it minimizes even a suspicion of
partiality.” United States v. Guglielmi, 929 F.2d 1001,
1007 (4th Cir. 1991) (citation and internal quotation
marks omitted). In determining whether such
circumstances exist, a court should consider:
(1) whether the original judge would reasonably be
expected upon remand to have substantial difficulty in
putting out of his or her mind previously expressed
views or findings determined to be erroneous or based
on evidence that must be rejected, (2) whether
reassignment is advisable to preserve the appearance
of justice, and (3) whether reassignment would entail
waste and duplication out of proportion to any gain in
preserving the appearance of fairness. Id. (citation
omitted).
G.G. argues that both the first and second
Guglielmi factors are satisfied. He contends that the
district court has pre-existing views which it would be
unwilling to put aside in the face of contrary evidence
about medical science generally and about “gender
and sexuality in particular.” Appellant’s Br. 53. For
example, the court accepted the Board’s concern by
noting:
There are only two instincts—two. Everything
else is acquired—everything. That is, the brain
only has two instincts. One is called selfpreservation, and the other is procreation. And
procreation is the highest instinct in
individuals who are in the latter part of their
teenage years. All of that is accepted by all
medical science, as far as I can determine in
reading information.

196a
J.A. 85–86.
The district court also expressed skepticism that
medical science supported the proposition that one
could develop a urinary tract infection from
withholding urine for too long. J.A. 111–12. The
district court characterized gender dysphoria as a
“mental disorder” and resisted several attempts by
counsel for G.G. to clarify that it only becomes a
disorder when left untreated. See J.A. 88–91; 101–02.
The district court also seemed to reject G.G.’s
representation of what it meant to be transgender,
repeatedly noting that G.G. “wants” to be a boy and
not a girl, but that “he is biologically a female.” J.A.
103–04; see also J.A. 104 (“It’s his mind. It’s not
physical that causes that, it’s what he believes.”). The
district court’s memorandum opinion, however,
included none of the extraneous remarks or
suppositions that marred the hearing.
Reassignment is an unusual step at this early
stage of litigation. Although the district court did
express opinions about medical facts and skepticism of
G.G.’s claims, the record does not clearly indicate that
the district judge would refuse to consider and credit
sound contrary evidence. Further, although the
district court has a distinct way of proceeding in court,
the hearing record and the district court’s written
order in the case do not raise in our minds a question
about the fundamental fairness of the proceedings,
however idiosyncratic. The conduct of the district
judge does not at this point satisfy the Guglielmi
standard. We deny G.G.’s request for reassignment to
a different district judge on remand.

197a
V.
For the foregoing reasons, the judgment of the
district court is
REVERSED IN PART, VACATED IN PART, AND
REMANDED.

198a
DAVIS, Senior Circuit Judge, concurring:
I concur in Judge Floyd’s fine opinion. I write
separately, however, to note that while I am happy to
join in the remand of this matter to the district court
so that it may consider G.G.’s evidence under proper
legal standards in the first instance, this Court would
be on sound ground in granting the requested
preliminary injunction on the undisputed facts in the
record.
I.
In order to obtain a preliminary injunction, G.G.
must demonstrate that (1) he is likely to succeed on
the merits, (2) he is likely to suffer irreparable harm
in the absence of an injunction, (3) the balance of
hardships tips in his favor, and (4) the requested
injunction is in the public interest. Pashby v. Delia,
709 F.3d 307, 320 (4th Cir. 2013) (citing Winter v. Nat.
Res. Def. Council, 555 U.S. 7, 20 (2008)). The record
before us establishes that G.G. has done so.
A.
G.G. alleges that by singling him out for different
treatment because he is transgender, the Board’s
restroom policy discriminates against him “on the
basis of sex” in violation of Title IX. In light of the
weight of circuit authority concluding that
discrimination against transgender individuals
constitutes discrimination “on the basis of sex” in the
context of analogous statutes and our holding here
that the Department’s interpretation of 34 C.F.R.
§ 106.33 is to be given controlling weight, G.G. has
surely demonstrated a likelihood of success on the
merits of his Title IX claim. See Price Waterhouse v.

199a
Hopkins, 490 U.S. 228, 250–51 (1989); see also Glenn
v. Brumby, 663 F.3d 1312, 1316–19 (11th Cir. 2011);
Smith v. City of Salem, 378 F.3d 566, 573–75 (6th Cir.
2004); Rosa v. Park W. Bank & Trust Co., 214 F.3d
213, 215–16 (1st Cir. 2000); Schwenk v. Hartford, 204
F.3d 1187, 1201–02 (9th Cir. 2000).
B.
In support of his claim of irreparable harm, G.G.
submitted an affidavit to the district court describing
the psychological distress he experiences when he is
forced to use the single-stall restrooms or the restroom
in the nurse’s office. See J.A. 32–33. His affidavit also
indicates that he has “repeatedly developed painful
urinary tract infections” as a result of holding his
urine in order to avoid using the restroom at school.
Id.
An expert declaration by Dr. Randi Ettner, a
psychologist specializing in working with children and
adolescents with gender dysphoria, provides further
support for G.G.’s claim of irreparable harm. In her
affidavit, Dr. Ettner indicates that treating a
transgender boy as male in some situations but not in
others is “inconsistent with evidence-based medical
practice and detrimental to the health and well-being
of the child” and explains why access to a restroom
appropriate to one’s gender identity is important for
transgender youth. J.A. 39. With respect to G.G. in
particular, Dr. Ettner states that in her professional
opinion, the Board’s restroom policy “is currently
causing emotional distress to an extremely vulnerable
youth and placing G.G. at risk for accruing lifelong
psychological harm.” J.A. 41. In particular, Dr. Ettner
opines that

200a
[a]s a result of the School Board’s restroom
policy, . . . G.G. is put in the humiliating
position of having to use a separate facility,
thereby
accentuating
his
‘otherness,’
undermining his identity formation, and
impeding his medically necessary social
transition process. The shame of being singled
out and stigmatized in his daily life every time
he needs to use the restroom is a devastating
blow to G.G. and places him at extreme risk for
immediate and long-term psychological harm.
J.A. 42.
The Board offers nothing to contradict any of the
assertions concerning irreparable harm in G.G.’s or
Dr. Ettner’s affidavits. Instead, its arguments focus on
what is purportedly lacking from G.G.’s presentation
in support of his claim of irreparable harm, such as
“evidence that [his feelings of dysphoria, anxiety, and
distress] would be lessened by using the boy[s’]
restroom,” evidence from his treating psychologist,
medical evidence, and an opinion from Dr. Ettner
“differentiating between the distress that G.G. may
suffer by not using the boy[s’] bathroom during the
course of this litigation and the distress that he has
apparently been living with since age 12.” Br. Appellee
42–43. As to the alleged deficiency concerning
Dr. Ettner’s opinion, the Board’s argument is belied by
Dr. Ettner’s affidavit itself, which, as quoted above,
provides her opinion about the psychological harm
that G.G. is experiencing “[a]s a result of the School
Board’s restroom policy.” J.A. 42. With respect to the
other purported inadequacies, the absence of such
evidence
does
nothing
to
undermine
the

201a
uncontroverted statements concerning the daily
psychological harm G.G. experiences as a result of the
Board’s policy or Dr. Ettner’s unchallenged opinion
concerning the significant long-term consequences of
that harm. Moreover, the Board offers no argument to
counter G.G.’s averment that he has repeatedly
contracted a urinary tract infection as a result of
holding his urine to avoid using the restroom at school.
The uncontroverted facts before the district court
demonstrate that as a result of the Board’s restroom
policy, G.G. experiences daily psychological harm that
puts him at risk for long-term psychological harm, and
his avoidance of the restroom as a result of the Board’s
policy puts him at risk for developing a urinary tract
infection as he has repeatedly in the past. G.G. has
thus demonstrated that he will suffer irreparable
harm in the absence of an injunction.
C.
Turning to the balance of the hardships, G.G. has
shown that he will suffer irreparable harm without
the requested injunction. On the other end of the scale,
the Board contends that other students’ constitutional
right to privacy will be imperiled by G.G.’s presence in
the boys’ restroom.
As the majority opinion points out, G.G.’s use of the
restroom does not implicate the unconstitutional
actions involved in the cases cited by the dissent.
Moreover, students’ unintentional exposure of their
genitals to others using the restroom has already been
largely, if not entirely, remedied by the alterations to
the school’s restrooms already undertaken by the
Board. To the extent that a student simply objects to

202a
using the restroom in the presence of a transgender
student even where there is no possibility that either
student’s genitals will be exposed, all students have
access to the single-stall restrooms. For other
students, using the single-stall restrooms carries no
stigma whatsoever, whereas for G.G., using those
same restrooms is tantamount to humiliation and a
continuing mark of difference among his fellow
students. The minimal or non-existent hardship to
other students of using the single-stall restrooms if
they object to G.G.’s presence in the communal
restroom thus does not tip the scale in the Board’s
favor. The balance of hardships weighs heavily toward
G.G.
D.
Finally, consideration of the public interest in
granting or denying the preliminary injunction favors
G.G. Having concluded that G.G. has demonstrated a
likelihood of success on the merits of his Title IX claim,
denying the requested injunction would permit the
Board to continue violating G.G.’s rights under Title
IX for the pendency of this case. Enforcing G.G.’s right
to be free from discrimination on the basis of sex in an
educational institution is plainly in the public
interest. Cf. Giovani Carandola, Ltd. v. Bason, 303
F.3d 507, 521 (4th Cir. 2002) (citation omitted)
(observing that upholding constitutional rights is in
the public interest).
The Board contends that the public interest lies in
allowing this issue to be determined by the legislature,
citing pending legislation before Congress addressing
the issue before the Court. But, as discussed above,
the
weight
of
authority
establishes
that

203a
discrimination based on transgender status is already
prohibited by the language of federal civil rights
statutes, as interpreted by the Supreme Court. The
existence of proposed legislation that, if passed, would
address the question before us does not justify forcing
G.G. to suffer irreparable harm when he has
demonstrated that he is likely to succeed on the merits
of his claims under current federal law.
II.
Based on the evidence presented to the district
court, G.G. has satisfied all four prongs of the
preliminary injunction inquiry. When the record
before us supports entry of a preliminary injunction—
as it amply does here—we have not hesitated to act to
prevent irreparable injury to a litigant before us. See,
e.g., League of Women Voters of N.C. v. North
Carolina, 769 F.3d 224, 248 (4th Cir. 2014) (expressly
observing that appellate courts have the power to
vacate a denial of a preliminary injunction and direct
entry of an injunction); Eisenberg ex rel. Eisenberg v.
Montgomery Cty. Pub. Schs., 197 F.3d 123, 134 (4th
Cir. 1999) (directing entry of injunction “because the
record clearly establishes the plaintiff’s right to an
injunction and [an evidentiary] hearing would not
have altered the result”).
Nevertheless, it is right and proper that we defer
to the district court in this instance. It is to be hoped
that the district court will turn its attention to this
matter with the urgency the case poses. Under the
circumstances here, the appropriateness and
necessity of such prompt action is plain. By the time
the district court issues its decision, G.G. will have

204a
suffered the psychological harm the injunction sought
to prevent for an entire school year.
With these additional observations, I concur fully
in Judge Floyd’s thoughtful and thorough opinion for
the panel.

205a
NIEMEYER, Circuit Judge, concurring in part and
dissenting in part:
I concur in Part IV of the court’s opinion. With
respect to whether G.G. stated a claim under Title IX
and whether the district court abused its discretion in
denying G.G’s motion for a preliminary injunction, I
would affirm the ruling of the district court dismissing
G.G.’s Title IX claim and denying his motion for a
preliminary injunction. I therefore dissent from the
majority’s decision on those issues.
G.G., a transgender boy who is 16, challenges as
discriminatory, under the Equal Protection Clause
and Title IX of the Education Amendments of 1972,
his high school’s policy for assigning students to
restrooms and locker rooms based on biological sex.
The school’s policy provides: (1) that the girls’
restrooms and locker rooms are designated for use by
students who are biologically female; (2) that the boys’
restrooms and locker rooms are designated for use by
students who are biologically male; and (3) that all
students, regardless of their sex, are authorized to use
the school’s three single-stall unisex restrooms, which
the school created to accommodate transgender
students. Under this policy, G.G., who is biologically
female but who identifies as male, is authorized to use
the girls’ restrooms and locker rooms and the unisex
restrooms. He contends, however, that the policy
discriminates against him because it denies him, as
one who identifies as male, the use of the boys’
restrooms, and he seeks an injunction compelling the
high school to allow him to use the boys’ restrooms.
The district court dismissed G.G.’s Title IX claim,
explaining that the school complied with Title IX and

206a
its regulations, which permit schools to provide
separate living facilities, restrooms, locker rooms, and
shower facilities “on the basis of sex,” so long as the
facilities are “comparable.” 20 U.S.C. § 1686; 34 C.F.R.
§§ 106.32(b), 106.33.
Strikingly, the majority now reverses the district
court’s ruling, without any supporting case law, and
concludes that when Title IX and its regulations
provide for separate living facilities, restrooms, locker
rooms, and shower facilities on the basis of sex, the
statute’s and regulations’ use of the term “sex” means
a person’s gender identity, not the person’s biological
status as male or female. To accomplish its goal, the
majority relies entirely on a 2015 letter sent by the
Department of Education’s Office for Civil Rights to
G.G., in which the Office for Civil Rights stated,
“When a school elects to separate or treat students
differently on the basis of sex [when providing
restrooms, locker rooms, shower facilities, housing,
athletic teams, and single-sex classes], a school
generally must treat transgender students consistent
with their gender identity.” (Emphasis added).
Accepting that new definition of the statutory term
“sex,” the majority’s opinion, for the first time ever,
holds that a public high school may not provide
separate restrooms and locker rooms on the basis of
biological sex. Rather, it must now allow a biological
male student who identifies as female to use the girls’
restrooms and locker rooms and, likewise, must allow
a biological female student who identifies as male to
use the boys’ restrooms and locker rooms. This holding
completely tramples on all universally accepted
protections of privacy and safety that are based on the
anatomical differences between the sexes. And,

207a
unwittingly, it also tramples on the very concerns
expressed by G.G., who said that he should not be
forced to go to the girls’ restrooms because of the
“severe psychological distress” it would inflict on him
and because female students had “reacted negatively”
to his presence in girls’ restrooms. Surely biological
males who identify as females would encounter
similar reactions in the girls’ restroom, just as
students physically exposed to students of the opposite
biological sex would be likely to experience
psychological distress. As a result, schools would no
longer be able to protect physiological privacy as
between students of the opposite biological sex.
This unprecedented holding overrules custom,
culture, and the very demands inherent in human
nature for privacy and safety, which the separation of
such facilities is designed to protect. More
particularly, it also misconstrues the clear language of
Title IX and its regulations. And finally, it reaches an
unworkable and illogical result.
The recent Office for Civil Rights letter, moreover,
which is not law but which is the only authority on
which the majority relies, states more than the
majority acknowledges. In the sentence following the
sentence on which the majority relies, the letter states
that, to accommodate transgender students, schools
are encouraged “to offer the use of gender-neutral,
individual-user facilities to any student who does not
want to use shared sex-segregated facilities [as
permitted by Title IX’s regulations].” This appears to
approve the course that G.G.’s school followed when it
created unisex restrooms in addition to the boys’ and
girls’ restrooms it already had.

208a
Title IX and its implementing regulations are not
ambiguous. In recognition of physiological privacy and
safety concerns, they allow schools to provide
“separate living facilities for the different sexes,” 20
U.S.C. § 1686, provided that the facilities are
“proportionate” and “comparable,” 34 C.F.R.
§ 106.32(b), and to provide “separate toilet, locker
room, and shower facilities on the basis of sex,” again
provided that the facilities are “comparable,” 34 C.F.R.
§ 106.33. Because the school’s policy that G.G.
challenges in this action comports with Title IX and
its regulations, I would affirm the district court’s
dismissal of G.G.’s Title IX claim.
I
The relevant facts are not in dispute. G.G. is a 16
year-old who attends Gloucester High School in
Gloucester County, Virginia. He is biologically female,
but “did not feel like a girl” from an early age. Still, he
enrolled at Gloucester High School for his freshman
year as a female.
During his freshman year, however, G.G. told his
parents that he considered himself to be transgender,
and shortly thereafter, at his request, he began
therapy with a psychologist, who diagnosed him with
gender dysphoria, a condition of distress brought
about by the incongruence of one’s biological sex and
gender identity.
In August 2014, before beginning his sophomore
year, G.G. and his mother met with the principal and
guidance counselor at Gloucester High School to
discuss his need, as part of his treatment, to socially
transition at school. The school accommodated all of

209a
his requests. Officials changed school records to reflect
G.G.’s new male name; the guidance counselor
supported G.G.’s sending an email to teachers
explaining that he was to be addressed using his new
name and to be referred to using male pronouns; G.G.
was permitted to fulfill his physical education
requirement through a home-bound program, as he
preferred not to use the school’s locker rooms; and the
school allowed G.G. to use a restroom in the nurse’s
office “because [he] was unsure how other students
would react to [his] transition.” G.G. was grateful for
the school’s “welcoming environment.” As he stated,
“no teachers, administrators, or staff at Gloucester
High School expressed any resistance to calling [him]
by [his] legal name or referring to [him] using male
pronouns.” And he was “pleased to discover that [his]
teachers and the vast majority of [his] peers respected
the fact that [he is] a boy.”
As the school year began, however, G.G. found it
“stigmatizing” to continue using the nurse’s restroom,
and he requested to use the boys’ restrooms. The
principal also accommodated this request. But the
very next day, the School Board began receiving
“numerous complaints from parents and students
about [G.G.’s] use of the boys’ restrooms.” The School
Board thus faced a dilemma. It recognized G.G.’s
feelings, as he expressed them, that “[u]sing the girls’
restroom[s] [was] not possible” because of the “severe
psychological distress” it would inflict on him and
because female students had previously “reacted
negatively” to his presence in the girls’ restrooms. It
now also had to recognize that boys had similar
feelings caused by G.G.’s use of the boys’ restrooms,
although G.G. stated that he continued using the boys’

210a
restrooms for some seven weeks without personally
receiving complaints from fellow students.
The Gloucester County School Board considered
the problem and, after two public meetings, adopted a
compromise policy, as follows:
Whereas the GCPS recognizes that some
students question their gender identities, and
Whereas the GCPS encourages such students to
seek support, advice, and guidance from
parents, professionals and other trusted adults,
and
Whereas the GCPS seeks to provide a safe
learning environment for all students and to
protect the privacy of all students, therefore
It shall be the practice of the GCPS to provide
male and female restroom and locker room
facilities in its schools, and the use of said
facilities shall be limited to the corresponding
biological genders, and students with gender
identity issues shall be provided an alternative
appropriate private facility.
Gloucester High School promptly implemented the
policy and created three single-stall unisex restrooms
for use by all students, regardless of their biological
sex or gender identity.
In December 2014, G.G. sought an opinion letter
about his situation from the U.S. Department of
Education’s Office for Civil Rights, and on January 15,
2015, the Office responded, stating, as relevant here:
The Department’s Title IX regulations permit
schools to provide sex-segregated restrooms,

211a
locker rooms, shower facilities, housing,
athletic teams, and single-sex classes under
circumstances. When a school elects to separate
or treat students differently on the basis of sex
in those situations, a school generally must
treat transgender students consistent with
their gender identity. [The Office for Civil
Rights] also encourages schools to offer the use
of gender-neutral, individual-user facilities to
any student who does not want to use shared
sex-segregated facilities.
G.G. commenced this action in June 2015, alleging
that the Gloucester County School Board’s policy was
discriminatory, in violation of the U.S. Constitution’s
Equal Protection Clause and Title IX of the Education
Amendments of 1972, 20 U.S.C. § 1681 et seq. He
sought declaratory relief, injunctive relief, and
damages. With his complaint, G.G. also filed a motion
for a preliminary injunction “requiring the School
Board to allow [him] to use the boys’ restrooms at
school.”
The district court dismissed G.G.’s Title IX claim
because Title IX’s implementing regulations permit
schools to provide separate restrooms “on the basis of
sex.” The court also denied G.G.’s motion for a
preliminary injunction. As to the Equal Protection
claim, the court has not yet ruled on whether G.G.
failed to state a claim, but, at the hearing on the
motion for a preliminary injunction, it indicated that
it “will hear evidence” and “get a date set” for trial to
better assess the claim.
From the district court’s order denying G.G.’s
motion for a preliminary injunction, G.G. filed this

212a
appeal, in which he also challenges the district court’s
Title IX ruling as inextricably intertwined with the
district court’s denial of the motion for a preliminary
injunction.
II
G.G. recognizes that persons who are born
biologically female “typically” identify psychologically
as female, and likewise, that persons who are born
biologically male “typically” identify as male. Because
G.G. was born biologically female but identifies as
male, he characterizes himself as a transgender male.
He contends that because he is transgender, the
School Board singled him out for “different and
unequal treatment,” “discriminat[ing] against him
based on sex [by denying him use of the boys’
restrooms], in violation of Title IX.” He argues,
“discrimination against transgender people is
necessarily discrimination based on sex because it is
impossible to treat people differently based on their
transgender status without taking their sex into
account.” He concludes that the School Board’s policy
addressing restrooms and locker rooms thus illegally
fails to include transgender persons on the basis of
their gender identity. In particular, he concludes that
he is “prevent[ed] . . . from using the same restrooms
as other students and relegat[ed] . . . to separate,
single-stall facilities.”
As noted, the School Board’s policy designates the
use of restrooms and locker rooms based on the
student’s biological sex—biological females are
assigned to the girls’ restrooms and unisex restrooms;
biological males are assigned to the boys’ restrooms
and unisex restrooms. G.G. is thus assigned to the

213a
girls’ restrooms and the unisex restrooms, but is
denied the use of the boys’ restrooms. He asserts,
however, that because neither he nor the girls would
accept his use of the girls’ restroom, he is relegated to
the unisex restrooms, which is stigmatizing.
The School Board contends that it is treating all
students the same way, as it explains:
The School Board’s policy does not discriminate
against any class of students. Instead, the
policy was developed to treat all students and
situations the same. To respect the safety and
privacy of all students, the School Board has
had a long-standing practice of limiting the use
of restroom and locker room facilities to the
corresponding biological sex of the students.
The School Board also provides three singlestall bathrooms for any student to use
regardless of his or her biological sex. Under the
School Board’s restroom policy, G.G. is being
treated like every other student in the
Gloucester Schools. All students have two
choices. Every student can use a restroom
associated with their anatomical sex, whether
they are boys or girls. If students choose not to
use the restroom associated with their
anatomical sex, the students can use a private,
single-stall restroom. No student is permitted
to use the restroom of the opposite sex. As a
result, all students, including female to male
transgender and male to female transgender
students, are treated the same.
While G.G. has pending a claim under the Equal
Protection Clause (on which the district court has not

214a
yet ruled), only his preliminary injunction challenge
and Title IX claim are before us at this time.
Title IX provides:
No person in the United States shall, on the
basis of sex, be excluded from participation in,
be denied the benefits of, or be subjected to
discrimination under any education program or
activity
receiving
Federal
financial
assistance . . . .
20 U.S.C. § 1681(a) (emphasis added). The Act,
however, provides, “Notwithstanding anything to the
contrary contained in this chapter, nothing contained
herein shall be construed to prohibit any educational
institution receiving funds under this Act, from
maintaining separate living facilities for the different
sexes.” Id. § 1686 (emphasis added); see also 34 C.F.R.
§ 106.32(b) (permitting schools to provide “separate
housing on the basis of sex” as long as the housing is
“proportionate” and “comparable” (emphasis added)).
Similarly, implementing Regulation 106.33 provides
for particular separate facilities, as follows:
A recipient may provide separate toilet, locker
room, and shower facilities on the basis of sex,
but such facilities provided for students of one
sex shall be comparable to such facilities
provided for students of the other sex.
34 C.F.R. § 106.33 (emphasis added). Thus, although
Title IX and its regulations provide generally that a
school receiving federal funds may not discriminate on
the basis of sex, they also specify that a school does not
violate the Act by providing, on the basis of sex,

215a
separate living facilities, restrooms, locker rooms, and
shower facilities.
While G.G. only challenges the definition and
application of the term “sex” with respect to separate
restrooms, acceptance of his argument would
necessarily change the definition of “sex” for purposes
of assigning separate living facilities, locker rooms,
and shower facilities as well. All are based on “sex,” a
term that must be construed uniformly throughout
Title IX and its implementing regulations. See
Sullivan v. Stroop, 496 U.S. 478, 484 (1990) (“[T]he
normal rule of statutory construction [is] that
identical words used in different parts of the same act
are intended to have the same meaning” (internal
quotation marks and citations omitted)); In re Total
Realty Mgmt., LLC, 706 F.3d 245, 251 (4th Cir. 2013)
(“Canons of construction . . . require that, to the extent
possible, identical terms or phrases used in different
parts of the same statute be interpreted as having the
same meaning. This presumption of consistent
usage . . . ensure[s] that the statutory scheme is
coherent and consistent” (alterations in original)
(internal quotation marks and citations omitted)); see
also Kentuckians for Commonwealth Inc. v.
Riverburgh, 317 F.3d 425, 440 (4th Cir. 2003)
(“[B]ecause a regulation must be consistent with the
statute it implements, any interpretation of a
regulation naturally must accord with the statute as
well” (quoting John F. Manning, Constitutional
Structure and Judicial Deference to Agency
Interpretations of Agency Rules, 96 Colum. L. Rev. 612,
627 n.78 (1996))).

216a
Across societies and throughout history, it has
been commonplace and universally accepted to
separate public restrooms, locker rooms, and shower
facilities on the basis of biological sex in order to
address privacy and safety concerns arising from the
biological differences between males and females. An
individual has a legitimate and important interest in
bodily privacy such that his or her nude or partially
nude body, genitalia, and other private parts are not
exposed to persons of the opposite biological sex.
Indeed, courts have consistently recognized that the
need for such privacy is inherent in the nature and
dignity of humankind. See, e.g., Doe v. Luzerne Cnty.,
660 F.3d 169, 176–77 (3d Cir. 2011) (recognizing that
an individual has “a constitutionally protected privacy
interest in his or her partially clothed body” and that
this “reasonable expectation of privacy” exists
“particularly while in the presence of members of the
opposite sex”); Brannum v. Overton Cnty. Sch. Bd.,
516 F.3d 489, 494 (6th Cir. 2008) (explaining that “the
constitutional right to privacy . . . includes the right to
shield one’s body from exposure to viewing by the
opposite sex”); Beard v. Whitmore Lake Sch. Dist., 402
F.3d 598, 604 (6th Cir. 2005) (“Students of course have
a significant privacy interest in their unclothed
bodies”); Sepulveda v. Ramirez, 967 F.2d 1413, 1416
(9th Cir. 1992) (explaining that “[t]he right to bodily
privacy is fundamental” and that “common sense,
decency, and [state] regulations” require recognizing
it in a parolee’s right not to be observed by an officer
of the opposite sex while producing a urine sample);
Lee v. Downs, 641 F.2d 1117, 1119 (4th Cir. 1989)
(recognizing that, even though inmates in prison
“surrender many rights of privacy,” their “special

217a
sense of privacy in their genitals” should not be
violated through exposure unless “reasonably
necessary” and explaining that the “involuntary
exposure of [genitals] in the presence of people of the
other sex may be especially demeaning and
humiliating”).
Moreover, we have explained that separating
restrooms based on “acknowledged differences”
between the biological sexes serves to protect this
important privacy interest. See Faulkner v. Jones, 10
F.3d 226, 232 (4th Cir. 1993) (noting “society’s
undisputed approval of separate public rest rooms for
men and women based on privacy concerns”). Indeed,
the Supreme Court recognized, when ordering an allmale Virginia college to admit female students, that
such a remedy “would undoubtedly require alterations
necessary to afford members of each sex privacy from
the other sex.” United States v. Virginia, 518 U.S. 515,
550 n.19 (1996). Such privacy was and remains
necessary because of the inherent “[p]hysical
differences between men and women,” which, as the
Supreme Court explained, are “enduring” and render
“the two sexes . . . not fungible,” id. at 533
(distinguishing sex from race and national origin), not
because of “one’s sense of oneself as belonging to a
particular gender,” as G.G. and the government as
amicus contend.
Thus, Title IX’s allowance for the separation, based
on sex, of living facilities, restrooms, locker rooms, and
shower facilities rests on the universally accepted
concern for bodily privacy that is founded on the
biological differences between the sexes. This privacy
concern is also linked to safety concerns that could

218a
arise from sexual responses prompted by students’
exposure to the private body parts of students of the
other biological sex. Indeed, the School Board cited
these very reasons for its adoption of the policy,
explaining that it separates restrooms and locker
rooms to promote the privacy and safety of minor
children, pursuant to its “responsibility to its students
to ensure their privacy while engaging in personal
bathroom functions, disrobing, dressing, and
showering outside of the presence of members of the
opposite sex. [That the school has this responsibility]
is particularly true in an environment where children
are still developing, both emotionally and physically.”
The need to protect privacy and safety between the
sexes based on physical exposure would not be present
in the same quality and degree if the term “sex” were
to encompass only a person’s gender identity. Indeed,
separation on this basis would function nonsensically.
A biological male identifying as female could hardly
live in a girls’ dorm or shower in a girls’ shower
without invading physiological privacy needs, and the
same would hold true for a biological female
identifying as male in a boys’ dorm or shower. G.G.’s
answer, of course, is that he is not challenging the
separation, on the basis of sex, of living facilities,
locker rooms, and shower facilities, but only of
restrooms, where the risks to privacy and safety are
far reduced. This effort to limit the scope of the issue
apparently sways the majority, as it cabins its entire
discussion to “restroom access by transgender
individuals.” Ante at 26. But this effort to restrict the
effect of G.G.’s argument hardly matters when the
term “sex” would have to be applied uniformly
throughout the statute and regulations, as noted

219a
above and, indeed, as agreed to by the majority. See
ante at 26.
The realities underpinning Title IX’s recognition of
separate living facilities, restrooms, locker rooms, and
shower facilities are reflected in the plain language of
the statute and regulations, which is not ambiguous.
The text of Title IX and its regulations allowing for
separation of each facility “on the basis of sex” employs
the term “sex” as was generally understood at the time
of enactment. See Thomas Jefferson Univ. v. Shalala,
512 U.S. 504, 512 (1994) (explaining that courts
should not defer to an agency’s interpretation of its
own regulation if an “alternative reading is compelled
by the regulation’s plain language or by other
indications of the Secretary’s intent at the time of the
regulation’s promulgation” (emphasis added) (internal
quotation marks and citation omitted)); see also Auer
v. Robbins, 519 U.S. 452, 461 (1997) (discussing
dictionary definitions of the regulation’s “critical
phrase” to help determine whether the agency’s
interpretation was “plainly erroneous or inconsistent
with the regulation” (internal quotation marks and
citation omitted)). Title IX was enacted in 1972 and
the regulations were promulgated in 1975 and
readopted in 1980, and during that time period,
virtually every dictionary definition of “sex” referred
to the physiological distinctions between males and
females, particularly with respect to their
reproductive functions. See, e.g., The Random House
College Dictionary 1206 (rev. ed. 1980) (“either the
male or female division of a species, esp. as
differentiated with reference to the reproductive
functions”); Webster’s New Collegiate Dictionary 1054
(1979) (“the sum of the structural, functional, and

220a
behavioral characteristics of living beings that
subserve reproduction by two interacting parents and
that distinguish males and females”); American
Heritage Dictionary 1187 (1976) (“The property or
quality by which organisms are classified according to
their reproductive functions”); Webster’s Third New
International Dictionary 2081 (1971) (“the sum of the
morphological,
physiological,
and
behavioral
peculiarities of living beings that subserves biparental
reproduction with its concomitant genetic segregation
and recombination which underlie most evolutionary
change . . .”); The American College Dictionary 1109
(1970) (“the sum of the anatomical and physiological
differences with reference to which the male and the
female are distinguished . . .”). Indeed, although the
contemporaneous meaning controls our analysis, it is
notable that, even today, the term “sex” continues to
be defined based on the physiological distinctions
between males and females. See, e.g., Webster’s New
World College Dictionary 1331 (5th ed. 2014) (“either
of the two divisions, male or female, into which
persons, animals, or plants are divided, with reference
to their reproductive functions”); The American
Heritage Dictionary 1605 (5th ed. 2011) (“Either of the
two divisions, designated female and male, by which
most organisms are classified on the basis of their
reproductive organs and functions”); MerriamWebster’s Collegiate Dictionary 1140 (11th ed. 2011)
(“either of the two major forms of individuals that
occur in many species and that are distinguished
respectively as female or male esp. on the basis of their
reproductive organs and structures”). Any new
definition of sex that excludes reference to
physiological differences, as the majority now

221a
attempts to introduce, is simply an unsupported reach
to rationalize a desired outcome.
Thus, when the School Board assigned restrooms
and locker rooms on the basis of biological sex, it was
clearly complying precisely with the unambiguous
language of Title IX and its regulations.
Despite the fact that the majority offers no case to
support the definition of “sex” as advanced by G.G. and
supported by the government as amicus, the majority
nonetheless accepts that the meaning of the term “sex”
in Title IX and its regulations refers to a person’s
“gender identity” simply to accommodate G.G.’s wish
to use the boys’ restrooms. But, it is not immediately
apparent whether G.G., the government, and the
majority contend that the term “sex” as used in Title
IX and its regulations refers (1) to both biological sex
and gender identity; (2) to either biological sex or
gender identity; or (3) to only “gender identity.” In his
brief, G.G. seems to take the position that the term
“sex” at least includes a reference to gender identity.
This is the position taken in his complaint when he
alleges, “Under Title IX, discrimination ‘on the basis
of sex’ encompasses both discrimination based on
biological differences between men and women and
discrimination based on gender nonconformity.” The
government seems to be taking the same position,
contending that the term “sex” “encompasses both
sex—that is, the biological differences between men
and women—and gender [identity].” (Emphasis in
original). The majority, however, seems to suggest
that the term “sex” refers only to gender identity, as it
relies solely on the statement in the Office for Civil
Rights’ letter of January 7, 2015, which said, “When a

222a
school elects to separate or treat students differently
on the basis of sex [for the purpose of providing
restrooms, locker rooms, and other facilities], a school
generally must treat transgender students consistent
with their gender identity.” (Emphasis added). But,
regardless of where G.G., the government, and the
majority purport to stand on this question, the clear
effect of their new definition of sex not only tramples
the relevant statutory and regulatory language and
disregards the privacy concerns animating that text,
it is also illogical and unworkable.
If the term “sex” as used in the statute and
regulations refers to both biological sex and gender
identity, then, while the School Board’s policy is in
compliance with respect to most students, whose
biological sex aligns with their gender identity, for
students whose biological sex and gender identity do
not align, no restroom or locker room separation could
ever be accomplished consistent with the regulation
because a transgender student’s use of a boys’ or girls’
restroom or locker room could not satisfy the
conjunctive criteria. Given that G.G. and the
government do not challenge schools’ ability to
separate restrooms and locker rooms for male and
female students, surely they cannot be advocating an
interpretation that places schools in an impossible
position. Moreover, such an interpretation would deny
G.G. the right to use either the boys’ or girls’
restrooms, a position that G.G. does not advocate.
If the position of G.G., the government, and the
majority is that the term “sex” means either biological
sex or gender identity, then the School Board’s policy
is in compliance because it segregates the facilities on

223a
the basis of biological sex, a satisfactory component of
the disjunctive.
Therefore, when asserting that G.G. must be
allowed to use the boys’ restrooms and locker rooms as
consistent with his gender identity, G.G., the
government, and the majority must be arguing that
“sex” as used in Title IX and its regulations means
only gender identity. But this construction would, in
the end, mean that a school could never meaningfully
provide separate restrooms and locker rooms on the
basis of sex. Biological males and females whose
gender identity aligned would be required to use the
same restrooms and locker rooms as persons of the
opposite biological sex whose gender identity did not
align. With such mixed use of separate facilities, no
purpose would be gained by designating a separate use
“on the basis of sex,” and privacy concerns would be
left unaddressed.
Moreover, enforcement of any separation would be
virtually impossible. Basing restroom access on
gender identity would require schools to assume
gender identity based on appearances, social
expectations, or explicit declarations of identity, which
the government concedes would render Title IX and its
regulations nonsensical:
Certainly a school that has created separate
restrooms for boys and girls could not decide
that only students who dress, speak, and act
sufficiently masculine count as boys entitled to
use the boys’ restroom, or that only students
who wear dresses, have long hair, and act
sufficiently feminine may use the girls’
restroom.

224a
Yet, by interpreting Title IX and the regulations as
“requiring schools to treat students consistent with
their gender identity,” and by disallowing schools from
treating students based on their biological sex, the
government’s position would have precisely the effect
the government finds to be at odds with common
sense.
Finally, in arguing that he should not be assigned
to the girls’ restrooms, G.G. states that “it makes no
sense to place a transgender boy in the girls’ restroom
in the name of protecting student privacy” because
“girls objected to his presence in the girls’ restrooms
because they perceived him as male.” But the same
argument applies to his use of the boys’ restrooms,
where boys felt uncomfortable because they perceived
him as female. In any scenario based on gender
identity, moreover, there would be no accommodation
for the recognized need for physiological privacy.
In short, it is impossible to determine how G.G., the
government, and the majority would apply the
provisions of Title IX and the implementing
regulations that allow for the separation of living
facilities, restrooms, locker rooms, and shower
facilities “on the basis of sex” if “sex” means gender
identity.
The Office for Civil Rights letter, on which the
majority exclusively relies, hardly provides an answer.
In one sentence it states that schools “generally must
treat transgender students consistent with their
gender identity,” whatever that means, and in the
next sentence, it encourages schools to provide
“gender-neutral, individual-user facilities to any
student who does not want to use shared sex-

225a
segregated facilities.” While the first sentence might
be impossible to enforce without destroying all
privacy-serving separation, the second sentence
encourages schools, such as Gloucester High School, to
provide unisex single-stall restrooms for any students
who are uncomfortable with sex-separated facilities,
as the school in fact provided.
As it stands, Title IX and its implementing
regulations authorize schools to separate, on the basis
of sex, living facilities, restrooms, locker rooms, and
shower facilities, which must allow for separation on
the basis of biological sex. Gloucester High School thus
clearly complied with the statute and regulations. But,
as it did so, it was nonetheless sensitive to G.G.’s
gender transition, accommodating virtually every
wish that he had. Indeed, he initially requested and
was granted the use of the nurse’s restroom. And, after
both girls and boys objected to his using the girls’ and
boys’ restrooms, the school provided individual unisex
restrooms, as encouraged by the letter from the Office
for Civil Rights. Thus, while Gloucester High School
made a good-faith effort to accommodate G.G. and
help him in his transition, balancing its concern for
him with its responsibilities to all students, it still
acted legally in maintaining a policy that provided all
students with physiological privacy and safety in
restrooms and locker rooms.
Because the Gloucester County School Board did
not violate Title IX and Regulation 106.33 in adopting
the policy for separate restrooms and locker rooms, I
would affirm the district court’s decision dismissing
G.G.’s Title IX claim and therefore dissent.

226a
I also dissent from the majority’s decision to vacate
the district court’s denial of G.G.’s motion for a
preliminary injunction. As the Supreme Court has
consistently explained, “[a] preliminary injunction is
an extraordinary remedy” that “may only be awarded
upon a clear showing that the plaintiff is entitled to
such relief,” and “‘[i]n exercising their sound
discretion, courts of equity should pay particular
regard for the public consequences in employing the
extraordinary remedy.’” Winter v. Nat. Res. Def.
Council, Inc., 555 U.S. 7, 22–24 (2008) (quoting
Weinberger v. Romero-Barcelo, 456 U.S. 305, 312
(1982)). Given the facts that the district court fully and
fairly summarized in its opinion, including the
hardships expressed both by G.G. and by other
students, I cannot conclude that we can “form a
definite and firm conviction that the court below
committed a clear error of judgment,” Morris v.
Wachovia Sec., Inc., 448 F.3d 268, 277 (4th Cir. 2006)
(quotation marks and citation omitted), particularly
when we are only now expressing as binding law an
evidentiary standard that the majority asserts the
district court violated.
As noted, however, I concur in Part IV of the court’s
opinion.

227a
IN THE UNITED STATES DISTRICT COURT
FOR THE EASTERN DISTRICT OF VIRGINIA
NEWPORT NEWS DIVISION
FILED
September 17, 2015
Clerk, US District Court
Norfolk, VA
G.G., by his next friend and mother,
DEIRDRE GRIMM,
Plaintiff
v.

CIVIL NO. 4:15cv54

GLOUCESTER COUNTY SCHOOL BOARD,
Defendant.
MEMORANDUM OPINION
This matter is before the Court on Plaintiff G.G.’s
challenge to a recent resolution (the “Resolution”)
passed by the Gloucester County School Board (the
“School Board) on December 9, 2014. This Resolution
addresses the restroom and locker room policy for all
students in Gloucester County Public Schools.
Specifically, G.G. brings claims under both the Equal
Protection Clause of the Fourteenth Amendment (the
“Equal Protection Clause”) and Title IX of the
Education Amendments of 1972 (“Title IX”), seeking
to contest the School Board’s restroom policy under
the Resolution.

228a
On June 11, 2015, G.G. filed a Motion for
Preliminary Injunction, ECF No. 11, and on July 7,
2015, the School Board filed a Motion to Dismiss, ECF
No. 31. On July 27, 2015, the parties appeared before
the Court and argued their respective positions as to
both motions. ECF No. 47. At that hearing, the Court
took both motions under advisement. From the bench,
the Court GRANTED the Motion to Dismiss as to
Count II, G.G.’s claim under Title IX. On September
4, 2015, the Court DENIED the Motion for
Preliminary Injunction. ECF No. 53. This opinion
memorializes the reasons for these orders.
I.

FACTUAL AND PROCEDURAL HISTORY

The following summary is taken from the factual
allegations contained in Plaintiff’s Complaint, which,
for purposes of ruling on the Motion to Dismiss as to
Count II, the Court accepts as true. Nemet Chevrolet,
Ltd. v. Consumeraffairs.com. Inc., 591 F.3d 250. 253
(4th Cir. 2009).
This case arises from a student’s challenge to a
recent restroom policy passed by the School Board.
Plaintiff G.G. was born in Gloucester County on
[redacted], 1999 and designated female.1 Compl.
¶¶ 12, 14. However, at a very young age, G.G. did not
feel like a girl. Id. at 16. Before age six, Plaintiff
“refused to wear girl clothes.” Id. ¶ 17. Starting at
approximately age twelve, “G.G acknowledged his

For the sake of brevity occasionally in this opinion the term
“birth sex” may be used to describe the sex assigned to
individuals at their birth. “Natal female” will be used to describe
the gender assigned to G.G. at birth.
1

229a
male gender identity to himself.”2 Id. ¶ 18. In 2013–
14, during G.G.’s freshman year of high school, most
of his friends were aware that he identified as male.
Id. ¶¶ 18–19. Furthermore, away from home and
school, G.G. presented himself as a male. Id. ¶ 19.
During G.G.’s freshman year of high school, which
began in September 2013, he experienced severe
depression and anxiety related to the stress of
concealing his gender identity from his family. Id.
¶ 20. This is the reason he alleges that he did not
attend school during the spring semester of his
freshman year, from January 2014 to June 2014, and
instead took classes through a home-bound program.
Id. In April 2014, G.G. first informed his parents that
he is transgender, that is, he believed that he was a
man.3 Id. ¶ 21. Sometime after informing his parents
that he is transgender in April 2014, G.G., at his own
request, began to see a psychologist, who subsequently

2 The American Psychiatric Association (“APA”) defines
“gender identity” as “an individual’s identification as male,
female, or, occasionally, some category other than male or
female.” American Psychiatric Association, Diagnostic and
Statistical Manual of Mental Disorders 451 (5th ed. 2013)
(“DSM”). The DSM is “a classification of mental disorders with
associated criteria designed to facilitate more reliable diagnoses
of these disorders.” Id. at xli. Although the DSM was included in
G.G.’s briefs, it was not alleged in the Complaint and will
consequently not be considered for the purpose of the Motion to
Dismiss. However, the Court finds it instructive for definitional
purposes.

The APA defines “transgender” as “the broad spectrum of
individuals who transiently or persistently identify with a gender
different from their natal gender.” Id.
3

230a
diagnosed him with Gender Dysphoria.4 Id. ¶ 21. As
part of G.G.’s treatment, his psychologist
recommended that G.G. begin living in accordance
with his male gender identity in all respects. Id. ¶ 23.
The psychologist provided G.G. with a “Treatment
Documentation Letter” that confirmed that “he was
receiving treatment for Gender Dysphoria and that, as
part of that treatment, he should be treated as a boy
in all respects, including with respect to his use of the
restroom.” Id. The psychologist also recommended
that G.G. “see an endocrinologist and begin hormone
treatment.” Id. ¶ 26.
Subsequently, G.G. sought to implement his
psychologist’s recommendation. Id. ¶ 25. In July 2014,
G.G. petitioned the Circuit Court of Gloucester County
to change his legal name to his present masculine
name and, the court granted his petition. Id. At his
own request, G.G.’s new name is used for all purposes,
and his friends and family refer to him using male
pronouns. Id. Additionally, when out in public, G.G.
uses the boys’ restroom. Id.
G.G. also sought to implement his lifestyle
transition at school. In August 2014, G.G. and his
mother notified officials at Gloucester High School
that G.G. is transgender and that he had changed his
name. Id. ¶ 27. Consequently, officials changed school
records to reflect G.G.’s new masculine name. Id.
Furthermore, before the beginning of the 2014–15
school year, G.G. and his mother met with the school
The APA defines “gender dysphoria” as “the distress that
may accompany the incongruence between one’s experienced and
expressed gender and one’s assigned gender.” Id.
4

231a
principal and guidance counselor to discuss his social
transition. Id. ¶ 28. The school representatives
allowed G.G. to email teachers and inform them that
he preferred to be addressed using his new name and
male pronouns. Id. Being unsure how students would
react to his transition, G.G. initially agreed to use a
separate bathroom in the nurse’s office. Id. ¶ 30. G.G.
was also permitted to continue his physical education
requirement through his home school program. Id.
¶ 29. Consequently, G.G. “has not and does not intend
to use a locker room at school.” Id.
However, after 2014–15 school year began, G.G.
found it stigmatizing to use a separate restroom. Id.
¶ 31. G.G. requested to use the male restroom. Id. On
or around October 20, 2014, the school principal
agreed to G.G.’s request. Id. ¶ 32. For the next seven
weeks, G.G. used the boys’ restroom. Id.
Some members of the community disapproved of
G.G.’s use of the men’s bathroom when they learned of
it. Id. ¶ 33. Some of these individuals contacted
members of the School Board and asked that G.G. be
prohibited from using the men’s restroom. Id. Shortly
before the School Board’s meeting on November 11,
2014, one of its members added an item to the agenda,
titled “Discussion of Use of Restrooms/Locker Room
Facilities,” along with a proposed resolution. Id. ¶ 34.
This proposed resolution stated as follows:
Whereas the [Gloucester County Public
Schools] recognizes that some students
question their gender identities, and
Whereas the [Gloucester County Public
Schools] encourages such students to seek

232a
support, advice, and guidance from parents,
professionals and other trusted adults, and
Whereas the [Gloucester County Public
Schools] seeks to provide a safe learning
environment for all students and to protect the
privacy of all students, therefore
It shall be the practice of the [Gloucester
County Public Schools] to provide male and
female restroom and locker room facilities in its
schools, and the use of said facilities shall be
limited to the corresponding biological genders,
and students with gender identity issues shall
be provided an alternative appropriate private
facility.
Id. ¶ 34. At the meeting, a majority of the twentyseven people who spoke were in favor of the proposal.
Id. ¶ 37. Some proponents argued that transgender
students’ use of the restrooms would violate the
privacy of other students and might “lead to sexual
assault in the bathrooms.” Id. It was suggested that a
non-transgender boy could come to the school in a
dress and demand to use the girls’ restroom. Id. G.G.
addressed the group and spoke against the proposed
resolution and thus identified himself to the entire
community. Id. ¶ 38. At the end of the meeting, the
School Board voted 4-3 to defer a vote on the policy
until its meeting on December 9, 2014. Id. ¶ 39.
On December 3, 2014, the School Board issued a
news release stating that regardless of the outcome, it
intended to take measures to increase privacy for all
students using school restrooms, including “expanding
partitions between urinals in male restrooms”;

233a
“adding privacy strips to the doors of stalls in all
restrooms”; and “designat[ing] single-stall, unisex
restrooms, similar to what’s in many other public
spaces.” Id. ¶ 41. On December 9, 2014, the School
Board held a meeting to vote on the proposed
resolution. Id. Before the vote was conducted, a
Citizens’ Comments Period was held to allow a
discussion on the proposed resolution. Id. Again, a
majority of the speakers supported the resolution. Id.
¶ 42. Speakers again raised concerns about the
privacy of other students. Id. After thirty-seven people
spoke during the Citizens’ Comment Period, the
School Board voted 6-1 to pass the Resolution. Id. ¶ 43.
On December 10, 2015, the day after the School
Board passed the Resolution, the school principal
informed G.G. that he could no longer use the boys’
restroom and would be disciplined if he did. Id. ¶ 45.
Since the adoption of the restroom policy, certain
physical improvements have been made to the school
restrooms at Gloucester High School. The school has
installed three unisex single-stall restrooms. Id. ¶ 47.
The school has also raised the doors and walls around
the bathroom stalls so that students cannot see into
an adjoining stall. Id. Additionally, partitions were
installed between the urinals in the boys’ restrooms.
Id.
Sometime after the actions of the School Board,
G.G. began receiving hormone treatment in December
2014. Id. ¶ 26. These treatments have deepened his
voice, increased the growth of his facial hair, and given
him a more masculine appearance. Id.

234a
It is alleged that “[u]sing the girls’ restroom is not
possible for G.G.” Id. ¶ 46. G.G. alleges that prior to
his treatment for Gender Dysphoria, girls and women
who encountered G.G. in female restrooms would
react negatively because of his masculine appearance;
that in eighth and ninth grade, the period from
September 2012 to June 2014, girls at school would
ask him to leave the female restroom; and that use of
the girls’ restroom would also cause G.G. “severe
psychological stress” and would be “incompatible with
his medically necessary treatment for Gender
Dysphoria.” Id.
G.G. further alleges that he refuses to use the
separate single-stall restrooms installed by the school
because the use of them would stigmatize and isolate
him; that the use of these restrooms would serve as a
reminder that the school views him as “different”; and
that the school community knows that the restrooms
were installed for him. Id.
From these alleged facts, on June 11, 2015, G.G.
brought the present challenge to the School Board’s
restroom policy under the Equal Protection Clause
and Title IX. ECF No. 8. On that same day, G.G. filed
the instant Motion for Preliminary Injunction,
requesting that the Court issue an injunction allowing
G.G. to use the boys’ bathroom at Gloucester High
School until this case is decided at trial. ECF No. 11.
On June 29, 2015, the United States (“the
Government”), through the Department of Justice,
filed a Statement of Interest, asserting that the School
Board’s bathroom policy violated Title IX. ECF No. 28.
The School Board filed an Opposition to the Motion for
Preliminary Injunction on July 7, 2015, ECF No. 30,

235a
along with a Motion to Dismiss, ECF No. 31. On July
27, 2015, the parties appeared before the Court and
argued their respective positions as to both motions.
ECF No. 47. At that hearing, the Court took both
motions under advisement. From the bench, the Court
granted the Motion to Dismiss as to Count II, G.G.’s
claim under Title IX. On September 4, 2015, the Court
denied the Motion for Preliminary Injunction. ECF
No. 53. This opinion memorializes the reasons for
these orders.
II. MOTION TO DISMISS
A. STANDARD OF REVIEW
The function of a motion to dismiss under Rule
12(b)(6) is to test “the sufficiency of a complaint.”
Occupy Columbia v. Haley, 738 F.3d 107, 116 (4th Cir.
2013). “[I]mportantly, it does not resolve contests
surrounding the facts, the merits of a claim, or the
applicability of defenses.” Republican Party of N.C. v.
Martin, 980 F.2d 943, 952 (4th Cir. 1992). “To survive
such a motion, the complaint must allege facts
sufficient ‘to raise a right to relief above the
speculative level’ and ‘state a claim to relief that is
plausible on its face.’” Haley, 738 F.3d at 116. When
reviewing the legal sufficiency of a complaint, the
Court must accept “all well-pleaded allegations in the
plaintiffs complaint as true” and draw “all reasonable
factual inferences from those facts in the plaintiffs
favor.” Edwards v. City of Goldsboro, 178 F.3d 231,
244 (4th Cir. 1999). Legal conclusions, on the other
hand, are not entitled to the assumption of truth if
they are not supported by factual allegations. Ashcroft
v. Iqbal, 556 U.S. 662, 678 (2009). However, a motion
to dismiss should be granted only in “very limited

236a
circumstances.” Rogers v. Jefferson-Pilot Life Ins. Co.,
883 F.2d 324, 325 (4th Cir. 1989).
B. COUNT II - TITLE IX
G.G. also alleges that the School Board’s bathroom
policy violates Title IX. Under Title IX, “[n]o person in
the United States shall, on the basis of sex, be
excluded from participation in, be denied the benefits
of, or be subjected to discrimination under any
education program . . . .” 20 U.S.C. § 1681(a). “Under
Title IX, a prima facie case is established by a plaintiff
showing (1) that [he or] she was excluded from
participation in (or denied the benefits of, or subjected
to discrimination in) an educational program; (2) that
the program receives federal assistance; and (3) that
the exclusion was on the basis of sex.” Manolov v.
Borough of Manhattan Comm. Coll., 952 F. Supp. 2d
522, 532 (S.D.N.Y. 2013) (quoting Murray v. N.Y.
Univ. Coll. of Dentistry, No. 93 Civ. 8771, 1994 WL
533411, at *5 (S.D.N.Y. Sept. 29, 1994)); Bougher v.
Univ. of Pittsburgh, 713 F. Supp. 139, 143–44 (W.D.
Pa. 1989), aff’d, 882 F.2d 74 (3d Cir. 1989)).
The
School
Board
Resolution
expressly
differentiates between students who have a gender
identity congruent with their birth sex and those who
do not. Compl. ¶ 34. G.G. alleges that this exclusion
from the boys’ bathroom based on his gender identity
constitutes sex discrimination under Title IX. Compl.
¶¶ 64, 65.
1. Arguments
The parties contest whether discrimination based
on gender identity is barred under Title IX. To support
their respective contentions, both parties cite to cases

237a
interpreting Title VII, upon which courts have
routinely relied in determining the breadth of Title IX.
See Jennings v. Univ. of N.C., 482 F.3d 686, 695 (4th
Cir. 2007) (“We look to case law interpreting Title VII
of the Civil Rights Act of 1964 for guidance in
evaluating a claim brought under Title IX.”).
The School Board argues that sex discrimination
does not include discrimination based on gender
identity. For support, the School Board cites Johnston
v. University of Pittsburgh of Commonwealth System
of Higher Education, --- F. Supp. 3d ----, 2015 WL
1497753 (W.D. Pa. Mar. 31, 2015). In Johnston, the
Western District of Pennsylvania found that a policy
separating the bathrooms by birth sex at the
University of Pittsburgh did not violate Title IX
because sex discrimination does not include
discrimination against transgender individuals. 2015
WL 1497753, at *12–19. The School Board asserts that
Johnston establishes that Title IX does not
incorporate discrimination based on gender or
transgender status.
In
response,
G.G.
maintains
that
sex
discrimination includes discrimination based on
gender. G.G. cites to a number of Title VII cases in
which courts have found sex discrimination to include
gender discrimination. See, e.g., Glenn v. Brumby, 663
F.3d 1312, 1317 (11th Cir. 2011); Smith v. City of
Salem, 378 F.3d 566, 574–75 (6th Cir. 2004); Finkle v.
Howard Cnty., Md., 12 F. Supp. 3d 780, 788 (D. Md.
2014); Lopez v. River Oaks Imaging & Diagnostic Grp.,
Inc., 542 F. Supp. 2d 653, 660 (S.D. Tex. 2008); see also
Schwenk v. Hartford, 204 F.3d 1187, 1201 (9th Cir.
2000) (“‘[S]ex’ under Title VII encompasses both sex—

238a
that is, the biological differences between men and
women—and gender.”).
In addition, G.G. contends that the cases Johnston
cited to support its proposition, Ulane v. E. Airlines,
Inc., 742 F.2d 1081 (7th Cir. 1984), and, Sommers v.
Budget Mktg., Inc., 667 F.2d 748 (8th Cir. 1982), cert.
denied, 471 U.S. 1017 (1985),5 are no longer good law.
In both Ulane and Sommers, the courts refused to
extend sex discrimination to include discrimination
against transgender individuals or those with
nonconforming gender types. However, G.G. asserts
that Price Waterhouse v. Hopkins, 490 U.S. 228 (1989),
overruled these cases. In Price Waterhouse, the
Supreme Court considered a Title VII claim based on
allegations that an employee at Price Waterhouse was
denied partnership because she was considered
“macho” and “overcompensated for being a woman.”
490 U.S. at 235. She had been advised to “walk more
femininely, talk more femininely, dress more
femininely, wear make-up, have her hair styled, and
wear jewelry.” Id. The Court found that such
comments were indicative of gender stereotyping,
which Title VII prohibited as sex discrimination. The
Court explained that

The more recent case Johnston cites is a Tenth Circuit case,
in which the court avoided deciding the issue. Etsitty v. Utah
Transit Auth., 502 F.3d 1215, 1224 (10th Cir. 2007) (“This court
need not decide whether discrimination based on an employee’s
failure to conform to sex stereotypes always constitutes
discrimination ‘because of sex’ and we need not decide whether
such a claim may extend Title VII protection to transsexuals who
act and appear as a member of the opposite sex.”).
5

239a
we are beyond the day when an employer could
evaluate employees by assuming or insisting
that they matched the stereotype associated
with their group, for ‘[i]n forbidding employers
to discriminate against individuals because of
their sex, Congress intended to strike at the
entire spectrum of disparate treatment of men
and women resulting from sex stereotypes.’
Id. at 251 (quoting L.A. Dept. of Water & Power v.
Manhart, 435 U.S. 702, 707 n.13 (1978)). Accordingly,
the Court found that “an employer who acts on the
basis of a belief that a woman cannot be aggressive, or
that she must not be” has acted on the basis of sex. Id.
at 251.
Other courts have found that Price Waterhouse
overruled the cases cited in Johnston. “[S]ince the
decision in Price Waterhouse, federal courts have
recognized with near-total uniformity that ‘the
approach in . . . Sommers, and Ulane . . . has been
eviscerated’ by Price Waterhouse’s holding.” Glenn,
663 F.3d at 1318 n.5 (quoting City of Salem, 378 F.3d
at 573)); see also Schwenk, 204 F.3d at 1201 (“The
initial judicial approach taken in cases such as
Hollowav has been overruled by the logic and
language of Price Waterhouse.”); Lopez, 542
F. Supp. 2d at 660. Based on Price Waterhouse and its
progeny, G.G. claims that discrimination against
transgender individuals or other nonconforming
gender types is now prohibited as a form of sex
discrimination. Accordingly, G.G. asserts that the
Resolution’s differentiation between students who
have a gender identity congruent with their birth sex,

240a
and those who do not, amounts to sex discrimination
under Title IX.
2. Analysis
Although the primary contention between the
parties is whether gender discrimination fits within
the definition of sex discrimination under Title IX,
G.G.’s claim does not rest on this distinction. Rather,
the Court concludes that G.G.’s Title IX claim is
precluded by Department of Education regulations. As
noted above, Title IX provides that “[n]o person in the
United States shall, on the basis of sex, be excluded
from participation in, be denied the benefits of, or be
subjected to discrimination under any education
program or activity receiving Federal financial
assistance . . . .” 20 U.S.C. § 1681. However, this
prohibition on sex-based decision making is not
without exceptions. Among the exceptions listed in
Title IX is a provision stating that “nothing contained
herein shall be construed to prohibit any educational
institution receiving funds under this Act, from
maintaining separate living facilities for the different
sexes.” 20 U.S.C. § 1686. Although the statute does not
expressly state that educational institutions may
maintain separate bathrooms for the different sexes,
Department of Education regulations stipulate:
A recipient may provide separate toilet, locker
room, and shower facilities on the basis of sex,
but such facilities provided for students of one
sex shall be comparable to such facilities
provided for students of the other sex.
34 C.F.R. § 106.33. This regulation (hereinafter,
“Section 106.33”) expressly allows schools to provide

241a
separate bathroom facilities based upon sex, so long as
the bathrooms are comparable. When Congress
delegates authority to any agency to “elucidate a
specific provision of the statute by regulation, any
ensuing regulation is binding on the courts unless
procedurally defective, arbitrary or capricious in
substance, or manifestly contrary to the statute.”
United States v. Mead Corp., 533 U.S. 218, 227 (2001).
The Department of Education’s regulation is not
“arbitrary, capricious, or manifestly contrary to the
statute.”6 Rather, Section 106.33 seems to effectuate
Title IX’s provision allowing separate living facilities
based on sex.7 Therefore, Section 106.33 is given
controlling weight.
In light of Section 106.33, G.G. fails to state a valid
claim under Title IX. G.G. alleges that the School
Board violated Title IX by preventing him from using
the boys’ restrooms despite the fact that his gender
identity is male. Compl. ¶¶ 64, 65. According to G.G.,
the School Board’s determination was based on the
belief that Plaintiff is biologically female, not
6 It is significant that neither party raised, nor even hinted
at raising, a challenge to the validity of Section 106.33 under
Title IX.

The term “living facilities” in 20 U.S.C. § 1686 is ambiguous,
and legislative history of Title IX does not provide clear guidance
as to its meaning. This term could be narrowly interpreted to
mean living quarters, such as dormitories, or it could be broadly
interpreted to include other facilities, such as bathrooms. See
Implementing Title IX: The New Regulations, 124 U. Pa. L. Rev.
806, 811 (1976). Because the Department of Education’s inclusion
of bathrooms within “living facilities” is reasonable, the Court
defers to its interpretation. See Chevron, U.S.A., Inc. v. Nat. Res.
Def. Council, Inc., 467 U.S. 837, 842–44 (1984).
7

242a
biologically male.8 Id. ¶ 65. However, Section 106.33
specifically allows schools to maintain separate
bathrooms based on sex as long as the bathrooms for
each sex are comparable. Therefore, the School Board
did not run afoul of Title IX by limiting G.G. to the
bathrooms assigned to his birth sex.
In fact, the only way to square G.G.’s allegations
with Section 106.33 is to interpret the use of the term
“sex” in Section 106.33 to mean only “gender identity.”
Under this interpretation, Section 106.33 would
permit the use of separate bathrooms on the basis of
gender identity and not on the basis of birth or
biological sex. However, under any fair reading, “sex”
in Section 106.33 clearly includes biological sex.
Because the School Board’s policy of providing
separate bathrooms on the basis of biological sex is
permissible under the regulation, the Court need not
decide whether “sex” in the Section 106.33 also
includes “gender identity.”
Instead, the Court need only decide whether the
School Board’s bathroom policy satisfies Section
106.33. Section 106.33 states that sex-segregated
bathrooms are permissible unless such facilities are
The Court is sensitive to the fact the G.G. disapproves of the
School Board’s term “biological gender.” See Compl. ¶ 66 (placing
biological in dismissive quotation marks). G.G. may also take
issue with the Court’s phrase biological sex. The Court is guided
in its usage by the APA “Definition of Terms: Sex, Gender,
Gender Identity, Sexual Orientation” from 2011, which the
School Board submitted with its Brief in Opposition to Motion for
Preliminary Injunction. Ex. 3, ECF No. 30. The APA defines “sex”
as “a person’s biological status,” and identifies “a number of
indicators of biological sex.” Id.
8

243a
not comparable. G.G. fails to allege that the bathrooms
to which he is allowed access by the School Board—the
girls’ restrooms and the single-stall restrooms—are
incomparable to those provided for individuals who
are biologically male. In fact, none of the allegations
in the Complaint even mention or imply that the
facilities in the bathrooms are not comparable.
Consequently, G.G. fails to state a claim under Title
IX.
Nonetheless, despite Section 106.33, the
Government urges the Court to defer to the
Department of Education’s interpretation of Title IX,
which maintains that a policy that segregates
bathrooms based on biological sex and without regard
for students’ gender identities violates Title IX. In
support of its position, the Government attaches a
letter (the “Letter”), dated January 7, 2015, issued by
the Department of Education, through the Office for
Civil Rights, apparently clarifying its stance on the
treatment of transgender students with regard to sexsegregated restrooms. Statement of Interest 9, ECF
No. 28; id. Ex. B, at 2, ECF No. 28-2. In the Letter, the
Acting Deputy Assistant Secretary for Policy for the
Department of Education’s Office of Civil Rights,
writes:
The Department’s Title IX regulations permit
schools to provide sex-segregated restrooms,
locker rooms, shower facilities, housing,
athletic teams, and single-sex classes under
certain circumstances. When a school elects to
separate or treat students differently on the
basis of sex in those situations, a school must

244a
treat transgender students consistent with
their gender identity.
Id. at 9–10, Ex. B, at 2. The Letter cites a Department
of Education significant guidance document (the
“Guidance Document”) published in 2014 in support of
this interpretation. According to the Guidance
Document:
Under Title IX, a recipient must generally treat
transgender students consistent with their
gender identity in all aspects of the planning,
implementation, enrollment, operation, and
evaluation of single-sex classes.
See Department of Education, Office for Civil Rights,
Questions and Answers on Title IX and Single-Sex
Elementary
and
Secondary
Classes
and
Extracurricular Activities 25 (Dec. 1, 2014). Despite
the fact that Section 106.33 has been in effect since
1975,9 the Department of Education does not cite any
documents published before 2014 to support the
interpretation it now adopts.
The Department of Education’s interpretation does
not stand up to scrutiny. Unlike regulations,
interpretations in opinion letters, policy statements,
agency manuals, and enforcement guidelines “do not
warrant Chevron-style deference” with regard to
statutes. Christensen v. Harris Cnty., 529 U.S. 576,
587 (2000). Therefore, the interpretations in the
Title IX regulations were promulgated by the Department
of Health, Education, and Welfare in 1975 and adopted by the
Department of Education upon its establishment in 1980. 45 Fed.
Reg. 30802, 30955 (May, 9, 1980) (codified at 34 C.F.R. §§ 106.1–
.71).
9

245a
Letter and the Guidance Document cannot supplant
Section 106.33. Nonetheless, these documents can
inform the meaning of Section 106.33. An agency’s
interpretation of its own regulation, even one
contained in an opinion letter or a guidance document,
is given controlling weight if (1) the regulation is
ambiguous and (2) the interpretation is not plainly
erroneous or inconsistent with the regulation. Id. at
588 (“Auer deference is warranted only when the
language of the regulation is ambiguous.”); Auer v.
Robbins, 519 U.S. 452, 461 (1997) (“[The agency’s]
interpretation of [its own regulation] is, under our
jurisprudence, controlling unless plainly erroneous or
inconsistent with the regulation.”).
Upon review, the Department of Education’s
interpretation should not be given controlling weight.
To begin with, Section 106.33 is not ambiguous. It
clearly allows the School Board to limit bathroom
access “on the basis of sex,” including birth or
biological sex. Furthermore, the Department of
Education’s interpretation of Section 106.33 is plainly
erroneous and inconsistent with the regulation. Even
under the most liberal reading, “on the basis of sex” in
Section 106.33 means both “on the basis of gender”
and “on the basis of biological sex.” It does not mean
“only on the basis of gender.” Indeed, the Government
itself states that “under Price Waterhouse, ‘sex’ . . .
encompasses both sex—that is, the biological
differences between men and women—and gender.”
Statement of Interest 6–7, ECF No. 28. Thus, at most,
Section 106.33 allows the separation of bathroom
facilities on the basis of gender. It does not, however,
require that sex-segregated bathrooms be separated
on the basis of gender, rather than on the basis of birth

246a
or biological sex. Gender discrimination did not
suddenly supplant sex discrimination as a result of
Price Waterhouse; it supplemented it.
To defer to the Department of Education’s
newfound interpretation would be nothing less than to
allow the Department of Education to “create de facto
a new regulation” through the use of a mere letter and
guidance document. See Christensen, 529 U.S. at 588.
If the Department of Education wishes to amend its
regulations, it is of course entitled to do so. However,
it must go through notice and comment rulemaking,
as required by the Administrative Procedure Act. See
5 U.S.C. § 553. It will not be permitted to disinterpret
its own regulations for the purposes of litigation. As
the Court noted throughout the hearing, it is
concerned about the implications of such rulings. Mot.
to Dismiss & Prelim. Inj. Hr’g at Tr. 65:23–66:19;
73:6–74:7. Allowing the Department of Education’s
Letter to control here would set a precedent that
agencies could avoid the process of formal rulemaking
by announcing regulations through simple question
and answer publications. Such a precedent would be
dangerous and could open the door to allow further
attempts to circumvent the rule of law—further
degrading our well-designed system of checks and
balances.
In light of Section 106.33, the Court cannot find
that the School Board’s bathroom policy violates Title
IX.
III. MOTION FOR PRELIMINARY INJUNCTION
The Motion for Preliminary Injunction is entirely
different. The complaint is no longer the deciding

247a
factor, admissible evidence is the deciding factor.
Evidence therefore must conform to the rules of
evidence. G.G. has sought a preliminary injunction.
This Motion requests that the Court issue an
injunction allowing G.G. to resume using the boys’
restrooms at Gloucester High School until there is a
final judgment on the merits.10 ECF No. 11. In support
of his motion for a preliminary injunction, G.G. has
submitted two declarations: one from G.G. and
another from an expert in the field of Gender
Dysphoria. Decl. of G.G, ECF No. 9 (“G.G. Decl.”); The
Expert Declaration of Randi Ettner, Ph.D, ECF No. 10
(“Ettner Decl.”). The School Board contests the
injunction and attaches single a declaration to its
Opposition to the Motion for Preliminary Injunction
from Troy Andersen, a member of the School Board
and the 2014–15 Gloucester Point District
Representative for the Gloucester County School
Board. Decl. of Troy Andersen, ECF No. 30-1
(“Andersen Decl.”). On July 27, 2015, the parties
appeared before the Court to argue this Motion, and
both parties were given the opportunity to introduce
evidence supporting their respective positions. ECF
No. 47. At the hearing, neither G.G. nor the School
Board introduced additional evidence for support. Id.
As the Court has granted the School Board’s
motion to dismiss as to Count II, G.G.’s claim under
Title IX, it need not discuss reasons for denying the
G.G. claims that he does not intend to use the locker room
at school. Mem. in Supp. of Mot. for Prelim. Inj., 8 n.2, ECF No.
18 (“Prelim. Inj.”). However, the requested injunction allowing
him to use the male restrooms would apply to the male restroom
in the locker room.
10

248a
Motion for Preliminary Injunction on this Count.
While the Court has not yet ruled on whether G.G. has
stated a claim under the Equal Protection Clause, the
Court finds that, even if he has stated a claim, G.G.
has not submitted enough evidence to establish that
the balance of hardships weigh in his favor.
Accordingly, the issuance of a preliminary injunction
is not warranted.
A. STANDARD OF REVIEW
“The grant of preliminary injunctions [is] . . . an
extraordinary remedy involving the exercise of a very
far-reaching power, which is to be applied ‘only in the
limited circumstances’ which clearly demand it.” Direx
Israel. Ltd. v. Breakthrough Med. Corp., 952 F.2d 802,
811 (4th Cir. 1992) (quoting Instant Air Freight Co. v.
C.F. Air Freight. Inc., 882 F.2d 797, 800 (3d Cir.
1989)). A plaintiff must overcome the “uphill battle” of
satisfying each of the four factors necessary to obtain
a preliminary injunction. Real Truth About Obama,
Inc. v. FEC, 575 F.3d 342, 347 (4th Cir. 2009) (stating
that the four factors must be “satisfied as
articulated”), vacated on other grounds, 559 U.S. 1089
(2010). To obtain a preliminary injunction, “[p]laintiffs
must demonstrate that (1) they are likely to succeed
on the merits; (2) they will likely suffer irreparable
harm absent an injunction; (3) the balance of
hardships weighs in their favor; and (4) the injunction
is in the public interest.” League of Women Voters of
N.C. v. North Carolina, 769 F.3d 224, 236 (4th Cir.
2014) (citing Winter v. Natural Res. Def. Council, 555
U.S. 7, 20 (2008)). The failure to make a clear showing
of any one of these four factors requires the Court to

249a
deny the preliminary injunction.”11 Real Truth About
Obama, Inc., 575 F.3d at 346.
A plaintiff seeking a preliminary injunction does
not benefit from the presumption that the facts
contained in the complaint are true. A plaintiff must
introduce evidence in support of a Motion for
Preliminary Injunction. While oral testimony is not
strictly necessary, this Court has never granted a
Preliminary Injunction without first hearing oral
testimony. Declarations are frequently drafted by
lawyers, and the evidence presented within them is
not subject to the rigors of cross examination. A
plaintiff relying solely on such weak evidence is
unlikely to make the clear showing required for the
issuance of a preliminary injunction. Additionally,
this Court will not consider evidence that would be
inadmissible at trial, such as hearsay, that is
contained within affidavits.

The parties dispute whether the injunction sought is
mandatory or prohibitory in nature. “Whereas mandatory
injunctions alter the status quo, prohibitory injunctions ‘aim to
maintain the status quo and prevent irreparable harm while a
lawsuit remains pending.’” League of Women Voters of N.C., 769
F.3d at 236 (quoting Pashby v. Delia, 709 F.3d 307, 319 (4th Cir.
2013)). There is a heightened standard for mandatory
injunctions. Taylor v. Freeman, 34 F.3d 266, 270 n.2 (4th Cir.
1994) (“Mandatory preliminary injunctive relief in any
circumstance is disfavored, and warranted only in the most
extraordinary circumstances.”). Because the Court finds that
G.G. fails to show that a preliminary injunction is warranted
even if the injunction sought is prohibitory, the Court does not
decide the issue.
11

250a
B. ARGUMENTS
EVIDENCE

OF THE

PARTIES

AND

FACTS

IN

G.G. characterizes the question of competing
hardships as “not a close question.” Mem. in Supp. of
Mot. for Prelim. Inj., 40, ECF No. 18 (“Prelim. Inj.”).
He argues that this Court must weigh “the severe,
documented, and scientifically supported harms” that
the restroom policy continues to inflict upon G.G, who
has been diagnosed with Gender Dysphoria, against
the “School Board’s unfounded speculation about
harms that might occur to others at some future date.”
Id. The School Board by contrast implores this Court
to consider the safety and privacy interests of all its
students. Br. in Opp’n to Mot. for Prelim. Inj., 18, ECF
No. 30. It emphasizes that while litigation is ongoing,
G.G. may use the “girls’ restroom, the three singlestall restrooms, or the restroom in the nurse’s office.”
Id.
1. Facts and Arguments Concerning the
Hardship to G.G.
G.G. relies on two declarations to establish the
hardships he would suffer should this Court deny his
Motion for Preliminary Injunction. ECF Nos. 9, 10.
G.G.’s Declaration largely repeats the material in his
complaint. Compare ECF Nos. 8 and 9. The Court
recounts only those assertions that concern the effect
that G.G.’s Gender Dysphoria has had on his
schooling. G.G. alleges other harms he has suffered,
such as being humiliated and forced to speak at the
School Board hearing, G.G. Decl. ¶ 23, but these
harms are not relevant to the issuance of an injunction
allowing G.G. to use the male restroom during this
litigation. Here the declaration of G.G. is a recital of

251a
the allegations in the complaint and is replete with
inadmissible evidence including thoughts of others,
hearsay, and suppositions. The Court recounts these
allegations before analyzing their credibility.
G.G. claims that during his freshman year, which
began in September 2013, he “experienced severe
depression and anxiety related to his untreated
Gender Dysphoria.” Id. ¶ 9. The depression and
anxiety were so severe that G.G. did not attend school
during the spring semester which began in January
2014. Id. There is nothing to corroborate that his
“untreated Gender Dysphoria” was the reason for his
absence. In April of 2014, weeks before his fifteenth
birthday, G.G. first informed his parents that he is
transgender. Id. ¶ 10. After his parents learned of his
gender identity, G.G. began “therapy with a
psychologist who had experience with working with
transgender patients.” Id. He claims that this
psychologist diagnosed him with Gender Dysphoria
and recommended that he begin to live as a boy in all
respects, including in his use of the restroom. Id. ¶ 11.
There is no report or declaration from this
psychologist. In August 2014, G.G. and his mother
informed officials at Gloucester High School of his
gender identity. Id. ¶ 15. At the start of the school
year, G.G. agreed to use a separate restroom in the
nurse’s office. Id. ¶ 19. G.G. then determined that it
“was not necessary to continue to use the nurse’s
restroom.” Id. He claims that he “found it stigmatizing
to use a separate restroom.” Id.
On December 9, 2014, the School Board adopted
the restroom policy. Id. ¶ 22. With the new
transgender restroom policy, G.G. feels like he has

252a
been “stripped of [his] privacy and dignity.” Id. ¶ 23.
He is unwilling to use the girls’ restroom because, he
claims, girls and women object to his presence there.
Id. ¶ 25. Additionally, use of the girls’ restroom would
be incompatible with his treatment for Gender
Dysphoria. Id. He claims that the new unisex
restrooms are not located near his classes and that
only one of these restrooms is located near where the
single-sex restrooms are located. Id. ¶ 26. He refuses
to use these restrooms because “they make him feel
even more stigmatized and isolated than when [he]
use[d] the restroom in the nurse’s office.” Id. ¶ 27. He
claims that everyone knows that the restrooms were
installed for him. Id. Because G.G. refuses to use any
of the restrooms permitted for his use, he has held his
urine and developed urinary tract infections. Id. ¶ 28.
The Expert Declaration of Randi Ettner, Ph.D,
adds little to these factual claims. Ettner is not the
psychologist who analyzed G.G. after he first told his
parents he was transgender; rather, he was retained
by G.G.’s counsel in preparation for this litigation. See
Ettner Decl. ¶¶ 1, 7, 9. Ettner met G.G. once before
preparing his report. Id. ¶ 7. The bulk of his
declaration describes the diagnosis and treatment of
Gender Dysphoria. It defines Gender Dysphoria as the
feeling of incongruence between one’s gender identity
and the sex assigned one at birth. Id. ¶ 11–12. It notes
that Gender Dysphoria is “codified in the Diagnostic
and Statistical [M]anual of Mental Disorders (DSM-V)
(American Psychiatric Association) and the
International Classifications of Diseases-10 (World
Health Organization).” Id. ¶ 12. It describes the
studies that have looked at transgender youth who
could not use restrooms corresponding to their gender

253a
identity. Id. ¶¶ 18–27. However, beyond confirming
that G.G. has a “severe degree of Gender Dysphoria,”
id. ¶ 29, there are no facts particular to G.G. in the
report. See id. ¶¶ 28–30.
The School Board, supported by the declaration of
Troy Andersen, emphasizes that any student may use
the three unisex restrooms that were installed and
open for use by December 16, 2014. Andersen Decl.
¶ 7; Br. in Opp’n to Mot. for Prelim. Inj., 18, ECF No.
30. Any student may also use the restroom in the
nurse’s office. Andersen Decl. ¶ 7. Moreover, the
School Board contends that G.G. may use the female
restrooms and locker rooms, Br. in Opp’n to Mot. for
Prelim. Inj., 18, ECF No. 30, and G.G. has made no
showing that he is not permitted to use them.
2. Facts and Arguments Concerning Student
Privacy
The School Board contends that granting the
preliminary injunction and allowing G.G. to use the
male restroom would endanger the safety and privacy
of other students. Br. in Opp’n to Mot. for Prelim. Inj.,
18, ECF No. 30. G.G. argues in response, without any
independent factual support, that his presence in the
male restroom would not infringe upon the privacy
rights of his fellow students. He claims that the
student body itself is comfortable with his presence in
the restroom because during the seven weeks in which
he used the male restroom, he “never encountered any
problems from other students.” G.G. Decl. ¶ 20. The
Andersen Declaration describes a different reaction to
G.G.’s use of the male restroom. Andersen Decl. ¶ 4.
According to Andersen, the School Board “began
receiving numerous complaints from parents and

254a
students” the day after G.G. was granted permission
to use the boys’ bathroom. Id.
G.G. also contends that the improvements that the
School Board made to the restrooms alleviated any
concerns that parents or students may have had about
“nudity involving students of different sexes.” Prelim.
Inj. at 33. His complaint describes these
improvements, which include raising the doors and
walls around the bathroom stalls so that students
cannot see into an adjoining stall, and adding three
unisex, single-stall restrooms. Compl. ¶¶ 47, 52. The
School Board disputes the extent to which the
improvements have increased privacy and claims that
the restrooms, “and specifically the urinals,” are “not
completely private,” although it also does not submit
any evidence in support of this contention. Br. in
Opp’n to Mot. for Prelim. Inj., 18 n.17, ECF No. 30.
Finally, G.G. argues that any student
uncomfortable with his presence in the male
restrooms may use the new unisex restrooms. Prelim.
Inj. at 35, 39.
C. ANALYSIS
G.G.’s Motion for Preliminary Injunction asks this
Court to allow him, a natal female, to use the male
restroom at Gloucester High School. Mot. for Prelim.
Inj., ECF No. 11. Restrooms and locker rooms are
designed differently because of the biological
differences between the sexes. See Faulkner v. Jones,
10 F.3d 226, 232 (4th Cir. 1993) (“differences between
the genders demand a facility for each gender that is
different”). Male restrooms, for instance, contain
urinals, while female restrooms do not. Men tend to

255a
prefer urinals because of the convenience.
Furthermore, society demands that male and female
restrooms be separate because of privacy concerns. Id.;
see also Virginia v. United States, 518 U.S. 515, 550
n.16 (1996) (“[admitting women to VMI would
undoubtedly require alterations necessary to afford
members of each sex privacy from the other sex in
living arrangements”). The Court must consider G.G.’s
claims of stigma and distress against the privacy
interests of the other students protected by separate
restrooms.
In protecting the privacy of the other students, the
School Board is protecting a constitutional right. The
Fourth Circuit has recognized that prisoners have a
constitutional right to bodily privacy. Lee v. Downs,
641 F.2d 1117, 1119 (4th Cir. 1981). Although the
Fourth Circuit has never held that the right to bodily
privacy applies to all individuals, it would be perverse
to suppose that prisoners, who forfeit so many privacy
rights, nevertheless gained a constitutional right to
bodily privacy. In recognizing the right of prisoners to
bodily privacy the court spoke in universal terms:
“Most people . . . have a special sense of privacy in
their own genitals, and involuntary exposure of them
in the presence of people of the other sex may be
especially demeaning and humiliating.” Id.
Several circuits have recognized the right to bodily
privacy outside the context of prisoner litigation. Doe
v. Luzerne County, 660 F.3d 169, 177 (3d Cir. 2011)
(holding that bodily exposure may meet “the lofty
constitutional standard” and constitute a violation of
one’s reasonable expectation of privacy); Brannum v.
Overton County School Bd., 516 F.3d 489, 494 (6th Cir.

256a
2008) (holding that a student’s “constitutionally
protected right to privacy encompasses the right not
to be videotaped while dressing and undressing in
school athletic locker rooms”); Poe v. Leonard. 282
F.3d 123, 138–39 (2d Cir. 2002) (“there is a right to
privacy in one’s unclothed or partially unclothed
body”); York v. Story, 324 F.2d 450, 455 (9th Cir. 1963)
(“We cannot conceive of a more basic subject of privacy
than the naked body.”). In these circuits, violations of
the right to bodily privacy are most acute when one’s
body is exposed to a member of the opposite sex. See
Doe, 660 F.3d at 177 (considering whether “Doe’s body
parts were exposed to members of the opposite sex” in
deciding whether her reasonable expectation of
privacy was violated); Brannum, 516 F.3d at 494 (“the
constitutional right to privacy . . . includes the right to
shield one’s body from exposure to viewing by the
opposite sex”); York, 324 F.2d at 455 (highlighting that
the exposed plaintiff was female and the viewing
defendant male); Poe, 282 F.3d at 138 (citing with
approval the Ninth Circuit’s emphasis on the different
genders of defendant and plaintiff in York).
Not only is bodily privacy a constitutional right,
the need for privacy is even more pronounced in the
state educational system. The students are almost all
minors, and public school education is a protective
environment. Furthermore, the School Board is
tasked with providing safe and appropriate facilities
for these students. Linnon v. Commonwealth, 752
S.E.2d 822, 826 (Va. 2014) (finding that “school
administrators have a responsibility ‘to supervise and
ensure that students could have an education in an
atmosphere conducive to learning, free of disruption,

257a
and threat to person.’” (quoting Burns v. Gagnon, 727
S.E.2d 634, 643 (Va. 2012)).
G.G.’s unsupported claims, which are mostly
inadmissible hearsay, fail to show that his presence in
the male restroom would not infringe upon the privacy
of other students. G.G.’s claim that he “never
encountered any problems from other students,” G.G.
Decl. ¶ 20, is directly contradicted by the Andersen
Declaration. Andersen Decl. ¶ 4. Moreover, even if the
Court accepted G.G.’s self-serving assertion, it would
still not find that there was no discomfort among the
students. It would not be surprising if students, rather
than confronting G.G. himself, expressed their
discomfort to their parents who then went to the
School Board.
G.G. further contends that the improvements that
the School Board made to the restrooms minimize any
privacy concerns. Prelim. Inj. at 33. However, G.G.
does not introduce any evidence that would help the
Court understand the extent of the improvements. He
fails to recognize that no amount of improvements to
the urinals can make them completely private because
people sometimes turn while closing their pants. He
does not submit any evidence that would show that
other students would be comfortable with his presence
in the male restroom because of the improvements.
Finally, he fails to recognize that the School Board’s
interests go beyond preventing most exposures of
genitalia. The mere presence of a member of the
opposite sex in the restroom may embarrass many
students and be felt a violation of their privacy.
Accordingly, the privacy concerns of the School Board

258a
do not diminish in proportion to the size of the stall
doors.
G.G.’s argument that other students may use the
unisex restrooms if they are uncomfortable with his
presence in the male restroom unintentionally reveals
the hardship that the injunction he seeks would
impose on other students. It does not occur to G.G.
that other students may experience feelings of
exclusion when they can no longer use the restrooms
they were accustomed to using because they feel that
G.G.’s presence in the male restroom violates their
privacy. He would have any number of students use
the unisex restrooms rather than use them himself
while this Court resolves his novel constitutional
challenge.
G.G.’s dismissal of the School Board’s privacy
concerns only makes sense if assumes that there are
fewer or no privacy concerns when a student shares a
restroom with another student of different birth sex
but the same gender identity. If there were no privacy
concerns in this situation, there would be no hardship
if G.G. used the male restroom while this litigation
proceeds. Of course, this litigation is proof that not
everyone—certainly not the Gloucester County School
Board—shares in this belief. The Court gives great
weight to the concerns of the School Board—which
represents the students and parents in the
community—on the question of the privacy concerns
of students, especially at this early stage of litigation
and in the complete absence of credible evidence to the
contrary.
Against the School Board’s strong interest in
protecting student privacy, the Court must consider

259a
G.G.’s largely unsubstantiated claims of hardship.
G.G. acknowledges that he may use the unisex
restrooms or the nurse’s restroom. His declaration
fails to articulate the specific harms that would occur
to him if he uses those restrooms while this litigation
proceeds; it simply says that using these restrooms
would cause him distress and make him feel
stigmatized. It is telling to the Court that his
declaration mirrors his complaint, a sign that it was
drafted by his lawyers and not by him. G.G. attempts
to support his claims of distress by describing the
diagnosis of the first psychologist who saw him, but
these allegations are hearsay and will not be
considered.
Similarly, G.G. makes several claims about the
thoughts and feelings of other students for which he
has not submitted any admissible evidence or
corroboration. He has nothing to substantiate his
claims that other students view the unisex restrooms
as designed solely for him. Nor has he submitted a
layout of the school that would confirm his claim that
the unisex restrooms are inconvenient for him to use.
The declaration of Dr. Ettner is almost completely
devoid of facts specific to G.G. Dr. Ettner is not the
psychologist who allegedly first diagnosed G.G. with
Gender Dysphoria. Rather, he has been retained for
this litigation. Having met G.G. only once, he has little
to say about the harm that would occur to G.G.
specifically if G.G. is not allowed to use the male
restrooms during this litigation.
G.G. has been given an option of using a restroom
in addition to the female restroom that corresponds to
his biological sex. He has not described his hardship

260a
in concrete terms and has supported his claims with
nothing more than his own declaration and that of a
psychologist who met him only once, for the purpose of
litigation and not for treatment. The School Board
seeks to protect an interest in bodily privacy that the
Fourth Circuit has recognized as a constitutional right
while G.G. seeks to overturn a long tradition of
segregating bathrooms based on biological differences
between the sexes. Because G.G. has failed to show
that the balance of hardships weighs in his favor, an
injunction is not warranted while the Court considers
this claim.
Having found that G.G. has not shown that the
balance of the hardships are in his favor, the Court
does not need to consider the other showings required
for a preliminary injunction. However, the Court notes
that just as G.G. has failed to provide adequate proof
of the hardship that would occur if the injunction is
not granted, he has also failed to make a clear showing
of irreparable injury.
IV.

CONCLUSION

For the foregoing reasons, the Court GRANTED
the Motion to Dismiss as to Count II, Plaintiff’s claim
under Title IX, and DENIED the Plaintiffs Motion for
a Preliminary Injunction. The Clerk is DIRECTED to
forward a copy of this Opinion to all Counsel of Record.

261a
IT IS SO ORDERED.
/s/ Robert G. Doumar
Robert G. Doumar
Senior United States District Judge
Newport News, VA
September 17, 2015

262a
TABLE 1
PUBLIC-SCHOOL DATA1
States by
# of
Circuit
Districts
Fourth
Circuit
Maryland
24
Virginia
130
West Virginia
55
North Carolina
115
South Carolina
84
Seventh
Circuit
Indiana
Illinois
Wisconsin

1

294
854
421

# of
Schools

# of
Students

1,424
2,134
739
2,624
1,252

886,221
1,287,026
273,855
1,550,062
771,250

1,921
4,173
2,256

1,049,547
2,026,718
864,432

The data included here was gleaned from Thomas D. Snyder
et al., Digest of Education Statistics 2018, at 74-75 t.203.20, 120
t.214.30,
134
t.216.70
(54th
ed.
2019),
https://nces.ed.gov/pubs2020/2020009.pdf.

263a
Eleventh
Circuit
Alabama
Georgia
Florida

134
180
67

1,513
2,300
4,178

744,930
1,764,346
2,816,791

Total

2,358

24,514

14,035,178

